<html>
<title> - REAUTHORIZATION OF THE TRANSPORTATION EQUITY ACT OF THE 21ST CENTURY (TEA-21)</title>
<body><pre>[Senate Hearing 107-945]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-945

 
                 REAUTHORIZATION OF THE TRANSPORTATION
                EQUITY ACT OF THE 21ST CENTURY ( TEA-21)

=======================================================================

                                HEARINGS

                               before the

               SUBCOMMITTEE ON HOUSING AND TRANSPORTATION

                                 of the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

  THE IMPLEMENTATION AND PROPOSED LEGISLATION REAUTHORIZING FUNDS OF 
 PUBLIC TRANSPORTATION PROVISIONS FOR THE TRANSPORTATION EQUITY ACT OF 
 THE 21ST CENTURY (TEA-21), FOCUSING ON CERTAIN PROGRAMS INCLUDING THE 
    JOBS ACCESS AND REVERSE COMMUTE (JARC) PROGRAM, FUNDING ISSUES, 
INVESTING IN ECONOMIC DEVELOPMENT AND THE ENVIRONMENT, AND ANALYSIS OF 
 TRANSPORTATION SECURITY ONE YEAR AFTER SEPTEMBER 11 FOUCUSING ON MASS 
   TRANSIT SAFETY AND SECURITY AND PASSENGER TRANSPORTATION SECURITY 
                              INITIATIVES

                               __________

         APRIL 25, JUNE 13, 26, JULY 17, AND SEPTEMBER 18, 2002

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs



88-056              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  PAUL S. SARBANES, Maryland, Chairman

CHRISTOPHER J. DODD, Connecticut     PHIL GRAMM, Texas
TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         WAYNE ALLARD, Colorado
EVAN BAYH, Indiana                   MICHAEL B. ENZI, Wyoming
ZELL MILLER, Georgia                 CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           RICK SANTORUM, Pennsylvania
DEBBIE STABENOW, Michigan            JIM BUNNING, Kentucky
JON S. CORZINE, New Jersey           MIKE CRAPO, Idaho
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada

           Steven B. Harris, Staff Director and Chief Counsel

             Wayne A. Abernathy, Republican Staff Director

                        Sarah A. Kline, Counsel

                  Martin J. Gruenberg, Senior Counsel

           Sherry E. Little, Republican Legislative Assistant

                  Mark Calabria, Republican Economist

   Joseph R. Kolinski, Chief Clerk and Computer System Administrator

                       George E. Whittle, Editor

                                 ______

               Subcommittee on Housing and Transportation

                   JACK REED, Rhode Island, Chairman

                 WAYNE ALLARD, Colorado, Ranking Member

THOMAS R. CARPER, Delaware           RICK SANTORUM, Pennsylvania
DEBBIE STABENOW, Michigan            JOHN ENSIGN, Nevada
JON S. CORZINE, New Jersey           RICHARD C. SHELBY, Alabama
CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
DANIEL K. AKAKA, Hawaii

                       Kara Stein, Staff Director

              Tewana Wilkerson, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                        THURSDAY, APRIL 25, 2002

         TRANSIT IN THE 21ST CENTURY: SUCCESSES AND CHALLENGES

                                                                   Page

Opening statement of Senator Jack Reed...........................     1

Opening statements, comments, or prepared statements of:
    Senator Allard...............................................     2

    Senator Santorum.............................................     3

    Senator Ensign...............................................     9

    Senator Sarbanes.............................................    19

    Senator Corzine..............................................    22

                               WITNESSES

Jennifer L. Dorn, Administrator, Federal Transit Administration,
  U.S. Department of Transportation..............................     3
    Prepared statement...........................................    22
    Response to written questions of Senator Sarbanes............    37

Faye L. Moore, General Manager, Southeastern Pennsylvania 
  Transportation
  Authority......................................................    12
    Prepared statement...........................................    26
    Response to written questions of Senator Carper..............    38

Beverly A. Scott, PhD, General Manager, Rhode Island Public 
  Transit
  Authority......................................................    14
    Prepared statement...........................................    29

Larry Worth, Executive Director, Northeastern Colorado 
  Association of
  Local Governments..............................................    15
    Prepared statement...........................................    34
    Response to a written question of Senator Reed...............    41
                              ----------                              

                        THURSDAY, JUNE 13, 2002

                     TEA-21: A NATIONAL PARTNERSHIP

Opening statement of Senator Jack Reed...........................    43

Opening statements, comments, or prepared statements of:
    Senator Allard...............................................    44

    Senator Stabenow.............................................    45
        Prepared statement.......................................    68

    Senator Sarbanes.............................................    56

    Senator Carper...............................................    62
        Prepared statement.......................................    68

    Senator Corzine..............................................    69

    Senator Crapo................................................    69

                               WITNESSES

Carolyn Cheeks Kilpatrick, a U.S. Representative in Congress from
  the State of Michigan..........................................    45

Kwame M. Kilpatrick, Mayor, Detroit, Michigan....................    46
    Prepared statement...........................................    70
    Response to written questions of Senator Reed................    76

H. Brent Coles, Mayor, Boise, Idaho..............................    49
    Prepared statement...........................................    72

Kenneth Mayfield, County Commissioner, Dallas County, Texas......    51
    Prepared statement...........................................    74

                              ----------                              

                        WEDNESDAY, JUNE 26, 2002

            TEA-21: INVESTING IN OUR ECONOMY AND ENVIRONMENT

Opening statement of Senator Reed................................    77

Opening statements, comments, or prepared statements of:
    Senator Ensign...............................................    80

    Senator Miller...............................................    80

    Senator Allard...............................................    81
        Prepared statement.......................................    97

    Senator Dodd.................................................    91

    Senator Corzine..............................................    97

                               WITNESSES

Carl Guardino, President and Chief Executive Officer, Silicon 
  Valley Manufacturing Group.....................................    78
    Prepared statement...........................................    98

Herschel L. Abbott, Jr., Vice President- Governmental Affairs, 
  BellSouth Corporation..........................................    81
    Prepared statement...........................................    99
    Response to written questions of Senator Reed................   124

Robert Broadbent, Manager, Las Vegas Monorail Company............    83
    Prepared statement...........................................   101
    Response to written questions of Senator Reed................   124

Hank Dittmar, President, The Great American Station Foundation, 
  on behalf of the Surface Transportation Policy Project.........    85
    Prepared statement...........................................   104

Michael A. Replogle, Transportation Director, Environmental 
  Defense........................................................    87
    Prepared statement...........................................   112

              Additional Material Supplied for the Record

Testimony of Michael A. Replogle, Transportation Director, 
  Environmental Defense before the Subcommittee on Highways and 
  Transit, Committee on Transportation and Infrastructure, U.S. 
  House of Representatives, dated May 21, 2002...................   125
                              ----------                              

                        WEDNESDAY, JULY 17, 2002

               TRANSIT: A LIFELINE FOR AMERICA'S CITIZENS

Opening statement of Senator Reed................................   137

Opening statements, comments, or prepared statements of:
    Senator Allard...............................................   138

    Senator Shelby...............................................   139

    Senator Akaka................................................   141
        Prepared statement.......................................   162

    Senator Sarbanes.............................................   147

    Senator Carper...............................................   149

    Senator Corzine..............................................   162

                               WITNESSES

Jessie Tehranchi, Birmingham, Alabama............................   140
    Prepared statement...........................................   162

Gloria McKenzie, Albany, New York................................   141

Faye Thompson, Kenova, West Virginia.............................   143
    Prepared statement...........................................   163

Lavada E. DeSalles, Member, Board of Directors, AARP.............   150
    Prepared statement...........................................   164
    Response to written questions of Senator Sarbanes............   178

Andrew J. Imparato, President and Chief Executive Officer, 
  American Association of People with Disabilities...............   151
    Prepared statement...........................................   171
    Response to written questions of Senator Sarbanes............   179

John D. Porcari, Secretary, Maryland Department of Transportation   153
    Prepared statement...........................................   173

              Additional Material Supplied for the Record

Testimony from the Center for Community Change, dated July 17, 
  2002...........................................................   181
                              ----------                              

                     WEDNESDAY, SEPTEMBER 18, 2002

                    TRANSIT SECURITY: ONE YEAR LATER

Opening statement of Senator Reed................................   185

Opening statements, comments, or prepared statements of:
    Senator Sarbanes.............................................   189
    Senator Carper...............................................   190
    Senator Corzine..............................................   206

                               WITNESSES

Jennifer L. Dorn, Administrator, Federal Transit Administration..   186
    Prepared statement...........................................   206
    Response to written questions of:
        Senator Reed.............................................   241
        Senator Sarbanes.........................................   243
        Senator Corzine..........................................   244
Peter Guerrero, Director, Physical Infrastructure Issues, 
  accompanied by: Nikki Clowers, Senior Analyst; and Susan 
  Fleming, Assistant Director, Physical Infrastructure Issues, 
  U.S. General Accounting Office.................................   199
    Prepared statement...........................................   212
    Response to written questions of Senator Sarbanes............   245

              Additional Material Supplied for the Record

Compendium of FTA Security Program Initiative, submitted by 
  Jennifer L. Dorn, Administrator, Federal Transit Administration   248


                      TRANSIT IN THE 21ST CENTURY:
                        SUCCESSES AND CHALLANGES

                              ----------                              


                        THURSDAY, APRIL 25, 2002

                               U.S. Senate,
  Committee on Banking, Housing, and Urban Affairs,
                Subcommittee on Housing and Transportation,
                                                    Washington, DC.

    The Subcommittee met at 2:30 p.m. in room SD-538 of the 
Dirksen Senate Office Building, Senator Jack Reed (Chairman of 
the Subcommittee) presiding.

             OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. The Subcommittee will come to order. I would 
like to welcome everyone today to our hearing. This is the 
second of several hearings, and the first held by this 
Subcommittee, regarding the reauthorization of the transit 
title of the Transportation Equity Act of the 21st Century, or 
TEA-21, as it is known.
    Today, we will hear from the FTA Administrator, Jennifer 
Dorn, and three representatives of the varying kinds of transit 
systems in our Nation. And just to give you a sense of this 
variety, our last witness, Mr. Larry Worth, runs a transit 
system that covers a surface area almost 10 times the size of 
the area served by my State's sole transit authority. 
Meanwhile, Ms. Faye Moore, who manages the Philadelphia area 
transit system, provides over one million trips each day, 
almost 12 times as many as Mr. Worth's system offers an entire 
year. So we have a variety of transit systems, and we hope to 
provide for all of them in this upcoming reauthorization.
    Traffic is a growing concern across America. Turn on the 
radio or TV and you hear stories about pileups and backups. In 
response, more and more Americans are leaving their cars behind 
for the daily commute and opting to take the train or ride the 
bus. Indeed, in the past 6 years, the number of trips taken on 
public transportation grew by 23 percent, growing faster than 
the U.S. population, growing faster than highway use and 
domestic air travel. Last year, transit grew twice as fast, 2 
percent, as car use. Car use only grew by 1 percent.
    Why all of this growth? I think we will hear from our 
witnesses today that the answer is due mainly to the 
improvements that TEA-21 helped our Nation's transit systems 
make. But the issue before this Subcommittee is not just to 
hear about how successful TEA-21 was, it is to hear how that 
success can be continued into the future.
    In other words, how do we meet the demand for transit 
service across this Nation? This is the looming threat to the 
success of our transit systems across the Nation. And I look 
forward to working with my colleagues to address this issue.
    And now, I would like to turn to Senator Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Well, first, Mr. Chairman, I would like to 
thank you for holding this hearing. TEA-21 reauthorization is 
an important part of what we do in the Banking, Housing, and 
Urban Affairs Committee. So many times, it is just referred to 
as the ``Banking Committee'' and we forget about the ``Urban 
Affairs'' part of it, which is certainly a function under this 
overall Committee that deals with a lot of important issues and 
affects many lives.
    This is the Subcommittee on Housing and Transportation. So 
I look forward to working with you in the coming months on 
these TEA-21 Reauthorization hearings, Mr. Chairman. I believe 
that the work we will do as part of reauthorizing TEA-21 will 
be one of the most important things to come out of this 
Committee in the near future.
    As citizens continue to face mobility problems, whether due 
to congestion, medical, or other reasons, they are increasingly 
turning to transit. This increased demand has led to greater 
strain on existing resources. I believe that TEA-21 provided a 
good framework for dealing with such challenges. I am hopeful 
that we can continue the successes, along with added 
improvements.
    Transit authorities are on the frontlines of the industry, 
both in receiving money and delivering services. They feel the 
impacts of a transportation authorization bill on a daily 
basis. Thus, it is only appropriate that we hear from the 
transit authorities at the Subcommittee's first TEA-21 
Reauthorization hearing.
    I believe we have an excellent lineup of witnesses today 
and I am pleased that we were able to get such an outstanding 
cross-section of our Nation's transit authorities. We will get 
the benefit of hearing from small, medium, and large transit 
authorities. Additionally, we can compare the experiences of a 
transit authority located in rural areas versus an urban area 
versus a mixed-density area.
    Finally, we will get to see the differences between transit 
authorities that focus on rail, as compared to buses as 
compared to vans. These vastly different points of view will be 
quite helpful as the Committee sits down to write a new bill.
    I would like to welcome the witnesses and particularly, I 
would like to extend a warm welcome to Larry Worth. Larry is 
here representing the Northeast Colorado Association of Local 
Governments. We refer to it as NCALG.
    NCALG provides critical transportation services to the 
elderly, disabled, and poor in Northeastern Colorado, a rural 
area. Larry's perspective will be especially helpful since his 
transit authority is so different from what we typically think 
of when we talk about transit authorities.
    I would also like to take this opportunity to recognize the 
Colorado Association of Transit Agencies, or CASTA. CASTA is a 
coalition of many Colorado transit agencies and providers, all 
of whom work together to promote good, reliable transit service 
in Colorado. They have offered valuable assistance to me and my 
staff over the years and I appreciate their help.
    I would also like to note that Larry Worth is on their 
Board of Directors and has generously agreed to miss CASTA's 
annual training convention to be with us here today.
    Mr. Chairman, I look forward to beginning the 
Subcommittee's hearing on TEA-21. I know that we will have our 
work cut out for us. I look forward to hearing from our 
witnesses.
    Senator Reed. Thank you very much, Senator Allard. I look 
forward to working with you on this very important 
reauthorization as we begin these hearings and move forward.
    Our first witness is well known to the Subcommittee. Ms. 
Dorn is the Administrator of the Federal Transit 
Administration. She has previously held several high-level 
positions in prior Administrations. Jennifer oversees a budget 
of almost $7 billion and is responsible for oversight over the 
Nation's 600-plus transit grant recipients. We have your 
written statement and let me suggest also that we are scheduled 
to have a series of multiple votes beginning about 3:00 or 3:30 
p.m.
    Since your statement is in the record, if you would like to 
summarize and be concise, we would appreciate that. That would 
allow us to move forward.
    Before you begin, Ms. Dorn, Senator Santorum has arrived. 
Would you like to make a statement?

               COMMENTS OF SENATOR RICK SANTORUM

    Senator Santorum. I just want to say that one of the people 
testifying here today is Faye Moore, who is with SEPTA. She was 
the CFO and now she is the new General Manager of SEPTA. I just 
wanted to welcome her to the Committee. She has a big job ahead 
of her and I know she is going to focus her testimony on the 
support of existing transit systems in our area, and 
maintaining those systems.
    I know there is a lot of areas like in Colorado and others 
where you have a lot of new starts, but we also have to focus 
on maintaining the infrastructure we have.
    I appreciate her testimony and I thank you for having her.
    Senator Reed. Thank you, Senator.
    Madam Administrator, please begin.

                 STATEMENT OF JENNIFER L. DORN

         ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION

               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Dorn. Thank you, Mr. Chairman, and Members of the 
Subcommittee. I appreciate the opportunity to appear at this 
very important hearing. I appreciate your having it.
    In his testimony before the full Senate Banking Committee 
last month, Secretary Mineta identified several core concepts 
that the Department of Transportation will be using as the 
basis for its reauthorization proposals. In my brief oral 
remarks today, I would like to reiterate the importance of 
several of those concepts, expanding on four key aspects of 
TEA-21: stable funding, innovative finance, transportation-
oriented economic development, and technology investments.
    One of the most visible and important elements of TEA-21 
has been the tremendously positive impact of stable and 
dependable funding streams on transit development.
    According to new research by the American Public 
Transportation Association, several recent Transportation 
Infrastructure Finance Innovation Act loans in New Jersey and 
California received high-credit evaluations from Fitch and 
Moody's, based largely on confidence in the Federal commitments 
under TEA-21. The study also notes that the benefits of stable 
funding go far beyond improving the ability of transit agencies 
to secure long-term loans for major investments. Confidence 
that formula funding levels under TEA-21 would be honored has 
helped communities develop and follow multiyear fleet 
replacement schedules to minimize costs. Previously, some 
communities had to save up grant resources for several years in 
order to have enough cash to enter into contractual agreements. 
Under the TEA-21, contractors and financial institutions have 
been willing to work with transit agencies to significantly 
accelerate acquisitions, saving the agency time and money, and 
leveraging the Federal resources.
    In sum, stable formula funds help agencies do more with 
limited resources because they give financial markets the 
confidence to support transit investments; give communities an 
incentive to commit long-term resources; and give private 
industry the confidence that the transit promises necessary to 
support new development will be honored.
    Dependability and stability offer even more opportunities 
to leverage resources when coupled with innovative financing 
techniques. Under TEA-21, Congress established TIFIA financing 
mechanism, a loan and loan guarantee program for surface 
transportation projects.
    TEA-21 made a total of $10.6 billion in lending authority 
available for surface transportation projects. To date, 
approximately $3.6 billion has been committed to projects and 
leveraged to support over $15 billion in surface transportation 
projects. This investment requires only about $190 million of 
Federal budget authority, so it really leverages the scarce 
Federal resources. The success of TIFIA illustrates how such 
techniques can reduce the total cost of projects, speed up 
implementation, and leverage Federal investments. I hope we can 
work together to identify more ways in which reauthorization 
can promote and support innovative financing.
    With the funding made available under TEA-21, FTA has 
helped many communities realize better, safer, more efficient 
public transportation systems. Real success, however, comes 
when people not only embrace transit, but use it to enhance the 
economic vitality of their communities. Joint development 
projects help communities create economic and business 
opportunities in conjunction with their public transit system, 
and can provide a stream of income--from park and ride lots and 
other kinds of real estate investments--to the transit agency 
to help keep fares down and ridership up.
    TEA-21 has also helped our Nation's transportation systems 
take advantage of technological developments. On a recent pre-
Olympics trip to Salt Lake City and the Utah Transit Authority, 
I saw how innovative technology was helping to create real-time 
improvements in transportation for the Winter Olympic Games. 
Thanks to TEA-21, UTA received $3 million to support 
Intelligent Transportation Systems projects, including a state-
of-the-art, voice-activated, 511 system that provided 
information on public transportation, Olympic travel 
information, road conditions, and other information that was 
vital to moving hundreds of thousands of people in and around 
Salt Lake City.
    Bus rapid transit, or BRT, has also benefited from 
technological advances made possible, in part, from TEA-21. 
Combining exclusive transit-ways, modern stations, high-tech 
vehicles, and frequent service, BRT provides, at a fraction of 
the cost, the high level of service that people want and expect 
from more expensive transit systems. We look forward to BRT to 
be enhanced even further, as many cities across the country 
have a strong interest in that type of investment.
    From major urban centers to small communities, TEA-21 has 
created a revolution of sorts in public transportation. This 
has resulted in increased mobility, more transportation 
choices, and more economically vital communities for millions 
of Americans. The principles of TEA-21 have been tried and 
proven and should continue as part of our guide for the future 
of public transportation.
    Mr. Chairman, thank you for the opportunity to testify. I 
would be pleased to answer questions now and for the record.
    Senator Reed. Thank you very much, Madam Administrator. And 
I think the point you make is we are at the happy occasion of 
celebrating success with TEA-21. And our challenge is to 
maintain that success and extend it in many different ways.
    Following up on your comments, Madam Administrator, what 
percentage increase is needed to preserve just the current 
level of transit service across America in terms of TEA-21? Do 
you have an idea?
    Ms. Dorn. In the most recent conditions and performance 
report, and we will have one forthcoming in the next several 
months that would be more updated, it is my understanding that 
about $7.6 billion is needed to maintain the present system.
    If the ridership growth continues at about 2.8 percent each 
year, a total $14.1 billion is required each year. And as you 
know, being a transit advocate and Chairman of this 
Subcommittee, transit capital expenditures in total in 2001, 
were approximately $9.1 billion.
    Senator Reed. Thank you very much. We want to encourage, in 
fact, the growth of ridership for many reasons.
    Ms. Dorn. Absolutely.
    Senator Reed. Congested traffic, environmental concerns, 
economic development in urban areas, and rural areas, a host of 
different issues. I think the bottom line is that we will need 
more resources just to stay in place--not necessarily get 
ahead, but just to stay in place.
    We have seen over the last few weeks some incidents of 
accidents on rail systems in the country, some involving 
intercity Amtrak trains, but also some commuter rail systems. I 
wonder what steps you are taking to deal with the safety issue, 
particularly where freight service and commuter service are 
sharing the same lines?
    Ms. Dorn. Yes, Mr. Chairman. Obviously, that is an issue of 
great concern to the Department of Transportation and my 
colleague, Alan Rutter, has been carefully paying attention to 
that issue on a regular basis, as well as a result of the most 
recent unfortunate accidents.
    As you know, commuter rail operations share tracks on the 
general railroad system. As a result, through the wisdom of 
Congress and tradition, the Federal Railroad Administration has 
exclusive responsibility for safety regulation, which makes 
sense because we want to make sure that all safety regulations 
are consistent with respect to the general railroad system.
    This is a matter that we, as the funding agency for 
commuter rail, have real concerns about. I work closely with my 
colleague, Mr. Rutter, to make sure that we are doing all that 
we can to prevent the loss of life and injury.
    Senator Reed. Thank you very much. You mentioned the use of 
TIFIA as one way that the systems are maximized in their 
resources. Is there a reason that more transit authorities are 
not using TIFIA? Are there some inhibitions?
    Ms. Dorn. That is what we are exploring right now, Mr. 
Chairman, because we do have some available funding for loans 
and loan guarantees. And while a substantial number of the 
TIFIA projects that have been awarded, I believe, have been in 
the transit arena--and we are pleased about that--there has 
been some hesitation to use it on a more fulsome basis.
    We want to figure out why that is, whether it is too 
complicated, whether there is still assumed to be some risk. 
Ultimately, of course, it is not a grant, it is a loan or a 
loan guarantee, and so that may explain some of it.
    But we are looking very carefully at that in the context of 
reauthorization. We want to make sure that TIFIA is utilized as 
fully as possible, and if we need to make changes, we will 
obviously consider them and work with the Administration to 
propose such.
    Senator Reed. Thank you. And just to underscore the point 
you made, a great deal of the success of these agencies' 
authorities getting loans is not just the guarantee, but the 
commitment to stable funding over many years. That is the 
hallmark of TEA-21.
    Ms. Dorn. Absolutely, Mr. Chairman. And if I could just 
mention, the President has strongly supported the concept of 
the Highway Trust Fund utilizing gas tax receipts for 
transportation infrastructure. That is a very important 
commitment and that will certainly be seen as we discuss our 
reauthorization proposal.
    This Administration also recognizes that predictability and 
guaranteed funding is one of TEA-21's biggest success stories. 
It should be retained, in the view of the Administration, and 
refined through reauthorization.
    In an era of realism and candor, it should be recognized 
that all forms of transportation must face the hard reality 
that Federal financial resources are not boundless and cannot 
fully fund every meritorious transportation need. But as an 
advocate for transit, I feel very strongly that good, effective 
transit programs can ease so many problems at the community 
level, and you can count on us to bring that point to the 
table.
    Senator Reed. Thank you. One final question, Madam 
Administrator. In your prepared testimony, you mentioned that 
FTA's interest in easing the regulatory and statutory burdens 
faced by transit agencies. Let me ask you to respond in writing 
to this question because my colleagues are here, and I want to 
give them an opportunity to ask their questions. But we will 
basically get your comments on what you are doing for smaller 
authorities in terms of easing regulatory burdens.
    With that, thank you very much for your testimony.
    Senator Allard.
    Senator Allard. Yes. I appreciate, Mr. Chairman, your 
comments about smaller systems, as well as Ms. Dorn's comments 
on smaller systems.
    I do not know whether you want to elaborate any more about 
some of the problems on the smaller systems, but one particular 
issue we need to pay attention to is that large systems can 
respond more to regulatory burdens. For the smaller systems 
regulatory burdens create real problems.
    I would like to hear what suggestions you may have on how 
we can improve oversight, or how we can reduce the regulatory 
burden, I guess is a better way of putting it, on some of these 
smaller systems. If you could comment on that, I would 
appreciate it.
    Ms. Dorn. Absolutely. Unfortunately, for all good public 
policy purposes, the outcome has been that we have developed a 
confusing array of regulatory requirements. Depending upon the 
pot of money for which you are applying, you have certain 
numbers and types of requirements. These requirements are very 
confusing to grantees. And many of those requirements, if not 
all of them, have very good public policy purposes. I think in 
the context of reauthorization, we need to sort that out.
    Senator Allard. My question is are they driven by law, or 
is it just something that has happened during the regulatory 
process within the Agency?
    Ms. Dorn. Both. And I can assure you that, from an 
administrative point of view, where we have flexibility, we are 
working aggressively to reduce those regulatory burdens. But 
the vast majority of them are points of law.
    Many of the larger agencies, I hate to say it, have become 
used to it, and so they know how to do it. But one approach may 
be the recognition that 15 percent of the funds go to 85 
percent of the grantees. So the smaller grantees that have the 
least number of money, but have an equal number of grant 
requirements. We are trying to sort through this, program by 
program, and agency by agency, to understand what would make 
more sense.
    I certainly am a strong advocate of oversight, but it has 
to be meaningful oversight. And as we have examined the number 
of oversight reviews of grantees that are required by law we 
have noticed some things that we think can be changed. We can 
streamline, perhaps consolidate--that is always politically 
difficult to do. But I think our main point should be, what is 
the value added to help ensure that the Federal dollar is being 
utilized and that good stewardship happens? And I am convinced 
that it is time to take a look at those.
    Senator Allard. Well, as you move through this review of 
how regulatory burden affects smaller entities, I hope you will 
keep us informed on what you are finding out and perhaps maybe 
we can be of help in that regard. We would certainly like to 
sit down and look at the possibilities in which we can be 
helpful.
    Ms. Dorn. Thank you for that opportunity.
    Senator Allard. The other area that I am particularly 
concerned about, with regard to all agencies, is implementation 
of what we call GPRA--that is the Government Performance and 
Results Act. In your administrative duties, I would urge you to 
look at how the requirements of GPRA can be met.
    I think it is important for agencies to use outcome-based 
management and budgeting. The Government must maintain good 
oversight over Federal dollars. What suggestions do you have on 
how we can improve the oversight under the new transportation 
authorization bill?
    Ms. Dorn. Excellent question. GPRA is a very important 
wake-up call, even to an agency that does very good work.
    However, we have become victims at some points of process 
becoming product. And you are absolutely right to focus more on 
outcome. And that is why we are taking a very careful look at 
every one of the oversight reviews and the regulatory 
requirements and asking ourselves--what does it mean in terms 
of improving transit or improving the service to the riders?
    It is premature for me to comment on specific suggestions, 
but I would be happy to work with you as we move through 
proposals for reauthorization, and even before that.
    I am convinced that there are some administrative changes 
that we can make. But, very bluntly, our focus needs to be on 
results and outcome. And we have the happy occasion that good 
transit projects provide some incredibly important outcomes for 
communities across this country. I do not know that we are the 
best at measuring those, and we need to focus on that as well.
    Senator Allard. I appreciate that. Mr. Chairman, I just 
have one more question and we will be finished with this panel.
    Senator Reed. All right.
    Senator Allard. So it might take me a little bit over my 
time.
    Senator Reed. Fine.
    Senator Allard. We heard about the need for additional 
security measures to prevent terrorism in public transit 
systems. Do you think it is also important to create terrorism 
liability protection for transit agencies?
    Ms. Dorn. That is a very difficult and complicated 
question.
    Frankly, it has not come to my attention specifically as it 
relates to transit agencies.
    Senator Allard. Are we getting money if they ask for a loan 
or something and that is not going to be a condition of the 
loan or anything, as far as we know?
    Ms. Dorn. No, it has not. Traditionally, transit agencies 
self-insure up to a certain level.
    Senator Allard. I see.
    Ms. Dorn. Others are able to get other kinds of coverage.
    The situation has certainly been aggravated as a result of 
the terrorist incidents. But, frankly, we have not done a 
thorough analysis and we would be happy to work with you to 
determine the level of that problem as it relates to transit 
agencies.
    Senator Allard. I would appreciate hearing what you find 
out in that regard.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard.
    Senator Ensign, if you would like to make a statement and 
then question the Witness, go right ahead.

                STATEMENT OF SENATOR JOHN ENSIGN

    Senator Ensign. Thank you, Mr. Chairman, and Senator 
Allard, for having this hearing today.
    I look forward to working with you, Ms. Dorn, on some of 
these issues, especially as we go forward and lay the 
groundwork for the upcoming reauthorization of TEA-21.
    I do not know if any of you have had the chance to read, I 
think it was yesterday's, or Monday's Washington Post. There 
was an article on the front page. It was about the transit 
project that we are undertaking in Las Vegas.
    Often, we think of mass transit and light rail projects as 
an east coast issue. But certainly, it is moving west as we are 
becoming more congested out west. Certainly Denver, Las Vegas, 
other cities in the west, are growing so fast, that we just 
cannot even keep up with the infrastructure needs. And so, we 
are looking for new ways to handle those.
    In Las Vegas, for instance, between 1990 and 2000, we grew 
by 85 percent, which is a staggering number for any place, 
especially in the east, to think about growing at that rate. 
But what is even more remarkable is the 40 million visitors 
that we have to move around a very concentrated area. And that 
is usually when mass transit, works very well. We have the 
Resort Corridor, this monorail project where we are working on 
this.
    I would like to give you just a quick overview of how we 
are constructing this monorail system, and how we are doing it 
so quickly with a significant savings to the Federal 
Government.
    This system will be America's first large-scale monorail 
project. Construction is now underway of a completely privately 
funded, $650 million, four-mile monorail along the Resort 
Corridor. The funding was put together through the sale of tax-
free bonds. The monorail we are constructing is ahead of 
schedule and will be finished in 2 years. I do not think that 
usually happens in most places in the country. Obviously, the 
monorail project is moving ahead very quickly.
    We are seeking Federal funding to build a monorail 
extension. The extension would connect to the privately funded 
monorail and serve downtown Las Vegas, which is away from the 
Strip. The Federal contribution for this extension would be 
$120 million.
    The amount of Federal funding we are seeking for the 
monorail is 35 percent of the cost of the entire system. This 
is a significant overmatch. The Federal Government only 
requires a 20 percent match. In Las Vegas, we have come up with 
65 percent of the cost. That makes us first in the Nation for 
local dollars used.
    I mention all of this because I think it is important for 
the Bush Administration to consider prioritizing fixed 
guideways and other transit projects. We should be encouraging 
local communities to do their fair share. We have a limited 
amount of money and local commitments should become an 
important factor in deciding which projects will get Federal 
dollars.
    Ms. Dorn, I hope you will think about how we can look at 
the Las Vegas monorail and how we can reward grant applications 
where there is a significant overmatch.
    And finally, we are seeking a full funding grant agreement 
from the FTA and we are ready to go forward. Thank you for 
including $4 million in the President's budget for the Las 
Vegas project, and we look forward to working with you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Ensign. Thank you very 
much for your testimony, Ms. Dorn. We really appreciate it.
    It has been extremely productive working with you and we 
look forward in this reauthorization to continue our work 
together.
    Thank you.
    Ms. Dorn. Thank you, Mr. Chairman. We appreciate it.
    Senator Allard. Are we always going to let her off this 
easy?
    [Laughter.]
    Ms. Dorn. I was going to say----
    [Laughter.]
    Senator Reed. I do not know.
    Ms. Dorn. But I wanted to answer more questions.
    [Laughter.]
    Senator Reed. This is where we ask, not plead for things.
    [Laughter.]
    So we are asking politely.
    Ms. Dorn. I guess I would better leave now.
    [Laughter.]
    Senator Reed. Now is a good time to exit.
    Ms. Dorn. Thank you.
    [Laughter.]
    Senator Reed. Thank you. Let me call up the second panel. 
That would be: Ms. Faye Moore, General Manager of the 
Southeastern Pennsylvania Transportation Authority; Dr. Beverly 
Scott, General Manager of the Rhode Island Public Transit 
Authority; and Mr. Larry Worth, Executive Director of the 
Northeast Colorado Association of Local Governments.
    Let me take the privilege of introducing Bev Scott. Then I 
would call on Senator Allard to introduce Mr. Worth. And if 
Senator Santorum is here, I would ask him to introduce Ms. 
Moore. If not, I will do the honors.
    Beverly Scott has been the General Manager of RIPTA, the 
Rhode Island Public Transit Authority, since 1996, and has led 
an effort to modernize and grow RIPTA's service throughout the 
State of Rhode Island, which is one of a few statewide systems 
in the Nation. Bev has a wealth of experience in transit, 
having worked for the Dallas system, the Washington 
Metropolitan Area Transportation Authority, the New York City 
transit system, among many others. At RIPTA, she manages a 
fleet of 241 buses and 690 employees, which carried more than 
20 million passengers in the year 2001. Bev has been great to 
work with on a host of issues and I want to thank her for not 
only being here today, but also for the great work she does for 
my home State of Rhode Island.
    Senator Allard, would you like to introduce Mr. Worth?
    Senator Allard. Mr. Chairman, thank you. I am going to take 
just a little longer to introduce Mr. Worth.
    I am pleased to welcome Larry Worth to the Subcommittee on 
Housing and Transportation. I appreciate you taking the time 
away from your business to be here, Larry. It is not always 
easy when you are running a small operation. I know it costs 
you dollars.
    Larry is Executive Director of the Northeast Colorado 
Association of Local Governments, also known as NCALG. It 
serves six counties in northeastern Colorado, including Logan, 
Morgan, Phillips, Sedgwick, Washington, and Yuma counties. For 
those who are not familiar with Colorado geography, this is 
rural farmland that is sparsely populated.
    By operating County Express, which is a demand-responsive 
service, NCALG provides critical transportation for northeast 
Colorado residents. A demand-responsive service, for those who 
may want to know, waits for riders to call, and then the 
service picks them up after they make the call. In particular, 
the transit services are crucial for elderly, disabled, and 
poor residents. The ability of a sick, elderly person to access 
dialysis treatment can literally mean the difference between 
life and death in rural areas.
    Although the Board of Directors for County Express has 
defined trips for dialysis treatment and other medical 
appointments as a major priority, NCALG also provides important 
mobility for seniors. Transportation is provided to employment, 
meal sites, shopping, education, and social/recreation 
activities. NCALG faces many challenges in offering these 
services, particularly related to the geography.
    The six counties covered by NCALG comprise a significant 
area physically. In fact, although NCALG is here representing 
the interests of the small transit authorities, they are by far 
the largest in terms of area that they serve. And the Chairman 
mentioned that in his opening remarks. SEPTA and RIPTA serve 
approximately 2,200 and 1,500 square miles, respectively. By 
comparison, NCALG serves nearly 10,000 square miles, which does 
not even include the many trips they provide outside the six 
county area. In such a large area, they regularly transport 
clients to appointments 100 or even 200 miles away.
    As I noted earlier, although the counties are large 
physically, the area is sparsely populated. SEPTA and RIPTA 
have population densities of approximately 1,750 and 1,000 
people per square mile. Northeast Colorado has only seven 
people per square mile. So, obviously, congestion and pollution 
are not the key factors spurring transportation services. 
However, NCALG provides a service that is just as important.
    I am pleased that Larry is here to explain more about what 
NCALG does. There are many similar communities and transit 
agencies in America. So his point of view will be very 
important as we consider issues for reauthorization.
    Larry, welcome to the Subcommittee, I am pleased that you 
are here and we look forward to your testimony.
    Mr. Worth. Thank you.
    Senator Reed. Thank you, Senator Allard.
    Finally, Ms. Faye Moore became the General Manager of SEPTA 
earlier this year. Prior to that time, Ms. Moore served as 
SEPTA's CFO, where she led the effort to balance SEPTA's 
budget. Ms. Moore has used her background as an accountant to 
improve SEPTA's financial status, so much so that SEPTA now is 
back in the surplus category, which is quite an accomplishment. 
We applaud her for that.
    We will first call on Ms. Moore, then Dr. Scott and Mr. 
Worth. If you could summarize, we would appreciate it. We do 
anticipate these votes in the next half hour.
    Your full statements are a part of the record.
    Ms. Moore.

                   STATEMENT OF FAYE L. MOORE

           GENERAL MANAGER, SOUTHEASTERN PENNSYLVANIA

                    TRANSPORTATION AUTHORITY

    Ms. Moore. Thank you. I never thought after 63 days of 
being the General Manager, I would appear before U.S. Senators. 
But thank you for inviting me.
    I am particularly pleased to be testifying before a 
Subcommittee in which our Senator, Rick Santorum, serves. The 
Senator has been a great friend to public transportation and a 
tremendous supporter of SEPTA initiatives and programs.
    As you mentioned, I am an accountant. I am a CPA, still 
very proud of the fact that I am a CPA. I fully understand the 
importance of maximizing the effectiveness of our resources and 
in maintaining fiscal responsibility and discipline.
    SEPTA is huge. We operate a multimodal transportation 
network consisting of regional rail, subway, buses, trolley, 
trackless trolley, and paratransit services. Each day, we 
deliver well over a million trips, making us the fifth largest 
transit system in the Nation. Our current annual operating 
budget is $822 million and the capital budget is $496 million. 
The subsidy from the Federal Government represents a 
significant portion of our overall capital budget.
    Since the enactment of TEA-21, we have been able to move 
our subsidy from $112 million from the two main formula 
programs to $167 million. Additionally, our Congressional 
delegation was successful in earmarking funds from Section 5309 
Bus and Access to Jobs program for SEPTA.
    The Jobs Access Reverse Commute program created under TEA-
21 provides significant benefit to our region for recipients of 
assistance through the Temporary Assistance to Needy Families 
Program. Both Senators Santorum and Specter played important 
roles in the creation and annual funding for this program. We 
appreciate the work they have done to improve the job prospects 
of the families in our region by making public transportation 
more available to those families.
    TEA-21 funding increases in programs have enabled SEPTA, 
among a lot of things, to: Replace stations, track, roadbed and 
signal systems, construct a new terminal complex, introduce a 
new fleet for our subway elevated system, which is our busiest 
line, serving 150,000 daily riders; upgrade our 30-year-old 
Silverliner IV regional railcar fleet, and start the 
procurement process for our new Silverliner V railcars; expand 
existing routes, and create new routes to serve fast-growing 
suburban economic and residential centers; create partnerships 
with local government to institute and expand reverse commute 
service for urban residents with jobs or those who are seeking 
jobs in the suburbs; study options to improve regional rail 
service through construction of new rail lines, such as 
Schuylkill Valley Metro and Cross County Metro.
    I would be remiss if I did not take the opportunity to 
thank you, Mr. Chairman, and all the Members of the 
Subcommittee and Full Committee, for your efforts to make the 
TEA-21 legislation a reality. TEA-21 funding has helped SEPTA 
to address the transportation needs of the Greater Philadelphia 
area, and to support the economic well-being of our region.
    Security on the system for our customers, employees, and 
surrounding communities has always been a high priority. Since 
last September, transit operations across the country have 
redoubled their efforts to ensure security of the systems. 
SEPTA has initiated an ongoing process to evaluate our security 
vulnerabilities and the role of our system in planning future 
evacuation exercises, if the need ever arises.
    We thank the FTA for their assistance in this. They have 
provided a security review team to Philadelphia. Based on their 
review, we estimate completing security upgrades for the SEPTA 
system would cost in excess of $100 million.
    Just some highlights that I would like you to consider for 
reauthorization of TEA-21: Focus support where you get the 
biggest bang for the buck. In defining funding needs, resources 
should be allocated to projects and programs that will provide 
benefits in areas where transit is a proven force in the 
marketplace, or where compelling evidence of the need for new 
services is presented. Maintain guaranteed funding. One of TEA-
21's great achievements was ensuring that transit spending 
would increase at guaranteed levels. Continue program growth. 
The TEA-21 era has seen record growth in transit programs. 
Recent APTA studies estimated the total transit funding need at 
$42 billion per year. The current Federal program, at $7.2 
billion, meets about 17 percent of that goal. It is my hope 
that the Subcommittee will consider significant growth in 
spending for transit as part of a strategy to achieve parity 
with the highway program and to meet growth in transit needs. 
Improve flexible funding programs. Examine program reforms. We 
are in particular looking at the requirement that you can only 
get a full-funding grant agreement at the 60 percent design 
level. We find that in looking at the possibilities for 
Schuylkill Valley Metro, that becomes a hindrance. Equity 
providers want to be involved a little before a 60-percent 
design stage. Provide security funding. Transit systems like 
SEPTA can be both targets for terrorists and a part of the 
region's response to those acts. Meet new market challenges. 
Creation of the Jobs Access Reverse Commute Program under TEA-
21 was a great response to an emerging travel market. We are 
finding that with the baby boom generation, the seniors, 
especially in the city of Philadelphia and the State of 
Pennsylvania, will be a growing demand. SEPTA will be expected 
to provide the service for that expanded market. I hope that 
transit can work with the Subcommittee to develop innovative 
approaches to respond to this fast-growing market.
    Mr. Chairman, thank you again for the opportunity to 
testify before you today, and SEPTA is available to work with 
you and the Members of this Subcommittee, as you develop 
legislation to take us through the next authorization period.
    Senator Reed. Thank you very much, Ms. Moore.
    Ms. Scott.

               STATEMENT OF BEVERLY A. SCOTT, PhD

                 GENERAL MANAGER, RHODE ISLAND

                    PUBLIC TRANSIT AUTHORITY

    Ms. Scott. Mr. Chairman, it is always a pleasure to see you 
and the Members of the Subcommittee.
    As General Manager of the Rhode Island Public Transit 
Authority, I welcome the opportunity to share our experiences 
with you on the very positive impacts of the transit provisions 
of the Transportation Equity Act for the 21st Century on our 
transit system in Rhode Island, positive experiences which we 
believe are representative of most medium-sized transit 
properties around the country.
    The bottom line of my testimony is that TEA-21 works, that 
quality public transportation is an essential national 
investment which has a very direct and profound impact on our 
Nation's overall competitiveness, quality of life, and national 
security.
    Just as our ridership in Rhode Island has increased 31 
percent since the mid-1990's, as you noted earlier, national 
transit ridership growth and demand for increased travel, and 
more transportation service in communities of all sizes and 
economic strata, has risen dramatically over the same 
timeframe--and we believe will continue to do so--severely 
straining the core capacity of our existing transportation 
infrastructure, both rail and nonrail, as well as requiring 
whole new ways of thinking and delivering services to a much 
more complex and diversified travel market, particularly as we 
come to grips with the special mobility challenges of an aging 
America, our disabled community, and the hundreds of thousands 
of rural and suburban communities across our country, which 
oftentimes cannot be effectively or affordably served with just 
traditional public transit services.
    All of these significant special markets require a scale, 
flexibility, as well as operational methods and procedures, 
that are often different than conventional public transit.
    In our State, which has the fifth highest per-capita of 
senior citizens in the country, and 19 of 39 cities and towns 
with population densities of 500 people per square mile and 
fewer, our statewide public transit system not only deals with 
highly concentrated urban areas, but also with these critical 
mobility needs and challenges on a daily basis. This is one of 
the major reasons that we embarked on our Transit 2000 system-
wide modernization plan several years ago, for all intents and 
purposes, a Marshall Plan for public transportation in the 
State of Rhode Island, a plan that would not have been possible 
without the increased Federal transit investment in TEA-21.
    Increased Federal transit investment that has had a 
tremendous multiplier effect in our State. Specifically, more 
than doubling dedicated State funding for public transit since 
1998, up from 3 cents to 6\1/4\ cents of the State gas tax 
dedicated to transit. Coupled with significant additional 
transit investments and partnerships with other State agencies, 
particularly in the areas of human and social services 
transportation. Our tourism sector, which accounts for $2 
billion in annual revenue to our State, and our local colleges 
and universities. And a strong working relationship with our 
unions, including extremely competitive wage rates and more 
flexible work rules, coupled with a serious commitment to 
employee development, training, and upward mobility that has 
greatly contributed to our ability to offer new and expanded 
services which address historically unmet mobility needs in our 
State.
    In conclusion, I will simply say from my heart that as 
Americans, mobility is one of the greatest and most precious 
freedoms that we enjoy. This basic cornerstone of American 
life--who can or cannot get from place to place, how we plan 
and conduct our daily lives, the choices we make about what we 
do, and even more importantly, what we can do--are hanging in 
the balance.
    As you move forward to consider reauthorization of the 
transit provisions of TEA-21, I can only reiterate that TEA-21 
works and ask for your support of increased Federal transit 
investment, continuation of the TEA-21 funding guarantee 
provisions, continuation of the flexible funding provisions 
that allow highway and transit funding to be transferred based 
on local needs. In our State, this flexibility has translated 
into $29 million in additional transit funding, and provided us 
with the ability to launch our new, innovative transportation 
services, as well as accelerate our acquisition of alternative 
fuel vehicles. Continuation of the Jobs Access Program, which 
we and others around the country have utilized to support 
national welfare reform and start up our new flexible services 
programs, as well as continuation of the current common 
matching shares for the highway and transit projects that has 
been provided in TEA-21.
    Before closing, I also want to acknowledge the strong and 
very helpful working relationship that we enjoy with our 
Federal Transit Administration Regional Office in Boston, a 
partnership that we tremendously value.
    Once again, Mr. Chairman, and Members of the Subcommittee, 
thank you for the opportunity to share these perspectives on 
reauthorization.
    Senator Reed. Thank you, Ms. Scott. Thank you very much.
    Mr. Worth.

                    STATEMENT OF LARRY WORTH

             EXECUTIVE DIRECTOR, NORTHEAST COLORADO

                ASSOCIATION OF LOCAL GOVERNMENTS

    Mr. Worth. Thank you. Mr. Chairman, I appreciate the 
opportunity to be here today.
    In 1981, NECTA, the Northeast Colorado Transportation 
Authority, was created as a nonprofit organization serving an 
area of 9,600 square miles. I was invited to talk with you 
today because we operate in a very rural area. One-way trips of 
50 miles are routine and many are 150 miles or more.
    The total County Express trips in 2001 were 79,133. That 
pales in comparison to the million per day that we hear from 
our colleagues. But, still, the issues are important and we 
appreciate the opportunity to present them.
    What did TEA-21 do for the people of rural Northeastern 
Colorado? First, it increased rural transit, bus, and bus-
related capital allowed us to buy more vehicles, to replace 
some of those that have high mileage, to operate the system 
more effectively, efficiently, and to provide a higher quality 
of service. But we want to move away from the statistical image 
of transit and put a more personal face for you because we 
serve a lot of people in great distances.
    The Sterling Regional Medical Center operates the only 
dialysis center in Northeast Colorado. So we move John 
Sanderson from Yuma to Sterling three times a week. That is 150 
miles a day. We move residents from Phillips County, again 50 
miles, one way from Holyoke to Sterling. We move residents 50 
miles from Julesburg to Sterling, Fort Morgan to Sterling. All 
of those, since it is the only dialysis center, requires us to 
move distances of 50 to 100 miles one way. We would also note 
that we have moved individuals from Fort Morgan to Greeley, 
which is 70 miles one way. We have moved residents from Wray to 
Denver for specialized treatment, 186 miles one way.
    So each of those begin to put a personal face for you in 
terms of the need of that resident and the long distances that 
we travel in order to provide services for those clients.
    We would note that without subsidies from the Federal 
Transit Administration, the Older Americans Act, TANF, and from 
local government and other funding sources, the area residents 
could not make the kind of trips that we provide.
    Transit has grown faster than any other mode of 
transportation in the last 6 years, and your understanding of 
our need to invest in vehicles and staff means we have been 
able to do more for people. We increased our service and we 
thank you for the effort in that regard. What needs to be 
changed?
    First, we have to look at the Medicare funding. It does not 
include costs for nonemergency transportation to medical 
appointments for the elderly. To meet that shortfall, 
additional funding under transportation laws would be helpful.
    Other regulatory burdens provide disproportionate impacts 
upon rural system. I will mention just two. First is the Random 
Drug and Alcohol Testing. While everybody agrees that that is a 
positive and that you do not want people who are drinking and 
driving on the vehicles. But when I only have two drivers in 
one community and one driver is called to relieve the other 
driver, there is no way, that I can maintain the 
confidentiality of information when he is told that he has to 
take over another driver's trip at 4:30 in the morning. Also, 
the Federal Transit Administration charter bus provision 
requires a fairly lengthy process to receive a waiver. Again, 
this particular provision says that you cannot use public 
subsidies to compete with the private sector. But in rural 
communities, there may not be any other competitor and it may 
be a lengthy process to move a few people for the next week's 
activity. What needs to be done in the reauthorization?
    First, more Federal investment for rural communities. 
Colorado, is the third fastest-growing State, with a sparsely 
populated rural area, Colorado is receiving a small amount of 
rural formula funding, about $2 million annually. We urge you 
to increase the minimum per State to $5 million annually as the 
Community Transportation Association of America has called for 
in its reauthorization proposal.
    Roads, are essential but we need drivers and we need small 
vans and minibuses to complete trips for the elderly. This is 
particularly important in our area where we have 48 vehicles 
and they travel 427,000 miles annually.
    Consider the needs of our aging population. As you know, we 
have a growing population over 85 and they are not able to 
drive safely. We suggest that transit is important to provide a 
stable and effective transit system. We need more vehicles in 
the remote area of Colorado.
    Finally, we would say, consider the impact of regulations 
on the small agencies. Examine the Drug and Alcohol Regualtion 
random testing requirements. Consider the FTA Charter 
Provisions.
    Thank you for listening, but especially, thank you for your 
grand work in promoting transit on our behalf.
    Senator Reed. Thank you for your testimony, Mr. Worth.
    Let me begin a round of questioning, and I think we will 
have time to conclude our questions before the votes start. 
Thank you for your cooperation.
    Ms. Moore, I was struck when I looked at your written 
testimony with respect to the ratio of transit spending and 
highway spending. Twenty years ago, the ratio was 2:1. Now the 
ratio is 4:1. So we are spending much more on highways than we 
are on transit, relatively speaking, these last 20 years. And 
yet, transit is growing by leaps and bounds. In fact, last 
year, it grew more than automobile ridership. All of that 
suggests that we should try to reach out and increase resources 
for transit, I would suspect. Is that your conclusion, too?
    Ms. Moore. That would be my conclusion, yes.
    Senator Reed. Well, it is very important to note, as you do 
in your testimony, that the ratio has not been constant, that 
in fact, we are devoting a much smaller portion of 
transportation dollars to transit today than we did 20 years 
ago.
    Ms. Moore. Correct.
    Senator Reed. I think that is an important point. The other 
issue I would point out, too, and this applies to all of your 
colleagues, is that as we go forward with the reauthorization, 
we will need the active participation of your authority and all 
the authorities to make the point, both locally and nationally, 
of the need for additional resources for transit. I suspect you 
will join us in that effort.
    Ms. Moore. Yes, sir.
    Senator Reed. Thank you very much. And thank you for your 
testimony today, Ms. Moore, and for your leadership at the 
Philadelphia Transportation Authority.
    Ms. Moore. Thank you.
    Senator Reed. Ms. Scott, again, let me commend you, not 
only for your excellent testimony, but for your extraordinary 
leadership in Rhode Island. You indicated a 31 percent increase 
in ridership. How much more money would you need, from the 
Federal Government to keep up with this increase?
    Ms. Scott. Next year, we are projecting a need for really 
an additional $7\1/2\ million in order to be able to keep pace 
with where we are, as well as do some additional modest 
expansion with the flexible services. So that is really about 
what the bottom line is for us in Rhode Island.
    Senator Reed. And the ridership has been going up and up, 
and you anticipate it continuing to go up, unless you do not 
have the resources to serve it.
    Ms. Scott. The ridership has been up and in fact, this year 
alone, we are tracking a 6 percent increase and we are just 
about 10 months through the fiscal year.
    Senator Reed. One of the points you made in your testimony, 
Ms. Scott, was your commitment to environmentally friendly 
buses, and the fact that you have used Federal resources to 
purchase those buses. Could you give us an indication of what 
are some of the obstacles that you face in making the 
transition to cleaner buses, be they gas-powered or clean 
diesel fuel buses?
    Ms. Scott. In fact, at this point in time, our fleet is 
about 10 percent compressed natural gas. Everybody wants it, 
but when you are talking about it, you are talking about 
changes in terms of infrastructure, fueling facilities, 
servicing facilities, your training and development for your 
employees.
    And so when one is making the commitment to in fact move to 
alternative fuels, it is much more than a flavor of the month. 
It is really a radical change in terms of how one is doing 
business within their overall system.
    I will tell you that one of the things that--and I think it 
is also one of the beauties of our State in terms of being able 
to maximize and leverage Federal investment--is that our 
fueling facilities, just like the fueling facility down in 
Newport will be a shared-use facility with other State 
vehicles.
    The CNG-fueling facility that we, in fact, will put in the 
Providence area will be one that will be a fueling facility 
that will be a backup for the entire State fleet. So, where we 
can, we try to do everything that we can to maximize and 
leverage the Federal investment.
    Senator Reed. Thank you. I have a question for Mr. Worth, 
but Ms. Moore, do you have a comment in that regard, too? Is 
your system also incorporating alternative fuel vehicles?
    Ms. Moore. We have placed our first order. But part of the 
reason that we have not expanded it even further is for just 
the reasons that she cited.
    It is definitely a monumental undertaking, especially when 
you have over 1,300 buses. If you move that whole fleet to an 
alternative fuel, you would have to incur some major overhaul 
costs.
    Senator Reed. I have a question for Mr. Worth, but I have 
just been notified that the first vote has been called on a 
series of votes.
    Let me defer to Senator Allard, who has a question for you.
    Senator Allard. Yes.
    Senator Reed. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. This is the first 
of nine votes we have coming up, so we probably won't be able 
to come back. I appreciate your willingness to give me a chance 
to ask some questions here. So I am going to prioritize my 
questions.
    Cashflow is often a pressing problem for small transit 
authorities. As you are aware, another Colorado authority 
recently considered shutting its doors after going several 
months without assistance. Luckily, money came through one week 
before they planned to shut down.
    Do we need to provide better resources and incentives for 
small authorities to build up reserves, or do we need to 
directly address cashflow problems?
    Mr. Worth. Well, I certainly think that you need to address 
cashflow. In a small system, we are fortunate that we operate a 
number of programs, and so we have some cash in the system to 
carry County Express until the cashflow starts.
    But this is April and I still did not have a signed 
contract until April 17. That means January, February, and 
March are not reimbursable in those months. We will still get 
the same amount of money, but it is over 9 months instead of 12 
months. So we carry the first 3 or 4 months of the system 
before I am able to draw Federal monies down.
    Senator Allard. Currently--this is for everybody to 
answer--Federal capital grants are disbursed at a rate of 40 
percent to rail starts; 40 percent to rail modernization; and 
20 percent to buses and bus facilities. This is in recognition 
of the much higher costs for rail projects. Yet, bus service is 
much more widely offered and many States have little or no rail 
service. Should the allocation be altered to account for wider 
bus use, or should it be maintained to assist the cost of rail-
oriented projects?
    We will start with you, Ms. Moore, and if you could keep 
your comments short, please.
    Ms. Moore. Well, I happen to be one that has it all. I am 
okay with the mix.
    Senator Allard. Okay. Ms. Scott.
    Ms. Scott. I think that the current 40-40-20 is pretty much 
in line, but I think that we really have to be clear about what 
the actual dimension of the needs are, what amount of 
investment is required on that. And if in fact that means that 
there becomes some slight adjustment to the 40-40-20, then I 
think that we need to be open to that.
    Senator Allard. Mr. Worth.
    Mr. Worth. Yes, we support the existing formula, 40-40-20.
    Senator Allard. Okay. Have you asked all your questions, 
Mr. Chairman?
    Senator Reed. I have, but Full Committee Chairman Sarbanes 
has joined us and he would like to make a statement.
    Senator Allard. I will yield, Mr. Chairman.
    Senator Reed. Thank you.
    Chairman Sarbanes.

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Thank you very much, Mr. Chairman. I will 
be very brief. I know there is a vote on, but there are a 
couple of comments I want to make.
    First of all, I want to thank all three witnesses for their 
response to Senator Allard's last question. I feel very keenly 
that the focus here should be to make the pie larger and we 
should not fall into scrapping amongst ourselves in terms of 
the allocation within the amount. We have very significant 
transit needs in this country, in all dimensions. And we need, 
in my judgment, to boost our commitment of resources to this 
purpose. It is very important that we all join together in that 
effort as we approach this reauthorization.
    I apologize to the witnesses that I was not able to be here 
to hear their testimony, but we will review it very carefully.
    Ms. Scott, I just want to say that your work experience, at 
WMATA and now up at RIPTA, certainly serves you well for 
appearing before this Committee, if I may say so.
    Ms. Scott. Thank you very much, Senator.
    Senator Sarbanes. Mr. Chairman, I want to commend you and 
Senator Allard for calling this hearing. There has been a 
tremendous increase in transit ridership. It is very impressive 
and it is happened faster than highways, faster than air.
    You ask, what explains this? We have increased congestion 
that leads drivers to seek other options. I think we have a 
growing awareness of our responsibility to use transit to ease 
the environmental pressures that we are experiencing in the 
country. And we have seen the economic development benefits of 
transit.
    But another factor in all of this was the commitment that 
the Federal Government made, first, in ISTEA, and then followed 
up in TEA-21, with respect to transit. We broke new ground 10 
years ago with ISTEA. We put in a balanced framework for 
transportation planning, which embraced all modes of 
transportation.
    TEA-21 built on that framework. It significantly increased 
funding for transit and it provided budget guarantees to ensure 
a reliable funding stream for transit. And we have been able to 
work within that framework. I think it is been very salutary 
and it in part helps to explain these increases in ridership 
because it has allowed transit systems to improve the 
frequency, the reliability, and the safety of their service, 
making it a viable transportation alternative for millions of 
our citizens.
    I am very hopeful that the next bill that we bring out will 
enable us to build upon this and to continue along this very 
highly successful path.
    I was struck by the diversity of our transit systems 
reflected in the panel that is before us. SEPTA serves 3.8 
million people, something like that.
    Ms. Moore. It is 1.1 million daily riders, and over the 
course of a year, over 300 million.
    Senator Sarbanes. And the County Express in Northeastern 
Colorado serves 70,000, I believe.
    Mr. Worth. In a year, yes, 79,000.
    Senator Sarbanes. So, in population, you are a much smaller 
system. But in terms of square miles, you are by far the 
largest system sitting at the table. In fact, I understand 
County Express covers an area that is almost as large as the 
entire State of Maryland, I would say with all due deference to 
Colorado.
    Mr. Worth. I believe that is correct, yes.
    Senator Sarbanes. So we have SEPTA, who has a service area 
that is high-density urban and suburban, County Express, in a 
rural area, RIPTA with both high-density and low-density. 
Actually, I think RIPTA is the only one at the table that 
actually has a ferry service as part of their operation. And 
so, we have the whole mix here.
    I am struck also by your similarities. You provide people 
with mobility, whether it is to a job or to schools or to a 
doctor's office. And you are responding to a critical need in 
your community, enhancing the quality of life.
    Senators Reed and Allard have embarked on a series of very 
important hearings with respect to our transit needs and how to 
respond to them, laying the basis for moving forward important 
legislation in the next Congress, which of course is required 
by the fact that the authorization for TEA-21 will expire.
    So, Mr. Chairman, Senator Allard, thank you all very much. 
We appreciate the contribution.
    I want to thank the witnesses for their contributions.
    Ms. Moore. Thank you.
    Ms. Scott. Thank you.
    Mr. Worth. Thank you.
    Senator Reed. Thank you, Mr. Chairman. The votes are in 
progress now. We have a series of nine votes, I am told.
    I want to thank the witnesses for their excellent testimony 
and indicate that the record will remain open for 7 days. There 
maybe additional questions that we will pose in writing.
    We have learned today that guaranteed funding is essential, 
more resources are essential, and we have to maintain the 
security of our rail and transit systems throughout the 
country.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]
    [Prepared statements and response to written questions 
supplied for the record follow:]

              PREPARED STATEMENT OF SENATOR JON S. CORZINE

    Thank you, Mr. Chairman, for holding this second hearing on 
reauthorization of the Transportation Equity Act for the 21st Century 
(TEA-21), and I would like to join you in welcoming FTA Administrator 
Dorn and our other witnesses.
    Mr. Chairman, as the Banking Committee begins its work on the 
reauthorization of TEA-21, I look forward to working with the Committee 
Members, as well as Administrator Dorn and Secretary Mineta, in 
crafting legislation that helps meet our Nation's mass transit needs. I 
would like to point out that nowhere in the country is the need for 
mass transit more evident than in my State of New Jersey, the most 
densely populated State in the Nation. A study done by the New Jersey 
Institute of Technology in July 2001 found that the average New Jersey 
driver spent almost 50 hours a year stuck in traffic. For all this time 
stuck in traffic, that is an average cost per driver of $1,255 in 
wasted gasoline and lost productivity--for a total cost of $7.3 billion 
a year.
    To New Jersey's credit, we have realized that we cannot build 
enough roads to meet our transportation needs. We need to craft TEA-21 
reauthorization legislation that operates under that premise as well. 
This legislation should continue the Federal Government's commitment to 
help fund existing mass transit projects. But it should also help State 
and local transit agencies create new opportunities for commuters, 
whether they are bus, rail, or ferry. Transit agencies need more 
funding, not less, to meet the needs from their increasing levels of 
ridership.
    Mr. Chairman, as the Banking Committee deals with reauthorization, 
I will push for funding to increase mass transit opportunities. For my 
State of New Jersey that means additional funding for the Hudson-Bergen 
and Newark-Elizabeth rail options as well as funding for new trans-
Hudson commuter rail tunnel.
    Thank you for holding this very important hearing and I look 
forward to hearing from our witnesses.
                               ----------
                 PREPARED STATEMENT OF JENNIFER L. DORN

             Administrator, Federal Transit Administration
                   U.S. Department of Transportation
                             April 25, 2002

    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to testify before you today on the success of the 
Transportation Equity Act for the 21st Century (TEA-21) and to continue 
the discussions about reauthorization begun by Secretary Mineta and the 
full Committee last month.
    Public transportation connects communities--and communities 
throughout America are recognizing and capitalizing on the benefits of 
more efficient, comfortable, and effective public transportation 
systems. This recognition has spurred unprecedented levels of 
investment in public transportation. In fact, the total capital 
investment in public transportation, including State, local, and 
Federal funds, has increased by nearly 90 percent over the last 10 
years (1991 to 2000). The role of the Federal Government has been 
stable during this period, accounting for approximately 50 percent of 
capital investment in transit, and 25 percent of all public spending on 
transit.
    As a result of the unprecedented levels of investment in recent 
years, transit has experienced the highest percentage of ridership 
growth among all modes of surface transportation, growing over 28 
percent between 1993 and 2001. Over the last 6 years, transit use has 
grown faster than the population, and more than double the rate of 
domestic air and road travel, which grew approximately 12 percent. Last 
year, people rode our Nation's public transportation systems 9.5 
billion times--traveling to and from work, medical appointments, 
school, and social events. Nearly two-thirds of these trips were on 
buses.
    While most public transportation trips continue to occur in major 
metropolitan areas, public transportation is becoming increasingly 
important in smaller urban and rural areas, as well. Among transit 
agencies that receive Section 5311 funds, the number of passenger trips 
reached an estimated 154 million in 2000, an increase of 62 percent 
since 1994. During the same period, passenger miles traveled increased 
by an estimated 93 percent, meaning that people are not only taking 
public transportation more often, but also for longer distances.
    Not coincidentally, these increases in ridership have occurred 
during a period when the condition of our Nation's public 
transportation assets improved markedly and the availability of public 
transportation increased substantially.
    Nevertheless, public transportation faces new challenges in 2002 
and beyond. Secretary Mineta recently noted that public transportation 
must play an important role in achieving the President's three 
important goals of winning the war against terrorism, protecting our 
homeland, and getting the American economy moving again.
    The events of September 11 have created a new reality for 
Americans, one in which public transportation must be prepared to 
respond to extraordinary threats and to serve as a primary means for 
evacuation when that becomes necessary.
    This is not an entirely new responsibility. Public transportation 
has long had an important role in helping communities cope with natural 
disasters. In 1989, San Francisco's rapid transportation system was 
critical to the community as it coped with the collapse and 
reconstruction of major roads after the Loma Prieta earthquake. And, in 
1999, public transportation systems in North Carolina evacuated 
residents and transported relief workers in response to Hurricane 
Floyd.
    But the events of September 11 gave our communities an even better 
understanding of the role of public transportation during emergency 
situations. In New York and Washington, public transportation safely 
evacuated millions of people from the center cities, and, throughout 
the Nation, public transportation systems came to the aid of people who 
were stranded at unexpected destinations when air travel was halted. 
Transit agencies stepped in to assist stranded passengers, offering not 
only free transportation to nearby hotels, but even coordinating hotel 
room availability and reservations in some locations. In North Little 
Rock, for example, the Central Arkansas Transit Authority (CATA) teamed 
with the local Chamber of Commerce to determine hotel availability, 
make reservations, and transport over 2,000 stranded passengers to more 
than 20 hotels in less than 4 hours on September 11. CATA continued to 
serve as an information link for passengers over the next several days, 
faxing news of airline operations to all 20 hotels, and operating free 
shuttle service to the local airport, Amtrak, and Greyhound terminals 
for the stranded passengers.
    Soon after the September 11 attacks, FTA began implementing a major 
security initiative, focused first on the Nation's high risk/high 
consequence transit assets. Generally, that means the subway tunnels 
and stations where the large numbers of people converge and where an 
attack would cause the greatest disruption to transportation services. 
Transit agencies across the country are voluntarily and 
enthusiastically partnering with FTA and continue to take steps on 
their own to improve the safety and security of our public 
transportation systems.
    As part of this initiative, FTA has engaged teams of experts in 
security, antiterrorism, and transit to conduct voluntary security 
assessments of 33 public transportation systems. Chosen because of 
their high ridership levels, the potential vulnerability of subway 
systems, and the potentially serious consequences of a successful 
terrorist attack, all 33 agencies are voluntarily participating in the 
assessment program. Two-thirds of the assessments have been completed 
and the remainder are scheduled over the next month or so.
    Each assessment includes a threat and vulnerability analysis, an 
evaluation of the security and emergency response plans, and a focused 
review of the community's unified emergency command structure. Based on 
the findings of the assessment, FTA is offering direct technical 
assistance to enhance security, modify emergency response plans, 
conduct practice drills, and train employees.
    The assessments are proving to be an effective tool for both the 
FTA and the participating agencies. We have identified important 
concerns at even the most well-prepared agencies, and have recommended 
solutions to manage these risks. At the same time, we are identifying 
best practices for training and response protocols, and are sharing 
these with the industry. Recently, for example, guidance on responding 
to a chemical attack in a subway environment was distributed to transit 
agencies with underground stations; similar guidance with regard to 
biological attacks will be issued soon. We are also working to make 
standard operating procedures applicable to bus, light rail, and other 
transit environments, and will make that available as soon as possible. 
We will continue to look for new opportunities to enhance transit 
security, while maintaining the open and accessible nature of our 
public transportation systems.
    One important lesson of September 11 has been that the safety and 
security of our communities is significantly enhanced when public 
transportation systems are linked to police, fire, medical, and other 
emergency response agencies through community-wide planning, emergency 
response drills, and centralized emergency command centers. I am proud 
to report that FTA is taking the lead to bring these important 
community leaders together at emergency response planning forums around 
the county. We are also sending out technical teams to refine the 
emergency response plans to reflect the assessment findings, and have 
made $50,000 grants available to communities who need assistance to 
conduct emergency drills.
    Yet, even as we take new steps to ensure that our transportation 
systems are as safe and secure as possible, we must also protect the 
mobility of our people and the economic vitality of our communities. 
Balancing this three-legged stool of security, freedom of movement, and 
economic vitality is an important challenge to transportation providers 
throughout the Nation.

The TEA-21 Success Story
    In his testimony before the full Senate Banking Committee last 
month, Secretary Mineta identified several core concepts that the 
Department of Transportation will be using as the basis for its 
reauthorization proposals. Today, I would like to highlight several of 
those concepts, and talk more specifically with you about their 
importance with regard to public transportation. These concepts are: 
stable funding, innovative finance, transportation-oriented economic 
development, technology investments, and streamlining.
    Stability. One of the most visible and important elements of TEA-21 
has been the tremendously positive impact of stable and dependable 
funding streams on transit development. Dependable levels of funding--
for both formula funds and full funding grant agreements--have improved 
the ability of transit agencies to finance, plan, and execute projects, 
and produced real results for the transit-riding public.
    For large transit agencies, dependable Federal funding is often 
essential to the creation of similarly stable local funding mechanisms. 
Take, for example, New Jersey's Hudson-Bergen Light Rail Project, which 
includes almost 15 miles of rail line, 59 light rail vehicles, and 
represents a total investment of $2.2 billion. Phase II of the Hudson-
Bergen full funding grant agreement provides $500 million in Federal 
New Starts funding over 5 years. New Jersey Transit was able to issue 
$450 million in grant anticipation bonds based largely on this New 
Starts commitment. The bonds are structured for repayment through 2011. 
However, the availability of capital now allows construction to be 
completed by 2005, even though the first FFGA funds will not be 
received until 2004. The bottom line: a secure Federal funding source 
will permit the project to be completed 3 years early and will reduce 
costs by more than $300 million.
    The benefits of stable and predictable funding are not limited to 
large agencies with rail or with large FFGA's. Phoenix Transit is an 
agency with a fleet of 350 buses, making 33 million passenger trips 
each year. Because of its limited funding stream, it cannot access 
capital markets on its own. However, this agency has effectively 
leveraged its FTA formula funding to speed up the procurement of Clean 
Natural Gas (CNG) vehicles and fueling infrastructure by utilizing 
bonds. The city of Phoenix issued $18 million in grant anticipation 
bonds to Phoenix Transit based solely on the stream of formula funds 
guaranteed through TEA-21. Phoenix Transit was able to upgrade its 
fleet of vehicles and install the fueling infrastructure to keep the 
buses rolling, all within a single year. Without the ability to 
leverage the stability of its formula funds, Phoenix Transit would have 
needed 3 or more years to purchase the same number of vehicles and 
install the required infrastructure. Further, Phoenix Transit estimates 
that it saved an average of $30,000 per bus--a total of $1.65 million--
because it was able to purchase a larger quantity of vehicles at one 
time.
    According to new research being conducted by the American Public 
Transportation Association, several recent TIFIA loans in New Jersey 
and California received high credit evaluations from Fitch and Moody's 
based largely on confidence in the Federal commitments under TEA-21. 
The study also notes that the benefits of stable funding go far beyond 
improving the ability of transit agencies to secure long-term loans for 
major investments. Confidence that formula funding levels under TEA-21 
would be honored have helped communities develop and follow multiyear 
fleet replacement schedules to minimize costs. Previously, some 
communities had to ``save up'' grant resources for several years in 
order to have enough cash to enter into contractual arrangements. Under 
TEA-21, contractors and financial institutions are willing to work with 
transit agencies to significantly accelerate acquisitions, saving the 
agency time and money.
    In sum, stable formula funds help agencies do more with limited 
resources because they give financial markets the confidence to support 
transit investments; give communities an incentive to commit long-term 
resources; and give private industry the confidence that the transit 
promises necessary to support new development will be honored.
    Innovative Finance. Dependability and stability offer even more 
opportunities to leverage resources when coupled with innovative 
financing techniques. Under TEA-21, Congress established the 
Transportation Infrastructure Finance and Innovation Act (TIFIA) 
financing mechanism, a loan and loan guarantee program for surface 
transportation projects. Recently, Staten Island Ferry signed a TIFIA 
loan agreement for $159 million to purchase three additional ferryboats 
and complete the reconstruction of its ferry terminal. In the wake of 
September 11, when ferries carried over 60,000 people safely out of 
Manhattan, reliable ferry service has become even more important to 
mobility in the New York metropolitan region. Staten Island Ferry was 
able to leverage $57 million in FTA and Federal Highway funds, along 
with an additional $264 million of State and local monies, to secure 
the TIFIA loan. In the absence of TIFIA, the purchase of ferryboats and 
terminal modernization would have been delayed until additional funds 
could be accumulated to complete the project.
    TEA-21 made a total of $10.6 billion in lending authority available 
for surface transportation projects. To date, approximately $3.6 
billion has been committed to projects and leveraged to support over 
$15 billion in surface transportation projects. This investment 
requires only about $190 million of Federal budget authority. Although 
TIFIA is by no means the only innovative financing mechanism available 
to the industry, it illustrates how such techniques can reduce the 
total cost of projects, speed up implementation, and leverage Federal 
investments. The Department looks forward to working with Congress to 
identify additional ways in which reauthorization can promote and 
support innovative financing.
    Economic Development. With the funding made available under TEA-21, 
FTA has helped many communities realize better, safer, more efficient 
public transportation systems. Real success, however, comes when people 
not only embrace transit, but use it to enhance the economic vitality 
of their community. One such city is Dallas, Texas. Although many 
equate this city with large cars and wide boulevards, the city's light 
rail transit (LRT) starter system has been an unqualified success. 
Under TEA-21, Congress authorized a $333 million full funding grant 
agreement for this project. Not only has ridership exceeded 
expectations, the 12.5-mile North Central light rail extension has 
helped attract more than $100 million in transit-oriented development. 
Dallas Area Rapid Transit (DART) has joined a major development 
company, a major high-tech employer, and the city of Richardson in 
developing a new urban center in a high-tech business corridor adjacent 
to the LRT line. In downtown Dallas, retail sales jumped dramatically, 
and the in-town apartment market more than doubled from 1997 to 2000. 
Prominent national companies, including Blockbuster Entertainment and 
the Adam's Mark Hotel cite proximity to DART as the key factor in 
locating downtown. The unqualified success of transit in Dallas has 
generated overwhelming public support for plans to accelerate future 
rail lines with bonds backed by a local one-cent sales tax.
    The joint development provisions of TEA-21 have led to success in 
other parts of the country, as well. In California, the Valley Transit 
Authority of Santa Clara (VTA) has utilized joint development to create 
a new revenue stream for the transit authority, while promoting 
economic development in the community. VTA operates light rail and bus 
services in the Silicon Valley region, an area synonymous with 
innovation. They have partnered in a major mixed-use development at the 
Ohlone-Chynoweth light rail station. Joint development provisions under 
TEA-21 permitted the agency to use FTA funds to purchase a parking lot 
adjacent to the station. VTA now receives $300,000 in annual revenue 
under a 75-year lease arrangement with an adjacent residential and 
retail development, and uses those funds to meet additional transit-
related needs.
    Technology. TEA-21 has also helped our Nation's transportation 
systems take advantage of technological developments. On a pre-Olympics 
trip to Salt Lake City and the Utah Transit Authority (UTA), I saw how 
innovative technology was helping to bring real-time improvements in 
transportation for the Winter Olympic games. Thanks to TEA-21, the Utah 
Transit Authority received $3 million to support Intelligent 
Transportation Systems (ITS) projects, including a state-of-the-art 
voice-activated ``511'' system that provided information on public 
transportation, Olympic travel information, road conditions, and other 
information that was vital to moving hundreds of thousands of people in 
and around Salt Lake City.
    Bus Rapid Transit (BRT) has also benefited from technological 
advances made possible, in part, through TEA-21. Combining exclusive 
transit-ways, modern stations, high-tech vehicles, and frequent 
service, Bus Rapid Transit provides--at a fraction of the cost--the 
high level of service that people want and expect from more expensive 
transit systems. And investments in Intelligent Transportation System 
projects have made Bus Rapid Transit even more convenient, fast, 
reliable, and safe. For example, Automated Vehicle Location 
technologies such as satellites or roadside sensors can now track the 
location of BRT vehicles, providing information for electronic ``next 
vehicle'' displays at stations and on-board automated stop 
announcements. Signal priority systems also use vehicle location 
information to control traffic signals cycles to give priority to BRT 
vehicles, while transit operators use it to achieve more consistent 
passenger wait times. The signal priority system of the Los Angeles 
Metro Rapid BRT system along the Ventura, Willshire, and Whittier 
corridors has reduced transit travel times by 20 to 25 percent, and 
total ridership is up by almost 30 percent. In Miami, ridership along 
the eight-mile South Busway has doubled to over 15,000 trips per day 
since it opened in 1996. And in Seattle, a regional Bus Rapid Transit 
system provides no-transfer, high-speed rides for commuters going from 
home to work in Seattle's downtown district.
    FTA strongly believes that continued Federal investment in the 
development of new transportation technology will have enormous 
benefits for America--reducing congestion, improving air quality, and 
making public transportation an attractive travel alternative.

Building on TEA-21
    From major urban centers to small communities, TEA-21 has created a 
revolution of sorts in public transportation, through predictable 
funding, innovative financing, and investments in new technology. This, 
in turn, has resulted in increased mobility, more transportation 
choices, and more economically vital communities for millions of 
Americans. The principles of TEA-21 have been tried and proven, and 
should continue as part of our guide for the future of public 
transportation.
    Transit has experienced the highest percentage of ridership growth 
among all surface transportation modes, and the demand far exceeds 
currently available resources. Today, with 27 active and pending full 
funding grant agreements already in place, and eight more projects 
recommended for fiscal year 2003 funding, there are still 50 additional 
transit projects in the New Starts pipeline in preliminary engineering 
or final design--and many more in early planning stages throughout the 
Nation. In communities of all sizes, from over five million in 
population to less than 500,000, these projects span all types of 
public transportation service, from ferry boats to commuter rail to 
light rail to bus rapid transit. It is, therefore, more important than 
ever that we provide stable resources, encourage cost-effective public 
transportation solutions, support opportunities to partner with the 
private sector, and offer innovative financing tools that will permit 
communities to leverage the Federal investment in public transportation 
and respond to local needs for public transportation service.
    There is much more that we can do, however, to improve grant and 
oversight operations. Improving our business practices, including 
streamlining the grant process, is a very important part of reducing 
costs and improving our transportation programs, particularly for the 
smaller grantees. Indeed, FTA is pursuing a number of opportunities to 
streamline and improve our business processes, even while we strengthen 
our oversight programs. As we consider changes in the law, an important 
question is how we can ease the statutory and regulatory burden, 
particularly on smaller agencies, which typically have less capacity 
and fewer resources, while continuing to ensure good stewardship of 
Federal funds. As Congress and the Administration work toward a 
comprehensive and successful reauthorization of TEA-21, I want to 
assure you that the Department of Transportation and the Federal 
Transit Administration will work with you to build on the successes of 
TEA-21 and meet the future public transportation needs of America.
    Mr. Chairman, thank you for the opportunity to testify before you 
today. I look forward to working with you and the Subcommittee to 
connect communities through improved public transportation.
                               ----------
                  PREPARED STATEMENT OF FAYE L. MOORE

  General Manager, Southeastern Pennsylvania Transportation Authority
                             April 25, 2002

    Good afternoon Mr. Chairman and Members of the Subcommittee. My 
name is Faye Moore and I am the General Manager of the Southeastern 
Pennsylvania Transportation Authority--better known as SEPTA. I 
appreciate your invitation to come here today to testify on the 
benefits to SEPTA of the TEA-21 legislation and our thoughts on how the 
upcoming reauthorization of that legislation can continue the progress 
we have seen since its enactment in 1998. I am particularly pleased to 
be testifying before a Subcommittee on which our Senator--Rick 
Santorum--serves. Senator Santorum has been a great friend to public 
transportation in general and to SEPTA in particular. I look forward to 
working closely with him as this Committee takes up legislation to 
extend Federal support for transit.
    Before I discuss the main topics of my testimony today, allow me to 
begin with a little background on myself and on SEPTA.
    I was selected to be General Manager of SEPTA in February of this 
year. Before becoming General Manager, I served as the Chief Financial 
Officer of the organization. I am a Certified Public Accountant. I know 
that the image of CPA's has been somewhat tarnished in recent months, 
but I assure you Mr. Chairman, I am proud of my profession and believe 
my training is helping me look for value everywhere in our organization 
and focus us on operating our agency in a sound and responsible manner.
    I see our core responsibility to be providing quality 
transportation service to our customers every day. Working with senior 
management and all the dedicated men and women who make up our 
workforce, my goal is to continue to build upon SEPTA's commitment to 
quality public transit services.
    The five counties that make up our service region rely upon a 
strong public transportation network to support their economic and 
social growth and stability. SEPTA's network consists of a variety of 
different modes of transit service. We have commuter rail, heavy rail, 
light rail, streetcars, ``trackless trolleys'' (known elsewhere as 
electric trolley buses), buses, and paratransit service. Each day, we 
provide 1,050,000 trips--making us the sixth largest transit system in 
the Nation. Our annual operating budget is $822 million for the current 
year and our capital budget is $496 million per year.
    Of course, Mr. Chairman, the Federal Government is a substantial 
contributor to our capital budget. So let me turn my attention now to 
the Federal programs of TEA-21 and how they have helped us make 
improvements to our system.
    First and foremost, TEA-21 has made significant additional dollars 
available to SEPTA. For example, in the last year of the previous 
authorization period, fiscal year 1997, SEPTA received $112 million 
from the two main formula programs from which we receive assistance--
Section 5307 Urban Formula Grants and the Section 5309 Rail 
Modernization program. In the current year, fiscal year 2002, we have 
received $167 million from those two programs. Thanks to the assistance 
of our Congressional delegation, we have also been successful in 
gaining funding from programs, such as Section 5309 Bus and Access to 
Jobs, for which Congress earmarks funds in annual appropriations bills.
    In addition to increased funding, we also benefited from the 
creation of new programs in TEA-21. In particular, the Jobs Access 
Reverse Commute program has produced substantial benefits in our region 
for current, past, and possibly future recipients of assistance from 
the Temporary Assistance to Needy Families program (TANF). Both of our 
Senators, Senator Santorum and Senator Specter, have played an 
important role in the creation and annual funding of that program. We 
appreciate the work they have both done to improve the job prospects of 
families in our region who are struggling to make ends meet.
    The increase in funding and new programs in TEA-21 have allowed 
SEPTA to achieve some of the key goals we set out for ourselves in the 
5 year business plan we developed in 1997. Some of the goals we have 
achieved with Federal assistance in the TEA-21 era include:

<bullet> Replacement of structures, track, roadbed, and signal systems, 
    development of a new terminal and introduction of a new fleet of 
    railcars on the Market-Frankford Subway/Elevated line. This is our 
    busiest line, serving 150,000 riders per day. It was originally 
    opened for service in 1922.
<bullet> Updating of the fleet on our regional rail system through the 
    upgrade of our Silverliner IV cars and initiating procurement of 
    Silverliner V cars.
<bullet> Expansion of service in our fast-growing suburbs through the 
    purchase of new buses and through matching our fleet to the market 
    by placing small buses on suburban routes where they are most 
    appropriate.
<bullet> Partnership with local governments to institute and expand 
    reverse commute service for residents of low- and moderate-income 
    urban neighborhoods who either seek or have jobs in the suburbs.
<bullet> Improvements to stations and transfer facilities to provide 
    more parking and better links between transportation modes.
<bullet> Studies of options for improving our service through the 
    construction of new rail lines such as Schuykill Valley Metro and 
    Cross County Metro.

    We recognize that this Subcommittee and the full Committee on 
Banking, Housing, and Urban Affairs worked hard to produce the TEA-21 
legislation and I would be remiss if I did not pause after delineating 
some of our successes under the program to thank you, Mr. Chairman, and 
all the Members of this Subcommittee and Full Committee, for the work 
you did to make the legislation a reality. As you can see, it has 
helped to produce real gains in the Philadelphia region.
    One issue which has come very much to the forefront in recent 
months, which none of us foresaw when TEA-21 was drafted, is that of 
the security of our system. Those of us who operate transit systems 
were so proud of the way our colleagues in New York, New Jersey, and 
Washington, DC responded to the September 11 attacks on our Nation. The 
events of that day showed clearly the paradox transit faces when 
thinking about the terrorist threat against the United States--our 
facilities are targets and escape routes all at the same time. 
Philadelphia was spared the horrors of that particular day last 
September. However, we are aware that our city contains historic 
landmarks, such as the Liberty Bell, Independence Hall, and City Hall, 
which our enemies may view as targets in the future. With that in mind, 
we have been evaluating our vulnerabilities to attack and the ways in 
which our system can play a role in any evacuation which may be 
required in the future.
    We have been assisted in our efforts by the Federal Transit 
Administration, which sent a security audit team to Philadelphia 
recently as part of its security audit of the top 30 transit systems in 
the country. Our initial estimate is that the cost of making the 
necessary security repairs to our system would be $100 million.
    As you look ahead to the reauthorization of TEA-21, we have some 
thoughts on how the programs can be improved even more. I know you will 
be spending many, many hours examining options for program improvements 
in the months ahead. As you do, I hope you will keep in mind some broad 
principles which I believe will help produce legislation of maximum 
benefit to public transportation service in our region and across the 
country.
    Here are the key principles I believe should be part of your 
deliberations:

<bullet> Focus support where you get the biggest bang for the buck. The 
    Federal transit program has for a generation been a needs-based 
    program. In defining needs, the Federal Government should look to 
    place its resources behind projects and programs which will provide 
    benefits in areas where transit is a proven force in the 
    marketplace or where compelling evidence of the need for new 
    service is presented.

          SEPTA applies this same principle to the management of its 
        own capital program. That is one of the reasons why we are the 
        only rail property which built its core system without Federal 
        funds and which has never built new or expanded service using 
        Federal New Start funds. Over the life of the Federal program 
        we have always felt it better to focus on modernizing our 
        existing system and adding capacity to it. Going forward, we 
        will be continuing to modernize the Market-Frankford line, 
        buying new rail cars for our commuter rail system and otherwise 
        focusing on preserving--and even improving--the quality of our 
        existing system.
          Even with this focus on rebuilding however, we are prepared 
        to respond to new opportunities as evidence mounts that our 
        suburban communities require new rail service to deal with 
        growing congestion on their road networks. With that in mind, 
        we are exploring two promising New Start projects. The 
        Schuykill Valley Metro project would place service much like 
        what you have here on the Washington Metro system on an 
        existing railroad line connecting Philadelphia with Reading in 
        the Lehigh Valley. The Cross County Metro system would also run 
        on existing tracks in our suburban areas and would connect our 
        major regional lines. The result would be vastly improved 
        suburb-to-suburb rail travel options.

<bullet> Maintain guaranteed funding. One of the great achievements of 
    TEA-21 was its provisions to ensure that transit spending would 
    increase at guaranteed levels which would not be affected by the 
    annual appropriations process. This principle of assured funding is 
    essential to a program which focuses on capital expenditures. 
    Capital programs require reliable funding from year-to-year so that 
    long-term procurements and construction projects can be carried-
    out.
<bullet> Continue program growth. The TEA-21 era has seen record growth 
    in the transit program. However, the program continues to fall 
    behind the growth curve for the Federal highway program. For 
    example, 20 years ago, the ratio of funding for the Federal-Aid 
    Highway program as compared to the Federal transit program was 
    approximately 2-to-1. Today, that ratio is more than 4-to-1. While 
    it is undeniable that the need for work on our highway network has 
    grown considerably in the last 20 years, it is hard to imagine the 
    rate of growth in the need has been twice that in the transit 
    program. Recent studies by the American Public Transit Association 
    (APTA) have estimated the total funding need for transit to be $42 
    billion per year. The current Federal program (at $7.2 billion per 
    year) meets about 17 percent of that goal. It is my hope the 
    Committee will consider significant growth in Federal spending for 
    transit as part of a strategy to catch-up to the growth in the 
    highway program and the growth in transit needs.
<bullet> Improve flexible funding programs. One way to address the 
    growing gap between highway and transit funding would be to improve 
    flexible funding programs such as Congestion Mitigation and Air 
    Quality (CMAQ) and the Surface Transportation Program (STP) to 
    provide additional encouragement to States and regions to allocate 
    funds to transit. These programs were an important innovation in 
    the early 1990's, but there is room for improvement to encourage 
    use of flexible funds. These Federal programs should address 
    transportation deficiencies in heavily traveled and congested 
    regions by providing flexible funding resources for viable public 
    transit options.
<bullet> Examine program reforms. As SEPTA evaluates the potential to 
    develop the Schuykill Valley Metro project, we have taken note of 
    the fact that the Federal transit program includes at least one 
    important barrier to using design/build contract techniques. In 
    current practice, the Federal Transit Administration requires that 
    a project be 60 percent designed before a Full Funding Grant 
    Agreement can be completed for it. Waiting until that level of 
    design to lock-in a contractor robs a project sponsor of most of 
    the benefits of the design build approach. I hope the Subcommittee 
    will review ways to remove this barrier while still preserving the 
    necessary Federal oversight role.
<bullet> Provide security funding. As I noted earlier, transit systems 
    such as ours are both targets for international terrorists and part 
    of the response to terrorism. The Administration and Congress have 
    recognized the link between the foreign threat to our Nation and 
    the security of our transportation facilities through the creation 
    of the Transportation Security Administration (TSA). Given that the 
    actions we need to take at SEPTA flow directly from this foreign 
    threat, we believe the Federal Government should make available 
    significant new funds from outside the traditional transit program 
    to meet this need.
<bullet> Meet new market challenges. As I said before, the creation of 
    the Jobs Access Reverse Commute program by TEA-21 was a good 
    response to a market which was developing in the late 1990's. As we 
    approach the next authorization period, another market which is 
    expanding enormously is that of transit service for the elderly. 
    Demographic changes can be sweeping, but the good news is we can 
    see them coming. The baby-boom generation will enter its seventh 
    decade during the next authorization period. Many elderly who do 
    not fall under the protection of the Americans with Disabilities 
    Act will need expanded, flexible transit service. We will be called 
    upon to provide that service and will benefit from assistance from 
    the Federal Government as we do so. I hope we can work with this 
    Committee to develop innovative approaches to respond to this fast-
    growing market.

    Mr. Chairman, before closing, I feel it is important to mention 
another key issue which is now before the Senate and which may well be 
included in the upcoming TEA-21 reauthorization. That issue is the fate 
of Amtrak. As you look at the pros and cons of providing additional 
assistance to Amtrak, it is my hope you will keep in mind the 
importance to commuters up and down the East Coast of improving and 
maintaining the rail infrastructure on the Northeast Corridor. SEPTA 
operates it busiest commuter lines on Amtrak right-of-way. Together 
with our colleagues in Virginia, Maryland, New Jersey, New York, 
Connecticut, Rhode Island, and Massachusetts, we carry many multiples 
of the passenger load carried by Amtrak over those tracks each day. As 
you consider the future of service on the Northeast Corridor, please 
keep in mind that most of the people using it are customers of the 
commuter railroads. In the absence of a financially healthy intercity 
rail operator on that line, the burden on the commuter agencies to 
maintain service would be impossible to bear.
    Mr. Chairman, I thank you for the opportunity to testify before you 
today. SEPTA hopes to work with you and each Member of this 
Subcommittee as you develop legislation to take us through the next 
authorization period.
                               ----------
              PREPARED STATEMENT OF BEVERLY A. SCOTT, PhD
         General Manager, Rhode Island Public Transit Authority

                             April 25, 2002

    Good afternoon Mr. Chairman and Members of the Subcommittee. As 
General Manager of the Rhode Island Public Transit Authority (RIPTA), I 
welcome this opportunity to share my thoughts with you on the positive 
impacts of the transit provisions of the Transportation Equity Act for 
the 21st Century (TEA-21)--on our transit system in particular--and 
other medium-sized transit properties.
    The Rhode Island Public Transit Authority (RIPTA)--one of only four 
statewide transit systems in the country--has the primary 
responsibility for directing statewide public transit service. RIPTA is 
managed under the direction of a seven-member Board of Directors. Rhode 
Island's statewide public transit network includes a fleet of 250 
buses--10 percent of which are fueled by compressed natural gas, 120 
paratransit vans, commuter rail, Amtrak service, water transportation 
service from Providence to Newport, and a statewide carpool/commuter 
benefits program. In fiscal year 2001, approximately 21 million 
passenger trips were carried on RIPTA's bus and paratransit services.
    As the statewide public transit organization, RIPTA is charged with 
the responsibility for ``mobility management'' and has a primary role to expand the access and mobility opportunities for Rhode Islanders by 
undertaking actions and supportive strategies, directly and in 
collaboration with others, to provide a full range of travel options to 
the single-occupant automobile. A copy of RIPTA's TRANSIT 2000 Service 
Plan--the transit authority's comprehensive, multiyear transit 
improvement plan has been included (Exhibit 1).
TEA-21--Expanding Mobility Opportunities
    RIPTA has experienced ridership growth of 31 percent since the mid-
1990's--thanks in large measure to increased Federal investment in 
public transportation. Building on the framework established under 
ISTEA, TEA-21 has given us the additional funding, predictability of 
resources, and flexibility to make improvements necessary to bring our 
statewide transit system up to a ``state of good repair'' and at the 
same time--make modest, but strategic investments for the future.
    In the final analysis, TEA-21 has allowed us to more effectively 
meet the mobility needs of Rhode Island residents, our communities, and 
visitors to the State. Increased Federal transit investment and 
guaranteed funding levels--have also made it possible for us to 
leverage local reinvestment in public transportation.
    This additional local investment--coupled with your national 
leadership to increase public transit funding--have made it possible 
for our transit system to: reinvest responsibly; make significant 
strides in returning our statewide public transit system to a ``state 
of good repair'' and begin implementing new, innovative services.
    Bottom line, over the past several years, TEA-21 funding has 
allowed the Rhode Island Public Transit Authority to:

<bullet> Significantly improve service reliability;
<bullet> Introduce new and innovative transit services--with an 
    emphasis on addressing unmet mobility needs in historically under 
    served communities;
<bullet> Introduce new technologies--including the State's first 
    alternative fuel vehicles, a modern communications systems;
<bullet> Replace and upgrade the system's extremely aged bus fleet;
<bullet> Provide basic customer amenities--like new bus stop signs, 
    shelters, bike racks, and better public information;
<bullet> Begin building a network of Transit Centers and hubs 
    strategically located throughout the State;
<bullet> Begin the deployment of ITS applications;
<bullet> Implement a serious training and employee development program; 
    and
<bullet> Most Importantly--build strategic local partnerships and 
    improve the overall image of public transportation in our State.
Highlights of RIPTA's TEA-21 Initiatives

The Providence LINK--Introduction of RIPTA's First Alternative Fuel 
        Fleet
    In July 1999, with the opening of the Providence Place Mall--the 
largest covered urban mall in New England--RIPTA introduced its 
Providence LINK downtown circulator system--utilizing vintage-design 
trolleys--powered by compressed natural gas, the transit system's first 
alternative fuel vehicle fleet. A circulator system that connects 
virtually every major downtown location--including City Hall, the State 
Capitol, Providence's financial district, the new mall, major 
hospitals, hotels, restaurants, the local arts & entertainment 
district, and all of the downtown colleges and universities--the LINK 
carries approximately 65,000 passengers each month--and is a hit with 
both local residents and travelers. Funded by a CMAQ grant, the LINK is 
designed to reduce traffic congestion and improve air quality.

The Providence to Newport Ferry Demonstration Project
    With CMAQ funding, RIPTA launched its water ferry demonstration 
service in summer 2000, connecting our Ocean State's two major 
destination locations--the capitol city of Providence and the city by 
the sea, Newport. Providing both residents and travelers with an 
additional option to single occupancy vehicle use--this new service 
exceeded its goal of 40,000 passengers during its first year of 
operation. This number represents the removal of over 19,000 vehicles 
from heavily congested roads between Providence and Newport.

Flexible Services--Jobs Access Funds Help Expand Mobility Opportunities
    Rip's FLEX service is a demand-response community circulation 
service utilizing smaller vehicles. This flex zone services combine 
fixed pick-up points within a designated geographical area with the 
added convenience and flexibility of advance reservation features. In 
all instances, our Flex services have been designed to ``connect'' with 
RIPTA's fixed-route transit network and other key intermodal 
connections.
    These new transit services offer a practical and affordable public 
transportation option--particularly for residents in Rhode Island's low 
density rural and suburban communities that have traditionally had 
little or no access to conventional public transportation service--and 
special needs groups--like our working disabled, seniors, and working 
parents with childcare needs transitioning from welfare to work.
    Expanding RIPTA services would not have been possible without the 
cooperation and support of RIPTA's largest union--the Amalgamated 
Transit Union, Local 618. In 1998, RIPTA and ATU Local 618 were able to 
negotiate one of the more progressive transit contracts in the 
country--providing for a Flexible Services Division Rate at 47 percent 
of a top bus operator's wage rate--making it possible for RIPTA to 
affordably expand service.
    Partially supported with Jobs Access funds, RIPTA currently has 
five very successful flexible services in operation--providing service 
to the communities of Westerly, Narragansett, Portsmouth/Tiverton, 
Woonsocket, and West Warwick. This past year, our State's Jobs Access-
funded services were cited for their innovation and creativity--and 
received one of ten national recognition awards from the American 
Public Transportation Association.
    One of our Jobs Access-funded Flex services was designed in 
partnership with the Rhode Island Department of Human Services (DHS). 
This service which is open to the public--specifically targets DHS 
clients transitioning from welfare-to-work programs with transportation 
to jobs and job-related training. This specially designed service also 
provides transportation for their children to daycare providers. 
RIPTA's Jobs Access program uses parental input to help coordinate pick 
up times and locations and also accommodates parents, allowing them up 
to 15 minutes to bring their children into daycare facilities before 
returning to the Flex vehicle to continue on to work. A RIPTA Mobility 
Specialist provides complete trip planning for each passenger. Job 
Access Flex is currently providing open door service in two communities 
Woonsocket and West Warwick. In the first year of operation, the Job 
Access Flex transportation service has clocked over 25,000 passenger 
trips.

WorkLINK--New Flex Service Targets Disabled Residents
Who Need Transportation-to-Work
    Launched in October 2001, WorkLINK is a pilot program funded by 
State and Jobs Access funds which targets the transportation needs of 
the working disabled in our State--with a priority on residents in 
communities with little or no access to conventional public 
transportation or ADA paratransit services. RIPTA partnered with the 
Governor's Commission on the Disabilities, the Rhode Island Department 
of Labor & Training, Rhode Island Department of Mental Health, 
Retardation & Hospitals, Rhode Island Department of Human Services, 
Rhode Island Disability Law Center, and other local disability advocacy 
organizations to develop this pilot program.
    The planning work took almost a year--including an extensive 
statewide survey of the mobility needs of our disabled residents--the 
most up-to-date factual information on the unmet work-related 
transportation needs of Rhode Island residents with disabilities. Once 
again, without Jobs Access funding, we would not have been in a 
position to initiate this service last year.

A State of Good Repair--A Necessary Investment in Equipment and 
        Facilities
    As a result of additional Federal transit funding and 
predictability of resources, RIPTA has been able to implement a 
multiyear capital program to replace and upgrade its aging fleet and 
facilities. Since TEA-21, RIPTA has purchased 60 new buses--including 
40-foot Orions manufactured in New York, NOVA 30-foot and 40-foot buses 
from New Mexico, and CNG trolleys from Kansas. This past week, we also 
began receiving delivery of five 30-foot CNG low floor buses. All of 
the buses replaced were well beyond their useful service life--some as 
old as 16 years. TEA-21 funding has also enabled RIPTA to implement a 
structured replacement cycle for its extensive statewide paratransit 
vehicle fleet.
    Over the past several years, we have also purchased 35 new vehicles 
to replace old paratransit vans used for our nationally recognized 
statewide coordinated paratransit system--``the RIde''--which provides 
both ``ADA-mandated'' transit services for seniors and disabled 
residents who are unable to utilize conventional public transit 
service. Our statewide RIde Program provides human and social 
services--funded transportation services for seniors, people with 
disabilities, and low-income residents--with funding provided by the 
Department of Elderly Affairs, Mental Health & Retardation, the 
Department of Human Services, the Governors Commission on Disabilities, 
and local communities.

RIPTA's First Major Bus Rehabilitation Program
    Today, 1,992 buses are being rehabilitated which will extend their 
useful life by an additional 5 years. Phase I of the project is being 
performed by the Blitz Corporation of Chicago, Illinois--the oldest and 
largest bus manufacturer in the United States. At Blitz, each of these 
46 vehicles will receive new engines that meet current EPA emissions 
standards, new transmissions, new undercarriages, and new wheelchair 
lifts for improved performance.
    With the recent opening of RIPTA's newly constructed John H. Chafee 
Heavy Maintenance & Operations Center--which replaces RIPTA's 100 year 
old central maintenance garage, Phase II of this extensive bus 
rehabilitation program is being performed in-house by RIPTA's own 
maintenance employees--a real first and source of pride for our 
employees--who now have the opportunity and the resources to learn how 
``to fish'' for themselves. This phase of the rehab includes overhaul 
and rebuild of the buses' heating and air conditioning systems; 
installation of new brakes, tires, passenger seating; and complete 
interior and exterior painting.

The Kennedy Plaza Transportation Center--A State Landmark
    This past Saturday, RIPTA opened the first phase of its Kennedy 
Plaza Enhancement Project--which serves as a key connection point for 
80 percent of our statewide bus service. Located directly in the public 
square of downtown Providence, this historic space has been the nexus 
for transportation and commerce within the State and Rhode Island's 
capitol city for over 125 years.
    RIPTA's modern Intermodal Transportation Center (ITC) building in 
the redesigned Kennedy Plaza will open early this fall. The entire 
project has been developed with significant customer and general public 
input. The ITC will substantially enhance the levels of service, 
convenience, and security available to commuters, visitors and 
pedestrians in downtown Providence. When completed, this state-of-the-
art intermodal transportation facility will also house Greyhound, 
Bonanza, Amtrak's self ticketing service, a small Police Substation, 
and a local arts and entertainment office.

Intelligent Transportation Systems (ITS Demonstration Project)
    The application of new technologies is a key element of the new 
Kennedy Plaza ITC. RIPTA's strategy in this regard is three-fold. 
First, introduce relatively low-cost applications that are both visible 
and immediately beneficial, for example, APC's, information kiosks, 
self-ticketing machines, talking ATM's, audible lights and message 
signs, blinking lights and call boxes on bus stops, automated schedule 
information, and surveillance cameras. Second, incrementally build the 
appropriate systemwide platform and infrastructure that facilitates 
phased ITS implementation--as pilot projects are refined and funding 
becomes available. Finally, implement the authority's ``ITS 
Demonstration'' Project at Kennedy Plaza. Key elements of the project 
include onboard electronics (voice and data transmission) for the 
Providence LINK trolley system, GPS locator, and an onboard computer 
with a mobile data terminal; the ability to provide ``real-time'' 
trolley information; and ``next bus'' type passenger information signs 
at key trolley locations along the trolley routes which pass every 
major key location in the downtown Providence area.
    The purpose of this ITS Demonstration Project is to provide RIPTA 
customers and the general pubic with an opportunity to personally 
``see'' and ``experience'' the value and benefits to be derived from 
the application of intelligent transportation systems--in a small, 
controlled environment. It will also permit RIPTA to implement and 
refine these highly beneficial--and at the same time--expensive 
applications on a smaller scale before taking them to full system 
build-out.
    Phase I of this ITS Demonstration Project--$1.5 million was 
appropriated in fiscal year 2002 as part of the Bus Discretionary 
program. The remaining $2.5 million has been requested for the upcoming 
year.

Conclusion--TEA-21 Works!
    Mr. Chairman, the tangible results we have experienced in our 
State--which are mirrored by communities across the country--
demonstrate that public transit definitely makes a positive difference 
and that TEA-21 Works! As you move forward to consider reauthorization 
of the transit provisions of the Act, we strongly ask for your support 
of increased Federal transit investment, a continuation of the TEA-21 
funding guarantee provisions, continuation of the flexible funding 
provisions that allow highway and transit funds to be transferred based 
on State need; as well as continuation of the current common matching 
shares for highway and transit projects as provided in TEA-21.
    Finally, I cannot end without expressing our pride in your national 
leadership role on this important issue; and thanking you--on behalf of 
our many customers, employees, and the general public--for all of your 
extraordinary help and support to improve public transportation in our 
State.
              *      *      *      *      *      *      *
                               EXHIBIT 1
                Rhode Island Public Transit Authority's

Transit 2000 . . . Expanding Mobility Opportunities
    Expanded mobility--the effective movement of people and goods is 
critical to our State's revitalization. At the Rhode Island Public 
Transit Authority (RIPTA), we believe that Transit 2000--our new vision 
and direction for statewide transit services--offers an important 
component of the State's overall mobility solution.
    Since RIPTA's creation in 1964, the travel patterns and mobility 
needs of Rhode Islanders have changed dramatically. This ``changing 
face of mobility'' is not unique to Rhode Island. It is the result of 
two major phenomena that have occurred across the United States during 
the past several decades. Specifically, widely dispersed land use and 
growth patterns characterized by dramatic population shifts to 
metropolitan and suburban areas; and major demographic shifts--
particularly the rapid movement of women into the workforce, special 
mobility needs of dependent children, and the graying of America.
    As populations have increasingly dispersed--automobile ownership 
and single occupancy vehicle trips--the greatest single source of air 
pollution--have skyrocketed. Most of us are continually challenged to 
figure out how to effectively balance our day-to-day responsibilities--
family, employment, medical and recreational--with convenient and 
reliable transportation options. All too often, the only reasonable 
choice--for those fortunate enough to have a choice--is the single 
occupancy vehicle.
    We are not antiautomobile. We are committed to providing realistic, 
economical transportation alternatives--quality mobility choices--to 
the single occupancy vehicle trip. This can only happen if we work 
together to provide other travel options that conveniently meet the 
mobility needs of Rhode Island residents and visitors. From our vantage 
point, our ultimate success in achieving this objective is much more 
dependent on the establishment of supportive land use, development, and 
governmental policies than on transit subsidies.
    Transit 2000 is the result of a year-long review of virtually every 
aspect of our statewide transit system--both transit and paratransit 
services. Our strategy links Rhode Island's cities and towns with a 
broad array of quality transportation choices--specifically 
``tailored'' to more effectively meet the mobility needs of Rhode 
Island residents, communities, and visitors. Key elements of our new 
statewide transit strategy are:

<bullet> Improving overall service reliability, convenience, and 
    attractiveness--with an emphasis on restructuring our core transit 
    services and replacement of the system's extremely aged bus fleet, 
    facilities, and basic passenger amenities.
<bullet> Establishing a network of major transit centers and transfer 
    hubs strategically located throughout the State--and sensitive to 
    the special accessibility needs of our elderly and disabled 
    customers.
<bullet> The introduction of new mobility options to the single 
    occupancy vehicle trip--like our ``Express Travel'' Ridesharing 
    Program that includes a guaranteed ride home.
<bullet> Innovations like the introduction of new technologies 
    (alternative fuel vehicles, SMART fare collection systems, 
    Computer-Aided Vehicle Dispatch, a new radio communications system) 
    and more flexible service delivery strategies.
<bullet> Transit services ``tailored'' for different communities, 
    travel needs, and population densities, including--frequent 
    ``fixed-route'' and ``community circulator'' transit services for 
    our State's most densely populated urban core areas; new ``cross-
    town'' services and improved ``express'' bus service for 
    established suburban centers of the State; and the introduction of 
    ``flexible,'' ``demand-response'' and/or expanded ``paratransit'' 
    services to complement peak period commuter services for our low-
    density communities across the State that cannot be effectively 
    served by traditional bus service.

Transit Choice . . . One Size Does Not Fit All
    This guide will help you better understand the different elements 
of RIPTA's Transit 2000 Service Plan.
    Flex Service includes a wide range of new service strategies 
specifically designed to serve Rhode Island's low-density suburban and 
rural communities--including community circulators using smaller 
vehicles that provide limited but predictable internal service 
(including both fixed points and reservation features) as well as 
connections to key activity centers throughout the State.
    Park-N-Ride Commuter Services specifically designed to provide peak 
period commuter service to downtown Providence, other major activity 
centers, and transfer hubs across the State.
    Specialized Paratransit Services--the ``RIde Program''--to address 
the special mobility needs of disabled residents and senior citizens. 
Specific program eligibility and funding for this coordinated 
transportation service is provided by RIPTA, the Rhode Island 
Department of Elderly Affairs, the Rhode Island Department of Mental 
Health & Retardation, the Governors Commission on Disabilities, and the 
Rhode 

Island Department of Human Services.
    RIPTA's Transit 2000 Service Plan is a comprehensive modernization 
plan for Rhode Island's statewide transit system. The first phase 
focuses on restructuring RIPTA's ``core'' transit services (replacing 
and/or eliminating low productivity services), upgrading basic 
passenger amenities throughout the State--bus stops, bus shelters, 
customer information, simplification of RIPTA's overall fare structure; 
beginning replacement of the system's increasingly aged bus fleet; 
completion of the Kennedy Plaza Intermodal Transportation Center (ITC) 
in downtown Providence, including implementation of an extensive 
downtown circulator system in Providence and a complementary Newport 
system utilizing compressed natural gas, trolley buses; completion of 
the Pawtucket Transit Center; renovation of the Newport Gateway Center; 
and the implementation of select pilot projects across the State which 
include the Newport-to-Providence Water Ferry project, demonstrations 
of RIPTA's new ``flexible'' service models; and beginning 
implementation of new technologies, including new communications and 
fare collection systems.
    Over the next few years, we are also in a unique position to 
benefit significantly from rail service improvements in the Northeast 
Corridor. At RIPTA, we look forward to working with other key 
partners--both locally and regionally--to ensure integrated planning, 
intermodal coordination, and maximum positive impact for our State from 
these new rail service opportunities.
    The second phase of Transit 2000 will focus on completing the core 
network of key transit centers and hubs, implementing new technologies; 
bringing successful pilot and demonstration projects to scale; and 
above all--working in partnership with key stakeholders throughout our 
State to establish transit friendly land use, growth, and development 
strategies.
    Transportation is first and foremost about ``people'' and ``quality 
of life.'' Who can (or cannot) get from place to place? How we plan and 
conduct our daily routines? The choices we make about what we do. 
Today, we have the need, challenge, and the opportunity to work 
together to rebuild and strategically reinvest in our statewide transit 
system. In the final analysis, how we choose to address the critical 
issues of ``mobility'' and ``access'' will determine the overall 
economic well being, 
environmental quality, character and livability of communities 
throughout Rhode Island.
    Many thanks to the thousands of Rhode Islanders--both transit 
riders and nonriders--who provided us with their recommendations on 
improving transit services. We also want to express appreciation to 
RIPTA employees, and our two unions--the Amalgamated Transit Union, 
Local 618 and the Laborers' International Union, Local 808 for their 
strong partnership in working to improve transit service to the 
residents and visitors of our State.
                               ----------
                   PREPARED STATEMENT OF LARRY WORTH

Executive Director, Northeast Colorado Association of Local Governments
                             April 25, 2002

    Mr. Chairman, I appreciate the opportunity to be here today.
    In 1981, the Northeastern Colorado Transportation Authority (DBA 
County Express) was created as a nonprofit organization to provide 
public transportation for area residents in the 9,600 square mile 
service area which includes the six northeastern counties of Colorado. 
This is not the mountain area of our State; it is a part of the rolling 
ranch country known as Colorado's eastern plains. I was invited to talk 
with you today because we operate in a very rural area. One way trips 
of 50 miles are routine and many are 150 miles or more. For this 
service, 48 vehicles--vans and minibuses--are used.
    The Board of Directors for County Express has defined trips for 
dialysis treatment and other medical appointments as a major priority 
of this public transportation system. Several of the nursing homes and 
assisted living facilities in Northeastern Colorado have contracted 
with County Express to transport their residents to medical, social, 
recreation, and shopping establishments. The cost for each trip is very 
high due to the long distances involved in this low-density 
agricultural and small town environment.
    Non-emergency medical transportation, known as HealthRide provides 
transportation at no cost to the rider to hospital facilities in 
Sterling, Brush, and Greeley through a negotiated contract with Banner 
Health systems. This Public/Private partnership creates a new model to 
deal with the increasing costs for the Medicaid program.
    Total County Express trips in 2001 were 79,133. Most passengers are 
elderly and/or disabled individuals, often in wheelchairs, who are 
transit dependent and wish to remain near family and friends rather 
than move to a larger town with more medical facilities.
    The six county population increased from 60,000 to nearly 70,000 
from 1990 to 2000. Most of the population growth has been concentrated 
in Morgan and Logan counties including the incorporated towns of 
Wiggins, Log Lane Village, Fort Morgan, Brush, and Sterling.
    What did TEA-21 do for the people of rural northeastern Colorado? 
Increased rural transit and bus and bus-related capital funding allowed 
us to buy more vehicles, replace a portion of our aging, high mileage 
fleet, and provide more and higher quality service to our passengers. 
The real impact in our area is not in the numbers and statistics but in 
the people.
    John Sanderson lives in Yuma and needs kidney dialysis three times 
a week in Sterling. Round trip mileage per day is 150 miles. The cost 
to County Express is $1 per mile or $150 per day or $450 per week for 
transportation. John is unable to drive, but if he could he would have 
to pay $52 per day out of pocket, based on mileage reimbursement to 
drive himself. Federal funds are essential for his transportation. 
Phillips County resident Tom Heath travels from Julesburg to Sterling 
100 miles roundtrip three times a week. That remote county targets its 
funding toward life saving nonemergency medical trips. County Express 
takes Susan Romero from her rural home to work each day in Sterling. 
What is unusual is that it also takes her four children to school along 
the way. They live outside the area served by the school bus. After 
school, the children are taken to childcare. At the end of Susan's 
workday she is picked up, then the children and they are returned home. 
This transit service is funded in part by TANF funds. Al Parrish, 67 
traveled from Brush to Greeley for radiology treatment, a distance of 
70 miles one way, 5 days a week for 7 weeks. His eyes are not good 
enough to drive that far. Jan Foley of Wray travels to Denver for 
medical treatment 186 miles one way.
    On most weekdays, a County Express HealthRide bus travels three 
times between Sterling and Greeley. It also stops in Brush and Fort 
Morgan. People who live off the route can get a separate delivery to 
one of the regular stops. The story is clear, County Express moves a 
small number of people great distances for very good reasons. Without 
subsidies from FTA, Older Americans Act, TANF, local government and 
other funding sources, area residents could not make these essential 
trips.
    Transit has grown faster than any other mode of transportation in 
the last 6 years. Your understanding of our need to invest in vehicles 
and staff means we have been able to do more for people. We have 
increased our service and we thank you for your good work on our 
behalf.
    What needs to be changed? Medicare funding does not include the 
cost of long distance transportation to medical appointments for our 
elderly population in northeastern Colorado. In order to meet that 
shortfall, additional funding under transportation laws would help. 
Other regulatory burdens disproportionately impact rural transit 
systems. Random Drug and Alcohol Testing, for example, is difficult due 
to the high cost of bringing staff in to a medical center or paying for 
mobile testing while maintaining confidentiality. Federal Transit 
Administration charter bus provisions require a lengthy process for a 
waiver. In our community, there are few options for a group to charter 
a bus.
    What needs to be done in the reauthorization?

More Federal Investment for Rural Transit
    Colorado with its growing population, the third fastest growing 
State, with a sparsely populated rural area is receiving a small amount 
of rural formula funding, about $2 million annually. We urge you to 
increase the minimum per State to $5 million annually as the Community 
Transportation Association of America has called for in its 
reauthorization proposal.
    Demand for public transportation services is greater than County 
Express can provide. At the Federal level we see that there is much 
focus on the transit needs in cities and they do need more passenger 
transportation. They certainly have terrible congestion problems. But 
what about those in the rural areas and small towns who cannot drive 
because of low vision or physical disabilities, who live far from 
medical facilities and grocery stores?
    Roads, are essential but we need drivers and small vans or 
minibuses on them to complete the trip. Transportation facilities and 
maintenance are a major problem with 48 vehicles traveling 427,000 
miles annually.

Consider the Needs of Our Aging Population
    You are aware of the fast growing 85-plus population. Relatively 
fewer in this age group are able to drive safely and need a stable 
effective transit service to remain in their homes. More access to 
medical services is essential. We need more vehicles more often in the 
remote areas of northeastern Colorado.
    Sedgewick County has oldest average population in the State. People 
move from farm to town into assisted living or a nursing facility. They 
stay in northeast Colorado because they want to stay networked with 
people they grew up with.

Connections Within Rural Areas and With Small and Large Urban Areas
    Make sure low-income people living in rural areas can get to jobs. 
The economic benefits of public transit can be significant. Continue 
the Job Access Reverse Commute program.
Consider the Impact of Regulations on Small Rural Transit Agencies
    Examine Drug and Alcohol Regulation random testing requirements. 
Consider FTA Charter regulations intended to protect private operators 
impact on rural communities with few options.
    Thank you for listening.

RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES FROM JENNIFER 
                            L. DORN

Q.1. I was heartened to hear the details of FTA's efforts to 
help some of our Nation's largest transit systems come to terms 
with a post-September 11 world. What is the FTA doing to assist 
smaller- and medium-sized properties?

A.1. The FTA is focused on providing solid technical assistance 
to facilitate the security of our Nation's transit systems. We 
plan to provide oversight, training and testing resources and 
share best practice materials with transit agencies in an 
effort to assist them in developing security plans that meet 
the security demands of their respective systems and riding 
public. To further this effort, we are making security and 
training resources available so that transit agencies will be 
able to create and implement emergency response plans tailored 
to their local needs.
    For example, we are now in the process of conducting 17 
regional security forums across the country to provide hands on 
assistance to mid-size transit agencies in developing emergency 
response plans and training of the transit workforce. These 
forums will help transportation and emergency response agencies 
work together to prepare and protect their community with 
coordination, communication, planning, and practice of safety 
and security measures. The goals is for participants to gain a 
better understanding of the roles played by each agency and 
begin the process of developing the plans, tools, and 
relationships necessary to respond effectively in an emergency 
situation.
    We have also developed security awareness courses for 
frontline employees and supervisors through the National 
Transit Institute (NTI). Recognizing that many small and medium 
transit agencies have limited training staff, NTI will directly 
deliver training to frontline employees and supervisors of 
these agencies. NTI will provide training to the training staff 
of larger transit agencies who will then conduct training for 
employees' at their respective agencies. FTA is also looking to 
expand security and emergency management courses, now offered 
through the Transportation Safety Institute of the Research and 
Special Programs Administration.
    Last, FTA is offering funding to medium-sized transit 
agencies to practice emergency response plans and procedures 
with local police, fire, and other emergency response agencies 
in their communities.

Q.2. In your prepared testimony, you mention that FTA is 
interested in easing the regulatory and statutory burdens faced 
by transit agencies, especially smaller agencies. Could you 
describe these perceived burdens in greater detail?

A.2. An array of statutory requirements has been created in an 
effort to promote good public policy. However, some of these 
requirements may be confusing or burdensome to smaller transit 
agencies. In many instances, depending on which program funds 
for which one is applying, smaller agencies are required by law 
to comply with the same requirements as larger systems, which 
generally have more resources to devote to such issues. There 
is generally little flexibility that allows FTA to apply these 
Federal requirements differently, yet still effectively, based 
on the size or nature of the recipient.
    In addition to major transit agencies in large urbanized 
areas, FTA also funds small rural systems that may have very 
small fleets that provide only demand responsive services, or 
private nonprofit agencies that may have a single vehicle to 
provide transportation services to their own clients. For 
example, FTA's Job Access and Reverse Commute (JARC) program 
requires that all recipients under the program, regardless of 
the size or nature of the recipient, comply with terms and 
conditions of the Section 5307 Urbanized Area Formula Program. 
Many of the small nonprofit recipients under the JARC program 
are not traditional public transportation providers. They find 
the Federal requirements associated with the funds extremely 
daunting, which caused some to opt out of the program. For 
others, it caused a delay in implementing the projects. We are 
reviewing our program requirements and will be proposing 
recommendations to ease these burdens as part of the 
Administration's surface transportation reauthorization 
package.

 RESPONSE TO WRITTEN QUESTIONS OF SENATOR CARPER FROM FAYE L. 
                             MOORE

Q.1. What is SEPTA's relationship with Amtrak?

A.1. SEPTA has a significant transportation relationship with 
Amtrak in the Southeastern Pennsylvania Service Area. Amtrak 
provides physical plant and operational support services for 
SEPTA trains, which operate on Amtrak territory. SEPTA's 
contractual relationships with Amtrak are basically covered 
under numerous service and lease agreements covering on and off 
corridor services, propulsion power, station leases, and force 
account work for construction, flagging, design, engineering, 
and maintenance. For fiscal year 2002 alone, SEPTA anticipates 
that expenses to be paid to Amtrak will total more than $28 
million.

Q.2. To what extent does SEPTA's commuter trains share track 
with Amtrak?

A.2. Over half of SEPTA's 548 scheduled weekday trains utilize 
approximately 100 miles of Amtrak right-of-way.
    The R1 Airport Line operates on approximately 1 mile of 
Amtrak's Northeast Corridor (NEC) track. The R2 Marcus Hook/
Wilmington/Newark Line to Wilmington, Delaware operates on 
approximately 35 miles of Amtrak's 1NEC track. SEPTA's R5 
Thorndale/Paoli Line, from Thorndale Station to Center City 
Philadelphia, operates on approximately 25 miles of track along 
the Harrisburg extension of the NEC. The R6 Cynwyd Line 
operates on 1 mile of NEC track. The R7 Trenton Line operates 
on approximately 30 miles of NEC track. Finally, the R8 
Chestnut Hill West Line operates on approximately 4 miles of 
NEC track.
    Amtrak also provides SEPTA with layover and storage at a 
number of terminal locations such as Trenton, NJ. Additionally, 
two of SEPTA's rail vehicle maintenance and repair facilities, 
Frazer and Overbook Yards and Shops, directly connect to 
Amtrak's right-of-way providing SEPTA's only means of access 
for the large number of trains that run to and from these 
facilities each day.
    Of the approximately 150 commuter rail passenger stations 
served by SEPTA's Railroad Service, 47 of them are 
geographically located on Amtrak owned and operated territory. 
These 47 stations include some of the most heavily used 
stations by SEPTA passengers. Additionally, SEPTA has a 
separate lease agreement for use of 30th St. Station 
Philadelphia, through which all of our commuter rail lines 
traverse.

Q.3. What is the amount of coordinating SEPTA does with Amtrak 
with respect to scheduling?

A.3. SEPTA and Amtrak maintain an extremely close coordination 
effort in regard to scheduled operations. Any potential 
schedule changes initiated by either party on the Amtrak 
Northeast Corridor or Harrisburg Lines require even further 
coordination to implement. The two agencies exchange schedules 
in an effort to dovetail any respective needs and to resolve 
conflicts which may arise as a result of schedule changes. 
While SEPTA and Amtrak have regularly scheduled changes to 
timetables, we discuss all issues, even minor changes or 
additions, as both agencies have a customer base to satisfy.

Q.4. What, if any, maintenance or construction projects does 
SEPTA jointly work with Amtrak?

A.4. SEPTA works very closely with Amtrak on a number of 
maintenance and construction projects each year. Both the 
Authority and Amtrak have advanced a significant number of 
projects in the Commonwealth to upgrade the rail infrastructure 
to bring the existing facilities to a state of good repair.
    Annually, SEPTA pays to Amtrak trackage rights fees in 
excess of $20 million dollars to operate on both the Northeast 
Corridor between Newark, Delaware and Trenton, New Jersey and 
between Philadelphia and Thorndale on the Philadelphia to 
Harrisburg rail line.
    The trackage rights payments provide resources to Amtrak to 
maintain and upgrade the track and associated infrastructure 
(power, signals, and catenary) in this right-of-way. In 
addition, SEPTA leases stations on these rail lines and 
advances capital projects to bring these stations to a state of 
good repair along with expanding parking facilities. In the 
last few years, SEPTA and Amtrak have worked together to 
advance major improvements at more than 10 stations, investing 
more than $50 million in station and parking improvements. In 
addition, SEPTA contributed more than $10 million of Federal 
and State capital grants toward the construction of Amtrak's 
Centralized Traffic Control facility at Amtrak's 30th Street 
Station.

Q.5. What are SEPTA's views on franchising?

A.5. Franchising could prove to be potentially problematic for 
SEPTA in light of the established methods, procedures, and 
operating parameters discussed above. In addition, SEPTA has 
serious concerns over this issue as it relates to the Northeast 
Corridor or the Harrisburg Extension of the NEC, which could 
result in one operator for each line or many operators for 
pieces of both lines. The unknown structure of any potential 
franchising with multiple operators causes concerns over 
station ownership, control of track rights, dispatching, 
maintenance, and SEPTA's overall input on decisionmaking. There 
could also be varying standards of investments in 
infrastructure maintenance which could be inconsistent with the 
transportation needs of SEPTA.

Q.6. What kind of challenges would it present to SEPTA if 
multiple carriers were running routes along the Northeast 
Corridor?

A.6. Significant challenges currently exist with just one 
carrier along the Northeast Corridor. The major challenge SEPTA 
would face if multiple carriers ran along the Northeast 
Corridor would be coordination among those carriers and SEPTA's 
input in decisionmaking. To introduce multiple carriers, or 
freight operators, would further constrain an already 
cumbersome decisionmaking process. Further, establishing 
protocols for conflict resolution could potentially result in 
the overall degradation of service that SEPTA provides to its 
daily passengers.

Q.7. What kinds of maintenance and capacity needs currently 
exist along the Northeast Corridor?

A.7. Capacity along the Northeast Corridor is currently at a 
premium. There are several areas where Amtrak, SEPTA, and New 
Jersey Transit presently share trackage on the Northeast 
Corridor. All three agencies share trackage in Trenton, New 
Jersey. Through diligent coordination overseen by Amtrak, these 
three services flow through the station. Currently, when Amtrak 
trains divert from the inner tracks to the outer tracks to 
access the platforms at Trenton, SEPTA train movements are 
greatly affected.
    Closer to Philadelphia there is a similar situation where 
we share trackage rights for a distance of approximately 6 
miles including a point at Zoo Interlocking where one track in 
each direction is used. Close schedule coordination is required 
to avoid conflicting movements.
    Further down the Northeast Corridor in the State of 
Delaware, Amtrak, and SEPTA service share two tracks for a 
distance of over six miles north of Wilmington and a mile and 
half just south of Wilmington. The sharing of trackage is 
further constrained by the need for SEPTA service to operate on 
a single track (in both directions) on the Northeast Corridor 
to serve the single platform Churchman's Crossing Station.
    Amtrak and SEPTA also share trackage on the Harrisburg Line 
just West of Zoo Interlocking where SEPTA has the higher 
traffic levels, but Amtrak's schedules are integrated into the 
Northeast Corridor operation and are somewhat less flexible.
    In regard to maintenance, annual maintenance of railroad 
right-of-way is an important aspect of providing quality 
intercity and commuter rail service. Whether it is annual brush 
cutting, tie renewal and surfacing, it is critical that the 
infrastructure be maintained and not allowed to fall into a 
state of disrepair. Although Congress has provided significant 
financial resources to Amtrak to upgrade the infrastructure of 
the Northeast Corridor and to acquire the new high-speed rail 
cars, the continuation of an annual maintenance program, and 
capital investment of the physical plant is essential.
    In addition, Amtrak, who owns the Philadelphia to 
Harrisburg rail line, has made very few capital improvements 
over the years on this rail line. The line has old track, 
signals, power, and related infrastructure requiring 
significant capital and maintenance investments. Many of 
SEPTA's service delays on this line can be directly attributed 
to the deteriorated state of the infrastructure.
    I hope that the above satisfactorily addresses the 
questions raised by Senator Carper. I would also like to extend 
my sincere thanks for having had the opportunity to testify 
before the Housing and Transportation Subcommittee's oversight 
hearing on Transit in the 21st Century: Successes and 
Challenges. If I may be of any further assistance to you or the 
Committee, please do not hesitate to contact my office.

 RESPONSE TO WRITTEN QUESTION OF SENATOR REED FROM LARRY WORTH

Q.1. You mentioned that many of your passengers use your 
service to get to needed medical help, which Medicare does not 
cover. Is Medicaid an alternative source of funding to cover 
the cost of these riders?

A.1. Medicare does not cover nonemergent transportation for 
clients to medical facilities and appointments. Currently, the 
only reimbursement for nonemergency transportation is the 
Medicaid program. In order for Medicaid to reimburse this cost, 
the client must be eligible for Medicaid and have the prior 
authorization from the County Department of Social Services. 
The only other alternative is private pay from the individual 
or insurance if it is available to the individual.


                     TEA-21: A NATIONAL PARTNERSHIP

                              ----------                              


                        THURSDAY, JUNE 13, 2002

                               U.S. Senate,
  Committee on Banking, Housing, and Urban Affairs,
                Subcommittee on Housing and Transportation,
                                                    Washington, DC.

    The Subcommittee met at 10 a.m. in room SD-538 of the 
Dirksen Senate Office Building, Jack Reed (Chairman of the 
Subcommittee) presiding.

             OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. The Subcommittee will come to order.
    Good morning. Welcome to today's hearing, the second in a 
series of hearings the Subcommittee will hold on the 
reauthorization of TEA-21. In most instances, it would be a 
rare hearing, indeed, where a witness from Boise, Idaho and a 
witness from Detroit, Michigan, would come and deliver the same 
message about the same program.
    Too often, different regions tell us that Federal programs 
suffer from a one-size-fits-all approach. That is not the case 
today. The diverse panel from which we will be hearing 
represents a broad spectrum of communities that support transit 
and dedicating scarce resources to a balanced national 
transportation policy.
    Mayors Kilpatrick and Coles, as well as Commissioner 
Mayfield, all believe that transit must be part of their 
community's future. They recognize that roads alone cannot do 
the job of getting people to work, building a sustainable 
downtown, helping individuals make a transition from welfare to 
work, or meeting clean air mandates. Only a locally developed 
transportation plan that incorporates highway, transit 
services, car-pooling, ferries, and a variety of options can 
achieve that goal. TEA-21 has provided guaranteed resources and 
flexibility so that communities as diverse as Detroit, Dallas, 
and Boise can develop that balanced local policy.
    Some of you may have seen some recent press reports 
pointing out that the vast majority of Americans use their cars 
to commute and shop and that TEA-21's investment in transit has 
not paid off. But the facts are quite compelling for a 
different conclusion.
    Transit has the highest ridership in 40 years. Over the 
past 6 years, the transit growth has increased 23 percent. That 
is faster than the U.S. population growth. It is faster than 
highway use. And it is a faster growth rate than domestic air 
travel. That is testimony to the success of TEA-21.
    Indeed, the hallmark of TEA-21, and its predecessor, ISTEA, 
was the recognition that our national policy needed a flexible, 
balanced transportation approach, not a one-size-fits-all edict 
from Washington. And the fact that transit has grown faster 
than all other modes of transportation would seem to be very 
compelling evidence that TEA-21 works.
    But even though TEA-21 has been a success, there are 
questions that this Subcommittee must confront. The question 
that has and will concern me most throughout this process is 
how do we meet the demand for greater transit funding?
    I know that each of our witnesses has the desire to expand 
transit services in their communities. But such expansion will 
not come cheap. Nor will it come from simply reslicing the 
funding pie. To meet this demand, we will need to draw not only 
on the Members of this Subcommittee on both sides of the aisle, 
but also on local officials to preserve and grow our Nation's 
transit systems.
    And now, let me recognize the Ranking Member, Senator 
Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you Mr. Chairman for holding this 
hearing. I appreciate the opportunity to hear from elected 
officials as we continue in the TEA-21 reauthorization process.
    It is imperative that we secure the input of all of our 
transit leaders. It has always been a priority of mine to seek 
the perspective of community leaders who know firsthand the 
needs of the public.
    Public transit serves incredibly important purposes, 
providing affordable mobility, congestion management, and 
supporting smart growth. TEA-21 has provided a strong framework 
for Congress to address the country's transportation needs and 
has been successful in many ways. From the experienced 
witnesses we have here today, I hope we will hear not only of 
the success of the Federal transit programs in their areas, but 
also some suggestions for changes or improvements.
    I also want to be sure to give consideration to small-size 
towns and rural areas during our discussion here today. Small 
communities and rural areas have many important transit needs, 
and services like paratransit can be vital to a town's 
survival.
    Because of the complexity of transit programs, local 
officials from small towns face barriers. It is important that 
transit programs are available to all city officials and 
leaders, no matter the size of the area they represent. For 
example, in smaller areas, there are often part-time elected 
city officials or staff that are responsible for running 
multiple agencies. These individuals do not have the 
opportunity or resources to develop expertise with all transit 
programs. But it is important that we consider their concerns 
and issues in this discussion.
    I thank the Chairman again for holding this hearing and I 
look forward to hearing from the witnesses.
    Senator Reed. Thank you very much, Senator Allard.
    We are very lucky today. Our panel consists of Mayor Kwame 
Kilpatrick of Detroit, Mayor Brent Coles of Boise, Idaho, and 
Commissioner Ken Mayfield of Dallas County.
    At this point, I would like to recognize Senator Stabenow 
of Michigan, for the purposes of not only her opening 
statement, but also an introduction of the Mayor.

              STATEMENT OF SENATOR DEBBIE STABENOW

    Senator Stabenow. Mr. Chairman, thank you so much for your 
leadership on this very critical issue.
    It is wonderful to see the Mayor of the great city of 
Detroit here with us today, as well as Congresswoman Carolyn 
Cheeks Kilpatrick. I am extremely proud of the city of Detroit 
and of Mayor Kilpatrick. He brings a very strong vision of 
revitalization and a history of leadership from the city of 
Detroit.
    Before being elected to this office, he served in the 
Michigan House of Representatives where he served as Democratic 
leader. I also should indicate that Congresswoman Kilpatrick 
and I came into the State House of Representatives as well in 
1979. We were both 5 years old, just for the record.
    [Laughter.]
    We then came into the U.S. House together and she has been 
a shining star for us in Michigan. We are so proud of you.
    Prior to becoming Mayor, Mr. Kilpatrick served as Vice 
Chairman of the Transportation Committee in the State House. So 
he brings a tremendous amount of expertise. He has been working 
hard to revitalize Detroit, with a redevelopment plan that 
includes affordable housing, safe public transit, and a modern 
downtown Woodward Avenue Corridor area.
    I am very pleased that we are working together on a 
Federal-local partnership that will bring what is necessary to 
build a strong rail and bus transit system in the city of 
Detroit.
    I also, Mr. Chairman, for the record, do have more 
information that I would like to leave regarding the needs of 
Michigan. While transit discussions often focus on rail and 
subway systems, States like Michigan that do not have major 
subway systems, also have tremendous mass transit needs.
    I would like to submit for the record----
    Senator Reed. Without objection.
    Senator Stabenow. --what our needs are. I would just also 
indicate for the record that, right now in Michigan, we are 
only receiving 42 cents back for every transportation dollar 
sent to Washington. And I am looking forward with the 
Chairman's leadership, that we will be able to put in place 
policies that will increase that number. The State of Michigan 
has buses in every county and needs in every county, and we 
need to be addressing that and bringing back a larger share of 
dollars into Michigan.
    So, again, thank you for this very important hearing.
    And I would like at this point, if the Chair would agree, 
to recognize the Congresswoman from the city of Detroit, the 
great State of Michigan, for a few comments before we hear from 
the Mayor.

             COMMENTS OF CAROLYN CHEEKS KILPATRICK

               A U.S. REPRESENTATIVE IN CONGRESS

                   FROM THE STATE OF MICHIGAN

    Representative Kilpatrick. Thank you, Mr. Chairman, Mr. 
Ranking Member, Senator Allard, and to my colleague, Senator 
Stabenow, for your leadership on this very most pressing issue. 
I will be very brief.
    I am a Member of the Appropriations Committee of the U.S. 
House, where I serve on the Transportation Committee. I want to 
commend the Senate for putting in $4 billion over the 
recommendation. And I hope that when we meet in conference that 
we can sustain some of those fundings, so that our cities, 
counties, and States across America can really realize an 
adequate, efficient, and safe transportation system.
    Transit is the key to development, and with your 
leadership, I am confident that we will keep America moving and 
growing.
    Thank you very much.
    Senator Reed. Thank you, Congresswoman.
    At this time, let me recognize Mayor Kilpatrick.
    Mayor, we will take your statement at this time.

                STATEMENT OF KWAME M. KILPATRICK

                    MAYOR, DETROIT, MICHIGAN

    Mr. Kilpatrick. Thank you, and good morning, Mr. Chairman 
and Members of the Subcommittee.
    I want to thank you first for giving me this opportunity to 
appear before you today to discuss the importance of Federal 
assistance for public transportation for the city of Detroit. 
It is a particular pleasure to appear before a Committee on 
which Senator Stabenow serves. We are lucky to have her working 
for us here in Washington on issues that are important to the 
city of Detroit and the State of Michigan such as affordable 
housing, homeownership, and, of course, public transportation.
    During my campaign for mayor, I spent a lot of time talking 
with the people of Detroit about a new vision. Part of this 
vision is improving the quality of life, which includes a 
variety of transportation methods that are needed to connect 
the downtown area with our neighborhoods and opportunities for 
jobs that are further away from home. Detroit will always be 
the Motor City, but our citizens also want alternative forms of 
transportation, such as buses, trains, light rail vehicles, and 
people movers.
    I have a long-standing interest in transportation issues. 
Prior to my position as Mayor of the city of Detroit, I was a 
Member of the State legislature for 5 years, served as Vice 
Chairman of the Transportation Committee and was also 
Democratic leader. In that role, I had the opportunity to 
observe how Federal assistance affects transportation 
throughout the State of Michigan. My goal remains the same as 
it is was then--to bring Federal, State, and local governments 
to the table to enhance transportation options for our 
citizens.
    Since becoming Mayor of Detroit, I have focused on 
developing a clearer picture of transportation options 
available to our city. The city of Detroit is currently 
examining several transportation alternatives, including a 
Detroit Area Regional Transportation Authority, of which I am 
the prime sponsor along with a partnership with the Federal 
Government to make these plans a reality. I have also been 
working with the automotive community to encourage new 
technolologies to support alternative forms of transportation.
    As previously stated, Congresswoman Kilpatrick, someone I 
have known my entire life----
    [Laughter.]
    --is not only a major partner in bringing about a regional 
coordinated transit plan in the Detroit metropolitan area, but 
she is also a part of bringing that Federal partnership to the 
table, along with Senator Stabenow.
    I would like to first discuss how the Federal Transit 
Program is performing in the city of Detroit and the 
surrounding region. Southeastern Michigan is an unusual region 
where transit service is concerned--the city of Detroit is the 
major transit operator. As Mayor, I oversee the Detroit 
Department of Transportation (DDOT). We operate 520 buses, 
employ more than 1,700 people, and carry more than 41 million 
riders per year. According to the American Public 
Transportation Association (APTA), DDOT ranks among the top 35 
transit agencies nationwide in terms of the number of 
passengers carried. The city of Detroit also oversees the 
Downtown People Mover, an automated rail guideway system that 
serves as a major circulator connecting office, hotel, 
entertainment, and residential centers in our downtown area. 
The city's suburban bus agency--SMART bus service--operates 
approximately 250 buses around the city of Detroit.
    Like all transit providers, the city of Detroit has 
benefited significantly from funding increases made available 
during the TEA-21 authorization period. The most important 
evidence of the impact of this Federal program is the reduction 
in the age of our bus fleet. In 1993, the average age of our 
buses was 10.1 years. Today, thanks to the additional funding 
approved by this Committee, our average bus age is 5.6 years.
    Our city has also benefited from the Jobs Access and 
Reverse Commute Program. Through expanded community-based and 
private van services, we have been able to service residents 
that are primarily located in empowerment zones. The 
collaboration of DDOT, the City's Employment and Training 
Division, and other stakeholders serve as a key component in 
helping people make the transition from welfare to work.
    Transportation needs have also been cited as being the 
number-one hindrance to economic independence in the city of 
Detroit. So we need more.
    As the city of Detroit looks to the future, we hope to make 
major improvements to the city's transportation infrastructure. 
We are seeking support from the Committee to create 
partnerships and opportunities between Federal, State, and 
local governments.
    Here are some of the transit needs the city of Detroit has 
identified which we seek to address. Our Downtown People Mover, 
which is now 15 years old, is in dire need of repair and will 
require significant upgrades if it is to remain a key public 
transit circulator in downtown Detroit. We have identified an 
estimated $37.9 million of repairs and improvements needed to 
upgrade the People Mover.
    A Downtown Central Transit Terminal is needed to link 
together our existing bus and people mover systems with 
improved pedestrian walkways and possible rail or bus stations. 
This proposed terminal will cost us about $45 million.
    Our bus system needs maintenance and heavy repair garages, 
which could cost the city up to $120 million.
    Development of a Center City Loop rail service, comprised 
of modern-day structures, will improve mobility in the core of 
Detroit, will connect the new downtown area, which is rich in 
business, entertainment, and cultural activities and will 
stimulate neighborhood growth through transit development 
opportunities. Providing a feasibility study through 
preliminary engineering is projected to cost $20 million.
    The Woodward Avenue Corridor--Southeastern Michigan's main 
street--has been the subject of transportation studies for a 
generation. The most recent alternative analysis, completed in 
May 2000, reviewed light rail, commuter rail, people mover and 
bus rapid transit options for this corridor. We are now working 
to move ahead to implement an alternative transit method in 
this corridor.
    The Southeastern Michigan Council of Governments, SEMCOG, 
is examining rail service from downtown to the Detroit 
Metropolitan Airport. The city is also supportive of this idea 
as part of a regional package of improvements that include 
upgrades to the transit system within the city of Detroit.
    Meeting these major needs will require a lot of work in our 
State and region. Our State legislature is reviewing a proposal 
which will provide a new organizational structure for our 
transit agencies, which I spoke to earlier.
    I support changes that will allow for a truly regional 
approach to improving our transit service, provided that the 
city of Detroit has an appropriate voice in the decisions that 
will be made. We believe in regional cooperation, not regional 
control.
    As we seek regional transportation solutions in 
Southeastern Michigan, the city of Detroit looks to Congress 
for assistance in providing the funds to meet our 
transportation needs. Transit programs need to be funded at an 
adequate, ongoing level by incorporating the following ideals: 
One, the transit program should grow to $14 billion, the annual 
level suggested by APTA. Two, the guaranteed funding program--
which protects the transit program from the ups and downs of 
the annual appropriations process--should be continued. Three, 
flexible funding programs such as the Surface Transportation 
Program and the Congestion Mitigation Air Quality Program, 
should be reauthorized. Four, funding to improve the security 
of our transit systems should be provided from new Federal 
resources. Responding to terrorist threats against our Nation 
is a matter of national policy, and the financial burden for 
making necessary improvements cannot fall solely on existing 
Federal, State, and local funding sources. Our initial review 
of security needs on the DDOT system indicates it would cost us 
more than $30 million to make the necessary improvements.
    Detroit is the largest border crossing in North America. 
The 
Detroit River runs between the United States and Canada. About 
$1.4 billion in trade comes across our river every single day. 
Like so many other cities, we are seeking funding to revitalize 
transportation along our waterfront. One item on our agenda is 
establishing bike paths, which would directly improve the 
quality of life for Detroit citizens. Our waterfront is a 
recreational gem that must be redeveloped.
    I look forward to working with the Members of this 
Committee to refine these principles and I want to work with 
you in every way I can to build support for your efforts to 
enact legislation that embodies them all.
    I am impressing upon my administration and my constituents 
the importance of moving Right Here, Right Now, which was the 
mantra of our campaign and our vision, to solve our 
transportation problems.
    I know this Committee is prepared to move ahead as well, 
and I, as the Mayor of the city of Detroit, will be there to 
work with you as we move forward in this process.
    Thank you once again, Mr. Chairman, Members of the 
Subcommittee, and also Senator Stabenow, for allowing me to 
appear before you today.
    Senator Reed. Thank you very much, Mayor.
    Thank you, Congresswoman.
    Let me now introduce our second witness, Mayor Brent Coles 
of Boise, Idaho.
    Our colleague, Senator Crapo, very much wanted to be here, 
but he is unavoidably detained. But he has a statement which I 
would like to submit for the record. And it will be submitted, 
without objection.
    Mayor Coles has led the city of Boise since 1993. He has 
served as the President of the U.S. Conference of Mayors. He 
has presided over a city that has experienced one of the 
highest rates of population growth in the country. With all of 
the economic growth this migration has created, Mayor Coles has 
had to draw on his background as a professional planner to 
ensure his city remains an attractive place to live and work.
    And we are delighted, Mayor Coles, that you are with us 
today. Your statement, and all the statements, will be part of 
the record. So if you would like to summarize, that is entirely 
appropriate.
    Mayor Coles.

                  STATEMENT OF H. BRENT COLES

                      MAYOR, BOISE, IDAHO

    Mr. Coles. Thank you, Mr. Chairman, Ranking Member Allard, 
and Senator Stabenow.
    It is a pleasure to be here with you and it is in some ways 
an historic moment for a mayor like myself to be here in front 
of the Subcommittee on Housing and Transportation.
    I am grateful for that opportunity, to give you my input 
and the input of the citizens of a community that is responding 
to such significant growth. It is also an honor to be here with 
Mayor Kilpatrick and Commissioner Mayfield. I appreciate my 
colleagues and the work we do at the local level. I am sure 
that is why you asked us to be here, that we could give you the 
local perspective of what the citizens in our community, what 
our local economies are going through, what the future of the 
United States of America means when you get down to the local 
businesses, local cities, neighborhoods, and citizens. What can 
we do to maintain our status as the world leader in the 
economy?
    And, for us to remain competitive, a national 
transportation policy is of utmost significance. Your 
attention, and the Administration's attention to local 
economies will mean the difference whether or not we can 
maintain the competitive edge that our Nation has sustained 
over generations. So what do we do now? How can we move 
forward?
    TEA-21 was an ISTEA visionary. No question about it. At the 
Federal level, cooperating and directly working with, local 
governments--absolutely visionary. And that opportunity has 
been taken advantage of by the mayors and county commissioners 
and regional transit authorities across this Nation. We have 
been able to do innovative things because you have given us 
tools to do so.
    The city of Boise has a population of 190,000. And when I 
became mayor, it was about 100,000. It is just about doubled in 
size. Its regional population has grown to 400,000, the second 
fastest-growing region in America over the past decade. What a 
tremendous change. And also, what a tremendous opportunity.
    We see in Boise, Idaho companies like Hewlett Packard and 
Micron Technology. They are competing on a global basis. And 
for me as Mayor, to work with the CEO of Micron, where that 
Board of Directors is responding to those who have invested in 
that company, and they say, ``where should we build the next 
fabrication plant?''
    I am competing with not just cities across the United 
States of America, but I am competing with cities in the world. 
They can build that fabrication plant in Boise, Idaho, or they 
can build it in Korea. Or they can build it somewhere in Asia 
or somewhere in Europe. They can choose where they are going to 
invest. And one of the things they look at is transportation. 
Can they move their employees back and forth from their homes 
and from their areas of commerce into the working location?
    Every freeway offramp, what do we do? We begin building 
more freeway offramps. But we also need to be building rapid 
rail systems, commuter rail, light rail, bus systems, investing 
in those systems. If we do not, as they look at where their 
next fabrication plant is going to go, they will be looking at 
other cities around the world who have been able to invest 
because Federal, State, or regional governments have cooperated 
with local governments and private entrepreneurs and have been 
able to build the transportation system that is comprehensive.
    A comprehensive transportation system with all our partners 
working together can and should be the priority of TEA-21 and 
ISTEA. And since they have been so visionary, the 
reauthorization of that bill is very important to us. And 
whatever you can add to that bill that streamlines the 
allocations of funds to cities, counties, or regional transit 
authorities that have responsibility for the bus and train 
systems in their local area is very important to us.
    Our State transportation authorities are getting it, but 
have not got it in every instance. Their constituents continue 
to ask them to build more freeway lanes. So, in Boise, Idaho, 
when we look at the congestion, the growth of the past decade, 
we appreciate the investment of $100 million into our freeway 
system. But we also need the investment of $100 million into a 
light rail system that we do not have today.
    In fact, the citizens of the city of Boise, through their 
property taxes, went out and bought 18 miles of railroad right-
of-way that Union Pacific was abandoning. When they announced 
the abandonment they said they were going to take out the rails 
and would give, or at least allow us to purchase the right-of-
way for a bike pathway or something like that. And as Mayor of 
the city of Boise, I told them I would lay down in front of 
those tracks before I would let them rip them out.
    We may not be able to use them today, but we will use them 
in the future. And the citizens of Boise said, we agree, Mayor. 
Take our property tax dollars, which is 60 percent of our 
budget. Use that to buy 18 miles that are not even in our city 
limits, because if those 18 miles would have been ripped out, 
we would never again have been able to link up to an Amtrak 
system. Amtrak has left Idaho. We believe it should come back, 
linked to a light rail system, or linked to a bus system.
    You have a local system, a regional system, a statewide 
system, and a national system that can link together. That is 
important to our economy, and our future. It is also important 
to any emergency preparedness that we are talking about. When 
the airports went down, we relied upon rail, didn't we? We 
relied upon buses and our automobiles. And in most areas of the 
country, outside of the east coast and the west coast, there 
wasn't much of a rail system that we could depend upon during 
that period of need.
    I thank you very much for the opportunity to testify with 
you. When I am referring to direct dollars to local 
governments, it is that suballocation that is a part of TEA-21. 
We think that can be strengthened, enhanced, and appreciate 
working with you to see that that happens.
    Thank you.
    Senator Reed. Thank you very much, Mayor.
    Let me now introduce our final witness, Ken Mayfield, who 
has been a Dallas County Commissioner since 1994, and is 
President-elect of the National Association of Counties. He is 
particularly interested in transportation policy. He is head of 
a group, Texas 21, for transportation planning for the State of 
Texas.
    We have already agreed that Dallas County is very much 
bigger than Rhode Island, so we do not have to get into that.
    [Laughter.]
    But, Commissioner Mayfield, we welcome your appearance. You 
represent a very important part of government, which is the 
counties of this Nation.
    Thank you very much, Commissioner.

                 STATEMENT OF KENNETH MAYFIELD

           COUNTY COMMISSIONER, DALLAS COUNTY, TEXAS

    Mr. Mayfield. Thank you, Chairman Reed, Ranking Member 
Allard, and Senator Stabenow.
    NACo has been a long-time supporter of the Federal transit 
program. County governments operate approximately one-third of 
the Nation's transit systems. Transit, whether it is rail, bus, 
or van--urban, suburban, or rural--is an essential component of 
our transportation system. In many of our urban and suburban 
counties, it is congestion that is the motivating force behind 
the need to establish and fund a transit system. Environmental 
concerns and the transportation needs of the economically 
disadvantaged or others. How we address congestion is probably 
the most important and difficult issue Congress will have to 
face in the reauthorization of TEA-21. Solutions are elusive 
and complex. However, with congestion increasing and commute 
times up, a reauthorization bill that does not seriously attack 
this problem would be flawed. County officials believe that 
transit has a key role to play in addressing the congestion 
crisis.
    NACo applauded the actions in Congress and specifically in 
this Committee during debate surrounding TEA-21 that led to a 
significant increase in funding for the Federal transit 
program. The 40 percent increase in transit funding has been 
extremely helpful to NACo members, as well as other local 
governments. The inclusion of a guaranteed funding requirement 
for transit has been a key and we urge that this be continued 
in the reauthorization, along with the general fund 
contribution. Elected county officials across the country are 
hearing from their constituents that transit is important and 
in many urban and suburban communities, rail systems are being 
proposed. While I am sure that not every plan will result in a 
system, there is a demand out there that requires a larger 
Federal transit program.
    Dallas is one of the communities that has greatly benefited 
from the Federal transit program and from the increase in 
funding we experienced in TEA-21. Our light rail system 
ridership last year was 11\1/2\ million passenger trips. Since 
our system opened in 1996, we have had well over 50 million 
passenger trips. Currently, DART is undertaking the largest 
light rail expansion program in North America.
    Dallas has experienced explosive growth over the last 
several decades, along with the resulting congestion. In the 
late 1970's, a number of forward-thinking community leaders 
proposed an area-wide transit system for Dallas and Fort Worth. 
However, it was too expensive, too soon, and not well thought 
out. When it went to the voters, it lost big time. Some people 
thought at that time the anti-
transit sentiment in Dallas would never change, just like the 
winning ways of the Cowboys. They were wrong. In 1983, a 
referendum was passed in Dallas and individual cities 
throughout Dallas, Collin, and Denton Counties that approved a 
one-cent sales tax dedicated to the Dallas Area Rapid Transit, 
DART.
    With the passage of the sales tax, a funding source was 
created that led to investment in light rail, bus service 
improvements, commuter rail, HOV lanes, and carpooling. There 
are 13 individual communities that are part of DART. Even 
though the sales tax was passed in 1983, and tax collection 
begin in 1984, it was not until 1996 that light rail opened in 
Dallas. From 1983 until 1996, most communities and citizens 
stuck with the promise of transit and continued paying into the 
system. Our 20-mile light rail starter system has exceeded 
everyone's expectations in terms of ridership and economic 
development. While developers waited until the system was 
complete to begin investments, they are now fully engaged and 
operating major projects around many of the systems' 23 
stations. The starter system cost $860 million and was built on 
time and within budget. Incidentally, that $860 million 
includes everything--rails, cars, and a 3-mile tunnel from 
downtown Dallas to Mockingbird Lane. The one-cent sales tax 
paid for 80 percent of the starter system and the Federal 
transit program paid for the other 20 percent, $160 million.
    An additional 23 miles of light rail will be opening this 
year. The passage in August 2000, of a bond proposal will 
dramatically accelerate additional light rail expansion through 
2010. This bond proposal was supported by 77 percent of those 
voting, another example of the broad support the light rail 
system has in our community. These new projects together cost 
$992 million, of which 66 percent was raised locally. However, 
I must emphasize that without the $333 million in Federal new-
start funds, we could not have moved ahead. While economic 
development followed DART's starter light rail system, the 
success of that system made believers out of the development 
community. Rather than taking a wait-and-see attitude, 
developers have jumped in and have already built a number of 
projects adjacent to the new lines. To date, over $1 billion 
has been invested in private development along DART's existing 
and future light rail lines. A University of North Texas study 
projects DART's current expansion program and operations will 
pump $3.7 billion into the regional economy and support 
approximately 32,000 jobs through 2003. Between 1996 and 1998, 
taxable values for property near light rail stations were about 
25 percent higher than comparable properties not served by 
rail. Downtown Dallas residential and commercial development 
has experienced an upswing with the advent of transit.
    Rather than being perceived as being in competition with 
highway building, these projects complement our highway system 
in Dallas. The North Central Line parallels the North Central 
Expressway where TXDOT is currently undertaking a huge 
interchange project known as the High-Five Project. Our new 
light rail system is opening at the right time to give 
commuters an alternative to the congestion that is inevitably 
being created by this large construction project. And that is 
how we view transit in Dallas--as a transportation alternative.
    We do have plans for additions to the DART system. The 
Southeast Line would extend 10.2 miles to Fair Park and 
Pleasant Grove, all within Dallas County, by 2008. The 17\1/2\ 
mile Northwest Line will go along the I-35 corridor to Denton 
County by 2008, including a stop at Love Field. A 13-mile 
branch of this line will go to Las Colinas and on to Dallas-
Fort Worth Airport by 2010. While we will continue our policy 
of a local overmatch, we will need Federal funding for both of 
these projects.
    Thank you.
    Senator Reed. Thank you very much, Commissioner. I want to 
thank all the witnesses for excellent testimony, which 
illustrates the compelling role of transit at the local level. 
That is one issue that we want to clarify with our questioning.
    Let me begin.
    Mayor Kilpatrick, one of the concerns I have is that if we 
do not continue the support that we have in the present transit 
act, not only won't we make the improvements, but the systems 
are likely to slip backward in terms of deferred maintenance, 
all the things you have been able to fix with TEA-21. Is that 
your perception?
    Mr. Kilpatrick. Absolutely, Mr. Chairman. That is a huge 
concern for me and the city of Detroit.
    As you know, most urban cities in America have aging 
transit infrastructures. One of the things that we frequently 
discuss is the age of our roads and the disrepair that our 
roads are in. Some of the systems that we have been able to put 
in place because of TEA-21, ISTEA, and those visionary 
programs, they will start to diminish in impact if we do not 
have new money coming to the table.
    For the city of Detroit to be globally competitive, we are 
the 10th largest economy in the United States of America, and 
the 37th largest economy in the world. With the amount of trade 
that just goes across our border, if we do not have our money 
in the right places throughout the city, it can stop the 
American economy.
    We saw that after September 11. When you have 8-mile back-
ups of trucks--with just-in-time delivery being a huge issue in 
the city of Detroit--it stopped the entire economy of 
Americans, especially the manufacturing economy.
    So if we do not have new money coming to the table to 
continue the repair of the infrastructure, to continue programs 
that make us globally competitive, to continue to move people 
more effectively and efficiently, we will have significant 
problems.
    And finally to that point, about 45 percent of the people 
that live in the city of Detroit own cars, even though it is 
the Motor City. And about 75 percent of the jobs are outside of 
the city in the immediate suburban areas. If we do not have new 
money coming to the table to continue the programs that were 
started when this legislation was passed, we will hinder 
economic independence in the city, too, which could lead to 
further problems.
    Senator Reed. Thanks, Mayor Kilpatrick.
    Mayor Coles, you pointed out the international parameters 
that you have to be concerned about in terms of the transit 
policy and everything else. But I wondered about the same 
question--without increases in support for transit, not only 
will Boise be denied expansion, but would its current programs 
you have in place be jeopardized.
    Mr. Coles. Yes, absolutely. And in two areas. One, TEA-21 
has created a vision for us. We have been able to bring the 
smaller rural cities into the larger rural cities and create 
this vision. We have been able to use those dollars to create a 
plan of an overall regional transportation system, and we will 
not be able to fund the plan. We will have this great vision 
and all of our hopes will be dashed. And two, the existing 
transportation system, which is inadequate, but we have buses 
out there on the roads. We have been able to convert those to 
compressed natural gas. But if you cannot turn those over and 
buy new equipment and take care of your needs, you will lose 
the ridership and the economy will fail.
    Senator Reed. Thank you, Mayor Coles.
    Commissioner Mayfield, from your very articulate testimony 
about the plans to expand the system in Dallas County, I 
presume that you think that we are going to have a vigorous 
transit title in the reauthorization bill. Otherwise, those 
2010 targets might be difficult to achieve.
    Mr. Mayfield. Absolutely. And there is such support for 
light rail because it has worked in Dallas. It is really a 
model.
    We just had the Republican State convention in Dallas at 
the downtown convention center, where they expanded that. It is 
the largest political gathering in the United States, bigger 
than the national convention. We have more delegates who come. 
And without the light rail, where a station was located half a 
block from where you go to get in, to move people in and out, 
it would have been a horror story for those commuting to work, 
because of the traffic and congestion. And we were able to move 
delegates in and out, at lunchtime, whatever, with ease, taking 
the light rail system up even to Park Lane 10 miles north in 
Dallas. They could go shopping if they wanted to, or out to 
Irving, or within the west end of the downtown district to go 
eating where there are numerous restaurants and shops.
    Senator Reed. I think all of your comments have underscored 
the critical economic development aspect of good transit 
systems. You do not attract visitors. You cannot accommodate 
major meetings in your communities. You cannot get people 
without cars from their home to work in the suburbs or from the 
suburbs to work in the city.
    I have a few moments before I recognize Senator Allard. A 
quick comment about the increased security concerns and 
additional resources, Commissioner, and we will go down. Do you 
see that as another significant cost?
    Mr. Mayfield. Absolutely, Mr. Chairman. As we all hear 
about the threats to specifically subway systems or transit 
systems, we are going to have to beef up security. There is no 
question about it, to make sure that the alternative is a safe 
alternative. Otherwise, you won't get the ridership.
    Senator Reed. Mayor Coles, the same question.
    Mr. Coles. Mr. Chairman, thank you. No question about it. 
Of course, we saw that first impact on our own airport, hiring 
16 additional police officers for our airport, having to expand 
the size of the airport so that we could accommodate the x-ray 
systems, $2 million for that. Another million dollars every 
year for operations, just like that, placed on our local 
economy.
    Senator Reed. And if we do not provide sufficient resources 
for transit, your ability locally to provide dollars is 
constrained today because of security concerns and many other 
concerns.
    Mr. Coles. Absolutely. We cannot grow our budget, so we 
have to take it out of somewhere else to place it on security.
    Senator Reed. Mayor Kilpatrick, is that similar?
    Mr. Kilpatrick. This is a huge issue for us, being an 
international border. Between September 11 and December 31, our 
Detroit Police Department spent $3 million dollars just 
patrolling the border alone. About $10 million will be spent 
this year on border security.
    You have local police departments protecting national 
security now, which is money that I have to take out of my 
general fund that would have been used for transportation and 
infrastructure repair. I am pulling back more and more 
transportation dollars. So we really need money there to step 
up some of our security efforts.
    Senator Reed. Thank you very much, Mayor Kilpatrick, Mayor 
Coles, and Commissioner Mayfield.
    We have been joined by the Chairman of the Full Committee, 
Senator Sarbanes.
    Senator Sarbanes, do you have an opening statement?

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Chairman Reed, I will be very brief. And 
I appreciate the courtesy of my colleagues.
    First of all, I apologize not being here in order to hear 
the statements. And I am going to have leave, unfortunately, 
but that is life in the Senate, if I may say so.
    I want to thank you very much, and Senator Allard, for 
convening this hearing to continue our consideration of Federal 
transit programs as we prepare to reauthorize TEA-21 next year.
    This is all a lead-up to the major challenge which this 
Committee will face at the beginning of the next Congress 
because the TEA-21 authorization expires next year and we 
obviously have to put the next step in place for the 21st 
Century.
    I do want to say, and it is one of the reasons that I was 
drawn to come, how impressed I am with the diversity of this 
panel, both geographically and politically.
    When this Committee considered the authorization of ISTEA, 
the TEA-21 predecessor, over a decade ago, transit was seen by 
many as a necessity in certain large urban centers of the 
country, but of limited relevance in many other areas of the 
country.
    But I am now heartened that a little over a decade later, 
we have people from Boise, Dallas, and Detroit, all here today, 
advocating the continuation and strengthening of our Federal 
transit.
    It is my own view that without committed leadership at the 
local level, transit would not have been able to achieve the 
record of success that it has witnessed in the last decade. It 
is now up at levels not seen since the 1950's.
    Transit ridership has grown faster than any other mode. So, 
I think that these hearings are an important prelude as we move 
toward a reauthorization next year.
    I did want to stop in, as it were, both to thank Chairman 
Reed and Senator Allard for the hearing, and also to thank the 
witnesses for taking time out of what I know are very busy 
schedules to be with us.
    I think it is fair to say that the outcome of the debate on 
this bill will really shape the parameters of America into the 
future. The population of the country is expected to grow 
another 100 million people in the next 50 years. If we are not 
to become absolutely gridlocked and congested, we have to have 
innovative ideas with respect to transit and commit the 
resources in order to address this situation.
    I am also very pleased to welcome the witnesses. The 
characteristics of your communities differ, but you are 
responding to similar challenges in terms of mobility needs, 
population, and development growth.
    We certainly welcome the multimodal approach you have taken 
toward these channels and I just wanted to express my 
appreciation for coming and being with us today.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Chairman Sarbanes.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Mr. Coles, in your prepared comments, you expressed some 
concerns regarding a breakdown between State and local transit 
officials. Would you care to elaborate on those comments? Do 
you think this is a problem that just occurs sporadically, or 
is it more widespread?
    Mr. Coles. Thank you, Mr. Chairman, Senator Allard, TEA-21 
and ISTEA are visionary. They have asked State transit 
authorities to, instead of just building freeways and highways, 
to look at and participate in transit systems.
    For most States, that was new thinking. And it is taken the 
decade to provide that opportunity and change within our State 
governments.
    But, also, we see it as a challenge as mayors in whether it 
is a transportation issue or other issues, when dollars go to 
the capitals of our States, then we have another layer of 
bureaucracy with which to deal to verify why in fact we need 
those dollars in our cities or in our regions.
    And so, not only at the Federal level are we competing for 
those dollars, then we are again at the State level. And in 
many cases, ISTEA, as it should be, it is flexible. Or TEA-21 
is flexible.
    Dollars can be used for air quality mitigation. Well, are 
you going to pave more roads, so you reduce the dust, or are 
you going to buy compressed natural gas buses so that you can 
reduce participate matter? You have choices.
    And we have to compete. We have to verify. We have to 
demonstrate to State transportation boards as to why we should 
be buying buses as opposed to maybe paving more roads.
    So, it just makes it more difficult. I think that we have 
seen that philosophy generated all across our State 
governments.
    Senator Allard. Now those that have an opposing point of 
view may say that some local communities do not have the 
expertise, and will also make the statement, if it goes in to 
the State, the State becomes a participant and it may add 
dollars to the pot. The opposing point of view may say that 
localities do not have the financial resources to be able to 
address their problems. Can you comment to those arguments?
    Mr. Coles. Well, there is certainly a legitimate statement 
there. If the State government is willing to participate. In 
the State of Idaho, unlike in Texas were they were able to pass 
a one-cent sales tax, our State government has not given local 
governments the authority to even ask our citizens for a cent, 
quarter-cent, or anything for money toward any local need, let 
alone transportation.
    Our State government is holding those dollars very tightly 
and are not necessarily a partner in adding new dollars to the 
Federal dollars that are coming in.
    We have to generate the local dollars through property 
taxes, which are not very popular, to match anything the 
Federal Government has, and the State government does not add 
dollars to it.
    Senator Allard. Do you think it would be a good idea to 
require the States to put a match in?
    Mr. Coles. Mr. Chairman, Senator Allard, I think the 
opportunity for a match is certainly an idea. But I think many 
State governments would say, ``if we have to match it, we will 
not do it.''
    Senator Allard. Okay. Also, I want to carry this national 
angle a bit further. There have also been a lot of requests for 
mass transit systems and what not, and they have grown 
considerably since we last passed TEA-21.
    So the issue that we are faced with here in the Committee 
is do we leave the match at 20 percent and then let somebody 
make a decision as to what is more worthy. Or do you increase 
the amount of the match, saying that only the more worthy 
projects will come up to that increased match, meaning they are 
the ones that are most committed to mass transit. Would you 
comment on that thought?
    Mr. Coles. Well, thank you, again, Mr. Chairman, and 
Senator Allard. That is a very specific question, one that I 
would probably like to think about before I responded at the 
national level like this. But I will. You have asked a very 
thoughtful question.
    If you increase the match, then what you said is true. 
Those who are more committed will go out and find those 
matching dollars. But you will also leave that question where 
the newer systems, the more rural systems that have less local 
ability to come up with the dollars, not only do they lack 
possibly the expertise, but the ability because their economy 
is struggling, or that they are in a rural area, and they are 
trying to compete. It would be a greater challenge for them.
    The opportunity there would be, as you indicated on the 
previous question, for the State to step in and be a partner. 
So you have the State, you have the city government, local, 
county, and regional governments, and hopefully, private 
partner entrepreneurs who will also invest in that partnership.
    Senator Allard. I would like to have Mr. Mayfield and Mr. 
Kilpatrick comment about this State, Federal, and local 
relationship. Is the framework that we have now an adequate 
framework, or do we need to change this framework to make it 
more workable? And if we do, what would be your suggestions?
    Mr. Kilpatrick. I feel like Mayor Coles did, to do this at 
the spur of the moment. But I will comment.
    I have been on both sides, as a former legislator who was 
always aggressively talking about the deliberative process and 
how we needed an opportunity to look at certain things that 
were going to the local level, and being on the other side as 
mayor, an executive of the city, and saying, ``Lansing, pretty 
much be damned.''
    I wanted to say, Mr. Chairman, Senator Allard, there has to 
be an ideology change and focus on the State level. The total 
focus of the ISTEA funds, when they came through Michigan, was 
for new road construction. The multimodal concept, the concept 
of building in and redeveloping core communities, that was not 
present.
    We are in a situation now where we are forced in the 
Detroit community to partner now locally. For the first time in 
20 years, we have been able to bring suburban community 
officials, the executives of these suburban communities, to the 
table with us, the mayors. And we are all advocating now for a 
regional approach to solving transportation problems because it 
plays into the urban sprawl issue and all the other issues that 
people are experiencing in older suburbs near the city of 
Detroit.
    We are going to Lansing and saying release the money. Let 
us have a change in philosophy where we talk about building 
back into our core communities, some of the older suburbs and 
some of the older urban communities near the city of Detroit.
    So as far as the framework, you spoke about a mandated 
match. And I agree with Mayor Coles. If you did that, Lansing 
would probably say, ``we are not doing anything, then, if we 
have to match it.''
    I like the framework now. But I also like what we are doing 
in Michigan with the framework that you mentioned. So, I guess 
I am saying that I like what you are doing.
    But on the local level, we have to really organize locally 
and thrive globally. If you can have something in there that if 
the local community has organized and submits a plan, and there 
shall be something that the State has to do. If anything can 
change in that type of language or authorization when you go up 
for reauthorization next year, where the local community says, 
``this is what we are doing, bring all the communities 
together--seven communities in the Detroit metropolitan area, 
we are all saying the same thing, and the State can just thumb 
their nose at it.'' That becomes a problem and an issue for us 
in metropolitan Detroit.
    I do not know what can be done with the language on the 
national level, but it has to be something. I agree with Mayor 
Coles. If the local community is begging for something, then 
the State has to act in uniform with what the local community 
is saying.
    Senator Allard. I do not know whether you want him to 
answer my question. My time is expired, Mr. Chairman.
    Senator Reed. Please. Go ahead, Senator.
    Senator Allard. Mr. Mayfield, do you want to respond?
    Mr. Mayfield. I would just say that we changed the 
department from the Highway Department to the Texas Department 
of Transportation a few years ago. It has taken a little bit to 
change the mindset from just thinking of highway construction 
and funding to multimodal, which obviously includes transit.
    But I chair a statewide transportation coalition that is 
made up of cities, counties, and chambers of commerce and 
businesses all over the State, to provide some leadership to 
the Texas Department of Transportation to get them to look at 
the multimodal aspect of transportation funding.
    Now in the State of Texas, we only have money to fund about 
40 percent of the projects that we need in the State.
    In the Dallas-Ft. Worth area, we are a nonattainment area. 
DART is a very important part of our SIP--State Implementation 
Plan--to relieve that congestion and thus, improve our air 
quality and bring us into standards.
    We have worked well with the Texas Department of 
Transportation. Mike Baron is the Executive Director there. We 
meet with him on a regular basis.
    We have not had the problems, but we have a funding source. 
In our area, we have a cent sales tax that is dedicated to DART 
for those cities and communities that want to get involved.
    And of course, we overmatch. I think we have been very 
fiscally responsible with our funds in our light rail system. 
And we have been very successful in that mode. But in other 
areas, I see the mindset. I am not advocating any kind of a 
change at this point.
    Senator Allard. I realize the questions I have asked about 
what is the proper match and also, the State/Federal, are 
complicated questions. And I think you, Mr. Chairman, will keep 
this open for comments later on.
    Senator Reed. Absolutely.
    Senator Allard. So if you think about some things that you 
would like to add, perhaps you would like to put it in a more 
organized form, we would certainly welcome that. We would like 
to have those additional comments here at the Committee.
    Mr. Coles. Mr. Chairman, if I may. Apparently, the U.S. 
Conference of Mayors has thought about this and I was pondering 
it myself. Personally, as I thought about it, the 80/20 match 
is something that we have planned for over a period of years 
and it is a target that locally, we have planned for and worked 
toward. So to change it is a major change. The U.S. Conference 
of Mayors believes the 80/20 match is appropriate and would 
like to keep it at the 80/20.
    Senator Reed. Thank you.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard.
    Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman. And thank you to 
each of you for sharing your perspectives, particularly Mayor 
Kilpatrick. We appreciate your perspective from Detroit.
    Let me indicate that I find it is interesting in debates 
that we have here frequently in the Congress, we talk about 
local control, which frequently means States, and flexibility 
at the State level. I would share the concerns expressed that 
we need to be focusing on and supporting local control, meaning 
cities, counties, regions.
    So that you are the local control, and you know what is 
best. And I know the challenge of bringing together the 
communities and counties around metro Detroit and what that 
means, and when we have communities coming together and all 
speaking with one voice. I think we need to give great 
credibility to that and do whatever we can to be supportive of 
the people's needs through local control.
    So I appreciate all of you being here. And having been a 
former county commissioner and chaired a board of commissioners 
myself, I appreciate, Mr. Mayfield, what you do at the county 
level.
    Let me ask Mayor Kilpatrick just for a moment to speak 
about issues of congestion. I have to first indicate, Mr. 
Chairman, that we expect a great deal of congestion in the city 
of Detroit this evening when the Red Wings win the 
championship.
    [Laughter.]
    So we look forward and relish that congestion this evening.
    [Laughter.]
    Senator Levin and I have a wonderful bet with our North 
Carolina colleagues and expect some great barbecue as a result 
of that win this evening.
    But let me ask the mayor, in general, people think of us as 
the Motor City. We do want people buying automobiles, 
particularly domestic automakers.
    People assume that in metro Detroit, we can move easily 
from one destination to another. And yet, we know that there 
has been a study by Texas A&M University in 1999 that showed 
that congestion costs Detroit drivers more than $2.8 billion a 
year, or about $700 per driver. And when you compare us to 
other urban areas, drivers in Detroit experience greater 
traffic delays than drivers in New York, Chicago, or 
Philadelphia.
    I wonder if you might speak about the challenges because of 
congestion in metro Detroit and how that relates back to the 
critical need for additional resources for public transit.
    Mr. Kilpatrick. Thank you very much, Senator Stabenow.
    That is a huge question and I will speak to the first 
point, the aspect of local control. We live in an era now, and 
Mayor Coles mentioned the U.S. Conference of Mayors, when 
mayors are truly on the frontlines of homeland defense, on the 
frontlines of providing quality services for the city they 
represent. If that local control can reach the cities, that 
would be absolutely fantastic from this level.
    Let me just say something on the issue of congestion, which 
is a huge issue in metropolitan Detroit. The Chairman asked if 
we do not receive these funds, if we do not have an opportunity 
to compete for this new reauthorization, will it roll back the 
time?
    It absolutely would because of the decay of roads, because 
of congestion, because of the amount of truck traffic that 
comes across our border every day, because of the issues of 
staying in attainment in a huge manufacturing area, congestion 
adds to the problems for all of those things.
    When people, goods, and services are not allowed to move 
effectively and efficiently in an area of this country that 
depends on just-in-time delivery for its survival, congestion 
is more than just a traffic jam. It can be a hindrance and 
sometimes bring a complete halt to the metropolitan economy. 
That is been a huge issue for us in the city of Detroit for 20 
years plus, almost 30 years now. We have been talking about how 
we alleviate some of the congestion problems that we have.
    In a city that is known as the Motor City, everyone, when 
they are 16 years old, goes out and tries to get an American 
car. We all go out and try to get a GM, a Ford, or a Chrysler. 
What happened now, we are bumper to bumper. As the continuing 
development of the Detroit metropolitan region goes further and 
further out, commonly known as urban sprawl, we are 
experiencing now more and more backups from downtown Detroit to 
almost 22 miles away from the city now.
    To alleviate that problem, we have conducted several 
studies within the city of Detroit by the Detroit Regional 
Chamber of Commerce to say that most of those people would take 
a cleaner, safer, more efficient, more effective mode of 
transportation in and out of work every day if we did not have 
this problem.
    The money that we get can be better spent on proactive 
transit items like light rail, and different modes of 
transportation to make sure we have clean, safe air and quality 
air in the city of Detroit, continue to be national 
entertainment leaders.
    We can also alleviate some of the pressures that we have on 
our just-in-time delivery and our economy, moving people 
services, and goods more effectively and efficiently. 
Congestion is a huge issue in the city of Detroit.
    Senator Stabenow. I wonder also if you might follow up.
    The Chairman talked about economic development. We have a 
new state-of-the-art airport that we are very proud of in Wayne 
County, in Detroit, and I know that there are also challenges 
now in moving people from the airport into the city.
    Mr. Kilpatrick. Yes. Another huge issue. A $1.2 billion new 
terminal that we have really organized locally to build. The 
county took leadership on that.
    This is one of the huge issues that we have been studying. 
As a matter of fact, I put the money back in the budget in 1997 
for a feasibility study to be done for a rail link to go from 
our metropolitan airport to downtown Detroit.
    We have interviewed several people. We have had focus 
groups talk about why they haven't located companies inside the 
city of Detroit because of the lack of that access from the 
airport to the central business district downtown. The tracks 
are there. The switches are on the tracks. We are all ready to 
go. We just need some help from the Federal level to get that 
done.
    We are hosting the Super Bowl in 2006 in the city of 
Detroit. A brand new state-of-the-art urban stadium, Ford Field 
was just built. We have, as I said before, a cultural center 
that is thriving. There are more theater seats in our cultural 
center than at any other place in this country, Broadway being 
the expection. But we do not have that link to move people from 
the airport to the central business district. It is hindering 
our national trade shows, our convention bookings, and economic 
development with companies locating around the city of Detroit, 
especially now as we move more into fuel-cell technology 
research.
    Our manufacturing leaders have taken the leadership in that 
role. GM, the largest corporation in the world, located on our 
riverfront, is really advocating for this to move forward so 
that we can enhance the quality of business and economic 
development in the Detroit metropolitan area.
    Senator Stabenow. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Stabenow.
    Senator Carper of Delaware, your opening statement and your 
questions.

             STATEMENT OF SENATOR THOMAS R. CARPER

    Senator Carper. I have a statement that I would like placed 
into the record. I, just want to say to each of you, welcome. 
We are delighted that you are here.
    Mayor Kilpatrick thank you for sharing Senator Stabenow, 
with us. She is a joy to serve with and we are grateful that 
you have sent her our way.
    Mr. Kilpatrick. You are welcome.
    Senator Carper. She started off her questioning with a 
comment on the Red Wings. In Delaware, we have 300 chickens for 
every person.
    [Laughter.]
    You have heard the old saying--do not count your chickens 
before they hatch.
    [Laughter.]
    And I hope the Red Wings win. So we will see.
    Senator Stabenow. Good.
    Senator Carper. I want to start off my question with 
another sport. What is wrong with the Tigers? What is going on?
    Senator Stabenow. Please.
    Mr. Kilpatrick. Tigers--wait a minute.
    [Laughter.]
    Excuse me, Senator Carper, the Tigers are coming back now.
    Senator Stabenow. Yes, they are.
    Mr. Kilpatrick. They are almost at .500. We have been the 
butt of too many jokes. We were on Jay Leno and now they have 
decided to play.
    Senator Stabenow. That is right.
    [Laughter.]
    Senator Carper. I have been a Tiger fan since I was about 
10 years old. All my life, I wanted to be third baseman for the 
Detroit Tigers. And this year, Mr. Chairman, when they opened 0 
and 11, I thought my time had come.
    [Laughter.]
    I was ready to suit up.
    [Laughter.]
    We are happy that you are here and we welcome you very 
much. Rick Wagoner was in town with a bunch of people just the 
other night and showing us the Autonomy and a number of other 
fuel cell vehicles that we hope will be plying the streets of 
this Nation and our highways before long. It can only be good 
for our air and for our economy. So it is great.
    I want to ask, Mr. Coles, who is your governor now?
    Mr. Coles. Governor Kempthorne.
    Senator Carper. Didn't he used to work here?
    Mr. Coles. Yes, he did.
    Senator Carper. How is he doing?
    Mr. Coles. Governor Kempthorne is doing a fabulous job for 
the State of Idaho.
    Senator Carper. I hosted, as Chairman of the National 
Governors Association, in 1998, right after the election, we 
hosted him and a bunch of governors and their spouses for New 
Governors School. He and his wife were good enough to come, 
along with--gosh, who else did we have? Jeb Bush was there, 
Gray Davis was there. We had some guy from Minnesota. What is 
his name? Jesse.
    [Laughter.]
    And Dirk came as well. I said to him at the end of the New 
Governors School, I said, ``you should go back to Idaho. You do 
a great job as governor. But some day I want you to become 
Chairman of the National Governors Association.''
    So when you see him, tell him that an old governor, now a 
Senator, says he still thinks that he would be a great 
candidate to be Chairman of the NGA. And my hope is that, 
before long, he will be. Give him my best.
    Mr. Coles. Thank you.
    Senator Carper. Let me ask you a question if I could. I am 
looking at Mayor Kilpatrick's testimony. I am looking at the 
bottom of the page. He is talking about the time when he was 
Vice Chairman of the Transportation Committee before he was 
Mayor.
    And he says, ``My goal was the same as it is now--to bring 
Federal, State, and local governments to the table to enhance 
transportation options for our citizens.''
    One of the things that I could never understand when I was 
Governor for 8 years, I could never understand why, when 
Delaware got its Federal transportation money, including 
congestion mitigation money, I could not use that money in the 
way I thought was best for my State. We could use that money in 
Delaware for freight railroads. We could use that money for 
bicycle paths. We could use that money for highways. We could 
not use it for inner-city passenger rail, even if that made 
sense for us in our State.
    And in terms of options, I would just ask, Mr. Coles, do 
you have any thoughts in terms of whether States should have 
the discretion to use a portion of their Federal transportation 
monies for inner-city passenger rail? Does that make sense to 
you or not?
    Mr. Coles. Thank you. Mr. Chairman, Senator Carper, 
absolutely. There is no question, the flexibility should be 
increased. Where our local priorities are, if we are trying to 
reduce congestion through a rail system, that should be where 
we should be able to use it. If it is a bus system, then fine. 
If we can use it on bicycle pathways, then great. But we are 
the ones who should be able to make that decision, and the 
greater the flexibility, the better.
    Thank you.
    Senator Carper. We are in the throes of a discussion on 
funding for a whole lot of Federal programs. One of them is 
what we are going to do to fund national passenger rail for our 
country.
    Each of you comes from States where you get I think some 
passenger rail service, some States more than others. Nobody 
uses as much as the Northeast Corridor. But we are trying to 
figure out how much money should be appropriated for Amtrak, to 
provide passenger rail service, not just for the Northeast 
Corridor, but all over the country in the next year. I think 
Amtrak has requested $1.2 billion.
    I would just ask, and I will stick with you, Mayor Coles, 
does that seem like a reasonable request or an unreasonable 
request?
    Mr. Coles. Mr. Chairman, Senator Carper, this country needs 
a national rail policy. We subsidize our highways. We subsidize 
our airports. And I do not know why we think Amtrak should be 
self-supporting.
    It is rail systems, passenger systems. They are not going 
to be self-supporting. They are not anywhere in the world. And 
$1.2 billion is a very good request. It is a request that 
should be supported and increased, if possible. We need a 
national rail system for the United States of America.
    Senator Carper. Thank you. I used to be part of the 
National Governors Association, which I dearly loved to be. And 
I think I probably told my colleagues that more times than they 
cared to hear. I like being part of this outfit, too.
    You are part of the U.S. Conference of Mayors, I think for 
both of you. Who heads that up now?
    Mr. Kilpatrick. It is about to be Menino, Mayor Menino from 
Boston.
    Senator Carper. Okay.
    Mr. Kilpatrick. He will be elected Tuesday.
    Senator Carper. On Tuesday.
    Mr. Kilpatrick. Tuesday.
    Senator Carper. So are you all about to meet?
    Mr. Kilpatrick. Yes, tomorrow.
    Senator Carper. Okay. During the course of your time 
together, will you be discussing transportation issues at some 
length? And will you be considering at all rail transportation 
issues? Is that something that is going to be on your agenda? 
And if so, can you give me some idea of what you think will 
happen?
    Mr. Kilpatrick. Yes. At the last conferences, in DC and New 
York, we met in two cities back in February. One of the huge 
issues was the Amtrak situation and making sure that there was, 
with Amtrak, a tremendous focus on local passenger traffic and 
receiving taxpayer dollars as well, part of the $1.2 billion 
that the Committee is considering. And we are going to further 
those conversations. There is a Subcommittee that will be 
meeting on transportation issues in Madison, Wisconsin, and 
those meetings start on Saturday, to talk about transportation 
in rural, suburban, and urban areas, national agenda items like 
the Amtrak issue. We will have some kind of paper that comes 
out of that conference.
    Mr. Coles. Mr. Chairman, if I may.
    Senator Reed. Yes.
    Senator Carper. Yes, sir.
    Mr. Coles. Senator Carper, 2 years ago I was President of 
the U.S. Conference of Mayors.
    Senator Carper. Were you really?
    Mr. Coles. Yes, sir, and it was a great privilege.
    Senator Carper. Isn't that great? That is quite an honor. 
Congratulations.
    Mr. Coles. Fabulous. Thank you.
    Senator Carper. Did they pay you extra for that?
    [Laughter.]
    Mr. Coles. No.
    Senator Carper. It is a lot of extra work, though, isn't 
it?
    Mr. Coles. Just traveled more.
    Senator Carper. Did you get to keep your frequent flier 
miles?
    [Laughter.]
    Mr. Coles. I did. Thank you.
    [Laughter.]
    Strike that from the record, please.
    [Laughter.]
    Senator Reed. I feel like Judge Judy here.
    [Laughter.]
    Stop badgering the witness. Go ahead, answer, Mr. Mayor.
    Mr. Coles. Thank you, Mr. Chairman. At that time, we called 
upon the Administration and that was the transition between the 
Clinton Administration and the Bush Administration. We wrote a 
10-point domestic policy plan, which includes a rail system and 
a national rail policy for the United States of America.
    We held right here in the train station a conference on 
rail. Then Senator Trent Lott came over. We spoke about 
subsidizing rail in America and a national rail policy. And the 
U.S. Conference of Mayors continues under the presidency of 
Mayor Menino, Mayor Morale of New Orleans was the past 
President.
    The new President, Mayor Menino, will continue with the 
request for a national rail policy and the support of Amtrak, 
air, and cars. We need a three-prong system across the United 
States of America to keep our economy going.
    Senator Carper. Good. Thanks. And in conclusion, I would 
just say to our witnesses and our colleagues, in my view, when 
Amtrak was created 31 years ago, the private railroads went out 
of the passenger business. They pretty much said to this new 
entity, here's our old locomotives, our old passenger cars, our 
old dining cars, our old track beds, our old wiring, our old 
signaling system, our old repair shops. And by the way, we will 
throw in these old train stations as well. Good luck.
    Railroads are capital intensive, as we know. Amtrak has 
been starved for capital, almost from its inception. Most other 
countries around the world decide to support their passenger 
railroads on the operating and on the capital side. And they do 
so out of their naked self-interest because they think it 
reduces their dependence on foreign oil. It does. They think it 
reduces the congestion in airports and on highways. It does. 
And they think it reduces the amount of emissions, the bad 
stuff that goes up into our air from our cars, trucks and vans, 
and that is true, too.
    My own view is that we should provide a dedicated source 
for Amtrak going forward. And what I would suggest is that we 
add a penny to the gasoline tax. Not take a penny out of the 
existing tax, but add a penny to it and just earmark that for 
capital for Amtrak. And my hope is that the mayors will see fit 
to support that and we can work on that going forward.
    Thank you very much.
    When I walked into the room, Mr. Chairman, the young lady 
who is standing back there guarding the door said to me, ``you 
know, Senators do not normally come in that entrance.'' She 
looked at me and she said, ``would you like to sit in back in 
the back row?''
    [Laughter.]
    And I said, no, I think I will sit up front.
    [Laughter.]
    You are probably thinking, well, I should have sat in the 
back. Right?
    [Laughter.]
    Welcome all of you. Thank you for coming.
    Senator Reed. Thank you, Senator Carper. No one is a more 
articulate spokesperson for rail and Amtrak than Senator Carper 
of Delaware and his colleague, Senator Biden. That is of great 
interest to this Committee, but of critical interest to the 
Commerce Committee and I know that you are working closely with 
them.
    Do any of my colleagues have any other additional comments 
or questions for the panel?
    [No response.]
    It is an excellent panel. You have given us perspectives 
from the local level, the most important level, the public 
servants who serve on a day-to-day, face-to-face basis the 
people of America. And I think what you have said is that TEA-
21 is working very well when it comes to transit policy. It 
provides guaranteed funding, which is critical for your plans, 
most of which you are projecting and planning today is based 
upon the assumption that you are going to get this funding 
beyond the authorization period and into the next bill, and we 
hope that we can continue that guarantee.
    Also, the flexibility. And one thing that we have to be 
very concerned about in terms of flexibility is we do not tilt 
the field to favor highways over transit any more than it might 
be today. You cannot give flexibility to local communities if 
it costs more to play on the transit part of the field than the 
highway side of the field. They have to have a real choice. And 
I think TEA-21 did that, and I hope it will continue to do 
that.
    And finally, comprehensive transportation planning. I think 
all of your comments--Mayor Kilpatrick, Mayor Coles, and 
Commissioner Mayfield--underscored the point that 
transportation policy is no longer just a city struggling with 
a municipal bus system. It is a regional issue. It requires 
regional cooperation and State cooperation. And I believe that 
TEA-21 has enabled that type of cooperation.
    So, we have a lot to be pleased with. Ultimately, I hope 
that we can continue this effort. The critical issue, as I 
mentioned in my opening statement, remains, will we have the 
resources to support the flexibility, the comprehensive 
planning? Will we have sufficient resources in the transit 
portion of the new reauthorization so that you can continue to 
do what you have been doing extremely well?
    And I thank you for that.
    Let me also indicate procedurally that it is the intention 
of the Subcommittee to hold a hearing on June 26, to hear from 
the business community and environmentalists about the benefits 
of TEA-21 and transit issues.
    And if anyone has any questions or submissions for the 
formal hearing record, I would ask that you provide them to the 
Committee Clerk by Monday of next week.
    Thank you very much, and if there are no additional 
questions, the hearing is adjourned.
    [Whereupon, at 11:16 a.m., the hearing was adjourned.]
    [Prepared statements, and response to written questions 
supplied for the record follow:]
               PREPARED STATEMENT SENATOR DEBBIE STABENOW
    Mr. Chairman, thank you for holding this hearing on our Nation's 
mass transit needs. Ensuring safe and efficient public transportation 
is one of the most critical issues that we face as Members of this 
Committee. I look forward to working with the Chairman, and all Members 
of this Committee, as we craft a strong mass transit title to the 
upcoming TEA-21 reauthorization in the next year.
    I am extremely proud to have the Mayor of Detroit, Kwame Kilpatrick 
testifying before this Committee today. Mayor Kilpatrick brings a 
strong vision of revitalization and a history of leadership to the city 
of Detroit. Before being elected to this office, Mayor Kilpatrick 
served in the Michigan House of Representatives, where he served as 
Democratic Leader, and as Vice Chairman of the Transportation 
Committee. As Mayor, he is working hard to reinvigorate Detroit with a 
redevelopment plan that includes providing affordable housing, safe 
public transit, and a modern downtown Woodward Avenue Corridor area. I 
am proud to be working with him to create a strong Federal and local 
partnership to make these improvements happen, in particular to 
continue to build a strong rail and bus transit system in Detroit.
    While transit discussions often focus on rail and subway systems, 
States like Michigan that do not have a major subway system also have 
tremendous mass transit needs. In the year 2000 alone, Michigan buses 
carried over 91 million passengers. There are bus systems operating in 
every one of Michigan's 83 counties, from our largest city, Detroit, to 
our most rural counties in the Upper Peninsula. These bus systems 
provide vital services to our communities in Michigan. Whether it is 
our working families, college students, the disabled or members of the 
retired community, they all rely on Michigan's transit system to get 
them to work, school, or other destinations, safely and quickly.
    Despite covering all counties, transit service in many areas is 
minimal, creating a real hardship for these communities. Even though 
Michigan must rely solely on buses for mass transit, our State lacks 
the capital investment it needs to simply keep up existing service even 
though ridership is increasing. In 2002, Michigan received $28 million 
in bus discretionary funds for capital projects but our capital needs 
for buses, facilities, and equipment exceeded $100 million. Michigan 
will simply have to carryover this shortfall until next year when we 
probably will get much less than we need for that year. This means we 
will fall further and further behind in meeting our public transit 
needs.
    This shortfall exists despite the significant contribution by 
Michigan taxpayers. Michigan ranks sixth, behind five States with rail, 
in direct support for its public transit systems. In fiscal year 2000, 
Michigan provided $192 million in State funds to support local and 
intercity bus transit, marine and ridesharing services. Local transit 
agencies contributed a similar amount in local funds and farebox 
revenue.
    Despite, this strong State and local commitment to transit, 
Michigan does not receive the same commitment in Federal dollars. On 
average, between fiscal year 1998 and fiscal year 2001 Michigan only 
received about 42 cents back for every transportation dollar it sent to 
Washington.
    I am pleased to be here today as we begin our work on improving our 
mass transit programs. I hope to be able to work with my colleagues on 
this Committee to help States like Michigan, increase access to public 
transportation, which will improve our economy and our quality of life.
    Thank you.
                               ----------
             PREPARED STATEMENT OF SENATOR THOMAS R. CARPER
    Thank you, Mr. Chairman, for holding this second Subcommittee 
hearing on TEA-21 reauthorization. Thank you to our witnesses for 
traveling so far to share their views with us today.
    In Delaware, like in many States, some of the biggest and most 
important transportation projects we will embark on in the coming years 
will be transit and rail projects. From upgrading our bus fleet to 
improving capacity along the piece of the Northeast Corridor that we 
host, we are being forced by the tremendous amount of growth we have 
seen in recent years to spend much of our time and resources finding 
ways to get people off congested roads and on public transportation.
    There are three things I think Congress should do this year and 
during TEA-21 reauthorization to help States like mine meet their 
citizens' transportation needs.
    One of those things is to prevent Amtrak from dissolving. The 
Senate Budget Committee included the $1.2 billion Amtrak needs to 
survive through fiscal year 2003 in its Budget Resolution. We need to 
follow through now and make sure Amtrak actually gets $1.2 billion in 
the fiscal year 2003 Transportation Appropriations Bill. This is even 
more critical now that Amtrak has been forced to use the likelihood 
that they will get $1.2 billion next year as collateral on a $200 
million loan that Amtrak President David Gunn has told us they need to 
be able to continue operations through the end of this year. An Amtrak 
shutdown will severely hamper transit operations in the Northeast 
Corridor and make it more difficult for transportation officials across 
the country to move people around. Congress and the President need to 
work together to make sure it does not happen.
    The second thing we can do to help States with large public 
transportation needs is to expand the flexibility built into ISTEA and 
TEA-21. TEA-21 currently allows States certain leeway in moving money 
between the highway and transit program but I believe Congress did not 
go far enough 5 years ago. The State of Delaware can spend its Federal 
highway dollars to improve its piece of Interstate 95 to accommodate 
more drivers. It can also spend that money on transit and freight rail 
projects, intercity bus service or even on bike paths. It cannot use 
any of it, however, to make improvements to the Amtrak-owned tracks 
running alongside Interstate 95 so that more of the Delawareans who use 
that congested road every day to get from their homes in the suburbs to 
jobs in Wilmington or Philadelphia can take an Amtrak or SEPTA train 
instead.
    Transportation officials should be able to spend their Federal 
transportation dollars on the most pressing transportation needs in 
their region whether they are highway, transit, or intercity rail 
service. This added flexibility would not cost the Federal Government 
anything and would not force any State to spend their transportation on 
anything they do not want to spend it on. It would simply give States 
the ability to address their citizens' transportation needs in the way 
they think best.
    Finally, the third thing we should do is provide Amtrak with a 
dedicated source of capital funding. Without that, Amtrak will continue 
to go from crisis to crisis as it has for years now.
    Thank you again, Mr. Chairman. I look forward to hearing from the 
panel on these issues and on what they think worked and did not work in 
TEA-21.
                               ----------
              PREPARED STATEMENT OF SENATOR JON S. CORZINE
    Thank you, Mr. Chairman, for holding this third hearing on 
reauthorization of the Transportation Equity Act for the 21st Century--
TEA-21, and I would like to join you in welcoming our witnesses.
    Mr. Chairman, as the Banking Committee continues its work on the 
reauthorization of TEA-21, I look forward to working with you and the 
Members of the Committee to craft legislation that does its best to 
help our Nation's transit systems. As someone who represents a State 
with the third largest transit system in the country, I realize we need 
to provide as much funding as possible to assist these systems to meet 
the needs of their riders. In fact, nowhere in the country is the need 
for mass transit more evident than in the Great State of New Jersey, 
the most densely populated State in the Nation. A study done by the New 
Jersey Institute of Technology in July 2001 found that the average New 
Jersey driver spent almost 50 hours a year stuck in traffic. For all 
this time stuck in traffic, that is an average cost per driver of 
$1,255 in wasted gasoline and lost productivity--for a total cost of 
$7.3 billion a year. To New Jersey's credit, we have realized that we 
cannot build enough roads to meet our transportation needs. We need to 
craft TEA-21 reauthorization legislation that operates under that 
premise as well. This legislation should not only continue the 
commitment we made under TEA-21 to help fund existing mass transit 
projects but also help State and local transit agencies create new 
opportunities for commuters, whether they are bus, rail, or ferry. 
Transit systems need more funding, not less, to meet the needs from 
their increasing levels of ridership.
    Mr. Chairman, I look forward to working with you to develop 
legislation that continues to provide State, city, and local transit 
agencies with a stable guaranteed source of funding. I will also try to 
see that that level is funding is increased. 
Finally, I will also work to continue innovative financing methods, 
like the transfer program that allows some highway funds to be transfer 
for mass transit uses.
    Thank you.
                               ----------
                PREPARED STATEMENT OF SENATOR MIKE CRAPO
    I like to offer my regrets that I am unable to attend this hearing. 
Unfortunately, I am attending to pressing family matters in Idaho. 
Nonetheless, I am pleased that Brent Coles, the Mayor of Boise, Idaho, 
is able to attend and speak at this hearing regarding the 
reauthorization of TEA-21. In addition to his capacity as Mayor, Mr. 
Coles is a member of the Regional Public Transit Authority and the 
Treasure Valley Partnership.
    Mayor Coles has been a leader in fostering regional cooperation and 
coordination of transit, and has actively supported the creation of a 
regional public transit authority in southwest Idaho. The significance 
of transit operations will continue into this century, and it is 
important to develop and keep in mind a sense of the needs of local 
governments prior to any action on our part.
    In metropolitan areas such as Boise, more must done to address the 
transit needs of rural and disabled passengers while providing extended 
service to the growing needs of a metropolitan population.
    Since Boise, Idaho, is one of the fastest growing metropolitan 
areas in the country, Mayor Coles' testimony will be invaluable for our 
Committee as we work to reauthorize the transit portion of TEA-21 and 
improve transit programs in America.
                               ----------
               PREPARED STATEMENT OF KWAME M. KILPATRICK
                        Mayor, Detroit, Michigan

                             June 13, 2002

    Good Morning, Mr. Chairman and Members of the Committee. I want to 
thank you for giving me the opportunity to appear before you today to 
discuss the importance of Federal assistance for public transportation 
for the city of Detroit. It is a particular pleasure to appear before a 
Committee on which Senator Debbie Stabenow serves. We are lucky to have 
her working for us here in Washington on issues that are important to 
the city of Detroit such as affordable housing, homeownership, and--of 
course--public transportation.
    During my campaign for Mayor last year, I spent a lot of time 
talking with the people of Detroit about a new vision. Part of this 
vision is improving the quality of life, which includes a variety of 
transportation methods that are needed to connect the downtown area 
with our neighborhoods and opportunities for jobs that are further away 
from home. Detroit will always be the ``Motor City,'' but our citizens 
also want alternative forms of transportation such as buses, trains, 
light rail vehicles, and people movers.
    I have had a longstanding interest in transportation issues. Prior 
to my position as the Mayor of Detroit, I was a member of the State 
legislature for 5 years and served as Vice Chairman of the 
Transportation Committee. In that role, I had the opportunity to 
observe how Federal assistance affects transportation throughout the 
State of Michigan. My goal has remained the same--to bring Federal, 
State, and local governments to the table to enhance transportation 
options for our citizens.
    Since becoming the Mayor of Detroit, I have focused on developing a 
clearer picture of transportation options available to our city. The 
city of Detroit is currently examining several transportation 
alternatives and will continue to work in partnership with the Federal 
Government to make these plans a reality. I have also been working with 
the automotive community to encourage new technology to support 
alternative forms of transportation.
    I would like to first discuss how the Federal Transit Program is 
performing in the city of Detroit and the surrounding region. 
Southeastern Michigan is an unusual region where transit service is 
concerned--the city of Detroit is the major transit operator. As Mayor, 
I oversee the Detroit Department of Transportation (DDOT). We operate 
520 buses, employ more than 1,700 people, and carry 41 million riders 
per year. According to the American Public Transportation Association, 
DDOT ranks among the top 35 transit agencies nationwide in terms of 
passengers carried. The city of Detroit also oversees the Downtown 
People Mover, an automated rail guideway system that serves as a major 
circulator connecting office, hotel, entertainment, and residential 
centers in our downtown area. The City's suburban bus agency (SMART bus 
service) operates approximately 250 buses.
    Like all transit providers, the city of Detroit has benefited 
greatly from funding increases made available during the TEA-21 
authorization period. The most important evidence of the impact of this 
Federal program is the reduction in the age of our bus fleet. In 1993, 
the average age of our buses was 10.1 years. Today, thanks to the 
additional funding approved by this Committee, our average bus age is 
5.6 years. Our City has also benefited from the Jobs Access and Reverse 
Commute Program. Through expanded community-based and private van 
services, we have been able to service residents that are primarily 
located in empowerment zones. The collaboration of DDOT, the City's 
Employment and Training Division, and other stakeholders serve as a key 
component in helping people make the transition from welfare to work.
    As the city of Detroit looks to the future, we hope to make major 
improvements to the City's transportation infrastructure. We are 
seeking support from this Committee to create partnership opportunities 
between Federal, State, and local governments. Here are some of the 
transit needs the city of Detroit has identified which we seek to 
address:

<bullet> Our Downtown People Mover--now 15 years old--is in dire need 
    of repair and will require significant upgrades if it is to remain 
    a key public transit circulator in downtown Detroit. We have 
    identified an estimated $37.9 million of repairs and improvements 
    needed to upgrade the People Mover.
<bullet> A Downtown Central Transit Terminal is needed to link together 
    our existing bus and people mover systems with improved pedestrian 
    walkways and possible rail or bus stations. This proposed terminal 
    will cost about $45 million.
<bullet> Our bus system needs maintenance and heavy repair garages 
    which could cost the City up to $120 million.
<bullet> Development of a Center City Loop rail service, comprised of 
    modern-day structures, will improve mobility in the core of 
    Detroit, will connect the new downtown area, which is rich in 
    business, entertainment, and cultural activities, and will 
    stimulate neighborhood growth through transit development 
    opportunities. Providing a feasibility study through preliminary 
    engineering is projected at a cost of $20 million.
<bullet> The Woodward Avenue Corridor--Southeastern Michigan's main 
    street--has been the subject of transportation studies for a 
    generation. The most recent Alternative Analysis--completed in May 
    2000--reviewed light rail, commuter rail, people mover, and bus 
    rapid transit options for this corridor. We are now working to move 
    ahead to implement an alternative transit method in this corridor.
<bullet> The Southeastern Michigan Council of Governments is examining 
    rail service from Downtown to the Detroit Metropolitan Airport. The 
    City is also supportive of this idea as part of a regional package 
    of improvements that include upgrades to the transit system within 
    the city of Detroit as well.

    Meeting these major needs will require a lot of work in our State 
and region. Our State legislature is reviewing a proposal, which will 
provide a new organizational structure for our transit agencies. I 
support changes that will allow for a truly regional approach to 
improving our transit service, provided that the city of Detroit has an 
appropriate voice in the decisions that will be made.
    As we seek regional transportation solutions in Southeastern 
Michigan, the city of Detroit looks to Congress for help in providing 
the funds to meet our transportation needs. Transit programs need to be 
funded at an adequate, ongoing level by incorporating the following 
ideals:

<bullet> The transit program should grow to $14 billion, the annual 
    level suggested by APTA.
<bullet> The guaranteed funding program--which protects the transit 
    program from the ups and downs of the annual appropriations 
    process--should be continued.
<bullet> Flexible funding programs--such as the Surface Transportation 
    Program (STP) and the Congestion Mitigation Air Quality Program 
    (CMAQ) should be reauthorized.
<bullet> Funding to improve the security of our transit systems should 
    be provided from new Federal resources. Responding to terrorist 
    threats against our Nation is a matter of national policy, and the 
    financial burden for making necessary improvements cannot fall 
    solely on existing Federal, State, and local funding sources. Our 
    initial review of security needs on the DDOT system indicates it 
    would cost us more than $ 30 million to make the necessary 
    improvements.

    Detroit is the largest border crossing in North America; the 
Detroit River runs between the United States and Canada. Like so many 
other cities, we are seeking funding to revitalize transportation along 
our waterfront. One item on our agenda is establishing bike paths, 
which will directly improve the quality of life for Detroit citizens. 
Our waterfront is a recreational gem that must be redeveloped.
    I look forward to working with the Members of this Committee to 
refine these principles and want to work with you in every way I can to 
build support for your efforts to enact legislation that embodies them. 
I am impressing upon my administration and my constituents the 
importance of moving RIGHT HERE and RIGHT NOW to solve our 
transportation problems. I know this Committee is prepared to move 
ahead as well, and I, as Mayor of Detroit, will be there to work with 
you as we move forward in this process together.
    Again, thank you Mr. Chairman for the opportunity to appear before 
you today.
                  PREPARED STATEMENT OF H. BRENT COLES
                          Mayor, Boise, Idaho
                             June 13, 2002
    Good morning Mr. Chairman, Ranking Member Allard, and Members of 
the Subcommittee on Housing and Transportation. I appreciate the 
opportunity to testify before you today.
    I am Brent Coles, Mayor of Boise, Idaho, where I have served as 
Mayor since January 1993, following 10 years of service on the City 
Council. In addition, I am also a member of the Regional Public Transit 
Authority and the Treasure Valley Partnership which I will speak to 
later in this presentation.
    I am delighted to share this panel with Detroit Mayor Kwame 
Kilpatrick and Dallas County Commissioner Kenneth Mayfield.
Economic Importance of Boise
    With a metropolitan area population of 403,817, Boise is the hub of 
commerce, banking and government for the State. Many large regional, 
national, and international companies are headquartered here, including 
Simplot Corporation, Boise Cascade, Albertsons, Micron Technology, and 
Hewlett-Packard. As a major tourist and business destination nestled 
against the foothills of the Rocky Mountains, it is the economic engine 
for the region. This is in great measure because of our regional focus 
on improving the Federal, State, and local transportation networks that 
connect us to the global economy.
    I am also here today as a past President and a Trustee of the U.S. 
Conference of Mayors. The Conference of Mayors represents more than 
1,000 cities with a population of more than 30,000. The Nation's mayors 
know first hand that sustained national economic growth can only be 
possible through continued investment in the transportation of U.S. 
metropolitan areas.
    Tomorrow, the U.S. Conference of Mayors will release our annual 
Metro Economies study, which makes it clear that metro areas must 
continue to be the object of national and State infrastructure 
investment to sustain U.S. global competitiveness. I firmly believe 
that the TEA-21 law and its predecessor ISTEA have significantly 
contributed to the overall economic growth that our Nation experienced 
in the last decade.
TEA-21 Successes
    I applaud the dramatic changes Congress has instituted in the last 
two surface transportation reauthorization bills. Cities are 
implementing new transportation opportunities provided by TEA-21 to 
meet the ever-increasing demand on our public transportation 
infrastructure, both highways and transit.
    Mr. Chairman, I want to emphasize that I strongly believe in the 
success of the TEA-21 partnership. This law has provided my city of 
Boise and cities across the Nation with the transportation resources to 
enhance the quality of life for my constituents and increase 
competitiveness in the world economy. The partnership has introduced 
long-term economic, social, and environmental consequences into 
national transportation policy.
    Though suburban sprawl may conjure up visions of LA or Phoenix, the 
rugged, southwest corner of Idaho also faces significant traffic and 
air quality problems stemming from rapid growth. During the past 
decade, Boise, Idaho had the second highest growth rate in the country.
    For the first time, our residents began to think seriously about 
transportation issues. Our legendary ``rush-minutes'' lengthened and 
people began to experience longer, less tolerable commutes. 
Policymakers began to look at ways to protect our quality of life from 
the impacts of sprawl. Our highly conservative region began to discuss 
ideas like transit oriented development, protection of open space, and 
commuter rail.
    Four years ago, we formed a working group called the Treasure 
Valley Partnership. The Partnership consists of mayors and 
commissioners from general purpose governments in two counties. This 
group embodies the collaborative principles set out in TEA-21. As a 
Partnership, we have brought together business, community groups, and 
local government to make new connections between transportation and 
land use. I believe that our entire process of governance in the region 
has been improved and policy decisions are made in a more informed and 
strategic manner, so that all citizens are better served.
    The Partnership began to look seriously at what our region will 
look like at full build-out. For the first time, we put our 
comprehensive plans side by side to see if they are consistent with 
each other. Our planning staffs have begun to talk more and cooperate 
more. Our transportation plans have more regional buy-in.
    The Partnership has directly benefited from TEA-21. Working in 
collaboration with Idaho Smart Growth and our MPO, we obtained a 
$500,000 grant for a visioning process that has engaged the entire 
region in a discussion of sprawl and traffic, and their link to land 
use. The money has been leveraged with other grant funds to conduct 
pilot projects which model the conclusions of the broader study.
    Based on the principles of TEA-21, the city of Boise purchased more 
than 18 miles of railroad track and right-of-way that was about to be 
abandoned by Union Pacific Railroad. We used general fund property tax 
dollars for this purchase, even though the track is located entirely 
outside our corporate city limits. We raised private funds to purchase 
Boise's historic train depot in order to preserve the infrastructure 
that will be needed someday for commuter and passenger rail service in 
our region.
    The residents of our two-county area went to the Idaho Legislature 
for the authority to establish regional transit programs. Then, voters 
overwhelmingly approved creation of a regional transit authority. We 
have yet to be given a dedicated funding source by the Legislature, but 
Boise City has provided funding to hire an executive director and we 
are allowing the regional transit authority to assume operation of our 
bus system.
    This is progress that would not have occurred without the guidance 
and encouragement provided by ISTEA and TEA-21. There is more to be 
done, but we believe we are on the right track
Local Decision Making and Public Participation Needed to
Reach Full Intent of the Law
    Mr. Chairman, I want you to know that I consider the fundamental 
composition of the TEA-21 law as essentially sound and should be 
preserved. The U.S. Conference of Mayors also shares this position.
    The law provided the tools and the laboratory, but it did not 
guarantee success. This is up to mayors working with citizens 
identifying true transportation priorities and ensuring that those 
locally identified priorities are funded at the State. In enacting 
ISTEA, Congress recognized that for flexibility to result in good 
choices, people with on the ground experience need a strong role in 
decisionmaking. The intention was to turn over significant authority to 
State and local government, and assert the importance of a strong local 
role in project selection. ISTEA recognized that 
everyone had a stake in the outcome of transportation decisions, and 
that participation by citizens and nongovernmental organizations should 
be fully integrated into the planning and implementation of projects.
    Mr. Chairman, this is where this very good law breaks down. 
Nationally, State Departments of Transportation are controlling every 
aspect of this legislation that was intended to empower cities and 
communities. Citizens are calling for increased public transportation 
and State Departments of Transportation continue to build highways.
    Mr. Chairman and Members of this Committee, I am fortunate to have 
a State Department of Transportation whereby the Administration 
understands that the essential role of transportation is to improve not 
only the State but also my region's economic and social health. 
Unfortunately, when I visit with my colleagues nationally, I find my 
generally positive experience with the State Department of 
Transportation to be unique. This is where the U.S. Conference of 
Mayors will make a good law even better in the reauthorization. This is 
the single failing in the law.
    The law has not been completely implemented. As a result, the 
Nation's mayors do not see the Federal, State, and local partnership 
developed to the point where it is promoting the full intent of ISTEA 
and TEA-21. Despite much progress, we have failed to fully capitalize 
on the many opportunities this law intended to make available to our 
cities. I see the reauthorization of the surface transportation program 
as that opportunity to reach full potential of the law.
    The U.S. Conference of Mayors is developing a detailed set of 
recommendations on TEA-21 reauthorization that we will share with the 
Subcommittee shortly. I do however offer suggestions on the issue of 
suballocation of State Federal surface transportation funds to cities, 
counties, or regional transportation authorities. In the 
reauthorization of TEA-21, we call on the Federal Government to 
preserve and grow a program that suballocate surface transportation 
funds to metropolitan areas for the repair and maintenance of existing 
urban highways while giving equal weight to expanding public transit 
systems, congestion mitigation, safety programs, intermodal projects, 
land use, and environmental stewardship.
    As mentioned previously, the intent of the law recognized the value 
of local decisionmaking and public participation. If you want local 
elected officials and the public engaged in transportation planning, 
there must be legitimate funds on the table that are subject to the 
process. Larger MPO's, those serving areas with a population of 200,000 
or more, are the only substate agencies who have any confidence about 
annual funding, and it is only that fraction of TEA-21 highway funds 
that are suballocated in the law, funding that on a national scale 
represents about six cents of every dollar made available to the 
States. The U.S. Conference of Mayors decisively believes that more 
funding resources should be moved from the State DOT's to local 
government. We are supporting State suballocation of Federal surface 
transportation funds directly to cities, counties, or their regional 
transportation agency. This is a cornerstone of our reauthorization and 
we are exploring the best way to achieve this objective.
Closing Comments
    Mr. Chairman, let me conclude by emphasizing that I believe in the 
TEA-21 partnership and want to build upon this success. The Nation's 
mayors value our seat at the table in this process and accept the 
responsibility of planning and implementing innovative transportation 
strategies to meet the needs of our citizens. It is clear to us that 
suballocation of Federal surface transportation funds directly to 
cities, counties, or their regional transportation agency will ensure 
that as regional leaders, we have the resources to meet expectations of 
our constituents to provide transportation solutions that better fit 
their life needs and lifestyles.
    Mr. Chairman, and Members of the Committee, as you move forward on 
the reauthorization of TEA-21 you can count on my active participation 
and support on this important issue.
                               ----------
                 PREPARED STATEMENT OF KENNETH MAYFIELD
               County Commissioner, Dallas County, Texas
                             June 13, 2002
    Good morning, Chairman Reed. I am Kenneth Mayfield, County 
Commissioner from Dallas County, Texas, and President-elect of the 
National Association of Counties (NACo).\1\ I very much appreciate the 
opportunity to testify today before the Senate Committee on Banking, 
Housing, and Urban Affair's Subcommittee on Housing and Transportation 
on the reauthorization of the Transportation Equity Act for the 21st 
Century (TEA-21) and more specifically on the Federal transit program.
---------------------------------------------------------------------------
    \1\ NACo is the only national organization representing county 
government in the United States. Through its membership, urban, 
suburban, and rural counties join together to build effective, 
responsive county government. The goals of the organization are to: 
Improve county government; serve as the national spokesman for county 
government; serve as a liaison between the Nation's counties and other 
levels of government; achieve public understanding of the role of 
counties in the Federal system.
---------------------------------------------------------------------------
    NACo has been a long time supporter of the Federal transit program. 
County governments operate approximately one-third of the Nation's 
transit systems. Transit, whether it is rail, bus, or van--urban, 
suburban, or rural--is an essential component of our transportation 
system. In many of our urban and suburban counties, it is congestion 
that is the motivating force behind the need to establish and fund a 
transit system. Environmental concerns and the transportation needs of 
the economically disadvantaged also drive transit. How we address 
congestion is probably the most important and difficult issue Congress 
will have to face in the reauthorization of TEA-21. Solutions are 
elusive and complex. However, with congestion increasing, more vehicles 
on the roads, and commute times up, a reauthorization bill that does 
not seriously attack this problem would be flawed. County officials 
believe that transit has a key role to play in addressing the 
congestion crisis.
    NACo applauded the actions in Congress and specifically in the 
Senate Banking, Housing, and Urban Affairs Committee during debate 
surrounding TEA-21 that lead to a significant increase in funding for 
the Federal transit program. The 40 percent increase in transit funding 
has been extremely helpful to NACo members as well as other local 
governments that operate and have expanded their transit systems. 
Including a guaranteed funding requirement for transit has been key and 
we urge that this be continued in the reauthorization along with the 
general fund contribution. Elected county officials across the country 
are hearing from their constituents that transit is important and in 
many urban and suburban communities rail systems are being proposed. 
While I am sure that not every plan will result in a system, there is a 
demand out there that requires a larger Federal transit program.
    Dallas is one of the communities that has greatly benefited from 
the Federal transit program and from the increase in funding we 
experienced in TEA-21. Our light rail system ridership last year was 
11.5 million passenger trips. Since our system opened in 1996, we have 
had well over 50 million passenger trips. Currently, DART is 
undertaking the largest light rail expansion program in North America.
    Dallas has experienced explosive growth over the last several 
decades along with the resulting congestion. In the late 1970's, a 
number of forward thinking community leaders proposed an area-wide 
transit system for Dallas and Ft. Worth. However, it was too expensive, 
too soon, and not well thought out. When it went to the voters, it lost 
big time. Some people thought at that time the antitransit sentiment in 
Dallas would never change, just like the winning ways of the Cowboys. 
They were wrong. In 1983, a referendum was passed in Dallas and 
individual cities throughout Dallas, Collin, and Denton counties that 
approved a one-cent sales tax dedicated to the Dallas Area Rapid 
Transit (DART) for public transit.
    With the passage of the sales tax, a funding source was created 
that lead to investment in light-rail, bus service improvements, 
commuter rail, HOV lanes, and carpooling. There are 13 individual 
communities that are part of DART. Even though the sales tax was passed 
in 1983 and tax collection began in 1984, it was not until 1996 that 
light rail opened in Dallas. From 1983 until 1996, most communities and 
citizens stuck with the promise of transit and continued paying into 
the system. Our 20 mile light rail starter system has exceeded 
everyone's expectations in terms of ridership and economic development. 
While developers waited until the system was complete to begin 
investments, they are now fully engaged in operating major projects 
around many of the systems 23 stations. The starter system cost $860 
million and was built on time and on budget. Incidentally, that $860 
million includes everything--rails, cars, and a 3 mile tunnel from 
downtown Dallas to Mockingbird Lane. The one-cent sales tax paid for 80 
percent of the starter system and the Federal transit program paid for 
the rest--$160 million.
    An additional 23 miles of light rail will be opening this year. The 
11.2 miles Northeast Light Rail Extension goes from Dallas to Garland. 
The North Central Extension will serve parts of Dallas and Collin 
counties by reaching out to Richardson and Plano. The passage in August 
2000 of a bond proposal will dramatically accelerate additional light 
rail expansion through 2010. Seventy-seven percent of those voting 
supported this bond proposal, another example of the broad support the 
light rail system has in our community. These two new projects together 
cost $992 million of which 66 percent was raised locally. However, I 
must emphasize that without the $333 million in Federal new start 
funds, we could not have moved ahead.
    While economic development followed DART's starter light rail 
system, the success of that system made believers out of the 
development community. Rather than taking a ``wait and see'' view, 
developers have jumped in and have already built a number of projects 
adjacent to the two new lines. At Galatyn Park a new 11-story hotel has 
been constructed next to the light-rail station and in downtown Plano 
high-end apartments with extensive retail space have been opened. To 
date, over $1 billion has been invested in private development along 
DART's existing and future light rail lines. A University of North 
Texas study projects DART's current expansion program and operations 
will pump $3.7 billion into the regional economy and support 
approximately 32,000 jobs through 2003. Between 1996 and 1998, taxable 
values for property near light rail stations were about 25 percent 
higher than comparable properties not served by rail. Downtown Dallas 
residential and commercial development has experienced an upswing with 
the advent of transit.
    Rather than being perceived as being in competition with highway 
building, these projects complement our highway system in Dallas. The 
North Central Line parallels the North Central Expressway where TXDOT 
is currently undertaking a huge interchange project known as the High-
Five Project. Our new light rail system is opening at the right time to 
give commuters an alternative to the congestion that is inevitably 
being created by this large construction project. And that is how we 
view transit in Dallas--as a transportation alternative. We do have 
plans for the additions to the DART system. The Southeast Line would 
extend 10.2 miles to Fair Park and Pleasant Grove, all within Dallas 
County, by 2008. The 17.5 mile Northwest Line will go along the I-35 
corridor to Denton County by 2008, including a stop at Love Field. A 13 
mile branch of this line will go to Las Colinas and on to Dallas-Forth 
Worth Airport by 2010. While we will continue our policy of a local 
overmatch, we will need Federal funding for both these projects.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or other Members of the Subcommittee may have.

         RESPONSE TO WRITTEN QUESTIONS OF SENATOR REED 
                    FROM KWAME M. KILPATRICK

Q.1. What lessons his Detroit learned from its People Mover 
system that it plans to incorporate into its future transit 
plans?

A.1. Detroit is downtown People Mover system has made rail 
transit a safe, reliable, efficient, and accessible 
transportation option for all of Detroit's citizens. This 
light-rail system provides connections between the courts and 
administrative offices of several levels of government, sports 
arenas, exhibition centers, major hotels, and commercial, 
banking and retail districts. Service is frequent, unencumbered 
by vehicle or pedestrian traffic, and conveniently available 
throughout the central business district. Not only does the 
People Mover enhance business development and pedestrian travel 
by moving people effectively throughout the City, but it 
compliments other forms of public and private transportation as 
well.
    The Detroit People Mover has also proven to be an 
indispensable method of transit during large-scale events, 
transporting 35,000 North American International Auto Show 
visitors throughout the City and over 13,000 passengers to and 
from Joe Louis Arena during Detroit Red Wing hockey games. The 
city of Detroit plans to utilize rider data gathered from these 
peak passenger times to augment the Detroit People Mover's 
services during future large-scale events such as Super Bowl XL 
in 2006.

Q.2. Do you see rail or bus service as the priority for 
Detroit?

A.2. Efficient light-rail service, when combined with carefully 
designed roadways, comprehensive bus services, and clear 
traffic and parking policies, comprise a coherent 
transportation system. However, a light-rail system cannot be 
successful without the integration of these supporting 
elements. Detroit is committed to building these key transit 
compliments to achieve a fully incorporated transportation 
system for the City. The construction of the Detroit Department 
of Transportation's (DDOT) Downtown Transportation Center, 
which will work directly with the People Mover, will strengthen 
its viability as a major transit operator for the City. The 
coordination of all transit services, in conjunction with the 
Detroit People Mover, will be essential for the achievement of 
safe, reliable, efficient, and accessible transportation for 
both the citizens of Detroit and visitors to the City from 
around the State, the country, and the world.


            TEA-21: INVESTING IN OUR ECONOMY AND ENVIRONMENT

                              ----------                              


                        WEDNESDAY, JUNE 26, 2002

                               U.S. Senate,
  Committee on Banking, Housing, and Urban Affairs,
                Subcommittee on Housing and Transportation,
                                                    Washington, DC.

    The Subcommittee met at 10:10 a.m. in room SD-538 of the 
Dirksen Senate Office Building, Senator Jack Reed (Chairman of 
the Subcommittee) presiding.

             OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. The Subcommittee will come to order.
    I want to welcome the witnesses. This is a very important 
panel of business leaders and environmental leaders here to 
discuss the critical issues of transit in the United States as 
we prepare for the reauthorization next year.
    Let me just advise the panel and everyone else that both 
Senator Allard and I are engaged in the debate on the national 
missile defense which is taking place on the floor which will 
begin at 11 a.m. And so, I would ask the witnesses to adhere as 
closely as possible to the 5 minute rule in terms of your 
presentations. All of your statements will be made part of the 
record, so that you can summarize and abbreviate when and if 
possible.
    Let me introduce the witnesses first, and then they may 
begin their testimony.
    Mr. Carl Guardino is President and CEO of the Silicon 
Valley Manufacturing Group, which represents 190 companies 
employing a quarter of a million workers who fuel our Nation's 
high-tech sector. Mr. Herschel Abbott is Vice President of 
Governmental Affairs for BellSouth. He is here to describe 
BellSouth's effort to integrate transit into his company's 
relocation efforts. Mr. Robert Broadbent is the Manager of the 
Las Vegas Monorail Company, who has years of experience in 
transportation and business. Mr. Hank Dittmar is a Board Member 
of the Surface Transportation Policy Project, with a wealth of 
experience in transportation policy. And Mr. Michael Replogle 
is Transportation Director for Environmental Defense. He has 
been involved in transportation policy for 25 years.
    I know my colleague, Senator Ensign, plans to join us at 
some time so that he can also welcome Mr. Broadbent. And my 
colleague, Senator Miller, similarly, would like to welcome Mr. 
Abbott. When they arrive, we will make sure that happens.
    At this point, let me recognize Mr. Guardino for his 
testimony.

                   STATEMENT OF CARL GUARDINO

             PRESIDENT AND CHIEF EXECUTIVE OFFICER

               SILICON VALLEY MANUFACTURING GROUP

    Mr. Guardino. Thank you, Chairman Reed. It is a pleasure to 
be here this morning to speak to you from a business 
perspective about TEA-21's benefits for economic development, 
for my comments about TEA-21's matching requirements, the Act 
in general, recommendations on the reauthorization of TEA-21, 
and Silicon Valley's future transit needs, all in 5 minutes or 
less.
    [Laughter.]
    By a quick way of reference, the manufacturing group was 
formed by David Packard, Co-Founder of the Hewlett Packard 
Company back in 1978, as a way for CEO's in Silicon Valley to 
get directly and personally involved in the issues that 
impacted the economic health of our region, State, and Nation. 
But also, equally important, the quality of life of their 
employees, their families, and the broader community.
    Needless to say, the issues that we focus on that impact 
both the economic health and quality of life cover five core 
areas, in addition to transportation, affordable homes, 
education, the environment, and energy.
    As you know from the employers and their employees in your 
States, traffic congestion has a direct impact on not only the 
quality of life of your constituents, but also on the economic 
health of your communities and companies as well.
    Each year, I sit down with 95 of the top CEO's in Silicon 
Valley and ask them a very simple question: For your company in 
Silicon Valley, what are the key issues that impact your 
ability to stay healthy and competitive, as an employer? The 
top responses, for 5 years running, are traffic relief and 
affordable homes.
    The reason is clear. In an Information Age Economy, workers 
in Silicon Valley and in many of the communities that each of 
you represent, workers can work anywhere in the world they 
want. And they are only going to choose to work in our States 
if we ensure that we have reduced traffic and provide viable 
alternatives to the automobile.
    It would be easy for me as a business leader to appear 
before you to discuss transit and transportation needs and to 
not do anything directly about it. At the Manufacturing Group, 
we continue to do what we can to put our wallets where our 
words are.
    In 1984, we led the first countywide effort in California's 
58 counties to become a self-help county. That is, a county 
that was willing to tax ourselves through a voter-approved 
ballot initiative to fund our own improvements. That 10 year, 
half-cent sales tax raised $1 billion in local funds and built 
three key transportation improvements, all completed on-time 
and on-budget.
    In 1996, recognizing that additional improvements were 
needed, we once again spearheaded a half-cent sales tax, this 
time to last for 9 years, which is generating $1.4 billion in 
local revenues. That measure, which includes 18 specific 
transportation improvements, 65 percent rail transit and 35 
percent roads, will be completed, as promised, on-time and on-
budget, by April 2006.
    Then in November 2000, we co-led an effort to tax ourselves 
with a 30 year, half-cent sales tax for a traffic relief 
measure that will generate more than $6 billion in local funds, 
for a measure that is 100 percent transit. Santa Clara County 
voters passed that initiative by a resounding 72 percent of the 
vote.
    All told, those three local measures alone will generate 
more than $8.4 billion in local transportation funding. It is 
important to note that 41 cents of every dollar we raise in 
sales tax revenue is paid for by employers. And in a global 
marketplace, where our employers cannot pass off those 
additional costs to customers, we view these measures not as a 
tax, but as an investment in our economies and in our workers' 
quality of life.
    There are two quick points that I would like to make about 
the renewal of TEA-21.
    First, please retain the flexibility provisions of the 
ISTEA and TEA-21. This has allowed local decisions and local 
input about how dollars are spent. In Silicon Valley and the 
Bay Area, through our MPO, the Metropolitan Transportation 
Commission, this has meant the ability to direct dollars to 
either greatly needed road improvement, a new rail line, an 
enhanced bus system, whatever we needed to meet local needs to 
fight congestion.
    Second, a quick comment about the New Starts Program. In a 
time of limited Federal resources, where you are asked to fund 
numerous worthwhile improvements throughout the country, I 
would underscore the need to leverage each one of those 
taxpayer dollars to the fullest. As I described above, our 
region has stepped up to the plate with local funds that well 
exceed the minimum 20 percent non-Federal match. We believe 
Congress should consider rewarding ``Super Matched'' projects, 
such as the Silicon Valley Rapid Rail Corridor in my area with 
credit enhancement techniques or other Federal guarantees to 
ease project financing. This will also provide an incentive to 
other areas around the Nation to step up to the plate as well. 
With limited dollars, we need to seek out and reward those 
communities that have shown a strong willingness to help 
themselves, to partner with you, and to find more local funding 
to match Federal funding.
    Finally, I am honored that you have asked what improvements 
are important to the ongoing success of Silicon Valley and the 
Bay Area region. Working through the MTC's 2 year planning 
process, the nine county San Francisco Bay Area has developed 
an improvement plan that includes top-tier priorities for 
Federal funding consideration.
    First, our current number one priority is to finish the 
greatly anticipated BART or Bay Area Rapid Transit line to San 
Francisco International Airport. It is vital to our region's 
economy.
    As we complete the BART 2 SFO extension, the Bay Area 
stands united behind two equally important regional 
improvements--both with considerable amounts of matching funds 
from the local level.
    I will mention just one of these improvements that was 
funded through our November 2000, half-cent sales tax, the 
Silicon Valley Rapid Rail Corridor, which would bring BART to 
Silicon Valley and would eliminate nearly 80,000 automobile 
trips every workday. Sixty-one percent of those capital costs 
and the ongoing operation funds were funded through that sales 
tax measure in November 2000. Seventeen percent more has been 
allocated from our State legislature and governor. We have a 78 
percent local and State match, seeking 22 percent over the next 
10 years in Federal funds.
    We hope that with such a considerable overmatch, that we 
will look forward to making this improvement a reality within 
the next decade.
    It is an honor to be here and an honor to forge worthwhile 
partnerships like this between the Federal Government, local 
and State government, and those of us in the private sector.
    Thank you very much for allowing me to speak to you today.
    Senator Reed. Thank you very much, Mr. Guardino.
    Let me now call upon my colleagues, because I do believe 
that they have a word of introduction for their guests.
    Let me turn to Senator Ensign, please.

                COMMENTS OF SENATOR JOHN ENSIGN

    Senator Ensign. Thank you, Mr. Chairman, and thank you for 
conducting this hearing.
    I want to introduce a good friend who we have come to know 
over the years, a very talented individual, Bob Broadbent. He 
was the Mayor of Boulder City and Clark County Commissioner for 
a combined 23 years. He looks a lot younger than that.
    Mr. Broadbent was appointed by President Reagan to serve as 
the Commissioner of the U.S. Bureau of Reclamation, and was 
also appointed by President Bush to serve on the Tahoe Regional 
Planning Agency. He served on the Board of Governors for the 
Las Vegas Convention and Visitors Authority and was Director of 
the Clark County Department of Aviation for 11 years. And 
during Bob's tenure as the Director of Aviation for Clark 
County, Las Vegas McCarran Airport went from the 23rd to the 
10th largest airport in the Nation.
    Bob knows just a little bit about construction after 
serving at the airport during that time.
    Bob's name really is synonymous with calling in the cavalry 
in Clark County. The monorail project which he has overseen is 
$20 million under-budget and ahead of schedule. This is the 
first privately financed public transportation system in the 
world.
    It is mainly because of Bob's talent that we have been able 
to realize this for our community. Bob has some suggestions 
about improving the way that we build public transportation 
systems. There are too many disincentives for the private 
sector to participate in financing public transportation 
systems, and I think, Mr. Chairman, that he will add a lot to 
the hearing today and, hopefully, will help us improve the 
legislation that we are working on.
    So thank you for allowing me to interrupt, and I need to 
excuse myself.
    Thank you.
    Senator Reed. Thank you, Senator Ensign.
    Senator Miller.

                COMMENTS OF SENATOR ZELL MILLER

    Senator Miller. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing.
    I wanted to come here just for a few minutes myself and say 
how much I appreciate the fact that you have invited a 
Southerner to be one of the witnesses in this hearing this 
morning. You could not have found a better one.
    Mr. Herschel Abbott is, of course, the Vice President of 
Governmental Affairs for BellSouth in Atlanta, and before that, 
he was in charge of BellSouth's operation in Louisiana.
    BellSouth and Mr. Abbott have a wonderful story to tell. I 
am sure he will get into it and tell it better than I can. But 
we are very proud of what BellSouth has done with what we call 
the Atlanta Metro Plan, which has relocated almost 10,000 
employees into three new office buildings that have been built 
over or near our MARTA transit system. And this has helped 
tremendously in reducing commute time, congestion and negative 
emissions, car emissions.
    And so, I just wanted to come here and listen to my fellow 
Georgian, and thank you for having him as a witness.
    Senator Reed. Thank you, Senator Miller.
    Senator Allard, your comments?

                COMMENTS OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, I would just like to submit 
my statement for the record and just make some brief comments 
here.
    Senator Reed. Without objection.
    Senator Allard. I am looking forward to your testimony, Mr. 
Broadbent, in particular, your testimony on how we get the 
private sector involved in the mass transit system. I also 
think that in our mass transit systems, we need to encourage 
more local participation, more accountability.
    I was glad to hear the comments that your projects are 
getting done on time, or ahead of time, on budget schedule. 
Those are important parameters and I am going to be looking in 
legislation for incentives that encourage more local match, 
that would encourage staying on time with your projects and 
everything else.
    So that is a good start.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard.
    Mr. Abbott, please.

              STATEMENT OF HERSCHEL L. ABBOTT, JR.

              VICE PRESIDENT- GOVERNMENTAL AFFAIRS

                     BELLSOUTH CORPORATION

    Mr. Abbott. Thank you, Mr. Chairman and Members of the 
Subcommittee.
    I am Herschel Abbott. I cannot count the number of times 
that I have testified before legislative bodies and 
commissions, but this is one of the first times, one of the few 
times when I can say that I am really glad to be here because 
we have a great story to tell.
    At a time when we read all too often about questionable 
corporate conduct, I get to tell you that my company, 
BellSouth, is a real hero back in Atlanta, a hero that displays 
the kind of leadership that Americans expect and deserve from 
their corporations.
    In Atlanta, BellSouth is relocating and consolidating 
approximately 9,800 employees. We are now building three new, 
energy 
efficient building centers with a total of 2.7 million square 
feet to 
facilitate that relocation and consolidation. The budget for 
that is $750 million of our money. Putting those buildings and 
employees on top of or near mass transit, the MARTA in Atlanta, 
which is a tremendous partner for us. I will talk about MARTA 
in a second.
    In cooperation with MARTA, we are building free and secure 
parking facilities at MARTA's rail heads, so that our employees 
can come in and have a free place to park that is secure and 
then get on the MARTA and go to their places of employment.
    The process, which is scheduled to be complete in September 
2003, will have six major office complexes, all on or near rail 
stops, giving our employees the option of taking the rail to 
work and the option of traveling between those buildings 
without cranking up their cars, because we have a lot of 
movement of employees back and forth between the buildings 
during the day. Now, they can move back and forth more quickly 
without ever getting in their cars. And it will greatly reduce 
the number of car trips and we 
will have built a model for sustainable business growth in an 
urban setting. This is not the first time BellSouth has worked 
to create a business in an urban city. In 1980, we built the 
first 45-story building in Atlanta over a mass transit 
facility, and that is the BellSouth Center. Thirty percent of 
the employees in that building ride mass transit.
    Let me set the stage for our most recent initiative.
    For those of you whose principal experience with Atlanta is 
changing planes at Hartsfield Airport, let me tell you that 
Atlanta is a clean, vibrant city with friendly people and lush 
green suburbs. People tend to like Atlanta. They have been 
flocking there since the 1960's. In fact, between 1960 and 
2000, Atlanta has not seen a decade's worth of growth where it 
grew by less than 27 percent. Growth in the most recent decade, 
1990 to 2000, was 39 percent, with metro Atlanta growing by 
500,000 people during that decade. The region is home to three 
of the Nation's fastest growing counties--Forsyth, Henry, and 
Paulding.
    Atlantans now have a metropolitan area of approximately 4 
million residents and suburbs that stretch almost to Tennessee 
in the north, and to Alabama in the west, almost to South 
Carolina in the east, and deep into the flatlands of Georgia to 
the south.
    California is not the only place where people love their 
cars. They say that Atlantans would drive from the kitchen to 
the bedroom if they could figure out how to get the car in the 
house.
    [Laughter.]
    The growth has taken its toll. Atlantans endure the 
Nation's longest commute--unless The Post was right last week, 
I think, when they announced that D.C. had, as I recall, the 
longest commute. But let me tell you--Atlanta is right up 
there, with an average round trip of 34 miles for every person. 
They spend 69 hours annually, the equivalent of almost 9 
workdays, sitting in traffic.
    At the same time, new road projects have been stalled 
because the region is too frequently out of compliance with the 
Federal Clean Air Act standards, an average between May and 
September of 11 days.
    Those are the challenges that Atlanta faces.
    The challenge BellSouth faced 3\1/2\ years ago was 
symptomatic of Atlanta's rapid growth. We had in our employee 
population a growth of 22 percent between 1993 and 1999, from 
15,000 to 18,000. Like the city, we not only grew, but also we 
spread out. Before we created the Atlanta Metro Plan, we had at 
least 61 buildings in known facilities. At the completion of 
this project, we will have five office projects that stretch 
from downtown to the near north side.
    When we move into the project when it is completed, we will 
have 85 percent of our employees in metro Atlanta working 
within walking distance of MARTA, or over MARTA itself.
    One of BellSouth's goals is to be a great place to work. 
This plan moves us to this goal because it saves employees 
time. It saves employees money. It saves wear and tear on the 
employee's spirit. It is environmentally sound, and it is at 
least a small step in reducing this Nation's demand for oil.
    We are very proud of this project. And if I may beg one 
moment's indulgence, just let me say about MARTA, what a 
wonderful partner they have been. How important it is to the 
city of Atlanta that reauthorization go forward. They are in 
desperate need of expanding their railheads to the north, to 
the west, and those are under study. I cannot think of a more 
useful goal to pursue.
    Thank you very much, Mr. Chairman.
    Senator Reed. Thank you, Mr. Abbott.
    Mr. Broadbent.

                 STATEMENT OF ROBERT BROADBENT

              MANAGER, LAS VEGAS MONORAIL COMPANY

    Mr. Broadbent. Mr. Chairman and Members of the 
Subcommittee, I want to thank you for the opportunity to appear 
today to share with you our experience in the creation and 
implementation of the first truly public-private partnership in 
the United States for a modern, urban-grade rail transit 
project in Las Vegas.
    I want to thank Senator Ensign for his invitation and for 
his support of the Las Vegas Monorail project.
    After years of planning, our business community became very 
frustrated with the traditional model for developing and 
financing a Federally-funded rail system. In 1997, the MGM 
MIRAGE and Park Place Entertainment hired me to assemble a team 
to build such a project.
    On September 20, 2000, the team I led closed a $650 million 

financing package to build the $400 million backbone of what we 

intend to be an 18 mile regional transit system. This first 
segment is a 4 mile monorail system with seven stations now 
under construction along the Las Vegas strip corridor, an area 
of population density equivalent to midtown Manhattan. The 
financing for this original segment is entirely private, with 
no Government monies needed to fund capital or operating 
expenses.
    We were able to finance the initial segment of our project 
without Government funds. We will still need the active 
participation of Government.
    Senator Reid provided critical leadership at all stages 
along the way and we wish to take this opportunity to thank him 
sincerely and to acknowledge his outstanding efforts.
    Our Governor, Kenny Guinn, agreed to use a nonprofit 
corporation to own and operate the project, appointing its 
directors. The Regional Transportation Commission of Southern 
Nevada agreed to work with us to ensure the compatibility of 
the monorail with its extensive and important CAT bus system.
    This project is now owned by a nonprofit corporation, the 
Las Vegas Monorail Company, and the initial segment is 
scheduled to open in 2004. When it does, it will serve over 20 
million passengers in its first year of operation.
    Now, in order to finance the important extensions to our 
initial backbone segment, our public-private partnership is 
working very closely with our new Federal partner--the U.S. 
DOT--to obtain a full funding grant agreement to fund less than 
17 percent of the cost of the combined system.
    We are also working with U.S. DOT to secure next year a 
TIFIA loan to leverage the new private-sector resources we are 
attracting for extensions. Hopefully, this will permit a 
seamless construction of the next phase, an extension, with 
huge cost savings. You will not be surprised to hear that we 
have been confronted with a number of important Federal 
disincentives to attracting private capital, innovation and 
initiative, to major rail transit.
    For your consideration in reauthorizing TEA-21, I offer the 
following recommendations.
    The Section 5309 Funding Process. Congress should work with 
the FTA to refine the full funding grant agreement process to 
facilitate public-private partnerships. But for a conventional 
Federally-funded transit project, the time between selection of 
a project for a full funding grant agreement and the actual 
execution of the contract can take a year or more. In most 
cases this is satisfactory because other project activities, 
the grantee must perform, keep full funding grant agreement 
execution from being on the critical path. In the case of a 
public-private partnership, such as that which 
we are pursuing for the FTA-funded extensions to the Las Vegas 
Monorail, we will be ready to close our project financing and 
issue a notice to proceed to our Design-Build contractor 
immediately on getting a full funding grant agreement. Thus, a 
year delay between full funding grant agreement approval and 
execution is an unnecessary delay in delivering the project.
    Consider the FTA current requirements of advanced final 
design to the greatest extent possible before executing an 
FFGA. There is concern that the timing for funding and the 
start of design construction will not be compatible for the 
monorail. This requirement is certainly not conducive to 
minimizing financial risk to the Federal Government.
    Under Design-Build, a guaranteed, firm, fixed price is 
obtained before final design is completed because detailed 
information about utility relocation and land acquisition, the 
two biggest unknowns in rail development process, is obtained. 
With a properly structured Design-Build contract, with an up-
front guaranteed fixed price, the Federal Government 
effectively transfers the financial risk to the contractor.
    The NEPA. Congress should make clear that it did not intend 
NEPA to prevent the completion of procurement activity ahead of 
the issuance of a record of decision. One of the key values of 
public-private partnerships is their ability to accelerate 
construction. And no one suggests that construction should 
commence before a record of decision, but FTA and FHWA are 
reading NEPA to prevent the issuance of an RFP, the selection 
of a contractor and the award of a contract pending a final 
ROD, all actions that have nothing to do with the selection of 
a project alternative or even the decision not to build. If an 
FTA grantee wishes to use his own funds to move along the 
selection of a contractor, to be prepared to move quickly if 
the lead agency selects a ``build'' alternative, this is 
taking actions in parallel rather than in sequence. This is not 
prejudicing the outcome of the NEPA process in any way.
    Likewise, current land acquisition regulations prohibit 
even private entities from going out and securing land, or even 
securing 
options for land, that could become part rail projects until 
the record for decision for the new start project is obtained 
as part of the NEPA process.
    The Design-Build and DBOM contracting. Congress should also 
continue to encourage Design-Build and Design-Build Operate 
Maintain contracting for Federally-funded projects and remove 
as many regulatory barriers as possible to State and local 
grantee use of innovative procurement processes in their award.
    The key to success, as with anything else, is how to use 
them. I offer this conclusion from my own perspective, from the 
perspective of the monorail's original sponsors, and from the 
experience that we are seeing on the ground. Today, the Las 
Vegas Monorail is halfway through its 40 month development 
process. It is on-time and $20 million ``under'' budget. And 
remember, we awarded the DBOM contract in advance of the final 
design.
    The TIFIA program. Congress should reauthorize the TIFIA 
program and refine it to encourage more private investment 
projects supported by TIFIA.
    I won't go into it in the long part of TIFIA because of 
time, but Mr. Chairman, I appreciate the opportunity to brief 
you on the Las Vegas Monorail, and offer my experience and my 
suggestions for TEA-21 reauthorization.
    The public-private partnerships are not a panacea and will 
never justify a reduction in the amounts needed to be 
appropriated for surface transportation. There are simply too 
many already unfunded needs. They are proving, however, to be 
an increasingly valuable tool to supplement available grant 
funds and to narrow the gap between needs and resources.
    I will be pleased to answer any questions.
    Thank you.
    Senator Reed. Thank you very much, Mr. Broadbent.
    Mr. Dittmar.

                   STATEMENT OF HANK DITTMAR

        PRESIDENT, THE GREAT AMERICAN STATION FOUNDATION

                        ON BEHALF OF THE

             SURFACE TRANSPORTATION POLICY PROJECT

    Mr. Dittmar. Chairman Reed and Senator Allard, thank you 
for the opportunity to appear today.
    I am Hank Dittmar. I am the President of the Great American 
Station Foundation. I am appearing here today on behalf of the 
Surface Transportation Policy Project, where I serve as a 
Member of the Board of Directors. We are a coalition of groups 
dedicated to improving transportation policy.
    I will try to briefly summarize my testimony, understanding 
that you have a difficult time schedule.
    First, I want to commend you and the State of Rhode Island, 
Mr. Chairman, for the leadership that you have shown in 
advancing the principles of ISTEA and TEA-21, and in moving 
forward to integrate intercity rail, commuter rail and aviation 
through the project at the T.F. Green Station at the airport.
    This kind of project and this kind of leadership by a State 
really exemplifies the kind of inter-governmental, inter-modal 
partnership that we need to put together to help our Nation 
travel into the next century.
    That said, I want to focus on transit's benefits for 
economic development for transit users in the business 
community.
    Michael Replogle, who is a member of our coalition, will 
focus on the energy and environmental benefits.
    I would make seven key points.
    First, transit ridership is growing and this growth 
reflects its increasing value to the transit user. What we have 
seen in the last couple of years is record ridership increases 
in transit with growth in big cities like New York of 2.9 
percent, Los Angeles of 16 percent, but also growth in our 
medium-size cities, like 11.7 percent in Albuquerque, 6.7 
percent in Providence, 7.7 percent in Denver, 5 percent in 
Boise City, Idaho, or 16 percent in Oklahoma City.
    Clearly, what is happening is not confined to the 
traditional transit cities of the northeast and the west coast. 
It is really a national phenomenon. And I think that tells us 
something important about transit, which is that people are 
valuing the option that it provides to leave the automobile at 
home, at least part of the time. It is really not about the 
automobile or transit. It is about the additional choices that 
are afforded to consumers by having transit available for 
trips.
    Second, I believe the demand for transit is only going to 
grow in the coming decades. The 2000 census results show us 
that household size is shrinking. We have more households of 
empty-nesters, singles, and nonfamily residents. The 
traditional nuclear family that made up 40 percent of 
households in 1970 is now less than 24 percent. This, along 
with immigration, bode well for transit's gains in the future.
    Third, access to transit has become a key factor in 
corporate location decisions. Jones Lang LaSalle found that 77 
percent of New Economy companies rated access to mass transit 
as an extremely important factor in making corporate location 
decisions.
    Fourth, development near transit is seen as a sound 
investment choice. PricewaterhouseCoopers emerging trends in 
real estate advised investors this year: Markets served with 
mass transportation alternatives and attractive close-in 
neighborhoods should be positioned to sustain better long-term 
prospects as people strive to make their lives more convenient.
    Fifth, transit provides a substantial economic benefit to 
the user, enabling them perhaps to not have that third car, 
that fourth car, in some neighborhoods, the second car, saving 
a good part of the cost of car ownership and making that 
available.
    Sixth, wealth-creating activities, such as homeownership. 
Fannie Mae and others are pursuing now transit-efficient 
mortgages which recognize the savings to be gained from living 
in transit-rich neighborhoods and using that income to enable 
people to buy homes.
    Seventh, transit spurs development. Transit-oriented 
development, we are completing a study in Arlington County, 
Virginia, which found that the county has captured over 13 
million square feet of office space and 2 million square feet 
of retail in the corridor along the metro station and that that 
corridor generates 33 percent of the county's real estate tax 
on 7 percent of the land.
    That said, I would like to summarize briefly a few issues 
that our coalition believes that you should consider in the 
reauthorization.
    First, that this Committee, with joint jurisdiction over 
housing and transit, could begin to look at the linkages 
between affordable housing and transit. The States of 
California and Maryland have acted to give priority to projects 
near transit, in allocating their share of low-income housing 
tax credits, enabling low-income people to walk to transit 
instead of own cars.
    Second, we believe you should treat transit the same as 
highways. If you are considering changing the match for new 
starts and new transit capacity, then this should be 
accompanied with a change in the match for new highway capacity 
as well, treating them the same.
    Third, we believe there needs to be established a new 
transit 
innovation initiative, patterned after the service and methods 
demonstration program, which looks at transit service 
innovations, including public-private partnerships, evaluates 
them and creates transferable results for importation to other 
areas.
    Fourth, we believe the job access and reverse commute 
program can be improved by increasing its focus on replacement 
jobs within core urban areas served by transit and improving 
transit to those areas.
    Fifth, we believe that there are a number of things that 
can be done to enable transit-oriented development, by 
loosening up regulations that have prevented public-private 
partnerships to emerge around stations and perhaps finance 
transit facilities.
    Last, we believe that the Committee should exercise its 
joint jurisdiction with the Environment and Public Works 
Committee over the planning and project selections of TEA-21, 
adjusting metropolitan planning organizations to reflect the 
changed realities of the 2000 census, and moving to use new 
decision support tools to integrate alternative scenarios into 
transportation corridor studies.
    I want to thank you for offering me the opportunity to be 
here today and I will await any questions.
    Senator Reed. Thank you very much, Mr. Dittmar.
    Mr. Replogle, please.

                STATEMENT OF MICHAEL A. REPLOGLE

         TRANSPORTATION DIRECTOR, ENVIRONMENTAL DEFENSE

    Mr. Replogle. Thank you, Mr. Chairman.
    I want to talk today about the environmental benefits of 
transit. I think the accomplishments of this Committee and its 
leadership in showing that transit can produce positive 
benefits for the environment are quite remarkable.
    We have done a lot since TEA-21 was passed. Transit 
ridership is hitting record levels. And with that, we are 
taking record numbers of cars off of our roads to cut 
greenhouse gas emissions to help protect public health from 
criteria pollutants.
    We need to do more as we look to TEA-21 reauthorization to 
build on these successes to guarantee additional funding for 
transit investments that help clean up the air, and to help our 
communities deal with other health risks related to 
transportation, such as the recent research that shows that 
cancer risks of those living close to major highways with high 
traffic volumes are at unacceptable levels. Transit can help us 
avoid and mitigate some of those cancer risk problems as well.
    As we look forward, we see that, despite the progress on 
clean air, that we still have a growing number of Americans 
living in areas with unhealthy air quality. In fact, the 
numbers jump by almost 50 percent as we adopt a new national 
ambient air quality standard and recognize that the health 
science shows that more Americans are living in places where 
the air is not healthy to breathe. We have seen new links 
showing that high ozone levels actually cause asthma in 
children who exercise more.
    These are some very troubling health problems that transit 
investments can help us deal with.
    Climate change is another growing problem. Twenty-eight 
percent of all of the climate change emissions come from 
transportation. Transit has a huge role to play here. Full 
buses are six times more efficient than cars. Full rail cars 
are 15 times more efficient than the typical commuter's 
automobile.
    For every 10,000 solo commuters who leave their cars at 
home and commute on transit for a year, we cut our fuel 
consumption by 2.7 million gallons. While intercity rail 
carries only about 1 percent of all passenger miles traveled by 
Americans, it accounts for only one-tenth of a percent of our 
energy consumption for transportation. Protecting Amtrak and 
investing in more high-speed, intercity rail needs to be part 
of our agenda to protect the environment.
    Public transportation as a whole is cutting our gasoline 
use in America by more than 1\1/2\ billion gallons a year and 
preventing the emission of 63,000 tons of hydrocarbons and 
78,000 tons of nitrogen oxides. These do not even count the 
benefits that we get because transit supports alternative 
patterns of living where people can live in buildings and 
neighborhoods that use less energy. Research shows that 
transit-supported compact developments use 10 percent to 30 
percent less overall energy compared to low-density sprawl 
development.
    We have success stories all over the country.
    Just to pick one, the city of Denver is doing some really 
stunning work in making transit work to revitalize cities and 
communities like the old Englewood Mall, which was a few years 
ago a dead and dying suburban mall; now it has been reborn as a 
mixed-use urban center.
    We are seeing transit use go way up, far greater than 
ridership projections, in Denver and many other cities. To 
enable transit to do the best job possible we need to make sure 
that we are getting good accountability for how the money gets 
spent under all of our transportation programs.
    ISTEA and TEA-21 created new systems for planning, for 
managing, and for monitoring the performance of transportation. 
And with those systems, we are able to better look at and 
anticipate these impacts.
    Communities are finding that transit investments are often 
the best way to accommodate mobility and meet air quality and 
other goals. There is a risk that environmental streamlining 
proposals proposed by some could undermine this important 
accountability and undermine our investments in transit and our 
choices and the information needed to make wise choices for 
communities.
    In closing, I think we need to be looking particularly to 
increase funding available for the Congestion Mitigation Air 
Quality program (CMAQ) in the reauthorization to account for 
the increased population living in nonattainment areas. We 
should not be undercutting the pollution reduction programs 
funded by CMAQ by holding that program constant.
    I note that there is a lot more that we can do as well with 
incentives, like enhancing commuter choice options, that 
encourage employers, as BellSouth has done, to provide transit 
benefits to employees to help cut traffic and to help leverage 
more private investment to support transit operations.
    Thank you.
    Senator Reed. Thank you very much, Mr. Replogle, for your 
excellent testimony. And I want to thank all the witnesses for 
their testimony. I assume we will have about 20 minutes before 
we have to get to the floor. So, you have allowed us sufficient 
time to ask questions, and I thank you for that also.
    Let me begin.
    Mr. Replogle, you have done extensive research and there is 
a question that always comes up with respect to transit--is it 
over-subsidized compared to other modes of transportation? Do 
you have a conclusion based upon your research?
    Mr. Replogle. Yes. In all of the research that I have done 
on this we can see that all motorized modes of transportation 
have substantial subsidies in our society and, in fact, across 
much of the world. Transit is not over-subsidized. In fact, I 
think when one looks at the total costs of all the different 
modes of transportation, we find that our highway system 
actually only covers about 60 or 65 percent of the cost of 
operating and maintaining that system out of taxpayer dollars.
    There are a lot of hidden subsidies in all of our systems 
of transportation financing. In order for transit to compete 
against all of these subsidies, we have to provide a sound base 
for public support for transit. And we should sustain and 
expand that support.
    Senator Reed. Thank you. One other question. You have 
mentioned the tax incentives, commuter choice, I think one 
particular one. Which steps should we take when it comes to tax 
policy to help reduce congestion and environmental adverse 
impacts?
    Mr. Replogle. Well, I think there is more that Congress can 
do to support commuter choice, encouraging employers to pay for 
the transit benefits for employees and to offer cash in lieu of 
parking incentives that can help level the playing field when 
commuters consider how to get to work.
    There are three bills that have been introduced in 
Congress. One would raise the tax-exempt benefit for employee 
commute benefits for transit to be equal to that for parking 
benefits. Right now, parking still gets a preferential benefit 
of $180 a month, where transit is capped at $100 a month tax 
benefit. This harms people who use commuter rail and other more 
expensive forms of transit.
    A second bill would extend Federal tax credits to employers 
who pay for transit benefits, building on the successful model 
of half a dozen States, such as Maryland, that offers a 50 
percent tax credit for employers who pay for transit benefits 
for their employees.
    The third bill would extend commuter choice benefits to 
bicycle commuters, rewarding employers who offer bicycle 
benefits to their employees who choose to peddle to work. I 
think we can also go beyond that and recognize additional 
incentives like Maryland has done for cash in lieu of parking 
incentives, which right now are taxable income. This inhibits a 
lot of employers from offering a $2 to $3 a day nontaxable 
incentive for commuters willing to give up a parking space.
    Studies in Southern California and Minnesota show that 
where such incentives are offered, on average, 1 out of 8 
commuters who now drive to work find another way to get to work 
and take that money, switching to car pools, transit, walking, 
or biking. It is a very cost-effective way.
    Senator Reed. Thank you very much. I am going to try to 
work my way down the panel as my time allows.
    Mr. Dittmar, you mentioned several initiatives that we 
could undertake. You also mentioned the growing ridership on 
transit. Let me ask you, in your view, what is the most 
important single thing we can do to encourage this ridership 
increase as we reauthorize TEA-21?
    Mr. Dittmar. I think the ridership growth is driven, as I 
said, by demographic factors. But it is also driven by the 
increasing availability, convenience, and attractiveness of 
transit.
    So continuing to invest in growing transit systems, both 
through New Starts, rail and rapid bus, but also in investing 
in and encouraging existing systems to improve the headways and 
convenience of existing systems is critical.
    If you have to wait half an hour for a bus on a road, it is 
less likely that you will use it, than if the bus arrives 
frequently enough that you do not have to refer to a schedule.
    The third thing relates to the commuter choice piece that 
Michael was talking about. I think it is very important to 
integrate, to make transit more attractive for the user by 
simplifying the fare structures and making it easier for people 
to get access to these commuter choice benefits. And sadly, I 
think a lot of transit agencies have not really moved with 
alacrity into offering the commuter choice programs in an 
employer- or employee-friendly manner.
    A move to encourage smart cards and other fare medium that 
are easily portable and not complicated, I think, would get a 
lot more people on transit.
    The Committee, I think, could craft legislation to 
encourage transit operators to do more in this area.
    Senator Reed. Thank you, Mr. Dittmar.
    Let me for the moment defer my questions until the second 
round, if time is available.
    We have been joined by Senator Dodd. I don't know if you 
would like to make an opening statement now, Senator Dodd.

            COMMENTS OF SENATOR CHRISTOPHER J. DODD

    Senator Dodd. No, thank you, Mr. Chairman. I will just move 
along. I apologize. We had a hearing and mark-up downstairs in 
the Labor Committee dealing with some cancer issues that we are 
trying to grapple with. And I apologize for not being here 
earlier.
    Thank you for today's hearing, and I thank our witnesses as 
well for their testimony. I have a question or two when it gets 
to the appropriate time. This is extremely worthwhile and it is 
a very good use of the Subcommittee's time. I think this is the 
third hearing we have had in this area, to really help us build 
a body of evidence here as we approach these issues.
    Just the one observation, Mr. Chairman, because we are 
dealing with this Amtrak issue and trying to resolve what to do 
about it.
    We lurch from crisis to crisis. As someone pointed out to 
me the other evening, we have spent roughly $500 billion of 
taxpayer's money to subsidize the infrastructure of automobiles 
over the last 40, 45 years. We have spent $25 billion in the 
last 35 years on passenger rail service subsidy. Just no 
comparison.
    The idea in a society as complex as ours that we somehow 
expect one system of transportation to be operating in the 
black on its own, and every other form of transportation to 
receive public support for its maintenance and well-being, is 
ludicrous in the 21st Century.
    This is going to be a very important debate we are about to 
enter into. But I suspect and I hear voices like our friend and 
colleague from Colorado, for instance. This is no longer a 
coastal question of east coast/west coast, but mass transit 
issues are now becoming important in centers all across the 
country, as he has pointed out in his own State. This is going 
to be a very important discussion and debate and you are 
contributing to it by your presence here.
    Thank you.
    Senator Reed. Thank you, Senator Dodd.
    Senator Allard, please.
    Senator Allard. Thank you.
    Mr. Dittmar, maybe you are the one to answer this question. 
Do you happen to have any idea of what capacity of mass 
transit--taking the total capacity of mass transit in America, 
do we have any idea which percentage of that is being utilized?
    Mr. Dittmar. I would be happy to try to get back to you 
with an answer on that.
    Senator Allard. Yes, I would like to have it.
    Mr. Dittmar. I do not want to answer off the top of my 
head.
    Senator Allard. And I would be interested to know which 
areas are under-utilized and which areas might be over-
utilized. I think that would be helpful to the Committee, if 
you could get that kind of information.
    Mr. Dittmar. It is interesting. I also think that there is 
this new phenomenon that people have been talking about called 
the Tipping Point. And I think that that really does apply to 
mass transit and to Amtrak, that you have to, to achieve 
success, you have to get enough service out there that people 
can count on. In many places, we are offering lifeline service 
that is under-utilized and do not have funds to get to the 
point where we can offer enough service to really begin to give 
people what they can count on.
    And so, I think a question such as yours may help us get at 
that point as well.
    Senator Allard. Okay. Then, Mr. Broadbent, I was interested 
in your comments on the public-private relationship and to what 
is called the Design-Build approach and the problems that you 
ran into there, because we have a Design-Build project in 
Colorado, in Denver. It is a multimodal system highway and mass 
transit train.
    Mr. Broadbent. Right.
    Senator Allard. If I understood your comments, there was 
the delay in getting through the paperwork. You apply for 
funding, you get your loan, and that is costing you money every 
day that that gets delayed and you want to see that speeded up.
    Environment protection assessment, the NEPA process, was a 
concern to you. Land acquisition and also TIFIA. You wanted us 
to continue with TIFIA. Now on the land acquisition, you said 
that you wanted to have that easier to acquire the land. Does 
that mean that you want the right of eminent domain?
    Mr. Broadbent. No. At the present time, we have been 
selected by our MPO, the regional transportation commission, to 
extend the monorail downtown. We are in the final process of an 
EIS on that project. And until we get a ROD, we know where the 
route is going. We have chosen the route. It has also gone 
through the public hearing processes. Those are all done. We 
would like to be able to go option some of that land before the 
price goes sky-high.
    We know the land--we do not need much because we are on 
public highway. But right now, we are prevented from going and 
even talking to owners of property until after we get a record 
of decision. So it is costly to us and it is costly to the 
Government.
    If we are willing to do it at our own risk--now maybe we 
option it too high and the Federal Government won't pay that 
much. Well, that is our risk.
    Senator Allard. You are paying for the full thing.
    Mr. Broadbent. We are going to put two-thirds--in our 
project to go downtown, two-thirds of the money is coming from 
private investments, one-third from the Federal Government. So 
if we are willing to risk that money, we should be able to do 
it.
    Senator Allard. Give you more flexibility.
    Mr. Broadbent. And save money.
    Senator Allard. We might look at an incentive system of 
public-private cooperation. If we are going to go more to the 
public side, we need to put some incentives in there so that 
cities and individuals like yourself will look more seriously 
at the private alternatives. Is that correct?
    Also, the first part you talked about--was it Section 
53409? I cannot remember.
    Mr. Broadbent. Section 5309.
    Senator Allard. Section 5309. Specifically, what was the 
concerns you had with that Section?
    Mr. Broadbent. There are a number of concerns we have. It 
is the Federal funding and it is the timing of the Federal 
funding.
    We will get a record of decision on our environmental 
impact statement probably by December. Under normal 
circumstances, it takes you a year to get a full-funding grant 
agreement.
    In December, when we get our ROD, we will already have a 
guaranteed fixed price. We already have contracts ready to be 
entered into to Design-Build the facility, and we have to wait 
a year to get a full funding grant agreement so we can sell 
bonds and do it. It is just the timing. They need to compress 
that time and give us the authority to do it.
    Senator Allard. Mr. Abbott, on Atlanta, how long have you 
had your mass transit system?
    Mr. Abbott. I am not certain how long MARTA has been there. 
It has been there at least 10 years, but it has continued to 
grow.
    Senator Allard. A relatively new system.
    Mr. Abbott. It is a new system.
    Senator Allard. And you are looking at extending those 
lines out to those subdivision areas that are growing. Is that 
what you are looking at?
    Mr. Abbott. It has been extended once. It is generally a 
north-south, east-west pattern in the city. They have made a Y 
off the north pattern and now they are looking at extending the 
northern and western routes.
    Senator Allard. Mr. Chairman, I see my time has expired. I 
do have a number of other questions I wanted to ask, but 
because of our time limit, I would like to submit these 
questions, and if they could respond back to the Subcommittee, 
I would appreciate that.
    Senator Reed. Let me just generally announce that the 
record will remain open until next Wednesday for questions or 
additional material that you might want to provide to the 
Subcommittee for this hearing.
    At this point, let me recognize Senator Dodd for questions.
    Senator Dodd. Thank you, Mr. Chairman. And again, I thank 
all of you for being here. This is very important. I thank the 
Chairman for conducting the hearing. It is refreshing and it 
gives us an opportunity to look at a broad range of impacts, 
both positive and negative that, obviously, transportation has 
on our communities.
    In my view, transit is an absolutely critical part of any 
solution obviously to our transportation questions. Mr. 
Dittmar, you have given us some good data and trendlines, which 
are encouraging, I think. And the last point you made in 
response to Senator Allard about having a predictable, reliable 
alternative transit does an awful lot. It is the 
unpredictability of it that really does contribute to a lot of 
under-usage, I suspect. If we could solidify that point, I 
think you can see what can happen when that occurs.
    So much of this is important. You really cannot talk about 
communities improving it all unless there is a better 
coordination at the State and local level.
    I have three quick questions for you.
    One, whether we should be giving FTA any new authorities? I 
would be curious about what your views might be on that.
    Then, we looked at the transportation issues of some 
agencies under the medical transportation programs at Health 
and Human Services. I am told that there is more of a resource 
allocation there than at FTA, and that one of the costs of 
Medicare we are looking at is transportation.
    I don't think there has been any good auditing of this to 
give us some idea of where our dollars are being spent in areas 
where we could vastly improve the cost and effectiveness of 
these programs on an issue like that.
    And then, whether or not there are any opportunities to 
focus Federal efforts to improve our ability to work with State 
and local governments, is my third question.
    Mr. Dittmar, wherever you want to start.
    Mr. Dittmar. Well, I indicated in my testimony a couple of 
new authorities need to be given to FTA. In particular, we need 
to authorize them or provide them with more flexibility to 
allow their grantees to undertake public-private partnerships 
around transit stations. In particular, a number of places 
where people have tried to do affordable housing projects on 
land that was purchased originally for parking, but no longer 
needed, or other housing projects.
    Current regulations only allow them to do that under a 
ground lease, and there is no ability to--which prevents 
public-private financing if it is difficult to finance projects 
off of a ground lease.
    So there needs to be some authority there.
    I think you hit the nail on the head, Senator, with respect 
not only to medical transportation, but also social service and 
senior, and transportation in general.
    Senator Dodd. I just mentioned medical as an example. That 
is one that seems rather egregious to me.
    Mr. Dittmar. In my career, I have been in a number of 
positions with Government where we have tried to actually 
coordinate those kinds of transportation systems with the 
public transit systems.
    Typically, they get grants to buy vehicles that are under-
utilized. They subsidize them on a per-trip basis four to five 
to six times the amount that a transit user is subsidized, and 
are unwilling to mix their clientele with public transit 
clienteles.
    I have worked with the FTA and HHS at the Federal level. At 
the State level, in the State of California, with the 
Department of Human Services and have had real resistance from 
those agencies in even telling us how much money that they are 
spending on transportation.
    I believe this is another area where you need to provide a 
stick, but it is going to be a difficult one because you are 
crossing some jurisdictional boundaries in terms of asking for 
the information. But I would be happy to work with you on that.
    Senator Dodd. I would be very interested, Mr. Chairman, if 
we could get some ideas specifically on how we might do it. I 
think it is one of these areas that we could really have some 
cost savings and expanded use of transit and save some real 
dollars in the process. I would be very interested in where you 
have had some better experiences and how you worked it out, how 
did it happen? What was done?
    Mr. Dittmar. We can certainly collect that. As to your 
final question, the State and local partnership, I think we 
have a situation where transit agencies and transit starts are 
increasingly financed by local agency partners.
    In some States--Connecticut, Rhode Island, and Maryland--
are the key examples, the transit agencies are actually State 
agencies. In most cases, the States finance highways and local 
agencies finance public transit. And trying to get those 
ownership biases out of the system is indeed a big challenge 
for us as we move forward. It really depends on the 
metropolitan planning process, and you have jurisdiction there.
    Senator Dodd. Mr. Guardino.
    Mr. Guardino. Thank you, Senator Dodd. Three quick points 
on your last question about how we can leverage Federal with 
State and local matches.
    Senator Dodd. Yes.
    Mr. Guardino. First, recognize and reward the super-matches 
to leverage scarce Federal dollars. Second, incent transit that 
is linked with appropriate land uses that will maximize that 
investment of taxpayer dollars. And third, retain TEA-21's 
flexibility for local decisionmakers to best address local 
needs, so that we can invest in transit with TEA-21 dollars.
    Senator Dodd. Mr. Broadbent.
    Mr. Broadbent. Senator Dodd, I think that, in our case, we 
already have good cooperation. In Nevada, we have good 
cooperation with local government and with the State. What we 
do not have is the ability to fund a Design-Build like we are 
doing, and that is a matter of changing the FTA's authority. 
The authority only recognizes the standard way of building 
projects--preliminary engineering, final engineering, go out to 
bid.
    With our project, with 5, 10 percent of design, we actually 
got a fixed price, a Design-Build contract, an O&M contract, 
sold bonds, and we are ready to go ahead and build. And that 
authority is there under the Federal Government, but it is 
really burdensome.
    Senator Dodd. Yes. Good point.
    Yes, sir.
    Mr. Replogle. I would just like to address the last 
question that you offered.
    We are hearing a lot of complaints from some quarters about 
the delays in the project review process and the need to 
streamline all of that. I think we can do a much more effective 
job with that, and it is being done in some States by better 
integrating transportation planning with natural resource 
planning and growth management and land-use planning at the 
State, regional, and local levels, and seeking to better 
harmonize those efforts.
    Many of the problems of project delays are caused by a lack 
of consensus at the local level on what it is that needs to be 
done or a lack of local funding match.
    A lot of the consensus problems can be dealt with by better 
involving the public and resource agencies early and 
effectively in the planning process, so that you can head off 
the really negative adverse impacts early before you get well 
down the line and then find that they cause delays because you 
have to go back and fix things that should have been avoided in 
the first place.
    I believe one thing that you just might want to consider is 
to strengthen the metropolitan planning process that was set up 
by ISTEA, and perhaps establish a State planning organization 
and process to coordinate transportation, land-use, natural 
resource, and growth management policies and to seek better 
harmonization.
    Senator Dodd. That is what we have done in Connecticut. It 
is working fairly well. We are a small State. Obviously, in 
Hanover, it has worked very well. John Roland, our Governor, 
and others have really worked very hard to have more of a State 
plan and look at it that way.
    Mr. Replogle. Yes. I think Oregon has perhaps done the best 
job of integrating these things.
    Senator Dodd. Have they?
    Mr. Replogle. Yes, Senator Dodd, especially with the ``Land 
Use Transportation Air Quality (LUTRAQ) 2040 Plan process and 
with the Willamette Valley process that is looking at the 
Interstate 5 corridor.
    Senator Dodd. Good suggestion.
    Thank you all.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Dodd.
    Again, I want to thank all the witnesses for their 
excellent testimony. I have additional questions, but I think 
the best way to do this is to submit them to the relevant 
witnesses and ask that you respond prior to next Wednesday, or 
at your earliest convenience.
    This has been our third hearing. It was insightful about 
the many different issues we have to face when it comes to 
reauthorizing the TEA-21 legislation.
    Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:10 a.m., the hearing was adjourned.]
    [Prepared statements, response to written questions, and 
additional material supplied for the record follow:]
               PREPARED STATEMENT OF SENATOR WAYNE ALLARD
    I would like to thank the Chairman for convening this hearing. This 
is the third hearing in our series on TEA-21 reauthorization, and I 
appreciate his leadership. We have heard from excellent panels 
representing a variety of viewpoints, and their perspectives will be 
helpful as we sit down to write a bill.
    TEA-21 has been a tremendous success. It has provided a good 
framework, and I am hopeful that we can continue its successes, along 
with added improvements. All across the country people have new or 
improved access to mass transit options. I look forward to the 
opportunity to continue that momentum.
    Today's witnesses should have a great deal to add to the 
Subcommittee's TEA-21 body of knowledge. I am particularly interested 
in hearing from Mr. Broadbent about his experiences in Las Vegas. While 
many people cite the need for increased mass transit, few will come to 
the table with a signed check. That is exactly what has happened in Las 
Vegas. I am intrigued to see what we can learn from this 
example to create more public-private partnerships.
    I also look forward to hearing from our other witnesses. I know 
that they all care deeply about mass transit and will have a great deal 
to add to the Subcommittee's dialogue. Thank you all for being here 
today. I believe that TEA-21 reauthorization will be one of the most 
important things to come out of this Committee in the near future, and 
your participation is helpful.
    Mr. Chairman, I look forward to continuing our examination of TEA-
21.

                               ----------

              PREPARED STATEMENT OF SENATOR JON S. CORZINE
    Thank you, Mr. Chairman, for holding this latest hearing on 
reauthorization of the Transportation Equity Act for the 21st Century--
TEA-21, and I would like to join you in welcoming our witnesses.
    Mr. Chairman, as the Banking Committee continues its work on the 
reauthorization of TEA-21, it is clear that we need to do as much as 
possible to help get people off our crowded roads. Just this week, we 
saw another indication of how traffic in the United States is getting 
worse: The Texas Transportation Institute issued its most recent 
traffic congestion survey of our Nation's urban areas and found that in 
the year 2000, urban drivers across the country sat in rush hour 
traffic for an average of 62 hours. That was up from 60 hours in 1999 
and 16 hours in 1982.
    Sixty-two hours a year, Mr. Chairman. For the New York metropolitan 
area, which includes northern New Jersey's commuters, this delay was 
greater: 73 hours a year. All this traffic congestion cost our Nation 
billions in lost productivity. It also caused increased levels of air 
pollution from all those cars stopped in traffic.
    Mr. Chairman, as we consider today the return to our economy and 
environment from our investment in mass transit, we have clear evidence 
of how important it is to not only continue our commitment to help fund 
existing mass transit projects but to also increase it as well. We need 
not only to help maintain our Nation's mass transit infrastructure but 
also to create new opportunities for commuters, whether they are by 
bus, rail, or ferry.
    I would also like to take a moment to discuss the problems facing 
Amtrak. The Administration is playing a high stakes game of chicken 
with Amtrak. We only have days before it shuts down. The Administration 
needs to work with Congress to provide the $205 million in funding for 
Amtrak to survive. If Amtrak shuts down, this would be a catastrophe 
for New Jersey's mass transit riders: 82,000 daily commuters--over 
three-fourths of New Jersey Transit's rail passengers--would have to 
find another way to work. That is because many of New Jersey Transit's 
lines share the infrastructure with the Northeast Corridor.
    I call upon the Administration now to support efforts to include 
$205 million in funding for Amtrak in the Supplemental Appropriations 
legislation pending in the Congress.
    Mr. Chairman, I look forward to working with you to develop 
legislation that continues to provide State, city, and local transit 
agencies with a stable guaranteed source of mass transit funding. Thank 
you for holding this hearing and I am looking forward to hearing from 
our witnesses.
                  PREPARED STATEMENT OF CARL GUARDINO

                 President and Chief Executive Officer
                   Silicon Valley Manufacturing Group

                            June 26, 2002

    Chairman Reed and Members of the Subcommittee, thank you for your 
kind invitation for me to speak before you, from a business 
perspective, about TEA-21's benefits for economic development and the 
business community, and for my comments on TEA-21's matching 
requirements, the Act in general, recommendations on the 
reauthorization of TEA-21, and Silicon Valley's future transit needs.
Background of SVMG
    By way of background, the Silicon Valley Manufacturing Group was 
formed in 1978 by David Packard, Co-Founder of Hewlett Packard, as a 
way for CEO's and Senior Executives to get directly and proactively 
involved in issues of importance to the economic health of Silicon 
Valley, and the quality of life of their employees.
    Today, the SVMG represents 190 of Silicon Valley's most respected, 
private sector employers, who collectively provide 275,000 local jobs, 
or nearly one of every four private sector jobs in all of Silicon 
Valley. Needless to say, these numbers do not include the jobs these 
companies provide around the entire State, our Nation, and world. It 
focuses on five core issues: Transportation, affordable homes, 
education, the environment, and energy.

Business Perspective on Traffic Relief
    As you all know from the employers and their employees in your 
States, traffic congestion has a direct impact on not only the quality 
of life of your constituents, but on the economic health of our 
communities as well.
    In making that statement, I want to provide you with more than an 
anecdote. Each year, as CEO of the Manufacturing Group, I sit down for 
one-on-one visits with 95 of the top CEO's in Silicon Valley, and ask a 
simple question: For your company, here in Silicon Valley, what are the 
key issues that impact your ability to stay healthy and competitive, as 
an employer. The top responses, for 5 years in a row, are traffic 
relief and affordable homes.
    The reason is clear--in an Information Age Economy, workers in 
Silicon Valley and in many of the communities each of you represent, 
workers can work anywhere in the world they like. They will only choose 
to work in our States if we ensure that we have reduced traffic, and 
provide viable alternatives to the automobile.

Local Actions--Deeds Louder Than Words
    It would be easy for me to appear before you to discuss transit 
needs but to not do anything about it. At the Manufacturing Group, we 
continue to do what we can to put our wallets where our words are.
    In 1984, we led the countywide effort in California to become a 
self-help county--that is, a county that was willing to tax themselves, 
through a voter approved ballot initiative, to fund improvements 
ourselves. That 10 year, half cent sales tax raised $1 billion in local 
funds, and built three key transportation improvements, which were 
completed on-time and on-budget.
    In 1996, recognizing that additional improvements were needed, we 
once again spearheaded a half-cent sales tax, this time to last for 9 
years, which would generate $1.4 billion. That measure, which includes 
18 improvements--65 percent rail transit and 35 percent roads, will be 
completed, as promised, by the deadline in April 2006.
    In November 2000, we co-led an effort to tax ourselves with a 30 
year, half-cent sales tax, for a traffic relief measure that will 
generate more than $6 billion in local funds, for a measure that is 100 
percent transit. Santa Clara County voters passed that initiative by a 
resounding 72 percent of the vote.
    All told, those three measures alone will generate more than $8.4 
billion in local funding. It is important to note that 41 cents of 
every dollar we raise in sales tax revenue is paid for by employers. In 
a global marketplace, where our employers cannot pass off those 
additional costs to customers, we view these measures not as a tax, but 
as an investment in our economy and in our workers.

Feedback on TEA-21 Renewal
    There are two key points I would like to make about the renewal of 
TEA-21.
    First, retain the Flexibility provisions of ISTEA and TEA-21. This 
has allowed local decisions and local input about how dollars are 
spent. In Silicon Valley and the Bay Area, through our MPO--the 
Metropolitan Transportation Commission--this has meant the ability to 
direct dollars to a greatly needed road improvement, or a new rail 
line, or an enhanced bus system. That flexibility is key to areas 
throughout our States, especially urban and suburban areas that need as 
many tools in the toolkit as possible.
    Second, the New Starts Program. In a time of limited Federal 
resources, where you are asked to fund numerous worthwhile improvements 
throughout the country, I would underscore the need to leverage each 
one of those taxpayer dollars to the fullest. As I described above, our 
region has stepped up to the plate with local funds that well exceed 
the minimum 20 percent non-Federal match. We believe that the Congress 
should consider rewarding ``Super Matched'' projects, such as the 
Silicon Valley Rapid Rail Corridor in my area with credit enhancement 
techniques or other Federal guarantees to ease project financing. This 
will also provide an incentive to other areas around the Nation to step 
up to the plate as well. With limited dollars, we need to seek out and 
reward those communities that have shown a strong willingness to help 
themselves, to partner with you, and to find funding to match 
Federal funding.

Improvements for Silicon Valley
    Finally, I am honored that you have asked what improvements are 
important for the ongoing success of Silicon Valley and the Bay Area 
region. Working through the MTC's 2 year planning process, the nine 
county San Francisco Bay Area has developed an improvement plan known 
as MTC Resolution Number 3434 that includes top-tier priorities for 
Federal funding consideration.
    First, our current Number One priority is to finish the greatly 
anticipated BART (or Bay Area Rapid Transit) line to San Francisco 
International Airport. It is vital to our region's economy, and we 
stand together with the rest of the region in support of this important 
improvement.
    As we complete the BART to SFO extension, the Bay Area stands 
united behind two equally important regional improvements--both with 
considerable amounts of matching funds from the local level. These two 
improvements are the Silicon Valley Rapid Rail Corridor, bringing BART 
from the East Bay to Silicon Valley, and the Third Street light rail 
project in downtown San Francisco. Let me briefly expand on the 
improvement closer to home.
    The Silicon Valley Rapid Rail Corridor, bringing BART to Silicon 
Valley, would ease traffic congestion into and out of Silicon Valley, 
and will take nearly 80,000 travelers out of their cars on a daily 
basis. Underscoring the region's desire to build this improvement, our 
November 2000 sales tax measure will fund 61 percent of the capitol 
costs, along with ongoing operations costs, with roughly $3 billion 
local dollars. Working with our Governor and State Legislature, we have 
secured another 17 percent of the funds from the State. We come to you 
with 78 percent in local and State funds, seeking-- over the next 10 
years-- only 22 percent in Federal funds.
    We hope this significant overmatch shows our commitment to traffic 
relief for workers in Silicon Valley and the Bay Area, and we look 
forward to making this improvement a reality.
    Mr. Chairman and Members of the Subcommittee, thanks again for your 
time and attention. It is an honor to be here, and an honor to forge 
worthwhile partnerships like this between the private and public 
sectors.
                               ----------
             PREPARED STATEMENT OF HERSCHEL L. ABBOTT, JR.
      Vice President- Governmental Affairs, BellSouth Corporation

                             June 26, 2002

    Mr. Chairman, Members of the Subcommittee, I am Herschel Abbott, 
Vice President-Governmental Affairs for BellSouth. I spent most of my 
life practicing law but now I am a recovering lawyer and I direct 
BellSouth's legislative and regulatory presence in Washington. I cannot 
count the number of times I have testified before various commissions 
or lawmaking bodies, but I can tell you this is one of the times when I 
am delighted to be here.
    At a time when you cannot open the morning paper without fresh 
evidence of corporate misdeeds, I get to sit here and tell you that my 
company, BellSouth, is a hero back in its hometown of Atlanta, Georgia; 
a hero of the leadership that Americans expect and deserve from 
business.
    In Atlanta, BellSouth's headquarters city, BellSouth is:

<bullet> Relocating and consolidating approximately 9,800 employees.

<bullet> Building three new, energy efficient business centers with a 
    total of more than 2.7 million square feet to facilitate that 
    relocation and consolidation. The estimated budget for that 
    construction is $750 million.

<bullet> Putting those buildings and employees on top of or near mass 
    transit rail stops.

    It is a process scheduled to be complete in September 2003. When it 
is complete, BellSouth will:

<bullet> Have six major office complexes all on or near rail stops, 
    giving many of its employees the option of taking rail to work and 
    many more the option of traveling between buildings without 
    cranking their cars.

<bullet> Greatly reduce the number of car trips generated by its 
    employees during the 
    critical workday hours, when air quality deteriorates rapidly.

<bullet> Successfully built a model for sustainable business growth in 
    an urban setting.

    In fact, BellSouth's effort is the continuation of a longstanding 
commitment to urban development, going all the way back to 1980 when 
the company built the 45 story BellSouth Center, the first office 
building in Atlanta with a mass transit station underneath. Thirty 
percent of our employees there ride public transportation.
    But now let me briefly set the stage for our more recent 
initiative.
    For those of you whose only experience of Atlanta is changing 
planes at Hartsfield Airport, let me tell you that Atlanta is a clean, 
vibrant city with friendly people and lush green suburbs. People tend 
to like Atlanta. They have been flocking there since the 1960's. In 
fact, between 1960 and 2000, Atlanta has not seen a decade where it 
grew by less than 27 percent. Growth in the most recent decade, 1990 -
2000, was 39 percent, with metro Atlanta adding nearly a half-million 
out-of-state residents since 1990. The region is home to three of the 
Nation's fastest-growing counties: Forsyth, Henry, and Paulding.
    Atlantans now have a metropolitan area with approximately 4 million 
residents and suburbs that stretch, it seems, to Tennessee in the 
north; to Alabama in the west; toward South Carolina in the east; and 
into the flatlands of south central Georgia to the South.
    California is not the only place where people have fallen in love 
with their cars. It is said of Atlantans that they would drive from the 
kitchen to the bedroom if only they could figure out how to get the car 
in the house. Had metro Atlanta sprawled the way it does now in the 
summer of 1864, General Sherman and his troops would still be strung 
out between Chattanooga and Atlanta with their turn signals on trying 
to merge into southbound traffic on Interstate 75.
    The growth has taken its toll. Atlantans endure the Nation's 
longest commute--an average daily round trip of 34 miles for every 
person in Atlanta. They spend 69 hours annually, or nearly 9 workdays a 
year, sitting in traffic.
    At the same time, new road projects have been stalled because the 
region is too frequently out of compliance with Federal Clean Air Act 
standards for ground-level ozone. Atlanta exceeds acceptable Federal 
air quality standards an average of 11 days each year during the ozone 
season of May to September.
    That is the challenge Atlanta faces.
    The challenge BellSouth faced 3\1/2\ years ago was symptomatic of 
Atlanta's rapid growth. BellSouth's Metro Atlanta employee population 
grew 22 percent between 1993 and 1999, from approximately 15,000 to 
well over 18,000.
    Like the city, we not only grew, but we also spread out. Before we 
created our Atlanta Metro Plan, we had a total of 61 leased and owned 
facilities for office workers. With the completion of the Atlanta Metro 
Plan, the great majority of BellSouth's white-collar workers will go to 
work in five office complexes that stretch from downtown to the city's 
near north side along one of Atlanta's main commuter rail lines.
    After moves to the three new facilities, BellSouth will have 
relocated approximately 9,800 employees from more than 20 properties, 
with the result that approximately 85 percent of BellSouth's employees 
in metro Atlanta will be working within walking distance of a rail 
line.
    Of course, this is a plan that makes good business sense. But it is 
also a plan that consciously and determinedly makes good civic planning 
sense. If I can finish by bragging, it points the way for other 
companies in Atlanta and elsewhere. It is an example of a company, led 
by our Chairman and CEO Duane Ackerman, which set out to do the right 
thing--not only for its employees and shareholders, but also its city 
and the environment. And that is real civic leadership.
    Thank you for your attention. At the appropriate time, now or 
later, I would be happy to try to answer any questions you may have.

                 PREPARED STATEMENT OF ROBERT BROADBENT
                  Manager, Las Vegas Monorail Company

                             June 26, 2002

    Thank you for the opportunity to appear today and to share with you 
my recommendations for developing and financing the Nation's surface 
infrastructure. I have been privileged to lead a long life of public 
service, at all levels of government. But nothing has been more 
rewarding than the central role I was honored to play in the creation 
and implementation of the first true public-private partnership in the 
United States for a modern, urban grade rail transit project.
    On September 20, 2000, a team I led closed a $650 million financing 
deal to build the $400 million backbone of what we intend to be a 18 
mile regional trail transit system serving Clark County, Nevada. The 
initial backbone segment is a 4 mile monorail system in the Las Vegas 
Strip Corridor, an area with a population density equivalent to Midtown 
Manhattan. With seven stations it will connect over 4.4 million square 
feet of conference and convention space, including the world's largest 
convention center, to over 80,000 hotel rooms, many major resorts, and 
population centers.
    The financing for this initial segment is entirely private, with no 
government monies needed to fund capital or operating expenses. For the 
record, I have brought a copy of the official statement for the bonds 
the State of Nevada Department of Business and Industry issued on 
behalf of the nonprofit Las Vegas Monorail Company, now the owner of 
the project.
    The Las Vegas Monorail Company is led by a board of directors that 
is composed of outstanding and widely acknowledged community leaders, 
each appointed by the Governor of the State of Nevada. My partner and I 
manage its day-to-day operations. The initial segment is under 
construction today and is scheduled to open in January 2004. When it 
does, it will serve over 20 million passengers in its first year of 
operation.
    The need for this system is great. We, in Las Vegas, have been 
blessed with a rapidly expanding economy and are one of the fastest 
growing regions in the country. But as this Committee knows, with 
growth and prosperity comes serious traffic congestion and air quality 
challenges. For those of you who are familiar with Las Vegas, you know 
this has certainly been true for us.
    After years of planning, our business community became frustrated 
with the traditional model for developing and financing a Federally-
funded rail transit system. These leading business executives were used 
in making decisions and in building billion dollar projects quickly. In 
fact, the success of the Las Vegas economy depends upon it.
    They decided that they had to find a better way for the public and 
private sectors to work together--in a way that may be unfamiliar to 
the FTA, but was standard operating procedure for businesses around the 
country that must be innovative and cost effective to serve their 
customers. Our clients asked: Why should transportation development 
take more time, be more expensive to build and operate, and less 
responsive to the customer than any other business dependent on 
patronage?
    In 1997, MGM MIRAGE and Park Place Entertainment, two of the 
largest gaming companies in the world, took the challenge. They hired 
me away from McCarran International Airport, where as Director, I had 
overseen its expansion from the 23rd largest to the 10th largest 
airport in the country in less than 11 years. They hired a team to work 
with me that included the country's best investment bankers and 
attorneys in innovative project development and finance. They 
contributed some of the best management talent these major corporations 
possessed to direct and guide our efforts. They found the leading 
contractors and systems suppliers in the world to deliver the project.
    They deployed a team to help them do what had not been done 
before-- create a true public-private partnership in rail transit which 
employs several important tools, including, among others, attracting 
private sector cash, services and property to urban rail; creating and 
borrowing against project revenues; establishing an innovative form of 
governance; and utilizing DBOM contracting.
    While we were able to finance the initial segment of our project 
without Government funds, we still needed the active cooperation of 
Government. Senator Reid and Senator Ensign provided critical 
leadership at all stages and we wish to take this opportunity to thank 
them and to acknowledge their outstanding efforts. The Nevada State 
Legislature adopted a new State law authorizing monorail franchises. 
Governor Kenny Guinn agreed to use a nonprofit corporation to own and 
operate the project, appointing its directors. The State Board of 
Finance agreed to issue our bonds on a conduit basis. The Clark County 
Board of Commissioners adopted special ordinances and awarded the 
franchise the Legislature authorized. The Regional Transportation 
Commission of Southern Nevada agreed to work with us to ensure the 
compatibility of the monorail with its extensive and important CAT bus 
system.
    Now, in order to finance the important extensions to our initial 
backbone segment, our public-private partnership is working closely and 
cooperatively with our Federal partner--the U.S. DOT. Specifically, we 
are working with the FTA, Administrator Dorn, and the Congress to 
obtain a full funding grant agreement to fund less than 15 percent of 
the costs of the combined system. And we are working with the U.S. DOT 
to secure a TIFIA loan to leverage the new private sector resources we 
are attracting for the extensions. This will permit us to build the 
extensions with huge time and cost savings, by utilizing our already 
mobilized construction forces and reserved vehicle manufacturing 
capacity, among other things. We are truly excited about the 
transportation benefits this public-private partnership is bringing to 
Clark County, one of the Nation's fastest growing regions.
    Over the course of our work, we have been confronted with a number 
of important disincentives to attracting private capital, innovation, 
and initiative to major rail transit. We believe our experiences are 
instructive on how Congress can act to facilitate, rather than inhibit, 
more successful public-private partnerships in surface transportation. 
For your consideration in reauthorizing TEA-21, I offer the following 
recommendations:

Section 5309 Funding Process
    Congress should work with the FTA to refine the full funding grant 
agreement process to facilitate quicker deployment of public-private 
partnerships. For example, for a conventional Federally-funded transit 
project, the time between project selection for an FFGA and actual 
execution of the FFGA can take a year or more. In most cases this is 
satisfactory because the grantee has received approval to enter final 
design and can undertake that work during this interim period, which 
keeps FFGA execution from being on the critical path. In the case of a 
public-private partnership, like our FTA-funded extensions to the Las 
Vegas Monorail, the phasing of work is very different. We will issue a 
single notice to proceed for final design, construction, and systems 
supply all in one; and we will not issue that NTP until we have closed 
the financing for the entire project. Since we cannot close our 
financing until the FFGA is executed, the typical FFGA process, when 
applied to a public- 
private partnership like ours, could unnecessarily delay by a year or 
more a project otherwise completely ready for construction, while we 
wait for the FTA and Congress to execute a FFGA.
    Generally, the FFGA process is set up to ensure that project design 
has been advanced to a level sufficient to control the risk of project 
cost increases. In the case of a public-private partnership like ours, 
the FTA need not rely on any estimate. With properly structured Design-
Build contracts, we will have a firm fixed price and a guaranteed 
completion date before final design is even commenced and before FFGA 
approval. This transfers the risk of cost increases to the contractor, 
a result necessary to meet rating agency requirements. I can assure you 
the private credit markets demand much more risk control and mitigation 
than the FTA does.
    I would like to praise Administrator Dorn for her recognition of 
this challenge, for her efforts to reform the process, and for her 
tireless advocacy for other needed industry reforms that are long 
overdue. We urge this Committee to work with her to streamline the 
process.

Internal Revenue Code Private Activity Rules
    Congress should modernize the Internal Revenue Code rules on 
private activity and management contracts as they apply to surface 
transportation. For the Las Vegas Monorail we were and continue to be 
actually forced to turn down true private equity offered for the 
project because it would have disqualified us from issuing tax exempt 
debt for an important public transit project. This is not the result 
Congress intended when it adopted these restrictions. Moreover, these 
same restrictions do not apply to airports and solid waste facilities, 
for reasons no one has been able to explain to me. For the record I 
have brought a report that examines this issue in more depth and I 
commend it to you.
    I know this Committee is already quite familiar with this issue. In 
2000, Senator Smith authored a bill to cure these exact problems. Both 
Houses of Congress ultimately passed this important curative 
legislation as part of a larger tax bill that year, but unfortunately 
President Clinton vetoed the larger bill.
    We strongly encourage this Committee to work again with the Senate 
Environment and Public Works Committee, the Senate Finance Committee, 
and the House Ways and Means Committee so that needed private equity 
and innovation can be incorporated into surface transportation 
development without sacrificing access to the tax exempt financing 
markets.

Internal Revenue Code Advance Refunding Rules
    Congress should modernize the IRS rules applicable to surface 
transportation to permit two advance refundings. Most conventional 
transportation projects are 
funded on a pay as you go model or with bonds backed by tax revenues. 
As such, sponsoring agencies issue bonds only to advance funds as 
needed for construction. A key difference with a public-private 
partnership like ours is that we must issue bonds that are not 
dependent on tax revenues, but on the project's own revenues for a 
return. To do this the markets require that we have 100 percent of all 
capital costs funded upfront, at the time they invest in our project. 
This means that we are issuing bonds many years removed from the 
economic conditions that will affect the project when it has opened and 
ramped up.
    In our case, if the interest rate environment becomes more 
favorable over time, the IRS rules prevent us, unlike other businesses, 
from refunding our bonds more than once, even though doing so would 
help us keep our transit fares down, pay off our debt quicker, and 
leverage our dollars more efficiently. These rules are even more 
puzzling because there is no loss to the Treasury for permitting 
advance refundings, as other experts in the field have previously 
documented. The result is that under existing rules we can do only one 
advance refunding of the currently issued debt for the Las Vegas 
Monorail. This is clearly a major handicap to an urban rail project 
that again is being built and operated without a dollar of Government 
funds.
    I urge this Committee again to work with your colleagues on Senate 
Finance and House Ways and Means to cure this significant disincentive 
to effective public- 
private partnerships in transportation.

Design-Build and DBOM Contracting
    The Congress should continue to encourage Design-Build and DBOM 
contracting for Federally-funded projects and remove as many regulatory 
barriers as possible to State and local grantee use of innovative 
procurement processes in their award. I know that some Members of 
Congress and many special interests, which have a large stake in the 
status quo of low bid contracting, oppose these tools and urge even 
more regulation of their use than already exists. They point to 
projects that used some form of Design-Build and declare the tool 
itself to be fatally flawed.
    Well, they could not be more wrong. The fact is that Design-Build 
and DBOM contracts are essential and effective building blocks for 
public-private partnerships in transportation. The key to success, as 
with anything else, is how you use them. I offer this conclusion from 
my own perspective, from the perspective of the monorail's original 
sponsors, and from the experience we are seeing on the ground.
    My career has included directing the Bureau of Reclamation and 
McCarran International Airport and serving on the governing boards of 
Clark County and the Las Vegas Visitors and Convention Authority, the 
largest such facility in the world. During this life in public service, 
I have spent more than 40 years looking out for the public interest in 
public works construction. I am a firm believer in Design-Build.
    In addition, MGM MIRAGE and Park Place Entertainment, the original 
private sponsors of the Las Vegas Monorail, are companies that clearly 
know large scale construction. In fact, the continued vitality of their 
annual earnings statements depends in no small part on efficiently 
developing and operating billion dollar projects and performing very 
significant upgrades to their facilities with useful lives much shorter 
than public works projects. They examined the options for delivering 
and equipping the initial monorail segment for Las Vegas. They applied 
their own experience, they looked at the experience elsewhere and they 
concluded that DBOM contracting was ideal, but only under certain 
conditions. They insisted on the best advisors to put the documents 
together and the selection of the best team of contractors. They made 
their selections based upon qualifications and experience. They then 
engaged in sole source negotiations.
    The confidence these large companies had in the tool and the 
process has proven well placed. Today, the Las Vegas Monorail is 
halfway through its 40 month development phase. It is on-time and $20 
million under budget. And remember, we awarded the DBOM contract in 
advance of final design.
    I urge the Committee to continue its support for Design-Build and 
to permit grantees more flexibility under the Third Party Contracting 
Rules in selecting contractors based on qualifications and in 
negotiating with those selected.
NEPA
    Congress should make clear to the U.S. DOT modal administrations 
that it did not intend NEPA to prevent the completion of procurement 
activity ahead of the issuance of records of decision. One of the key 
values of public-private partnerships is their ability to accelerate 
construction. We all recognize the major contribution to environmental 
planning that NEPA has brought to major Federal actions. And no one 
suggests that construction should commence before a ROD. But FTA and 
FHWA are reading NEPA to prevent the issuance of an RFP, the selection 
of a 
contractor and the award of a contract pending a final ROD, all actions 
that have nothing to do with the selection of a project alternative or 
even the decision not to build. If an FTA grantee wishes to use its own 
funds to move along the selection of a contractor, to be prepared to 
move quickly if the lead agency selects a ``build'' alternative, this 
is taking actions in parallel rather than in sequence. This is not 
prejudicing the outcome of the NEPA process in any way. Again 
Administrator Dorn and Regional Administrator Rogers should be 
commended for the flexibility they are showing in working with our 
public-private partnership. This Committee, in reauthorizing TEA-21, 
should support their vision.
TIFIA
    Congress should reauthorize the TIFIA program and refine it to 
encourage more private investment in projects supported with TIFIA 
credit. This program has been possibly the single most important 
benefit for public-private partnerships in transportation and this 
Committee must be commended for its vision in enacting it. More and 
more projects are beginning to understand the opportunities it offers 
both 
to fill the gaps in finance plans and to make finance plans more 
efficient and cost 
effective. While it is possible the program will end the authorization 
period under
subscribed, this is not a reflection on the program's value or its 
potential utility. Rather, it reflects the very long lead times that 
projects suffer through as they design finance plans and adapt, often 
only with new State legislation, to new financing methods.
    In reauthorizing the TIFIA program, I suggest more thought be given 
to the blending of private investment and TIFIA credit. Several of the 
current applicants for TIFIA credit, a group that will soon include the 
Las Vegas Monorail, are requiring their private contractors to 
contribute subordinated debt or equity investments to the plan of 
finance. Indeed, rating agencies and bond insurers have come to 
expect contractors to take part of their fee in the form of a project 
investment. This is a result that Congress should be encouraging of 
course. The good news is that the contracting community has developed 
the capacity to make these investments. The bad news is that, if the 
owner is using TIFIA credit, TEA-21 currently offers the owner a 
Hobson's choice--either make the contractor's credit investment grade 
according to rating agency criteria, a result more favorable to the 
contractor than the owner wants or needs to allow; or place the 
contractor's investment subordinate to TIFIA in right of payment, a 
result the contractors cannot suffer if the TIFIA instrument is large. 
This challenge can be cured quite simply: Refining TIFIA to permit 
developer subdebt senior to TIFIA without requiring it to be investment 
grade and to allow the payment of equity returns and payoff of 
developer subdebt as long as the TIFIA obligor is meeting all its debt 
service obligations and coverage ratios. To allay concerns about the 
diminution in the quality of the TIFIA credit, TIFIA could limit the 
amount of such subdebt or private equity payoff to a specified 
percentage of a project's costs.
    Again, I urge this Committee to support reauthorization of TIFIA at 
no less than the levels authorized in TEA-21 and to create modest new 
flexibility to further 
enhance its obvious success in facilitating effective public-private 
partnerships.
    I appreciate the opportunity to brief you on the Las Vegas Monorail 
and to offer my experiences and suggestions for TEA-21 reauthorization. 
Public-private partnerships are not a panacea and will never justify a 
reduction in the amounts needed to be appropriated for surface 
transportation. There are simply too many already unfounded needs. They 
are proving, however, to be an increasingly valuable tool to supplement 
the available grant funds and to narrow the gap between needs and 
resources.
                               ----------
                   PREPARED STATEMENT OF HANK DITTMAR

            President, The Great American Station Foundation
                            on behalf of the
                 Surface Transportation Policy Project
                             June 26, 2002

    Mr. Chairman, I am Hank Dittmar, President, The Great American 
Station Foundation. I am pleased to appear here this morning to present 
testimony on behalf of the Surface Transportation Policy Project where 
I serve as a Member of the organization's Board of Directors.
    The Surface Transportation Policy Project or STPP is a nationwide 
network of hundreds of organizations, including planners, community 
development organizations, and advocacy groups, devoted to improving 
the Nation's transportation system. I would note also that I appear 
here today with a representative of the STPP coalition, Michael 
Replogle, where we share and we support his comments for the 
record of this hearing.
    I am pleased to have this opportunity to discuss TEA-21's benefits 
for economic development, transit users and the business community and 
to offer our views on how the reauthorization of TEA-21 can increase 
these benefits for the Nation.
Overview
    Mr. Chairman, I want to commend you and your State for its 
innovative use of TEA-21 resources and describe briefly how one 
project--the Warwick Intermodal Project--exemplifies the vision of this 
law and its predecessor, ISTEA.
    As President of The Great American Station Foundation, I support 
initiatives that promote investment in intermodal connections through 
train station rehabilitation and development. One example is your 
State's effort to develop the commuter rail/Amtrak intermodal station 
in Warwick, connecting T.F. Green Airport to Amtrak's Northeast 
Corridor and commuter rail service. Here you have an intermodal 
project, linking commuter rail transit and intercity passenger rail 
with the State's major 
airport, while relieving congestion on I-95, one of the Nation's most 
significant 
Interstate corridors. This investment also provides benefits for 
freight and passengers traversing the I-95 corridor and positions the 
airport to deliver more efficient access and utilization of airport air 
capacity benefiting the entire Northeast. Mr. Chairman, I applaud your 
leadership in support of this important project.
    Under TEA-21, the State of Rhode Island receives the lion's share 
of the Federal funds that flow to the State, those provided under the 
highway title of the Act and other resources under the transit title. 
It also owns and operates T.F. Green Airport and is the owner/operator 
of I-95 and a partner with MBTA on commuter rail service. It is also 
one of several States, with the leadership of the late Senator 
Claiborne Pell, that worked toward development of Amtrak's Northeast 
Corridor. Armed with the Act's flexibilities and motivated by its own 
ownership interests, the State pursued an intermodal investment that 
instructs all of us as to the possible.
    Across the country, we only see a few other examples of such 
projects, which also have similar ownership characteristics. At the 
Newark airport, the State-owned airport is connected by a new fixed 
guideway to the Amtrak Northeast Corridor, NJ Transit and other rail 
services. In Chairman Sarbanes' State, the State of Maryland provides 
rail transit through its MARC trains and partners extensively with 
Baltimore's LRT, systems that link to the airport and to Amtrak's 
Northeast Corridor, all the while providing relief to the congested I-
95 and BW Parkway corridors.
    These airport connections deployed ISTEA/TEA-21 resources without 
the modal bias that generally characterizes so many other areas, where 
State ownership of transit systems and airports is the exception in 
that most transportation assets are owned and/or operated at the local 
and regional levels.
    Part of the debate over TEA-21 renewal needs to be focused on 
strategies and incentives that help us better align resources and 
investment decisions with the agencies that are responsible for these 
systems. How transportation funds are now being flexed to transit makes 
this point. Five out of six Title I dollars flexed to transit are by 
local decisionmakers using funds provided to their MPO's. When States 
flex dollars, it is generally to Section 18 for rural transit needs. 
While local agencies nationwide only have direct access to less than 10 
percent of total Title I funding, they account for more than 80 percent 
of all funds flexed to transit. The State of California alone accounted 
for more than one-half of all flexed funding over the last 4 years, 
aided by that State's suballocation law which directs more TEA-21 
dollars to MPO's and local agencies than provisions of TEA-21.
    Mr. Chairman, developing airport connections that work and 
supporting local efforts to flex transportation funds to priority 
transit needs explains why our coalition has placed such a high 
priority on making the intergovernmental partnership work together more 
cooperatively. We need to find new ways to ``incentivize'' State and 
local partners to deliver investments that better integrate our 
transportation assets and systems. And to be successful in this regard, 
we must take stock of how the flow of funds (for example who controls 
TEA-21 resources and who own or operates the systems) affects outcomes. 
While we know that a substantial share of all Title I funding flows to 
the States regardless of their ownership profiles, it is noteworthy 
that FTA's resources flow directly to the agencies that provide the 
service, be it a city or county agency, a regional agency, a State 
agency, or multistate provider.
    Related to these partnership issues, I would emphasize that this 
Committee shares jurisdiction over the intergovernmental partnership 
for highways and transit, through the rules for State and metropolitan 
planning and project selection.
    Mr. Chairman, we also see other opportunities to strengthen 
transportation policy connections to other areas. As one example, we 
are finally starting to reap the benefits of Tax Code changes aimed at 
equalizing benefits between parking and commute benefits, a provision 
that has been particularly powerful in boosting transit use in this 
region. Directly before this Committee is how we can forge stronger 
linkages between Federal housing policy and transportation investment. 
Next month the Senate is expected to begin debate on the TANF 
reauthorization where transportation-related issues figure prominently 
in efforts to help many Americans make the transition from welfare to 
work.
TEA-21's Benefits for Economic Development, Transit Users,
and the Business Community
    With that overview, I would like to turn to a discussion of the 
economic and the business community benefits of TEA-21 investments.
Transit Ridership Growth Reflects its Value to the User
    Transit ridership has increased each of the last 4 years, revealing 
a growing interest in transit in a range of city types and locales. A 
preponderance of this ridership growth is in New York City, as a 
preponderance of transit use is centered in New York. However, many 
other cities and urban areas around the country are experiencing 
increased ridership. In fact, the greatest percentage increase in the 
first four quarters of 2001 occurred in communities with 50,000 -99,999 
in population, where bus ridership grew 10.25 percent over 2000 --which 
also was a banner year for transit. And what is happening in big cities 
like New York (2.9 percent), Washington (5.85 percent), and Los Angeles 
(15.8 percent) cannot explain an 11.7 percent increase in Albuquerque, 
6.7 percent in Providence, 7.7 percent in Denver, 5 percent in Boise 
City, or 15.67 percent in Oklahoma City.
    These ridership gains, while still leaving transit far behind auto 
use, tell us something important is happening in transportation: 
Increasingly people are valuing the option that transit provides to 
leave the automobile at home. This choice factor is important, and it 
highlights an important American value: In increasingly congested 
locations, especially along clogged suburban arterials, the option of 
living in the city and utilizing mass transit is becoming more 
attractive to a growing number of 
people. Transit provides an option to driving, and creates redundancy 
in a transportation system increasingly characterized not by network 
conditions, but by channelization onto a limited set of freeways and 
multilane arterials.
There is Growing Market Demand for Transit
    There is clear evidence of a rebound of commercial and residential 
vitality in many urban communities, and evidence also that traditional 
population centers have become more attractive to empty nesters and 
singles as a place to live; employers as a place to locate; and 
investors as a place to seek gains in real estate. This metropolitan 
core resurgence appears to be sparking a transit ridership surge, and 
in fact, the existence of public transit may be part of the explanation 
for the economic resurgence of downtowns and urban neighborhoods.
    These newfound interests in the metropolitan core are being 
attributed to many conditions. Some see the increased attraction to 
urban places as the result of changes in our basic demographics. The 
2000 Census results clearly show that household size is shrinking, 
producing more households of empty nesters, singles, and nonfamily 
residents. The traditional nuclear family that made up 40 percent of 
households in 1970 is now less than 24 percent. According to former 
Census Bureau Director, Martha Farnsworth Riche, the new age 
distribution is more of a pillar than a pyramid, with a population by 
2020 of ``nearly an equal number of school aged kids, young 
professionals, parents, young retirees, and the elderly.'' (Farnsworth, 
March 2001.)
    While the predominant population pattern is that suburbs grew 
faster than their central cities, most large cities saw population 
gains in the 1990's. In a recent article describing the boom in in-fill 
development in Austin, Texas, John McIlwain, a senior resident fellow 
for housing issues at the Urban Land Institute, characterized the 
movement back to the Nation's cities as being led by two groups--young 
tech workers who favor urban living to life in the suburbs and the baby 
boomers. ``Their dog has died, their kids have left home, and they are 
free at last.'' (Austin American-Statesman, March 16, 2002.)
    Besides Austin, strengthening of the metropolitan core through in-
fill development is also evident in the most unlikely places. Look at 
Houston, where downtown residential properties are being built for the 
first time in decades. And adjacent neighborhoods, such as the never-
before fashionable Heights, are attracting 30-something, marrieds with 
children. Or Memphis, where city policies to preserve historic 
structures, improve transit, and rebuild blighted industrial areas 
increased downtown residents by 18 percent during the 1990's to almost 
10,000, with an astonishing 1,500 new housing units built by the end of 
2001. (Downtown Developer, Summer 2001.) Not a prediction anyone would 
have made in 1977, when the city launched its redevelopment efforts.
    Another key finding of the 2000 Census was the unequivocal 
diversity added to our Nation as a result of immigration from other 
countries, principally Hispanic and Asian households. Historically, 
most immigrants and most minorities live in cities, and while there is 
a significant trend toward minority migration to the suburb, 
demographer William Frey projects that most immigrants will continue to 
be 
concentrated in more dense urban locations.
    This urban concentration along with the lower income levels of most 
immigrant households has historically meant that these households own 
fewer automobiles and drive less. According to Catherine Ross and Anne 
Dunning's analysis of the 1995 National Personal Transportation Survey, 
African-Americans, Asians, and Hispanics are all more likely to use 
public transit or walk. For immigrants, this may be due not only to 
income and poverty level, but also to cultural factors, including the 
fact that they have lived in places where transit use was the norm 
rather than the 
exception. As immigrants assimilate into the population, therefore, we 
can expect 
to see higher levels of driving as their incomes rise, but also a 
continued willingness to use public transit, particularly if its 
availability, quality, and convenience continue to increase.

Access to Transit Has Become a Factor in Corporate Location Decisions
    The 1990's also revealed unique challenges for the exurban areas. 
Whether you are in the distant suburbs of St. Louis or of Atlanta you 
are likely to need the same things: More infrastructure and available 
workers. As places to work, most major cities offer employers both in-
place infrastructure and an available workforce with established 
transit systems that make businesses accessible to all workers, 
including sought after entry-level employees. By the mid-1990's, these 
assets became 
increasingly evident to small and large employers particularly in the 
growing service sector.
    A recent survey by Jones Lang LaSalle in its Property Futures 
publication found that 77 percent of New Economy companies rated access 
to mass transit as an 
extremely important factor in selecting corporate locations. According 
to the 2001 survey of 350 New Economy companies: ``Employers concerned 
with staff retention regard the public transportation issue as 
critical. Young and cyber-savvy staff increasingly reject the 
traditional commuter lifestyle. . . . Urban locations, though not 
always CBD's, will continue to be desirable. This is reinforced by the 
importance of public transportation to companies and workers.'' An 
example in Atlanta was the decision by BellSouth to relocate its entire 
Atlanta metropolitan workforce--some 20,000 workers--into three 
locations within walking distance of Metro stations.
    Moreover, overwhelmingly, replacement jobs continue to be located 
in established urban areas near transit. While some researchers have 
made much hay arguing that most ``new jobs'' are located in exurban 
locations, the fact remains that most job openings are for replacement 
jobs. As Qing Shen of the University of Maryland demonstrated in a 
recent study of the Boston metropolitan area, ``preexisting employment 
is still highly concentrated in the central city.'' (Qing Shen, Winter 
2001.)

Development Near Transit is Seen as a Sound Investment Choice
    By the late 1990's, real estate analysts began to see accessible 
urban locations in a new light as well. The 2001 issue of 
PricewaterhouseCoopers' Emerging Trends in Real Estate continued to 
advise investors to seek out opportunities in what they dub 24-hour 
cities, with mixed-use development and mass transit access. According 
to the report, which is compiled from dozens of interviews with real 
estate investors and professionals: ``Major 24-hour metro markets 
maintain their preeminence while some suburban areas struggle with 
sprawl and congestion issues. `Subcities'--our new term for suburban 
locations that are urbanizing and taking on 24-hour market 
characteristics--show particular promise for investors.'' 
(PricewaterhouseCoopers and Lendlease, Emerging Trends in Real Estate 
2001.) Recent brownfields legislation should improve the interest in 
existing urbanized locations even more.
    Increasingly, real estate investors are looking for value in 
established communities. PricewaterhouseCoopers' Emerging Trends report 
for 2002--prepared post 9/11
--warns investors away from apartments, retail, and auto dependent 
suburban locations, while advising investors to buy and hold in 24 
cities.

          Interviewees have come to realize that properties in better 
        planned, growth-constrained markets hold value in down markets 
        and appreciate more in upcycles. Areas with sensible zoning 
        (integrating commercial, retail, and residential), parks and 
        street grids with sidewalks will age better than places 
        connected to disconnected cul-de-sac subdivisions and shopping 
        strips, navigable only by car. Booming populations and wide-
        open spaces in the Sunbelt's expanding suburban agglomerations 
        can provide developers and investors with short-term 
        opportunities to cash in on growth waves--but the returns, on 
        average have not been competitive. . . . Markets served with 
        mass-transportation alternatives and attractive close-in 
        neighborhoods should be positioned to sustain better long-term 
        prospects as people strive to make their lives more convenient. 
        (Jones Lang LaSalle, 2001.)

    In addition, suburban areas are actively trying to add density, 
mixed use, and transit. In Dallas, the expansion of the DART transit 
system in the suburbs is prompting the development of 24 hour dense 
town centers, such as Addison Circle, which is expected to accommodate 
10,000 people in a few years. Even further out, the development of 
Legacy Town Center in Plano and the redevelopment of Plano Town Center 
are mixed-use examples. Closer in, the Uptown area near Dallas's 
downtown has added 10,000 residents in mixed-use multifamily 
developments 
within the past 5 years and the Emerging Trends report rates it as the 
strongest residential market in the metropolitan area. Similar trends 
can be seen in Montgomery County and Arlington County in the Washington 
area.

Transit Provides a Substantial Economic Benefit to the User
    The consumption of transportation has a major impact on household 
budgets for all Americans. The American Automobile Association 
estimates the annual cost of owning and operating an automobile at 
$7,363 in 1999. About 75 percent of that cost is fixed costs such as 
car payments and insurance, and this means that there is little 
financial incentive for drivers to drive less once they made the 
investment in a car. Nationally, transportation expenditures account 
for 17.5 percent of the 
average household's budget, according to an analysis of Bureau of Labor 
Statistics data by the Surface Transportation Policy Project and the 
Center for Neighborhood Technology. (STPP & CNT, Driven to Spend, 
2000.) The proportion of household expenditures that is devoted to 
transportation has grown as our use of the automobile has grown, from 
under $1 out of $10 in 1935 to $1 out of $7 in 1960, to almost $1 out 
of $5 from 1972 through today.
    The transportation burden borne by American households falls most 
heavily upon the poor and lower middle class, as the less a family 
makes, the more of its budget goes to transportation. The poorest 
quintile of American households spend 36 percent of their budgets on 
transportation, while the richest fifth spend only 14 percent. This 
means that the poorer a family is, the less money it has available for 
other expenses such as housing, medical care, or savings. In fact, 
transportation takes up the second largest percentage of the household 
budget, ahead of food, education, medical care and clothing, only 
behind expenses for housing.
    The cost of transportation varies widely from region to region, and 
within metropolitan areas. Scott Bernstein and Ryan Mooney of the 
Center for Neighborhood Technology recently analyzed data from the 
Consumer Expenditure Survey from 1998 -1999 and revealed that 
transportation costs can vary from 14 percent of a household's total 
expenditures in the New York Metropolitan area to as much as 22 percent 
in Houston.
    Research at the metropolitan level done by John Holtzclaw, Robert 
Clear, and myself shows that these variations in driving and vehicle 
ownership and hence transportation costs can be explained by a 
combination of factors, including neighborhood design and transit 
availability and frequency, when income and household size were 
controlled for. This study which analyzed odometer readings collected 
as part of air quality inspection and maintenance programs, found that 
the residents of denser, transit rich neighborhoods drove far less and 
spent far less on transportation than people who lived in areas not 
served by transit. (Holtzclaw, Clear, Dittmar, et. al., Transportation 
Planning and Technology, 2002.)

Transit's Impact on Wealth Creation
    The growing proportion of consumer expenditures that is devoted to 
transportation inhibits families from devoting their income to saving 
or investing, and indeed, may be part of the reason why so many 
families have to send two people to work. For the fact is that spending 
on transportation by poor families, unlike spending on homeownership or 
investing in education, has a very poor return on investment because 
autos, unlike houses, are depreciating assets. Ten thousand dollars 
invested in a car declines to a value of about $4,000 in 10 years time, 
while investment in homeownership builds equity and often appreciates.
    Similarly, investment in college education for one's children 
increases their earning power over their lifetime. The fact that the 
poorest families must spend over a third of their income on 
transportation means that they are least able to invest in activities 
that offer them the opportunity to build wealth. It is indeed ironic 
that many progressive social scientists believe that the best way to 
help former welfare recipients secure jobs is to give them automobile 
purchase assistance, thereby trapping them into the poverty cycle even 
more profoundly, as the poor typically end up with less reliable cars 
which are more expensive to operate and maintain.
    Some lending institutions are also changing loan criteria to 
reflect the hundreds of dollars in savings per month that can be 
experienced in denser, transit rich neighborhoods. The Location 
Efficient Mortgage (SM) a product of Fannie Mae and a consortium of 
groups called the Institute of Location Efficiency, allows prospective 
homebuyers in denser transit-rich neighborhoods to use their 
transportation savings to help them afford a home in these 
neighborhoods. The program, which has been introduced in Chicago and 
Seattle and San Francisco, is under study in Atlanta, Portland, and 
Philadelphia, and Fannie Mae has announced plans to introduce a less 
comprehensive product with smaller savings in Minneapolis-St. Paul and 
Baltimore. In essence, financial institutions are now sending a 
message--if you save money by driving less, we will take that into 
account and offer you more funds to purchase a home. This kind of 
market adjustment is a positive response to the economic benefits of 
transit investment upon households.

Transit Spurs Development
    As indicated earlier, real estate investors are recognizing that 
development near transit has locational advantages, and a new style of 
development is emerging in response to this fact. Transit oriented 
development is the new term used to characterize mixed use, walkable 
development located within one-half mile of a transit stop, and 
evidence indicates that as new transit systems--whether light or 
commuter rail or rapid bus--are introduced, development follows. A 
recent study by the University of North Texas found that the new DART 
system in the Dallas region has already generated over $800 million in 
development, and that the full system is projected to generate $3.7 
billion in economic activity upon build out. (University of North 
Texas, 2000.) Typical of these projects is Mockingbird Station, which 
features a multiscreen cinema, upscale retail, office space, and 211 
loft apartments that are within walking distance of the light rail 
stop. The project was built without public subsidy.
    The potential for transit-oriented development to build both 
economic value 
and staying power in a region is evidenced in the National Capital 
region by both 
Montgomery County, Maryland, and Arlington County, Virginia. My 
organization is completing a case study of Arlington County, which has 
pursued a policy of concentrating its development activity along the 
Rosslyn-Ballston Corridor since the construction of the Washington 
Metro. Our forthcoming study found that development along transit 
allowed the county to capture over 13 million square feet of office 
space and 2 million square feet of retail since 1980. The corridor has 
increased in population from 19,838 in 1980 to 34,485 in 2000, 
reversing a steep population decline in the Seventies. Land value 
within the corridor near the four stations increased by 81 percent from 
1992-2002, an average annual increase of 6.1 percent, generating over 
$109 million in property taxes in 2002 alone. The corridor generates 
approximately 33 percent of the County's real estate tax on 7.7 percent 
of the County's land. According to the study, ``Even with the economic 
downturn and the residual affects of the 9/11 incident (which affected 
Arlington directly through the bombing of the Pentagon and the 
subsequent shutdown of National Airport and several major arterials), 
February 2002 vacancy rates were at 10 percent. This is half of the 
vacancy rate of suburban office concentrations in outlying Virginia 
such as Tyson's Corner and Reston. The office rents in the Rosslyn-
Ballston Corridor also 
command a rent premium over other office locations in the Northern 
Virginia 
marketplace.'' (TransManagement, Inc. for Great American Station 
Foundation, 
forthcoming.)
    Transit-oriented development clearly commands an advantage in the 
emerging marketplace, and this offers an opportunity for transit 
systems to recapture value, both from underutilized land around their 
stations, and potentially from development occurring near stations 
through benefit assessment districts. Such schemes could help to 
finance transit system expansion by providing a revenue stream to repay 
debt.
    Transit-oriented development clearly has a role to place in making 
housing more affordable, as the data on housing and transportation 
expenditures clearly indicate. In addition to the measures discussed 
above, many transit-oriented developments include affordable housing. 
We have studied two such projects in detail. The first is Ohlone-
Chenoweth in Santa Clara County, California, where a underutilized park 
and ride lot and private land have been developed with 135 very low-
income units, 194 units affordable to households at 50 - 60 percent of 
median income, and a third project with market rate housing. The second 
project is Barrio Logan apartments in San Diego along the San Diego 
trolley, which includes 144 low-income units financed through CRA 
commitments and the Low Income Housing Tax Credit. Both projects have 
been successful in meeting both housing and transit goals.
    Indeed the States of California and Maryland, recognizing the value 
of access to transit to low-income families have acted to give priority 
to projects near transit in allocating their share of Low Income 
Housing Tax Credits. Perhaps a similar priority action could be made 
for other housing programs under the jurisdiction of the Committee. At 
the least, the clear connection emerging between transit, housing and 
wealth creation underscores the wisdom of the Senate in placing both 
housing and transit under the jurisdiction of the same Committee.

TEA-21 Reauthorization Issues
    Mr. Chairman, while the STPP is still in the process of developing 
its full reauthorization package, there are several areas that I 
address on behalf of our coalition.

Treat Transit the Same as Highways
    I lead with this policy recommendation given its very high priority 
within our coalition. In earlier debates on ISTEA and TEA-21, STPP and 
its coalition partners were strong proponents of the 80/20 matching 
share for transit projects to ensure that options for future 
transportation investments were not biased toward one modal investment 
over another. There are now efforts, both in the Administration and in 
the Congress, to control demand for FTA's ``New Starts'' program by 
rationing money through reductions in the Federal matching share. We 
strongly oppose this approach.
    Rather than focusing on ways to grow the resources to support the 
accelerating pipeline of demand for new rail and busway projects, which 
is where we believe efforts should be directed, some are seeking to 
manage demand by spreading available funds and requiring significantly 
higher overmatchs.
    It is clear that ISTEA fundamentally shifted our thinking about 
what future investments are needed in support of local and regional 
economic development. Since local decisionmakers were invited into the 
dialogue on transportation investment, through the planning process and 
other means, we have seen an explosion of interest in rail transit 
investment. In fact, a disproportionate share of recent ridership gains 
have been driven by the New Starts programs and rail transit overall.
    To illustrate the strong demand for rail transit, I would note that 
of the Nation's top 50 metropolitan areas, all but two were planning a 
new start project, adding to an existing system or have a new system 
under construction. These are obviously our largest economic regions, 
but the interest in and support for rail transit and other fixed 
guideway projects such as Bus Rapid Transit (BRT) goes well beyond 
these areas.
    Rationing the demand for new start dollars by shifting the Federal 
match is evidence of a larger problem. There are now examples where new 
start project sponsors won't receive their full Federal funding 
commitments pursuant to existing FFGA's until after the project has 
been completed and is operating. These developments suggest that there 
is an urgent need to find additional resources to meet this growing 
demand under the program.
    Mr. Chairman, the key message of our coalition is that the Federal 
shares on rail and highway projects should be the same. If there is 
decision to reduce the Federal share for new start projects, it should 
be coupled with a change in the Federal match for new highway capacity 
projects. This core principle of parity between transit and highways is 
one we would urge this Committee to adhere to as you develop 
legislation renewing TEA-21.

Transit Innovations Initiative
    Mr. Chairman, I would urge this Committee to look for additional 
incentives to prompt transit providers to embark on the next generation 
of system improvements, like innovative ways to promote institutional 
cooperation as I discussed earlier, deploy new technologies, or 
coordinate investments with local land use plans, as examples of target 
areas of inquiry. As we look to grow transit use and the knowledge that 
supports these efforts, we must make the relatively modest investments 
here to prompt further transit innovations, just as the earlier Service 
and Methods Demonstrations Program laid the foundation for services and 
transit improvements that are growing transit service today.
    We would urge that such a program, investing funds with transit 
providers and others, should be required to ensure that the results are 
transferable, including strong information and technical assistance 
features, and that there is a strong evaluation element. We recognize 
that earmarking would be a threat to such an initiative, as it has with 
other existing programs, but we would urge you to move forward with 
such a program anyway, given the need for modest funding in this area.

Shift Focus of JARC Program to Existing Areas
    A key policy initiative in TEA-21 was the enactment of the Jobs 
Access and Reverse Commute (JARC) Program which was one of STPP's top 
priorities. We commend this Committee for your leadership in 
successfully garnering support for the enactment of this program. Since 
1998, we have developed a substantial record showing how this 
relatively modest commitment of resources made a difference in taking 
on the very large task of helping the many people transitioning from 
welfare to work. Much of the early debate and program emphasis was on 
transit and other transportation services aimed at connecting workers, 
often in cities, to job centers, which were generally further away in 
suburban locations. We are now more knowledgeable about some of the 
real challenges that exist and the opportunities that are available. 
One recommendation is to refocus some of the resources on improving 
transit services within core built-up areas, which are not always well-
served. The research shows that there are more jobs available to 
workers in their existing core areas through attrition and replacement 
jobs in much closer proximity. JARC 
resources should be redirected to these core areas as well to help 
improve transit services where such services now exist or can be 
readily expanded, avoiding car purchase assistance that places these 
individuals and their families at considerable financial risk. Mr. 
Chairman, we would be pleased to work with the Committee and provide 
suggestions on this redirection of the program.

Commute Benefit and Transit Assistance
    One of the most powerful actions taken by the Congress in support 
of public transportation over the last decade were changes in the Tax 
Code in 1993 that made commute benefits more viable and expansive. With 
TEA-21, this benefit now provides $100 per month in pretax income and 
narrowed the disparity with parking which is set at $185 per month. 
Unfortunately, this benefit has not been aggressively marketed, 
described, or made easy for the private sector to administer and 
provide to their employees. We believe that transit providers haven't 
done all they can do to make this benefit more readily available to 
employers and employees. We would urge you to look at ways to prompt 
providers, including conditioning future FTA formula funds, to put 
programs in place that assist employers in delivering the benefit more 
efficiently.

Consistency of Highway Reviews and Transit Project Oversight
    I want to commend this Committee for your oversight of the 
forecasting, planning and project delivery of FTA's programs where such 
progress has been made that now transit proponents are in the position 
to cite the ``New Starts'' process as a model for other Federal capital 
programs. Congressional scrutiny directed at transit capital efforts in 
previous years has resulted in numerous reforms that make project 
sponsors meet rigorous standards for new investments, which ensures 
strict cost controls and other outcomes during the construction cycle 
and subsequent operation of the project.
    In your joint review of the legislation renewing TEA-21, we would 
urge you to work with the Senate Environment and Public Works Committee 
to share some of these innovations such as FFGA's with the highway 
program. We need to ensure some balance so that the rigors, including 
strict cost controls, that now apply to transit capital projects are 
extended in similar ways to larger highway projects, 
ensuring some level of consistency between these modes. Importantly, 
there are 
examples of runaway highway capital projects where unchecked project 
costs have adverse impacts on State transportation plans, displacing 
resources destined for other transportation investments. Mr. Chairman, 
you and this Committee should be proud of the safeguards that you have 
put in place for major transit capital projects and the record you have 
built in delivering increased accountability in the use of Federal 
funds.

Further Enable TOD
    Transit and more broadly Transportation-Oriented Development is an 
area that we are now reviewing to determine how existing law can be 
further developed to support these efforts. Initially, we are 
recommending that broader eligibility be accorded to TOD initiatives in 
station projects, so that the shell for key services such as customer 
serving retail, day care, and social services can be constructed as 
part of FTA-funded projects. One example we have found is the 
Maplewood, New Jersey Transit Concierge, in which local businesses have 
banded together to offer all of their services and products through a 
concierge located in the station building. In addition, we have 
discovered that certain provisions of the current Joint Development 
regulations regarding leasing are serving as a barrier to the financing 
of affordable housing at transit station locations. A legislative 
solution may be required. Finally, we recommend that the Innovative 
Finance provisions of TEA-21 be amended to allow value capture from 
transit-oriented development to be counted as a revenue stream to 
finance New Starts.
Planning and Corridor Studies
    The Committee has joint jurisdiction with the Environment and 
Public Works Committee over the planning and project selections 
provisions of TEA-21. These provisions, which govern both State and 
metropolitan planning for highways and transit, are far reaching and 
comprehensive. The 2000 Census will require adjustment to most 
metropolitan areas, and this may offer an opportunity to enhance the 
metropolitan planning process by reaffirming the status of the 
Metropolitan Planning Organizations, their representativeness and their 
planning processes. We are particularly interested in ensuring that the 
planning process becomes more of a strategic planning process geared 
toward economic and environmental outcomes. One way to do this is to 
use new decision support tools to integrate alternative land use 
scenarios into transportation corridor studies. Such scenario-based 
planning can help to break the logjam that exists between local zoning 
and the market demand for transit-oriented development and walkable 
communities by demonstrating the public support for these kinds of 
projects.

Closing Comments
    In this testimony, I have outlined some initial recommendations on 
ways to improve the transit program as you move forward with 
legislation renewing TEA-21. STPP is now crafting a much broader agenda 
that will offer further detail on these and other program areas such as 
ADA and paratransit, clean air-related improvements and program 
flexibility. We will share these and other proposals with you and the 
Committee once we finalize our agenda.
    Mr. Chairman, I want to close my comments by recognizing the 
considerable progress that has been made in increasing the use of 
public transit, which continues to outpace the growth of both vehicle 
and air travel. This is a result of the commitment of resources under 
TEA-21. It is also due to other factors and trends 
underway in America. And, Mr. Chairman, transit's success is also the 
result of the leadership that this Committee has provided on these 
issues. Thank you for the opportunity to appear before you today.

                               ----------
               PREPARED STATEMENT OF MICHAEL A. REPLOGLE
             Transportation Director, Environmental Defense

                             June 26, 2002

    Good morning, Chairman Reed and Members of the Subcommittee. I am 
speaking on behalf of Environmental Defense, an organization with 
300,000 members that seeks to integrate law, science, and economics to 
find practical solutions to environmental problems.
TEA-21: A Success for Transit
    TEA-21 provided vital guarantees for increased transit funding 
while sustaining important accountability and incentive reforms of the 
ISTEA law. In response to these reforms and funding, Americans have 
taken back to public transportation in droves. Since 1995, transit 
ridership has grown by one-fourth, to over 9.5 billion rides, the 
highest in more than four decades. Over the last 6 years transit use 
has grown faster than the population (8 percent), highway use (15 
percent), and domestic air travel (13 percent; 19 percent prior to 9/
11/01).
    TEA-21's support for public transportation has promoted economic 
development, the environment, and public health, offering guaranteed 
funding and incentives to encourage State and local progress for clean 
air, smart growth, and equitable access to opportunities. 
Reauthorization of TEA-21 should build on this success with increased 
guaranteed funding for transit, greater transparency for how tax funds 
are spent on transportation, and stronger public accountability for 
State, regional, and local transportation system performance measured 
against national, State, and regional objectives, including goals for 
environmental protection and equity.

America Can Do Better
    Thirty-two years after the 1970 Clean Air Act, 140 million 
Americans--including 70 percent of the people most vulnerable to air 
pollution--live in areas that exceed the National Ambient Air Quality 
Standards, exposing them to unhealthful air pollution that leads to 
premature death, cancer, hospitalization, and impaired life quality. 
The number of smoggy days increased 18.5 percent between 2000 and 2002 
in the 58 percent of U.S. counties with air quality monitors. And 
recent research in California and Colorado shows that those living 
close to very high traffic volume highways face unacceptable cancer 
risks--as high as 1 in 500--due to exposure to traffic-related toxic 
air pollutants that will increase if roads are further expanded. (South 
Coast Air Quality Management District, Multiple Air Toxics Exposure 
Study--II, March 2000.) On top of this, the U.S. accounts for vastly 
disproportionate greenhouse emissions, with 5 percent of the world's 
people using more than one third of all energy for transportation 
purposes worldwide. While the transit-related provisions of a 
reauthorized TEA-21 alone won't solve these problems, they are a 
critical opportunity to address them.
    Some States are making greater use TEA-21's opportunities to 
develop balanced transportation systems that expand transit choices. 
But others are making little progress and devote a large share of their 
attention to the failed strategy of trying to build their way out of 
congestion. In a third of the States, constitutional restrictions limit 
States' ability to use their own gas tax for anything other than roads. 
In many regions transportation planning expends little effort to 
consider transit and growth management strategies that could provide 
attractive alternatives to the 
current plan of business-as-usual road system expansions that 
accommodate and 
support sprawl and subsidize driving, while neglecting the needs of 
pedestrians, bicyclists, and those without cars. Improved data 
collection and impact analysis tools and stronger planning requirements 
are needed if State and local agencies are to comprehend, identify, and 
invest in better system management. By improving integrated 
performance-oriented planning at the State and regional level, we can 
address demands to streamline the project review process in a manner 
that delivers better projects that also protect the environment, public 
health, and the ability of the public and local officials to know about 
the effects of major decisions before they are final, a core principal 
of the National Environmental Policy Act of 1969 (NEPA).

Protecting Public Health with Better Transit
    Investment in clean public transportation reduces smog and 
particulate air pollution that harms the health of children, the 
elderly, and those with respiratory disease. Increased investment in 
clean transit can provide vital remediation for these risks by helping 
to reduce traffic. Riding transit is also far safer than driving, which 
causes 42,000 U.S. deaths a year and 3 million injuries. Deaths and 
injuries from motor vehicle crashes are the leading cause of death for 
persons of every age range from 4 to 33 years old. The National Safety 
Council estimates that riding the bus is over 170 times safer than car 
travel. If the Nation's roadway users had the same accident rate as 
buses, 21,000 motorist lives would be saved annually in collision 
accidents alone. Across all modes of public transportation, accidents 
per million 
passenger miles decreased by nearly 28 percent between 1993 and 1999; 
transit 
passenger injuries per million passenger miles declined nearly 24 
percent.
    Atlanta's experience during the Olympic Games in 1996 shows how 
much transit can cut traffic, boost system efficiency, and protect 
public health. By leasing 1,000 added buses, enhancing the 
transportation system management, and the marketing improved travel 
choices during the Olympics, Georgia officials cut the number of cars 
in the morning rush hour by 23 percent. This reduced traffic led to 
lower air pollution emissions, with a 28 percent drop in smog 
concentrations even as the region accommodated over one million 
additional visitors. This in turn caused the number of asthma acute 
care events to decrease 42 percent during this period. (Freidman, 
Michael S., Powell, Kenneth E., Hutwagner, Lori, Graham, Leroy M., 
Teague, W. Gerald; Journal of the American Medical Association, 
February 21, 2001, vol. 285, no. 7, pg. 897- 901.)

Transit is Vital to Cut Climate Change Emissions
    Transit has a key role to play in reducing our Nation's growing 
dependence on oil and highly disproportionate contribution to human-
induced climate change. Transportation accounts for about 28 percent--a 
growing share -- of U.S. climate change emissions. Yet the fuel 
efficiency of a fully occupied rail car is 15 times greater than that 
of the typical commuter's automobile. Full buses are 6 times more 
efficient. A bus with as few as seven passengers is more fuel efficient 
that the average solo commuter car trip.
    For every 10,000 solo commuters who leave their cars at home and 
commute on transit for 1 year, the Nation reduces fuel consumption by 
2.7 million gallons. While intercity rail accounts for about 1 percent 
of all passenger miles traveled by Americans, it accounts for only 0.1 
percent of U.S. energy consumption for transportation. In Japan and 
Germany, where high-speed rail is common, trains consume only a sixth 
to an eighth as much energy as jet aircraft carrying similar passenger 
loads. Protecting Amtrak and investing in a modern national intercity 
high-speed rail system must be part of our national agenda to protect 
the environment.
    Several State studies have illustrated rail's benefits for energy 
conservation, air pollution, and global warming. For example, in 
California, a recent State study concluded that the State-supported 
intercity train network will prevent 265 million motor-vehicle-miles 
from being driven in 2002. While the resulting reduction in gasoline 
consumption is offset by increased diesel consumption by trains, the 
State projects a net saving of 7.3 million gallons of gasoline in 2002, 
helping to reduce both air pollutant emissions and the demand for 
imported oil. (California Department of Transportation, California 
State Rail Plan 2001-2002 to 2010-2011, 2001, p. 16.) A gasoline saving 
of this magnitude would reduce carbon dioxide emissions by about 140 
million pounds, which is the equivalent of taking 12,000 cars off the 
road for a year. A study done for the Coalition of Northeast Governors 
in 1990 estimated that the introduction of high-speed rail service 
between Boston and New York would save 20 million gallons of jet fuel 
and 4.5 million gallons of gasoline per year. Although some pollution 
is generated from the electricity that powers the trains, the net 
effect of high-speed rail between Boston and New York would be to 
eliminate almost 2,700 tons of smog-forming pollutants each year.
    Public transportation has been estimated to cut gasoline use by 
more than 1.5 billion gallons a year and to prevent the emission of 
63,000 tons of hydrocarbons and 78,000 tons of nitrogen oxides. These 
numbers don't even consider the much greater indirect energy and 
environmental benefits of the efficient housing and work environments 
made possible only by the availability of rich transit networks in 
places like New York City, San Francisco, and Washington, DC. And vital 
new economic centers, such as San Jose, Denver, and Portland, Oregon, 
could not sustain and manage their growth without having invested 
heavily in transit.

Transit Sustains and Builds Energy-Efficient,
Lower-Pollution Communities
    To comprehend the true environment and public health benefits 
produced by America's public transportation systems, we must consider 
how community patterns of travel, commerce, and urban development are 
transformed when high-quality transit services are consistently 
developed and sustained over the long-term. A recent study by the 
National Transit Cooperative Research Program of the National Academy 
of Sciences found that transit-supported compact developments yield 10 
to 30 percent less overall community energy use and pollution compared 
to low density, car-dependent sprawled development, as well as lower 
total social and infrastructure costs. Many regional and subregional 
studies using best practice analysis tools to compare alternative 
investment strategies and related policies, that is, in Denver, 
Portland (OR), Sacramento, and Washington, DC, have found that transit 
supported strategies can accommodate equivalent amounts of new 
development with significantly less traffic and pollution while 
automobile-oriented strategies induce added traffic and pollution.
    Indeed, by focusing growth around an expanded transit system, 
reducing expenditures on roads, and adopting an urban growth boundary 
and pedestrian-friendly urban design standards, Portland, Oregon, has 
pursued a path different from most other U.S. metropolitan areas. Since 
the adoption of the 235,000-acre growth boundary in 1979, Portland, 
Oregon, has urbanized just 39,000 acres. At the same time the 
population inside the boundary has increased by more than a third. No 
new road capacity has been added to the downtown for nearly a quarter 
century although employment has nearly doubled in that time to 109,500. 
Transit carries the equivalent of two lanes of traffic on every major 
thoroughfare to downtown. Portland tore out a six-lane expressway to 
create a downtown river front park, traded in the money for two new 
freeways and invested in transit. Between 1990 and 1996, transit 
ridership grew 20 percent faster than the growth in vehicle miles 
traveled, 41 percent faster than the growth in transit service and 
nearly 150 percent faster than the growth in population. Portland's 
adopted regional plan envisions a 40 percent increase in population and 
just a 2 percent increase in land area by 2017.
    The experience of most cities with less consistently transit-
focused policies has been that urban land consumed per person has 
skyrocketed, exacerbating car dependence. Seattle's experience is 
typical, with a 38 percent population increase accompanied by an 87 
percent increase in urban land area between 1970 and 1990.
    Another region facing sprawl pressures that are being countered 
with better transit is Denver, which anticipates accommodating a 
million new residents in the coming 20 years. A recent survey by the 
Downtown Denver Partnership shows that before the new Southwest light 
rail line opened, one in four downtown commuters used transit; since 
the new line opened, one in three do. It is estimated that it would 
take 175 additional miles of highway in the Denver metro region to 
carry all the people who use transit today. Recent public transit 
investments have been very successful; both the light rail and the bus 
and carpool lanes on north I-25 have exceeded projections for 
ridership. The 14 mile light rail system takes 525 bus trips off city 
streets each day. One light rail train can replace over 200 single 
occupant vehicles. More than 33,000 people ride the light rail daily 
about 30 percent above the original ridership projections. New transit 
investments are not only alleviating traffic congestion and cutting 
pollution, but also they are revitalizing communities by serving as 
infrastructure for creating new town centers and livable, walkable 
communities. The once dead Englewood mall has been reborn in the past 2 
years as a mixed-use city center with homes, offices, stores, cultural, 
and civic uses, thanks to Denver's Southwest light rail line that now 
serves it. And the growth 
attracted to this center otherwise would likely have taken a much more 
polluting, 
car-dependent form at the periphery of the metro area, but for Denver's 
transit-supportive policies.
    The large transportation and energy cost savings produced by 
transit translate into higher real estate values for neighborhoods with 
good transit access. Single-family residences in Boston are valued an 
average of 6.7 percent higher in neighborhoods with rail stations 
compared to neighborhoods without them according to a 1994 
Transportation Research Board study. In Portland, Oregon, residential 
properties within 500 meters of light rail station are valued at 10.6 
percent more than comparable properties farther away.

Transit Reduces Water Pollution and Protects Parks and Ecosystems
    By supporting more compact development patterns, transit investment 
can reduce conversion of open space to urban uses, reduce impermeable 
surface coverage in critical watersheds, and provide access to our 
Nation's parks while protecting them from damage caused by traffic. 
Surfaces paved to accommodate traffic are responsible for substantial 
storm-water pollution and water quality degradation in coastal 
estuaries, streams, lakes, and near-shore ocean environments. In 
contrast to the space-intensive demands of air and auto travel, which 
require ever-larger airports and ever more lanes of freeway, rail 
service can be increased mostly along existing rights of way. Rail 
stations accommodate many more passengers than airports while taking up 
far less land. Penn Station in New York, for example, accommodates more 
travelers every day than the 25 biggest airlines handle at Los Angeles 
International, Chicago O'Hare, and Newark International airports 
combined.

Accountability: Key to Better Transit, Expedited Project Delivery, and
Sustained Public Support for Transportation Funding
    Public support for transportation funding will be sustained only if 
Federal, State, and local agencies improve transparency about how they 
spend money and can be held more accountable for the long-term effects 
of transportation projects, programs, and plans. This requires better 
integration of transportation, natural resource, and land use plans and 
transportation project reviews at all levels of government for better 
coordinated decisionmaking that supports wise system stewardship, with 
better consideration of alternatives for impact avoidance and 
mitigation. Such an 
approach to improving transportation project delivery could lead to 
more effective investments with broad public support, with more 
investment in transit, and better protection of public health and the 
environment.
    Some State DOT's are carrying through on the mandate of TEA-21 to 
integrate the Major Investment Study requirements into NEPA project 
reviews and the transportation planning process, despite the absence of 
DOT regulations, and by doing so are considering smart system 
management, pricing, partial build scenarios, and smart growth 
strategies as they consider major new investments. Some States are 
pursuing stewardship initiatives to change the culture of State DOT's 
and to foster closer planning and operational partnerships with State 
resource agencies and key stakeholders. Most States have improved 
interagency cooperation so that their transportation plans conform with 
their adopted air pollution control plans. To accomplish this, some 
regions, like Charlotte, North Carolina, are adopting air pollution 
control strategies, such as new regional transit, that will help offset 
future emission increases from highway transportation. Congress should 
encourage these best practices.
    Other transportation agencies and road builders are trying to 
scapegoat environmental laws for their own administrative failures 
which are manifested in a lack of local consensus on proposed projects, 
insufficient State and local funding match dollars, and stalled reviews 
due to inadequate consideration of alternatives, inadequate mitigation 
and avoidance of adverse impacts, and efforts to end-run Federal 
requirements. These interests want to expedite transportation project 
delivery by weakening the Clean Air Act conformity requirements, 
setting deadlines for project reviews, diminishing consideration of 
alternatives and indirect impacts, limiting opportunities for 
stakeholders and resource agencies to influence decisions, and limiting 
judicial review. Congress should reject these proposals that would 
undermine core environmental protections, spur greater conflict, erode 
public support for transportation funding, and make it less likely that 
communities will consider and implement investments and policies that 
improve and support transit.
    In those few places where transportation and air quality plans in 
recent years have come into serious conflict, such as Atlanta, 
transportation conformity lapses have led not to a cut off of Federal 
transportation funds--as road builders often falsely assert. Instead, 
Federal, State, and local funds have been redirected away from major 
road expansions and into transportation projects that are beneficial or 
neutral for air quality, including highway safety projects, park-and-
ride lots, HOV lanes, sidewalks and bike paths, bridge reconstruction, 
traffic signalizations, and intersection improvements. During a 
conformity lapse, funds may also go to major transit projects that have 
been recognized as transportation control measures in State 
Implementation Plans (SIP's) for air quality. But many State and local 
agencies have failed to include their major transit projects in SIP's. 
This administrative shortcoming puts the funds for these air quality 
improvement projects at risk if there is a conformity lapse. Having 
transit project funding held hostage to continued funding for sprawl 
and traffic-inducing highways serves only the road builders' 
interests. The Congress could remedy this problem by stating that major 
transit investments should be treated as conformity-exempt and by 
allowing new transit projects that have not previously been part of a 
conforming transportation plan and program to be added to nonconforming 
transportation plans and programs during conformity lapses.
    In reauthorizing TEA-21, the Congress should reduce the number of 
segmented project analyses, encouraging fewer, better-coordinated 
evaluations of alternatives. State and metropolitan areas should 
develop and periodically update, with public involvement, integrated 
transportation, natural resource protection, and growth management 
plans that consider at least one alternative scenario that considerably 
reduces traffic growth through better system management. Agencies 
should annually report on the current and projected performance of 
their transportation system management, investment, and proposed 
programs and plans, accounting for cumulative and secondary impacts on 
growth patterns, public health, greenhouse gas emissions, the 
achievement of natural resource planning goals for air, water, and 
habitat protection, and the provision of equal access to jobs and 
public facilities for all residents, including those without cars, 
without undue time and cost burdens.
    California's recently enacted AB2140 law provides a model for this: 
(1) establishing a standardized set of basic transportation performance 
indicators related to safety, congestion, road repair needs and public 
transit that each region must begin to track; (2) establishing a 
standard method of financial reporting to help the public and local 
officials know what their money's being spent on; and (3) requiring an 
``alternative planning scenario'' in the development of each region's 
20 year transportation plan in order to provide a clear alternative to 
present growth patterns that could minimize future demand on 
transportation infrastructure while reducing congestion, protecting 
open space, and saving taxpayers money. Adopting a Federal version of 
AB2140 in TEA-3 would give the public and local elected officials 
expanded transportation investment choices including options to better 
support transit and manage both traffic and land development, 
supporting an environmentally sound approach to expediting project 
delivery.

Assure Integrity to Models and Analysis
    A decade after ISTEA, many transportation agencies still use 
transportation analysis models that reflect the assumptions of the 
1970's, ignoring walking, biking, urban design, induced traffic, and 
the land use impacts of transportation policies. The Federal Travel 
Model Improvement Program should foster adoption of best practices, but 
has had only modest effect. While some metropolitan areas, such as 
Portland, Oregon, and Sacramento, California, have developed more 
policy-sensitive modeling tools to appraise the traffic, transit, air 
quality, and equity impacts of various policies, many agencies have 
done only defensive just-in-time model fixes to produce answers that 
help justify locally sought projects. The result is the recurrent 
widespread under-estimation of air pollution from traffic, mis-
estimation of travel demand for new transit systems and roads, and 
poorly supported investment decisions made on the basis of faulty data, 
models, methods, and forecasts. Recent independent audits of computer 
travel models in Washington, DC, and other regions have exposed serious 
flaws in official Metropolitan Planning Organization models that bias 
their findings strongly against transit investments and smart growth 
strategies and strongly in favor of expanded highway investments. 
Unless improved, these discredited models will be subject to growing 
challenge from a variety of stakeholders, including resource agencies, 
civic groups, environmental groups, and urban core development 
interests that are put at disadvantage by these obsolete and poorly 
calibrated tools.
    America needs a new and much stronger national transportation data 
center to replace the Bureau of Transportation Statistics. This center 
should help set a core set of uniform standards for travel survey data 
collection, transportation network coding, spatial data analysis, and 
evaluation, developing a new generation of scientifically valid methods 
for local, regional, and national travel behavior analysis to support 
performance-based funding and decisionmaking. Local innovation should 
be encouraged to augment this core set of measurement systems. To 
improve their 
validity and performance, regional travel models should be subject to 
adequately 
funded independent oversight and critique by impartial experts, with 
open public access to data and software setups to facilitate public 
interest audits of assumptions and model performance.

Level the Playing Field Between Roads and Transit on New Starts
    The TEA-21 transit New Starts Program sets the rules for funding 
new transit projects. This successful program has helped spur 
competition for new projects, 
encouraged greater local funding, and more efficient design and project 
selection for system expansion, with far greater demand for funds than 
available under TEA-21. We support substantially increased funding for 
transit New Starts, as demand for such environmentally sound 
investments is growing. Scarcity of New Starts funds have led to many 
negotiated Federal funding far less than the 80 percent provided for 
under law, with the program now approaching a 50-50 Federal-local 
funding split.
    But even more importantly, new highway projects should be subject 
to the same rules and competition for local match as new transit 
projects. This would help 
assure a wiser use of scarce Federal transportation resources, greater 
private participation, increased reliance on environmentally sensible 
and fiscally prudent motorist user fees to cover project costs, and 
better overall project selection. If a 50-50 split is adopted for 
transit New Starts, as proposed by some, a similar split should 
similarly be adopted for all new road projects financed with Federal 
funds. Fiscal prudence in reauthorization would suggest far more 
attention be paid to completing the job that ISTEA started on leveling 
the playing field between highways and transit.

Congestion Mitigation Air Quality Funding:
Vital For Transit and Public Health
    The $8.1 billion 6 year Congestion Mitigation Air Quality Program 
(CMAQ) has had 44 percent of its funds expended 1992 -1999 on air 
quality beneficial transit projects. Funding for CMAQ should be 
substantially expanded in TEA-21 reauthorization in recognition of the 
increased problem of air quality nonattainment. Eligibility for traffic 
flow enhancement projects under CMAQ should be limited, as there are 
ample other sources of Federal and State funds available for these 
types of projects. CMAQ should not be opened up to become a general 
operating assistance program for transit, but should focus on funding 
innovative air pollution reducing initiatives and a wide array of 
strategies and programs to reduce or to managing travel demand, 
including incentives for smart growth, revision of local zoning, 
parking, and design codes, creation of accessory apartments near jobs 
and transit, freight and goods movement management strategy planning, 
traffic calming, and much better data collection and analysis to 
support and evaluate these initiatives before and after implementation. 
State and local air quality agencies should be given authority to 
allocate CMAQ funds in consultation with transportation agencies to 
foster more cost-effective and innovative investments.
    The U.S. EPA has promulgated new health standard based National 
Ambient Air Quality Standards (NAAQS) under the Clean Air Act in 
recognition that the old NAAQS were insufficiently protective of public 
health. The Supreme Court has upheld this new standard following an 
industry challenge, and new designations are now overdue. The national 
air quality monitoring network shows that more than 166 million people 
live in counties with monitors showing unhealthful levels of ozone 
under the new standard, compared to 117 million in areas designated 
nonattainment under the old standard. When actual designations of new 
nonattainment areas are made for ozone, including additional proximate 
counties without monitors, and also for fine particulate matter, it is 
likely that the population living in nonattainment areas will likely 
increase by half. Currently only ozone nonattainment area population is 
recognized in TEA-21's CMAQ obligation formula. It is equitable to 
recognize fine particulate nonattainment area population as well. 
Reauthorization apportionments should recognize that the expanded scope 
of funding needs by proportionate expansion of CMAQ funding based on 
both population and the degree of pollution remediation needed. 
Otherwise existing nonattainment areas will suffer crippling cut-backs 
in funds for air pollution reduction programs even while being asked to 
take additional steps to further cut pollution to protect public 
health.

Affirm a National Mobility Goal: Equal Access to Opportunities
    Congress should assure America lives up to its reputation as a land 
of opportunity by assuring access for all in TEA-21 reauthorization. 
Recent U.S. DOT guidance seeks to assure that transportation plans and 
decisions comply with Title VI of the 1964 Civil Rights Act by 
considering effects on the distribution of benefits and burdens related 
to transportation and assuring adequate public involvement in the 
planning process. Several recent studies suggest a pattern of declining 
access to jobs and public facilities for those without cars as more 
jobs locate in places without transit access. The adopted $35 billion 
20 year Atlanta transportation plan, for example, shows that the share 
of jobs reachable by those without cars declines from 2000 to 2005 and 
does not get back to 2000 levels until after 2015. A disproportionate 
share of those without cars in Atlanta and nationally are African-
Americans and nearly 94 percent of public assistance recipients do not 
own cars and rely on public transportation. And by 2020, 40 percent of 
the U.S. population will be senior citizens and many will be unable to 
drive.
    Congress should affirm in TEA-3 a national mobility goal to provide 
equitable 
access to jobs, health, education, public facilities, and other 
opportunities for the young, the old, the disabled, and others without 
cars without undue time and cost burdens. Regional Transportation Plans 
should be required to demonstrate how this goal will be achieved and 
short-term Transportation Improvement Programs should demonstrate 
timely progress toward that goal. We can achieve this goal with 
expanded support for public transportation, better coordinated urban 
development and transportation, efforts to make neighborhoods safe and 
attractive places to walk, bike, and use public transportation.

Strengthen Commuter Choice: Boost Employer Support for Transit
    Federal and State tax policies are a part of the recent story of 
transit resurgence. For the vast majority of working Americans, a free 
parking space at work has for decades been the sole commuter benefit 
offered by employers because that was until recently the only tax-free 
commute benefit worth speaking of. So if you drive alone to work you 
gain the benefit. If you take transit, carpool, walk, or bike, you lose 
the benefit and likely pay your own daily transit fare. With this kind 
of incentive, it is no surprise that on any given day 9 out of 10 
American commuters drive to work and 9 out of 10 of the cars driven to 
work have one occupant. Yet the 85 million ``free'' or subsidized 
employer parking spaces actually cost American business more than $36 
billion per year. By spurring more driving, these subsidies exacerbate 
traffic congestion and air pollution. A Congressional study found that 
``free'' parking of all kinds costs our society over $250 billion per 
year.
    In 1998, Congress took steps to make tax policies more equal for 
all commuters, allowing employers to offer tax-free transit and vanpool 
benefits of up to $100 a month, with taxable cash-in-lieu-of-parking 
benefits allowable for the first time. Tax-free benefit limits for 
employer-provided parking were set at $175 per month--a practice which 
still leaves solo drivers at an advantage. Allowing employee-paid 
pretax transit benefits saves transit-using employees over $400 a year 
while saving employers a smaller amount on withholding. Having 
employers pay for transit is a bigger incentive for employees. Offering 
such a benefit to Federal executive agency employees in the national 
capital region induced 11 percent of employees who used to drive to 
work to switch to transit, taking 12,500 cars off the region's crowded 
roads every workday. At firms in California and Minnesota offering a $2 
a day incentive instead of free parking, one out of eight who used to 
drive are finding another way to get to work. Such benefits help 
employers attract and retain employees and provide the greatest help to 
low and moderate wage workers who spend the largest share of their 
incomes commuting and often ride transit, carpool, bike, or walk to 
work.
    The cost of such employer provided transit benefit programs to 
employers is very small and can easily be fit within the scope of 
ordinary cost-of-living increases offered by most employers to their 
employees on a periodic basis. State tax credits can make this cost 
even smaller. For example, in Maryland, if an employer offers an 
employee a cost of living increase, for each $1 in after-tax cost to 
the employer, the employee typically receives $0.53 in after-tax 
income. If that same $1 in after-tax employer expense is instead 
devoted to an employer-paid qualified transit benefit of $60 a month, 
the typical Maryland employee who receives it ends up gaining $1.76 in 
after-tax benefits, thanks to the leveraging effect of Federal and 
State tax provisions.
    The savings for employees offered by the Federal tax law changes 
are significant and make a high level of employer and employee 
participation in the next several years realistic across America. For 
example, an employee earning $50,000 per year who spends $780 annually 
on transit ($65/month) could realize a tax savings (at 42 percent) of 
$328 as a result of paying their transit cost using pretax dollars, 
exercising one of the new Commuter Choice options, while their employer 
would gain payroll tax savings (at 7.65 percent) of $60 per employee 
(Arthur Andersen). Even if the cost to set up and administer the 
program equals 2 percent of the transit 
benefit, the employer will still enjoy payroll savings of $44. 
Employers are likely to face new costs to offer transit passes or added 
cash income in lieu of parking, but these can also translate into 
substantial cost savings of several types. It is much cheaper for an 
employer to boost nontaxable employee benefits than to offer added 
taxable income to retain or attract workers, which is an increasing 
issue in a tight labor market. If the employer is able to expand 
employment without adding more parking spaces or to otherwise avoid the 
cost of building, leasing, or maintaining parking spaces for workers, 
capital cost savings can amount to $5,000 to $20,000 per avoided space 
and operating costs can amount to $750 to $3,000 or more per year per 
avoided space. Such savings are often significant enough to more than 
pay for a cash in lieu of parking or transit pass benefit.
    Commuter Choice programs have been shown to unite the diverse 
interests of environmentalists, business, labor and transit, and 
highway advocates. Most realize that Commuter Choice is good for 
business and for communities. Commuter Choice is a voluntary incentive 
that boosts travel options and supports more efficient use of the roads 
and transit we already have. It can provide quick relief to traffic-
strained communities and will expand market opportunities for new forms 
of access to suburban jobs. Low- and moderate-income workers benefit 
particularly, since commuting costs represent a larger relative burden 
on them, and they tend to be more reliant on ridesharing and transit. 
The Alliance for Clean Air and Transportation, a national group 
representing a diverse array of sectors, including the road builders, 
automobile industry, environmentalist and health groups, the American 
Association of State Highway and Transportation Officials, Highway User 
Federation, American Automobile Association, the National Association 
of Regional Councils, and the U.S. DOT and EPA, in February 2000, 
adopted a consensus goal of making Commuter Choice benefit programs a 
standard part of the American worker benefit program over the next 5 
years.
    However, Commuter Choice will have an effect on air pollution only 
if people know about it and use it, and if the opportunities for cost 
savings offered by aggressive implementation of these incentives are 
made evident and available to developers, building owners and tenants, 
and commuters. Marketing alone has been shown to be inadequate to win 
widespread adoption of Commuter Choice incentives. There are many 
strategies that can be taken by States, regional bodies, and local 
municipalities to foster rapid and widespread adoption of Commuter 
Choice incentives so these might become available to the average 
commuter. Additional financial incentives and support by transportation 
agencies and other Government bodies are essential to rapid adoption of 
Commuter Choice voluntary incentives and can be highly cost-effective 
in reducing congestion and pollution.
    The DOT and EPA are promoting Commuter Choice, but Congressional 
action is needed to further expand efforts to foster widespread 
adoption of these voluntary incentives. EPA estimates that if half of 
all U.S. employees were covered under these commuter benefits, traffic 
and air pollution could be cut by the equivalent of taking 15 million 
cars off the road every year, saving American workers about $12 billion 
in fuel costs. For every 10 percent of U.S. employees participating, 
commute VMT would be cut by 3.2 percent, or 20 billion miles, with 
emission reductions of 54,000 tons VOC, 480,000 tons CO, 33,600 tons 
NOx, and 2.36 million tons CO<INF>2</INF>. In SIP Development Guidance: 
Using Emission Reductions from Commuter Choice Programs to Meet Clean 
Air Act Requirements, EPA estimates reductions of 26 -30 percent in 
commute vehicle trips for a full Commuter Choice program. Los Angeles 
research shows that those who receive free parking at work drive 72 
cars per 100 employees, while those who paid for parking at work drove 
53 cars per 100 employees, or 26 percent less (D. Shoup, ``An 
Opportunity to Reduce Minimum Parking 
Requirements,'' Journal of the American Planning Association, Winter 
1995, pages 14 -28.).
    Congress should take further steps to encourage employer support 
for such ``Commuter Choice'' initiatives. Congress should support for 
the following bills that would do this:

<bullet> The Commuter Benefits Equity Act of 2001 (H.B. 318) would 
    provide equal tax-treatment for parking and transit benefits.

<bullet> The Bike Commuter Act (H.R. 1265) would allow employees who 
    bike to work the same financial incentives as transit users.

<bullet> The Mass Transit Tax Credit Act of 2001 (H.R. 906) would 
    provide a 25 percent tax credit to employers for the cost of 
    providing transit benefits to their employees. This is modeled 
    after measures adopted by several States--including Maryland, 
    Minnesota, Oregon, Washington, Georgia, and New Jersey--that have 
    begun offering tax credits of up to 50 percent and up to $50 per 
    employee per month for employer-paid nondriving commuter benefits.

    TEA-3 should also require that local and State officials do more to 
consider integrating Commuter Choice into their transportation plan and 
program development. In all nonattainment areas, transportation 
programs should assure that potential air pollution reduction benefits 
from Commuter Choice will be realized in a timely manner. These would 
include provision of these benefits to State and local government 
employees, aggressive marketing of these benefits to employers and 
employees, inclusion of Commuter Choice programs in local planning, 
development review, and other decisionmaking procedures and favorable 
local and State tax treatment. Such new travel demand management 
activities and incentives should be given priority by including them in 
air quality SIP's as Transportation Control Measures.
    This promotion should include marketing, technical, and 
administrative assistance, new transit fare products, such as deep-
discount bulk purchase transit and vanpool benefits for 100 percent of 
an employer's workforce in the region, and new financial incentives for 
employers and employees that are adjusted annually in an effort to meet 
stated performance targets. State Implementation Plans should 
include targets, timetables, and expanded funding commitments for (a) 
providing 
different segments of the labor force with Commuter Choice options of 
various types and (b) achieving increased levels of use of various 
Commuter Choice incentives by various portions of the labor force. 
These targets could be used as the basis for estimating SIP credits if 
accompanied by commitments to reasonably linked funding and policy 
commitments that could be anticipated to meet these targets.

Financing Transit With Automated Road Pricing
    Another promising option that TEA-21 supports is automated time-of-
day tolls and High Occupancy Toll (HOT) lanes, which allow solo drivers 
to pay to use High Occupancy Vehicle (HOV) lanes, while giving a free 
ride to buses, vans, and sometimes carpools. These can put to work 
unused capacity in HOV lanes and help pay for expanded transit 
services. A network of HOT lanes on existing highways is likely to 
provide more effective congestion relief than building new roads. New 
outer beltway toll roads are likely to bring more sprawl and put more 
jobs out of reach for those without cars, hurting the poor and the 
environment. Why not instead give time-stressed travelers a way to buy 
relief from growing congestion delays in existing freeway corridors and 
finance better transit?
    HOT lanes in existing road corridors can expand both travel choices 
and equity. HOT lane critics unfairly bash them as ``Lexus Lanes,'' 
serving only the rich. Real-world HOT lanes look more like ``Lumina 
Lanes,'' used by people of widely varying incomes who occasionally need 
to bypass traffic delays that disrupt their social, family, or work 
life. A working class mom who is facing a $1 a minute penalty for 
picking her kids up late at day care is happy to pay $4 to save 20 
minutes by using the HOT lane on those several days a month when she 
needs it. The typical users in California spend less than $20 a month 
on HOT lane tolls, using them on days they are in a real rush. If HOT 
lane revenues fund new bus services, as on San Diego's I-15 HOT lane, 
everyone wins. Lower income transit users and carpoolers get access to 
otherwise inaccessible suburban jobs. Drivers benefit from reduced road 
congestion and better services and choices. If HOT lane revenues help 
pay for the road, those who drive most are paying more of their fair 
share, helping all taxpayers win. Road user fees don't nearly cover the 
full cost of building and operating America's roads, which remain 
subsidized by broader taxes. And with new accounting rules forcing 
fuller disclosure of deferred maintenance, transportation providers 
need new sources of revenue to maintain systems, expand choices, and 
cope with growing travel demand.
    New nonstop electronic toll technology means motorists do not need 
to slow down to pay tolls. And HOT lane fees--higher in rush hour and 
discounted at other times--keep traffic flowing without wasting scarce 
road capacity like HOV lanes do. This makes it possible to contemplate 
future conversion of some existing general-purpose lanes to HOT lanes, 
particularly where new capacity is being added to existing roads. HOT 
lane experience indicates this strategy can garner popular support. On 
California's Route 91, diversion of traffic onto HOT lanes has reduced 
congestion on the entire road and increased the number of passengers 
per car to 1.6, compared to the average of 1.2. Similar incentives have 
been implemented or are being considered in Texas, Florida, Colorado, 
Georgia, New Jersey, New York, and other States.
    The Port Authority of NY-NJ in March 2001, introduced time-of-day 
tolls on Hudson River bridges and tunnels and Staten Island bridges, 
giving discounts for electronic toll payers who avoid rush hours and 
charging a premium in the time of most concentrated demand, just like 
movie theaters and many other services. This helps reduce congestion by 
shifting the time of day of traffic. Toll revenues support better PATH 
transit and regional transportation infrastructure and services. The NJ 
Turnpike, NY Thruway Authority, and other tolling agencies have 
implemented time-of-day tolls to manage traffic.
    Congress should encourage States and transportation facility 
operators to replace obsolete toll booths that cause congestion and 
pollution with new barrier-free customer-friendly tolling systems using 
toll transponders and image processing and billing systems. Congress 
should encourage State motor vehicle agencies to issue toll 
transponders with motor vehicle registrations to encourage their 
widespread availability in States where tolls are used. Congress should 
eliminate restrictions on 
tolling highways that were constructed with Federal aid, which can now 
only be tolled under limited pilot projects authorized by TEA-21.

Promote Smart Transit Fare Payment Systems for Productivity Gains
    Transit can also be made more efficient by better management. There 
are many things that should be done in this regard, including improving 
fare collection systems and giving buses and trolleys greater priority 
in traffic. Enhancing priority for buses and trolleys in traffic can 
increase average transit travel speeds, schedule 
adherence, and the number of passenger seat-miles per hour that can be 
carried by existing transit vehicles. A key part of this strategy 
involves upgrading traffic signals to support greater priority in 
traffic for buses, so they can hold a green signal green for a few 
extra seconds, or advance a red signal to green to avoid an extra stop. 
The strategy can also include building or configuring bus queue jumper 
lanes at key traffic bottlenecks to speed bus traffic past congestion, 
creating dedicated bus lanes, and bus boarding stations. These are 
often combined to provide ``Bus Rapid Transit,'' which can often 
provide many of the benefits of fixed guideway rail services quickly at 
a lower cost.
    Across America, buses are slowed by passengers who must file 
through the vehicle's narrow front door to board and pay an exact cash 
fare. Encouraging near 
universal use of prepaid transit fare instruments and other high 
efficiency transit 
payment options, as in Europe and Japan, enhances productivity of 
existing and new transit services by reducing delays related to fare 
payment at time of boarding. Instead of having people pay cash on 
boarding, require that passengers carry a 
prepaid transit pass, or other fare media that must be validated before 
or immediately after boarding a transit vehicle, and which at a premium 
cost could be 
purchased on board the vehicle. Greater use of daily, weekly, monthly, 
and annual 
transit passes helps accomplish this. Fare inspectors roaming transit 
systems and 
spot checking to verify that passengers are carrying a valid proof of 
fare payment or a pass, with large fines for fare evasion assure broad 
compliance. This enables boarding of buses through both front and rear 
doors, which boosts transit vehicle productivity.

Provide Safe Routes to Schools and Transit by Foot and Bike
    Transit is only useful when people can get to and from its stops. 
Thus, a key part of the transit success story is also attributable to 
TEA-21's increased support for investments in walking and bicycling. 
TEA-21 reauthorization should take further actions to assure a safe 
route to schools and transit stops across America, adapting successful 
strategies from the most bicycle and pedestrian friendly communities. 
This should include requiring transit agencies to develop least-cost 
transit access plans that consider and compare walk, bike, and 
automobile access opportunities to expand the market reach along all 
their transit lines. It should include accelerated funding to local 
governments to enable the build-out of the 20 year bike and pedestrian 
plans in the next 3 years, planning funds to engage in local area 
pedestrian and bicycle planning to identify key barriers and safety 
problems, and delay of some road projects to provide funds to retrofit 
sidewalks, bike paths, and traffic calming measures within a half-mile 
of all transit stops and schools.
    About 40 percent of Americans own bicycles, and many of these 
people live \1/4\ of a mile to 2 miles away from express transit stops. 
Few of these people now use transit to get to work, in part because of 
the lack of an inexpensive, convenient, safe, and fast transit access 
system suited to trips of this distance. In the Silicon Valley of 
California, 40 percent of those using bicycle lockers at rail stations 
leave bicycles in them overnight and use them to get from the station 
each morning to their nearby schools and employment, just as in the 
Netherlands.
    Another means of reducing traffic is to implement neighborhood 
traffic calming to reduce motor vehicle speeds on many streets to 
improve safety for pedestrians, bicyclists, and motorists, and reduce 
emissions from car travel. Traffic calming has been shown by research 
to reduce idle times by 15 percent, gear changing by 12 
percent, brake use by 14 percent, and gasoline use by 12 percent, 
injuries by 60 percent, fatalities by 53 percent, and air pollution by 
10 to 50 percent. The majority of all urban and suburban streets and 
roads are already quite suitable for bicycling, with relatively low 
traffic speeds and low traffic volumes. However, such residential 
streets usually lead to bicycle-hostile major roads before reaching 
major activity centers and schools. Frequently, development of small 
missing links can make the difference between safe bicycle access and 
lack of access. Experience shows that high levels of bicycle use only 
occur where the street system is bicycle-friendly. Where well-connected 
networks of bicycle friendly streets, bicycle paths, and bicycle lanes 
have been provided--such as Davis, Palo Alto, and Santa Barbara, 
California, Madison, Wisconsin, and Gainesville, Florida--bicycle mode 
shares of 10-25 percent are common. Where such networks are not 
available, only the hardiest of cyclists take to the roads for 
purposeful travel, leading to bicycle mode shares of 2 percent or less. 
(Michael Replogle, Bicycle and Pedestrian Policies and Programs in 
Asia, Australia, and New Zealand, U.S. Federal Highway Administration, 
Washington, DC 1993). Marketing, education, and promotion programs are 
also needed to encourage greater and safer use of bicycles for short 
utilitarian trips, including transit access, particularly in 
conjunction with initiatives that reduce the current barriers of theft, 
security, safety, and legitimacy which impede nonrecreational bicycle 
use in America.

Build Guarded Bike Parking at Major Transit Stops
    U.S. metro areas have invested in costly park-and-ride systems that 
have made transit increasingly dependent on the automobile. Other 
regions, especially in Europe but also in some United States 
communities, have been strengthening the potential for people to walk 
and bicycle to and from transit, boosting ridership at a far lower 
cost. In much of Europe, the fastest growing and often predominant 
access mode to suburban express transit services is the bicycle. Bike-
and-ride services expand the potential market area of express public 
transportation at low cost without the very high air pollution emission 
and energy use rates per VMT, excessive space requirements, and high 
capital costs of automobile park-and-ride systems. While park-and-ride 
enables those living in lower density areas to travel from home-to-
transit stop, bike-and-ride systems providing secure overnight bicycle 
parking can facilitate both access and egress to transit, enabling 
travelers to get from transit stops to nearby workplaces and schools 
which are otherwise unreachable by transit. Bicycle access can be 
invaluable in adapting transit to serve 21st Century suburban 
development patterns.
    In many U.S. communities, transit access planning looks only at 
automobile access. Yet many people do not use transit because they 
cannot find affordable or available parking nearby when they want it. 
It costs $5,000-$20,000 to build a single additional parking space, and 
$750-$3,000 a year to operate a park-and-ride space. Providing bike 
lockers, bike racks, and guarded bicycle parking at transit stops can 
free up car parking spaces for those who cannot bike or who live too 
far to bike to transit, while offering a low-cost healthy way for those 
\1/2\ mile to 2 miles from the transit station or stop get to and from 
transit. Guarded bike parking at transit is a predominant part of 
transit access in European and Japanese suburbs, where it costs \1/10\ 
to \1/100\ as much as auto parking at transit to provide and operate. 
And secure overnight bike parking at transit allows people to get from 
transit to nearby schools and jobs that are beyond walking distance of 
the transit stop.
    In 1996, the city of Long Beach implemented the Nation's first 
attended bicycle parking facility, or ``Bikestation.'' These facilities 
provide a range of clean transportation options--including secure, 
bicycle parking, bicycle repairs and accessory sales, changing and 
restrooms, and bicycle rentals. Bike stations have since opened in the 
communities of Palo Alto and Berkeley and are under development in San 
Francisco, Denver, Seattle, Santa Barbara, Los Angeles and Pittsburgh, 
Pennsylvania. (See www.bikestation.org.)
Conclusion
    Transit has a vital role to play in solving environmental, public 
health, and equity problems that must be addressed if we are to enjoy 
sustainable economic development in America's diverse communities and 
regions. ISTEA and TEA-21 began to better align funding, planning 
requirements, and incentives with national and local goals for equal 
access to opportunities, healthful air quality, and efficient mobility. 
But TEA-3 needs to go farther in providing funding for transit and 
encouraging State and local action to get on with key overdue reforms. 
Accountability for how funds are spent and their impacts is key to 
getting better travel choices for all Americans and protecting our 
health and environment.

         RESPONSE TO WRITTEN QUESTIONS OF SENATOR REED

                  FROM HERSCHEL L. ABBOTT, JR.

Q.1. Does BellSouth plan to offer its employees Commuter Choice 
tax benefits? Do you have any suggestions on how to make this 
program more attractive to employers?

A.1. BellSouth is offering parts of the Commuter Choice program 
to our employees in Atlanta, like the pretax employee 
deductions for mass transit cards and preferential parking for 
carpoolers. (BellSouth subsidizes about 60 percent of the 
monthly transit passes, then provides the cards to employees at 
about 40 percent of face value on a pretax basis.) As a 
suggestion to improve the program, I would recommend increasing 
the tax incentives for employers who support mass transit use 
and telecommuting.

Q.2. Have you heard from business leaders in other parts of the 
country who would like the kind of transit service you have in 
Atlanta? If so, could you provide a list to the Subcommittee?

A.2. We have not heard specifically from other businesses, per 
se, about how they could do something like we have done with 
the Atlanta Metro Plan. Of course, mass transit would need to 
be available for any similar plan to be workable. We have, 
however, spoken at forums arranged by groups like ULI and AEDC, 
which included business attendees. The primary interest we have 
received has been from economic development councils looking 
for similarities, where mass transit exists.

         RESPONSE TO WRITTEN QUESTIONS OF SENATOR REED

                     FROM ROBERT BROADBENT

Q.1. Why did Las Vegas choose monorail technology over the more 
common light rail and bus rapid transit (BRT) technology?

A.1. Monorail technology was chosen over more common light rail 
and BRT technology for the following reasons:

<bullet> It is elevated and less intrusive.
<bullet> It can be built in restricted areas where height and 
    right of way is restricted.
<bullet> It has a turning radius of 150 feet, which light rail 
    elevated has not yet accomplished.
<bullet> It is sleek and meets the vision of the resorts.

Q.2. I applaud your efforts to create such strong public-
private partnership to build the Las Vegas monorail system. Do 
you think the same kind of partnership can be created to 
support the maintenance and operation of transit systems?

A.2. We are developing the same kind of partnerships on fares. 
Working with resorts, the Las Vegas Convention & Visitors 
Authority, Convention sponsors and vacation trip sponsors, we 
think we will be very successful.

                   IMPROVING EFFICIENCY OF AMERICA'S

                TRANSPORTATION WITH BETTER PLANNING AND

                           SYSTEM MANAGEMENT

                    TESTIMONY OF MICHAEL A. REPLOGLE
             Transportation Director, Environmental Defense
            Before the Subcommittee on Highways and Transit
             Committee on Transportation and Infrastructure
                     U.S. House of Representatives
                              May 21, 2002

    Good morning, Mr. Chairman and Members of the Subcommittee. I have 
been invited this morning to discuss how we might improve the 
efficiency of America's surface transportation system with better 
planning and system management, speaking on behalf of Environmental 
Defense, an organization with 300,000 members that seeks to integrate 
law, science, and economics to find practical solutions to 
environmental problems.
Operations and System Management: Boosting Efficiency and Cutting Costs

    How we price, manage, and operate transportation sends powerful 
signals to consumers, affecting our travel choices, shaping our cities, 
and quality of life. For much of the last century, Government funding 
for transportation, tax policy, and transportation pricing policies 
promoted private motor vehicle use and worked against other means of 
travel. This created unprecedented mobility, but it also led to sprawl, 
induced traffic, increased air and water pollution, and reduced access 
to opportunities for those without cars. By managing our transportation 
system to favor motorists, we have reduced transportation choices and 
imperiled the historic human right of being able to walk safely where 
we live and work, causing Americans to be far less physically active. 
Recent research shows our transportation management decisions have a 
profound effect on individual and public health, contributing to asthma 
and other respiratory diseases, cancer, obesity, and impaired mental 
health. Changes in how we manage, price, and operate transportation can 
improve our health, boost transportation system efficiency, protect our 
environment and natural resources, and reduce the costs of our very 
expensive system of mobility, while expanding the travel choices, 
employment opportunities, and economic productivity.
Better System Management: Cheaper and Faster than Building New Roads

    Atlanta's experience during the Olympic Games in 1996 is 
illustrative of how much transportation system management can cut 
traffic, boost system efficiency, and protect public health. By leasing 
1,000 added buses, focusing on transportation system management, and 
marketing improved nondriving travel choices during the Olympics, 
Georgia officials cut the number of cars in the morning rush hour by 23 
percent. This reduced traffic led to lower air pollution emissions, 
with a 28 percent drop in smog concentrations even as the region 
accommodated over one million additional visitors. This in turn caused 
the number of asthma acute care events to 
decrease 42 percent during this period.\1\
---------------------------------------------------------------------------
    \1\ Freidman, Michael S., Powell, Kenneth E., Hutwagner, Lori, 
Graham, Leroy M., Teague, 
W. Gerald; Journal of the American Medical Association, February 21, 
2001, vol. 285, no. 7, pgs. 897- 901.
---------------------------------------------------------------------------
    Planning studies by various other metropolitan regions suggest that 
similar benefits can be achieved elsewhere with pragmatic steps to 
manage traffic, expand traveler's choices, and provide smart 
transportation pricing incentives. My extensive 
review of the research and my experience over the past 25 years 
suggests that with the right mix of policies, better transportation 
system management can cut forecast traffic growth by 20 to 30 percent 
over the 20 year time horizon of most regional long-range 
transportation plans. Many of these strategies can deliver traffic 
relief quickly without extensive public investment, through public-
private partnerships, marketing, and improved service delivery. Taken 
together, these management strategies can provide more effective and 
long-lasting congestion relief at a lower cost than most highway system 
expansion proposals.
    Moreover, improved traffic operations can enable us to more 
efficiently accommodate the remaining traffic on our existing highways, 
rendering unnecessary a 
significant share of proposed new highway expansions. Where modest 
expansion of highways is warranted, it must be viewed as a critical 
opportunity to improve how we manage both the existing and new 
capacity, by enabling strategies like fully automated time-of-day 
facility pricing. Pursuing these smarter management strategies will 
require some retooling of our transportation agencies and industry, but 
will provide major opportunities for economic growth with better 
environmental and 
fiscal stewardship and protection of public health.

TEA-3: Stewardship and Integrated Planning for
Better Transportation Management
    The 1991 ISTEA reforms--reaffirmed and extended in the 1998 TEA-21 
law-- 
expanded opportunities for State and local governments to pursue smart 
transportation system management to curb traffic growth. States have 
flexibility to use Federal transportation funds to support transit, 
pedestrian safety, and market incentive programs, such as promoting 
employer-paid transit benefits and cash-in-lieu-of-parking benefits. 
There is greater accountability for States and regions to consider the 
short- and long-term effects of transportation decisions on air quality 
and transportation system performance. Transit ridership has grown 
faster than the number of miles driven by motorists for the past 3 
years, reaching its highest level in 40 years. In many cities, transit 
agencies are straining to keep up with ridership growth as many urban 
areas regain residents and vitality. Last year, for the very first time 
in the United States since the 1970's, the number of miles driven per 
person declined.
    But while some States and regions are making greater use of these 
opportunities for smarter system management, others are making little 
progress and continue to devote a large share of their attention to the 
failed strategy of trying to build their way out of traffic congestion. 
In a third of the States, archaic constitutional restrictions limit the 
ability of States to use their own gas tax resources for anything other 
than road investments. In many metropolitan regions the transportation 
planning process expends little effort to consider transportation and 
growth management strategies that could provide attractive alternatives 
to the current plan of business-as-usual road system expansions that 
accommodate and that support sprawl and subsidize driving while 
neglecting the needs of pedestrians, bicyclists, and those without 
cars. Improved data collection and impact analysis tools and stronger 
planning requirements are needed if State and local agencies are to 
comprehend, identify, and invest in better system management. By 
improving integrated performance-oriented planning at the State and 
regional level, we can address demands to streamline the project review 
process in a manner that delivers better projects that also protect the 
environment, public health, and the ability of the public and local 
officials to know about the effects of major decisions before they are 
final, a core principal of the National Environmental Policy Act of 
1969 (NEPA).
    Some State DOT's are carrying through on the mandate of TEA-21 to 
integrate the Major Investment Study requirements into NEPA project 
reviews and the transportation planning process, and by doing so are 
considering smart system management, pricing, partial build scenarios, 
and smart growth strategies as they consider major new investments. 
Some States are pursuing stewardship initiatives to change the culture 
of State DOT's and to foster closer planning and operational 
partnerships with State resource agencies and key stakeholders. Other 
State DOT's are seeking to scapegoat environmental laws for their own 
administrative failures, which are manifested in a lack of local 
consensus on proposed projects, insufficient State and local funding 
match dollars, and stalled reviews due to inadequate consideration of 
alternatives, inadequate mitigation and avoidance of adverse impacts, 
and efforts to end-run Federal requirements. Proposed arbitrary 
deadlines, circumscribed public involvement, and short-circuited 
transportation project review procedures would erode accountability and 
threaten to divide the diverse coalition that has long supported 
Federal transportation funding programs.
    As TEA-21 is reauthorized, a new TEA-3 law should strengthen 
accountability, transparency, and performance-oriented planning 
requirements. It should assure timely consideration of opportunities 
for improved transportation system management, pricing reform, and 
stewardship. State and metropolitan areas should be 
required to develop and to periodically update integrated 
transportation, natural resource protection, and growth management 
plans that consider at least one alternative scenario that considerably 
reduces traffic growth through better system management. Agencies 
should annually report on the current and projected performance of 
their transportation system management, investment, and proposed 
programs and plans, accounting for cumulative and secondary impacts on 
growth patterns, public health, greenhouse gas emissions, the 
achievement of natural resource planning goals for air, water, and 
habitat protection, and the provision of equal access to jobs and 
public facilities for all residents, including those without cars, 
without undue time and cost burdens.
    California's recently enacted AB2140 law provides a model for this: 
(1) establishing a standardized set of basic transportation performance 
indicators related to safety, congestion, road repair needs and public 
transit that each region must begin to track; (2) establishing a 
standard method of financial reporting to help the public and local 
officials know what their money's being spent on; and (3) requiring an 
``alternative planning scenario'' in the development of each region's 
20 year transportation plan in order to provide a clear alternative to 
present growth patterns that could minimize future demand on 
transportation infrastructure while reducing congestion, protecting 
open space, and saving taxpayers money. As part of TEA-3, this analysis 
should also be required to consider market incentive and transportation 
system and demand management strategies.
    Across America, we are on a crash course with worsening traffic 
congestion, crumbling roads and bridges, and investment levels that 
cannot even keep up with maintaining the infrastructure we have. 
Adopting a Federal version of AB2140 in TEA-3, with mandates to 
consider and provide this information, would allow us to plan for 
better transportation projects, help us judge how effectively we are 
spending transportation funds, and help us target resources on reducing 
congestion with management strategies, providing more convenient 
alternatives to being stuck in traffic, fixing our roads and bridges, 
and better coordinating future transportation and growth needs.
Commuter Choice Benefits:

A Quick, Cheap Way to Cut Commuter Traffic by 25 Percent
    Federal and State tax policies are a part of the recent story of 
transit resurgence. For the vast majority of working Americans, a free 
parking space at work has for decades been the sole commuter benefit 
offered by employers because that was until recently the only tax-free 
commute benefit worth speaking of. So if you drive alone to work you 
gain the benefit. If you take transit, carpool, walk, or bike, you lose 
the benefit and likely pay your own daily transit fare. With this kind 
of incentive, it is no surprise that on any given day 9 out of 10 
American commuters drive to work and 9 out of 10 of the cars driven to 
work have one occupant. Yet the 85 million ``free'' or subsidized 
employer parking spaces actually cost American business more than $36 
billion per year. By spurring more driving, these subsidies exacerbate 
traffic congestion and air pollution. A congressional study found that 
``free'' parking of all kinds costs our society over $250 billion per 
year.
    In 1998, Congress took steps to make tax policies more equal for 
all commuters, allowing employers to offer tax-free transit and vanpool 
benefits of up to $100 a month, with taxable cash-in-lieu-of-parking 
benefits allowable for the first time. Tax-free benefit limits for 
employer-provided parking were set at $175 per month--a practice which 
still leaves solo drivers at an advantage. Allowing employee-paid 
pretax transit benefits saves transit-using employees over $400 a year 
while saving employers a smaller amount on withholding. Having 
employers pay for transit is a bigger incentive for employees. Offering 
such a benefit to Federal executive agency employees in the national 
capital region induced 11 percent of employees who used to drive to 
work to switch to transit, taking 12,500 cars off the region's crowded 
roads every workday. At firms in California and Minnesota offering a $2 
a day incentive instead of free parking, one out of eight who used to 
drive are finding another way to get to work. Such benefits help 
employers attract and retain employees and provide the greatest help to 
low- and moderate-wage workers who spend the largest share of their 
incomes commuting and often ride transit, carpool, bike, or walk to 
work.
    The cost of such employer provided transit benefit programs to 
employers is very small and can easily be fit within the scope of 
ordinary cost-of-living increases 
offered by most employers to their employees on a periodic basis. State 
tax credits can make this cost even smaller. For example, in Maryland, 
if an employer offers an employee a cost of living increase, for each 
$1 in after-tax cost to the employer, the employee typically receives 
$0.53 in after-tax income. If that same $1 in after-tax employer 
expense is instead devoted to an employer-paid qualified transit 
benefit of $60 a month, the typical Maryland employee who receives it 
ends up gaining $1.76 in after-tax benefits, thanks to the leveraging 
effect of Federal and State tax provisions.
    The savings for employees offered by the Federal tax law changes 
are significant and make a high level of employer and employee 
participation in the next several years realistic in Houston and 
elsewhere. For example, an employee earning $50,000 per year who spends 
$780 annually on transit ($65 a month) could realize a tax savings (at 
42 percent) of $328 as a result of paying their transit cost using 
pretax dollars, exercising one of the new Commuter Choice options, 
while their employer would gain payroll tax savings (at 7.65 percent) 
of $60 per employee (Arthur Andersen). Even if the cost to set up and 
administer the program equals 2 percent of the transit benefit, the 
employer will still enjoy payroll savings of $44. Employers are likely 
to face new costs to offer transit passes or added cash income in lieu 
of parking, but these can also translate into substantial cost savings 
of several types. It is much cheaper for an employer to boost 
nontaxable employee benefits than to offer added taxable income to 
retain or attract workers, which is an increasing issue in a tight 
labor market. If the employer is able to expand employment without 
adding more parking spaces or to otherwise avoid the cost of building, 
leasing, or maintaining parking spaces for workers, capital cost 
savings can amount to $5,000 to $20,000 per avoided space and operating 
costs can amount to $750 to $3,000 or more per year per avoided space. 
Such savings are often significant enough to more than pay for a cash 
in lieu of parking or transit pass benefit.
    Commuter Choice programs have been shown to unite the diverse 
interests of environmentalists, business, labor and transit, and 
highway advocates. Most realize that Commuter Choice is good for 
business and for communities. Commuter Choice is a voluntary incentive 
that boosts travel options and supports more efficient use of the roads 
and transit we already have. It can provide quick relief to traffic-
strained communities and will expand market opportunities for new forms 
of access to suburban jobs. Low- and moderate-income workers benefit 
particularly, since commuting costs represent a larger relative burden 
on them, and they tend to be more reliant on ridesharing and transit. 
The Alliance for Clean Air and Transportation, a national group 
representing a diverse array of sectors, including the road builders, 
automobile industry, environmentalist and health groups, the American 
Association of State Highway and Transportation Officials, Highway User 
Federation, American Automobile Association, the National Association 
of Regional Councils, and the U.S. DOT and EPA, in February 2000 
adopted a consensus goal of making Commuter Choice benefit programs a 
standard part of the American worker benefit program over the next 5 
years.
    However, Commuter Choice will have an effect on air pollution only 
if people know about it and use it, and if the opportunities for cost 
savings offered by aggressive implementation of these incentives are 
made evident and available to developers, building owners and tenants, 
and commuters. Marketing alone has been shown to be inadequate to win 
widespread adoption of Commuter Choice incentives. There are many 
strategies that can be taken by States, regional bodies, and local 
municipalities to foster rapid and widespread adoption of Commuter 
Choice incentives so these might become available to the average 
commuter. Additional financial incentives and support by transportation 
agencies and other government bodies are essential to rapid adoption of 
Commuter Choice voluntary incentives and can be highly cost-effective 
in reducing congestion and pollution.
    The DOT and EPA are promoting Commuter Choice, but Congressional 
action is needed to further expand efforts to foster widespread 
adoption of these voluntary incentives. The EPA Office of Mobile 
Sources estimated that a national commuter choice program assuming a 10 
percent employee participation rate would generate a reduction in 
commute VMT of 3.2 percent, reductions in VMT of 20 billion miles, 
emission reductions of 54,000 short tons hydrocarbons (VOC), 480,000 
short tons Carbon Monoxide, 33,600 short tons Nitrogen Oxides, and 
2,360,000 metric tons Carbon Dioxide. In State Implementation Plan 
Development Guidance: Using Emission Reductions from Commuter Choice 
Programs to Meet Clean Air Act Requirements, EPA estimates a typical 
expected reduction of 26 -30 percent in commute vehicle trips for a 
full Commuter Choice program. Research in Los Angeles shows that those 
who received free parking at work drove 72 cars per 100 employees, 
while those who paid for parking at work drove 53 cars per 100 
employees, or 26 percent less. (Donald Shoup, ``An Opportunity to 
Reduce Minimum Parking Requirements,'' Journal of the American Planning 
Association, Winter 1995, pp. 14 -28.)
    Congress should take further steps to encourage employer support 
for such ``Commuter Choice'' initiatives. We urge your support for the 
following bills that would do this:

<bullet> The Commuter Benefits Equity Act of 2001 (H.B. 318) would 
    provide equal tax-treatment for parking and transit benefits.
<bullet> The Bike Commuter Act (H.R. 1265) would allow employees who 
    bike to work the same financial incentives as transit users.
<bullet> The Mass Transit Tax Credit Act of 2001 (H.R. 906) would 
    provide a 25 percent tax credit to employers for the cost of 
    providing transit benefits to their employees. This is modeled 
    after measures adopted by several States including Maryland, 
    Minnesota, Oregon, Washington, Georgia, and New Jersey that have 
    begun offering tax credits of up to 50 percent and up to $50 per 
    employee per month for employer-paid nondriving commuter benefits.

    TEA-3 should also require that local and State officials do more to 
consider integrating Commuter Choice into their transportation plan and 
program development. In all nonattainment areas, transportation 
programs should assure that potential air pollution reduction benefits 
from Commuter Choice will be realized in a timely manner. These would 
include provision of these benefits to State and local government 
employees, aggressive marketing of these benefits to employers and 
employees, inclusion of Commuter Choice programs in local planning, 
development review, and other decisionmaking procedures, and favorable 
local and State tax treatment. Such new travel demand management 
activities and incentives should be given priority by including them in 
air quality SIP's as Transportation Control Measures.
    This promotion should include marketing, technical, and 
administrative assistance, new transit fare products, such as deep-
discount bulk purchase transit and vanpool benefits for 100 percent of 
an employer's workforce in the region, and new financial incentives for 
employers and employees that are adjusted annually in an effort to meet 
stated performance targets. State Implementation Plans should include 
targets, timetables, and expanded funding commitments for (a) providing 
different segments of the labor force with Commuter Choice options of 
various types and (b) achieving increased levels of use of various 
Commuter Choice incentives by various portions of the labor force. 
These targets could be used as the basis for estimating SIP credits if 
accompanied by commitments to reasonably linked funding and policy 
commitments that could be anticipated to meet these targets.
    The municipal, regional, and State agencies within the 
nonattainment area should identify for priority funding in 
Transportation Improvement Program (TIP) and Regional Transportation 
Plan (RTP) Commuter Choice promotion initiatives and related 
incentives. This could include funding for: (a) additional transit 
rideshare, and alternative commute program marketing, paid advertising, 
and transportation management associations, (b) development of new 
prepaid discount transit fare instruments and seamless regional transit 
fare and service coordination designed to facilitate easy marketing 
(that is, an unlimited use $60 a month regional transit pass and 
vanpool pass that can be purchased by or through employers), (b) 
promotion of prepaid employer-subsidized transit fare instruments to 
both employers and employees, (c) transit fare buy-down programs that 
match employer contributions toward employee transit commute benefits 
with public sector subsidies (like the Montgomery County, Maryland, 
Fare Share program) or tax credits (like the Maryland or Oregon State 
Tax Credits for employers who pay for transit benefits or who offer 
cash in lieu of parking payments).
    Municipalities should consider how to incorporate incentives for 
adoption and use of Commuter Choice incentives by employees, employers, 
and developers through additional flexibility in the application of 
zoning parking requirements. They could require that leases and 
property transactions separately identify the cost of parking spaces 
and offer options for reduced parking in exchange for covenants and 
agreements to incorporate cash in lieu of parking and employer paid 
transit benefits in building leases and other real estate transactions. 
Municipalities could agree to require Commuter Choice strategies to be 
considered in traffic planning, site plan and development review 
decisions, zoning and parking ordinance revisions, access-to-jobs 
programs and local tax policy, with timetables for modification of 
ordinances. These activities are eligible for funding through the 
Transportation Improvement Program under various Federal funding 
sources.

Opening the Door to Efficient Traffic Management with
Automated Road Pricing
    Another promising option for unclogging roads, especially in more 
congested metropolitan areas, is automated time-of-day tolls and High 
Occupancy Toll (HOT) lanes, which allow solo drivers to pay to use High 
Occupancy Vehicle (HOV) lanes, while giving a free ride to buses, vans, 
and sometimes carpools. These can put to work unused capacity in HOV 
lanes and help pay for expanded transportation choices. A network of 
HOT lanes on existing highways is likely to provide more 
effective congestion relief than building new roads. New outer beltway 
toll roads are likely to bring more sprawl and put more jobs out of 
reach for those without cars, hurting the poor and the environment. Why 
not instead give time-stressed travelers a way to buy relief from 
growing congestion delays in existing freeway corridors?
    HOT lanes in existing road corridors can expand both travel choices 
and equity. HOT lane critics unfairly bash them as ``Lexus Lanes,'' 
serving only the rich. Real-world HOT lanes look more like ``Lumina 
Lanes,'' used by people of widely varying incomes who occasionally need 
to bypass traffic delays that disrupt their social, family, or work 
life. A working class mom who is facing a $1 a minute penalty for 
picking her kids up late at day care is happy to pay $4 to save 20 
minutes by using the HOT lane on those several days a month when she 
needs it. The typical users in California spend less than $20 a month 
on HOT lane tolls, using them on days they are in a real rush. If HOT 
lane revenues fund new transit, as on San Diego's 1-15 HOT lane, 
everyone wins. Lower income transit users and carpoolers get 
access to otherwise inaccessible suburban jobs. Drivers benefit from 
reduced road congestion and better services and choices. If HOT lane 
revenues help pay for the road, those who drive most are paying more of 
their fair share, helping all taxpayers win. The reality is that road 
user fees do not nearly cover the full cost of building and operating 
America's roads, which remain subsidized by broader taxes. And with new 
accounting rules forcing fuller disclosure of deferred maintenance, 
transportation providers need new sources of revenue to maintain 
systems, expand choices, and cope with growing travel demand.
    New nonstop electronic toll technology means motorists do not need 
to slow down to pay tolls. And HOT lane fees--higher in rush hour and 
discounted at other times--keep traffic flowing without wasting scarce 
road capacity like HOV lanes do. This makes it possible to contemplate 
future conversion of some existing general-purpose lanes to HOT lanes, 
particularly where new capacity is being added to 
existing roads.
    HOT lane experience indicates this strategy can garner popular 
support. On California's Route 91, diversion of traffic onto HOT lanes 
has reduced congestion on the entire road and increased the number of 
passengers per car to 1.6, compared to the average of 1.2. Similar 
incentives have been implemented or are being considered in Texas, 
Florida, Colorado, Georgia, New Jersey, New York, and other States.
    The Port Authority of NY-NJ in March 2001, introduced time-of-day 
tolls on the Hudson River bridges and tunnels and Staten Island 
bridges, giving discounts for electronic toll payers who avoid rush 
hours and charging a premium in the time of most concentrated demand, 
just like movie theaters and many other services. This helps reduce 
congestion by shifting the time of day of traffic. Toll revenues 
support better PATH transit and regional transportation infrastructure 
and services. The NJ Turnpike, NY Thruway Authority, and other tolling 
agencies have implemented time-of-day tolls to manage traffic.
    Congress should encourage States and transportation facility 
operators to replace obsolete toll booths that cause congestion and 
pollution with the new barrier-free customer-friendly tolling systems 
using toll transponders and image processing and billing systems. 
Congress should encourage State motor vehicle agencies to issue toll 
transponders with motor vehicle registrations to encourage their 
widespread availability in States where tolls are used. Congress should 
eliminate restrictions on tolling highways that were constructed with 
Federal aid, which can now only be tolled under limited pilot projects 
authorized by TEA-21. Automated time-of-day tolls are a very promising 
tool for transportation facility management and financing.
Use-Based Car Insurance:
A Voluntary Incentive to Cut Total Driving by 10 percent or More
    Use based car insurance is a very promising near-term voluntary 
market-based strategy that could save consumers money, cost nothing to 
the public sector, and cut air pollution and traffic congestion by 10 
percent to 12 percent or more (Todd Litman, Distance-Based Vehicle 
Insurance: A Practical Strategy for More Optimal Pricing, Victoria 
Transport Policy Institute, August 2001). Unlike Commuter Choice which 
affects primarily work travel, distance-based car insurance would also 
help curb emissions from nonwork travel, which constitutes 
approximately three-fourths of all driving.
    The State of Texas has already begun taking steps to adopt 
distance-based insurance, enacting in May 2000 H.B. 45, a law which 
authorizes insurance companies to offer distance-based motor vehicle 
insurance policies. The Federal Highway Administration is supporting 
research and pilot projects for use-based insurance in Georgia and 
Massachusetts, and efforts are underway to expand State incentives for 
this innovation in other States.
    Under current term-based insurance pricing, motorists who drive 
less than the 
average pay much higher costs per mile for car insurance than those who 
drive 
more than average, which encourages more driving and pollution. For 
example, 
for an intermediate size car, insurance premiums typically represent a 
cost even 
greater than fuel and oil costs, about one-fifth of the typical total 
financial costs of owning a car. When insurance premiums are converted 
to distance-based charges, motorists can save money by driving less and 
combining trips. Newly available data indicate that distance-based 
insurance pricing is more actuarially accurate, and therefore more 
equitable and economically efficient than current pricing. Distance-
based insurance provides specific benefits including reduced accidents, 
traffic congestion, and pollution, facility cost savings, insurance 
affordability, and increased consumer welfare. Vehicle travel foregone 
consists of low-value trips that consumers willingly give up in 
exchange for financial savings. Distance-based premiums would use 
``odometer audits'' to provide accurate mileage data, which is 
estimated to have incremental costs averaging $7.50 per vehicle year. 
Research suggests total benefits of distance-based insurance to be many 
times greater than costs, with a benefit:cost ratio of 50:1 estimated 
for the case of British Columbia. Motorists are expected to reduce 
their average mileage by about 10 percent under distance-based pricing, 
providing net savings to the vast majority of consumers. Even high 
mileage drivers experience virtually increase in total vehicle costs if 
they reduce their mileage as predicted. Higher-mileage drivers would 
also benefit most from reduced traffic congestion, accident risk, and 
pollution.
    In TEA-3 Congress should provide ample funding-- on the order of 
$25 million a year--for expanded research and pilot testing of this 
market-based strategy, including risk sharing with insurance companies 
pilot testing this approach to policy pricing, paying for expanded 
actuarial research, marketing, partnership development, evaluation, and 
promotion. The potential payoff--a reduction of 10 percent in traffic 
while saving consumers money and reducing accidents and casualty losses 
to the 
insurers--is well worth such up front investment to help jump start 
this market 
innovation.

Beyond the Gas Tax: Cutting Traffic by a Third with Road User Fees?
    Automobile manufacturers are beginning to offer an array of more 
fuel efficient vehicle options for motorists, including new higher 
efficiency hybrid gasoline-electric vehicles like the Honda Impact, 
Toyota Prius, Honda Civic, and Ford RAV- 4. Efforts to develop natural 
gas, electric, and fuel cell vehicles offer some promise for a 
reduction in petroleum dependence before the end of the 20 year 
transportation plans adopted by regions under TEA-21. While these will 
not immediately impact Federal and State revenues from gasoline taxes, 
which comprise the major source of transportation funding, it would be 
prudent for Congress to support experiments by States and regions to 
develop transportation user fees other than the gas tax to 
assure stable financing of transportation systems into the future. Such 
user fees, while politically challenging to put into place, could also 
play an important role in managing traffic growth and congestion.
    Congestion pricing and road tolls, mileage or emission based 
registration fees, VMT fees, use-based auto insurance, and gasoline tax 
increases could all produce significant traffic and pollution 
reduction. Expert analysis of likely impacts of such strategies in many 
other metropolitan areas have found substantial traffic and 
corresponding emission reductions possible as a result of any one of 
these strategies. For example, a study by the California Air Resources 
Board found that congestion pricing fees of $0.10 a mile would yield a 
NOx reduction of 2.5 percent in the South Coast region of California 
under 1991 conditions, increasing to 3.6 percent with a $0.19 per mile 
fee under 2010 conditions. They found that a $0.50/gallon fuel increase 
would yield NOx reductions of 3.3-3.8 percent in various California 
metro areas under 1991 or 2010 conditions. They found a $.02/mile VMT 
fee would reduce NOx emissions by 3.6 - 4.3 percent in various 
California metro areas under 1991 or 2010 conditions. They found 
emission fees reducing NOx emissions by 4.2-17.3 percent depending on 
assumptions in various California metro areas. Combining congestion 
pricing of $0.09/mile in peak, a $1 a day employee parking charge, a 
$0.50/gallon fuel tax increase paid at the pump, and a mileage and 
emissions based fee of $40 - $400/year, with current transit service, 
they found NOx emissions reduced by 9.9-12.1 percent in San Francisco, 
Sacramento, San Diego, and Los Angeles under 1991 or 2010 conditions.
    Combining the same congestion pricing with a $3/day employee 
parking charge, a $2/gallon gas increase paid at the pump, and mileage 
and emission fees of $10-$1,000/year, with extensive transit investment 
would cut NOx emissions in these same cities by 32.0-34.9 percent under 
1991 or 2010 conditions. (California Air Resources Board, 
Transportation Pricing Strategies for California: An Assessment of 
Congestion, Emissions, Energy, and Equity Impacts, November 1996, 
Sacramento, CA, tables 7-11 to 7-18.) The EPA Pricing Guidance 
document, Opportunities to Improve Air Quality through Transportation 
Pricing Programs, September 1997, states that ``VMT fees of $0.01 to 
$0.05 a mile alone would reduce gaseous emissions and VMT by about 4 to 
11 percent, while a VMT fee weighted for emissions was estimated to 
have a significantly greater impact on emissions, particularly for VOC 
and NOx.'' (pg. 32) This report summarizes various studies to conclude 
that added fuel taxes of $0.40 to $2 a gallon usually reduce NOx 
emissions 1.2- 6.9 percent. At the pump VMT fees of $0.01 to $0.05 per 
mile usually reduce emissions 5-8.6 percent. Traffic reductions 
correspond closely to these reported NOx reductions.
    As part of TEA-3, Congress should assure a well-funded broad-based 
program to encourage State and local research and pilot testing of 
transportation user fee incentive strategies like these, as well as 
completely voluntary market incentive 
strategies, such as use-based car insurance, discussed above.
Promote Smart Transit Fare Payment Systems for Productivity Gains
    Transit should also be made more efficient by better management. 
There are many things that could be done, including better fare 
collection systems and greater priority in traffic.
    Enhancing priority for buses in traffic can increase average 
transit travel speeds, schedule adherence, and the number of passenger 
seat-miles per hour that can be carried by existing transit vehicles. A 
key part of this strategy involves upgrading traffic signals to support 
greater priority in traffic for buses, so they can hold a green signal 
green for a few extra seconds, or advance a red signal to green to 
avoid an extra stop. The strategy can also include building or 
configuring bus queue 
jumper lanes at key traffic bottlenecks to speed bus traffic past 
congestion.
    Across America, buses are considerably slowed by people lining up 
at the door at busy bus stops to pay their fares. Encourage near 
universal use of prepaid transit fare instruments and other high-
efficiency transit payment options that will enhance productivity of 
existing and new transit services by reducing delays related to fare 
payment at time of boarding, as in Europe and Japan. Greater use of 
daily, weekly, monthly, and annual transit passes helps accomplish 
this. Instead of having people pay cash on boarding, require that 
passengers carry a prepaid transit pass, or other fare media that must 
be validated before or immediately after boarding 
a transit vehicle, and which at a premium cost could be purchased on 
board the 
vehicle. Fare inspectors roaming transit systems and spot checking to 
verify that passengers are carrying a valid proof of fare payment or a 
pass, with large fines for fare evasion assure broad compliance. This 
enables boarding of buses through both front and rear doors, which 
boosts transit vehicle productivity.
Provide Safe Routes to Schools and Transit by Foot and Bike
    Initiating a range of actions to make it safe and attractive to 
walk and bike to all schools and transit stops throughout the region by 
2005, adapting successful strategies from the most bicycle and 
pedestrian friendly communities in America and abroad. This should 
include accelerated funding to local governments to enable the build-
out of the 20 year bike and pedestrian plans in the next 3 years, 
planning funds to engage in local area pedestrian and bicycle planning 
to identify key barriers and safety problems, and delay of some road 
projects to provide funds to retrofit sidewalks, bike paths, and 
traffic calming measures within a \1/2\-mile of all transit stops and 
schools. A significant share of traffic is related to parents driving 
students to schools because it is not safe or attractive to walk there.
    Bicycle-hostile street environments near most U.S. schools, transit 
stops, and stations also pose a significant barrier to more widespread 
use of bicycles. The majority of U.S. cyclists are not comfortable 
riding in fast or heavy traffic unless offered separate paths or lanes. 
A large, but not well connected, network of low-speed, low-volume, 
relatively bicycle-friendly streets exist in most U.S. suburbs. 
However, without penetrator bicycle paths connecting major transit 
stops, employment, residential areas, and shopping centers, only a 
minority of cyclists will consider it attractive to bicycle to transit. 
Marketing, education, and promotion programs are also needed to 
encourage greater and safer use of bicycles for short utilitarian 
trips, including transit access, particularly in conjunction with 
initiatives that reduce the current barriers of theft, security, 
safety, and legitimacy which impede nonrecreational 
bicycle use in America.
    About 40 percent of Americans own bicycles, and many of these 
people live \1/4\ mile to 2 miles away from express transit stops. Few 
of these people now use transit to get to work, in part because of the 
lack of an inexpensive, convenient, safe, and fast transit access 
system suited to trips of this distance. In the Silicon Valley of 
California, 40 percent of those using bicycle lockers at rail stations 
leave bicycles in them overnight and use them to get from the station 
each morning to their nearby schools and employment, just as in the 
Netherlands.
    Another means of reducing traffic is to implement neighborhood 
traffic calming to reduce motor vehicle speeds on many streets to 
improve safety for pedestrians, bicyclists, and motorists, and reduce 
emissions from car travel. Traffic calming has been shown by research 
to reduce idle times by 15 percent, gear changing by 12 percent, brake 
use by 14 percent, and gasoline use by 12 percent. A Federal Highway 
Administration report, Project for Public Spaces, The Effects of 
Environmental 
Design on the Amount and Type of Bicycling and Walking, National 
Bicycling and Walking Study, Federal Highway Administration, October 
1992, Washington, DC, discusses the German experience with traffic 
calming demonstration projects in six cities and towns in the early 
1980's: ``The initial reports showed that with a reduction of speed 
from 37 km/h (23 mph) to 20 km/h (12 mph), traffic volume remained 
constant, but there was a 60 percent decrease in injuries, and a 43 
percent to 53 percent reduction in fatalities. Air pollution decreased 
between 10 percent and 50 percent. The German Auto Club, skeptical of 
the official results, did their own research which showed broad 
acceptance after initial opposition by the motorists. Interviews of 
residents and motorists in the traffic calmed areas showed that the 
percentage of motorists who considered a 30 km/h (18 mph) speed limit 
acceptable grew from 27 percent before implementation to 67 percent 
after implementation, while the percentage of receptive residents grew 
from 30 percent to 75 percent.'' This experience of 
initial skepticism of traffic calming, followed by its widespread 
popularity after implementation, has been experienced in hundreds of 
communities across Europe, Japan, and Australia, along with the a large 
number of United States communities which have adopted such strategies 
in the 1990's. The widespread acceptance of traffic calming in recent 
years by U.S. traffic engineers (particularly with promotion by the 
Institute for Transportation Engineers) and by many communities makes 
this strategy a reasonably available to metropolitan areas across the 
U.S. today.
    Street space needs to be allocated to the bicycle in areas where 
traffic volumes or traffic speeds are high if bicycles are going to be 
used to reach these areas. The majority of all urban and suburban 
streets and roads are already quite suitable for bicycling, with 
relatively low traffic speeds and low traffic volumes. However, such 
residential streets usually lead to bicycle-hostile major roads before 
reaching major activity centers and schools. Frequently, development of 
a few small missing links can make the difference between safe bicycle 
access and lack of bicycle access. Without separate bicycle paths or 
bicycle lanes, only the small share of cyclists who are more highly 
skilled will be attracted to use this mode of transportation to make 
day-to-day trips. Experience in many cities and towns in America and 
elsewhere shows that high levels of bicycle use only occurs where the 
street system is bicycle-friendly. Where well-connected networks of 
bicycle friendly streets, bicycle paths, and bicycle lanes have been 
provided--such as Davis, Palo Alto, and Santa Barbara, California, 
Madison, Wisconsin, and Gainesville, Florida--bicycle mode shares of 
10-25 percent are common. Where such networks are not available, only 
the hardiest of cyclists take to the roads for purposeful travel, 
leading to bicycle mode shares of 2 percent or less. These 
relationships can also be observed in other affluent countries in 
Europe and Asia. (Michael Replogle, Bicycle and Pedestrian Policies and 
Programs in Asia, Australia, and New Zealand, U.S. Federal Highway 
Administration, Washington, DC 1993).
    Metro areas can elect to complete their 20 year bicycle 
transportation plans on an accelerated basis. A bicycle and pedestrian 
SIP commitment might also include funding of a program for community-
based bicycle and pedestrian planning and improvements. In a very large 
share of communities there is significant unmet demand for the retrofit 
of sidewalks, for pedestrian traffic safety improvements, for enhanced 
connections of neighborhoods to schools, and for better pedestrian and 
bicycle access to public transportation. A SIP commitment to fund 
planning and public involvement to identify, design solutions, and 
address local needs such as these is a critical part of assuring 
effective additional efforts in this arena beyond the accelerated 
funding of TIP and RTP bicycle and pedestrian projects. Guarded bicycle 
parking centers could be located at major transit stops in metro areas 
where there is strong latent transit from travelers who live or work at 
a radius of more than \1/2\ mile and less than 2 miles from the transit 
center, where there is inadequate automobile park-and-ride capacity, 
where the topography, market demographics, and community climate of 
opinion and community texture appear most favorable.
    Pilot projects could include funding for improvements to bicycle 
and pedestrian safety on routes leading to stations and transit stops 
especially within a 1 mile radius. Funding could be provided for 
marketing and evaluation. A bundle of such measures, as described 
above, could be employed to make all areas within a \1/2\ mile of 
transit stops and schools safe and attractive places for walking and 
bicycling around metropolitan areas. Within a several year period this 
could result in significant traffic reduction as people gained new 
options for access without use of a car.
    Congress needs to expand funding dedicated to nonmotorized 
transportation programs, promotion, planning and safety so that we can 
achieve all that is possible from these most friendly and inexpensive 
travel modes.

Build Bike Stations at All Major Transit Stops
    U.S. metro areas have invested in costly park-and-ride systems 
which have made transit increasingly dependent on the automobile. Other 
regions, especially in Europe but also in some United States 
communities, have been strengthening the potential for people to walk 
and to bicycle to and from transit, boosting ridership at a far lower 
cost. In much of Europe, the fastest growing and often predominant 
access mode to suburban express transit services is the bicycle. 
Despite rapid growth in the number of motor vehicles, suburbanization, 
and the emergence of polycentric metropolitan areas, bicycle access to 
most European railways has gained market share at the same time that 
bus and walk access has declined. Bike-and-ride services expand the 
potential market area of express public transportation at low cost 
without the very high air pollution emission and energy use rates per 
VMT, excessive space requirements, and high capital costs of automobile 
park-and-ride systems. While park-and-ride enables those living in 
lower density areas to travel from home-to-transit stop, bike-and-ride 
systems providing secure overnight bicycle parking can facilitate both 
access and egress to transit, enabling travelers to get from transit 
stops to nearby workplaces and schools which are otherwise unreachable 
by transit. Bicycle access can be invaluable in adapting transit 
systems to the emergent suburbanized polycentric metropolitan land use 
patterns found in Europe, Japan, and North America.
    Many people do not use transit because they cannot find affordable 
or available parking nearby when they want it. It costs $5,000 - 
$20,000 to build a single additional parking space, and $750 - $3,000 a 
year to operate a park-and-ride space. Providing bike lockers, bike 
racks, and guarded bicycle parking at transit stops can free up car 
parking spaces for those who cannot bike or who live too far to bike to 
transit, while offering a low cost healthy way for those \1/2\ mile to 
2 miles from the transit station or stop get to and from transit. 
Guarded bike parking at transit has been a predominant part of transit 
access in European and Japanese suburbs for decades, where it costs \1/
10\ to \1/100\ as much as auto parking at transit to provide and 
operate. And secure overnight bike parking at transit allows people to 
get from transit to nearby schools and jobs that are beyond walking 
distance of the transit stop.
    In 1996, the city of Long Beach implemented the Nation's first 
attended bicycle parking facility, or ``Bikestation.'' These facilities 
provide a range of clean transportation options--including secure, 
bicycle parking, bicycle repairs and accessory sales, changing and 
restrooms, and bicycle rentals. Bikestations have sinced opened in the 
communities of Palo Alto and Berkeley and are under development in San 
Francisco, Denver, Seattle, Santa Barbara, Los Angeles and Pittsburgh, 
Pennsylvania. (See www.bikestation.org)

Encourage Accessory Apartments Near Jobs and Transit
    Many people end up living far from work because they cannot find 
affordable housing closer by. But local zoning codes often impede 
homeowners from developing invisible infill affordable housing--
accessory apartments. This can be a potent traffic reduction strategy, 
cutting trip lengths, car dependence, and sprawl. Transportation plans 
should be required to consider how affordable accessory housing units 
in areas near transit and job centers, more opportunities for live-work 
space, and more transit oriented development could cut traffic and to 
identify barriers to these forms of market-based community development. 
Reforming zoning codes that make it difficult, costly, and time-
consuming to create accessory apartments in neighborhoods near transit 
and job centers and provide technical assistance to homeowners 
interested in creating such units in these areas can be useful steps 
forward.

Conclusion
    The 1991 ISTEA law, which was reauthorized in 1998 with few major 
changes as TEA-21, gave individuals, States, and companies greater 
flexibility to invest in or use what ever means of transportation best 
suits their needs. ISTEA and TEA-21 began to better align 
transportation price signals with national and local goals for expanded 
and more equal access to opportunities, healthful air quality, and 
efficient mobility. These laws created new incentive-based pilot 
projects, like the Value Pricing Program. But more needs to be done. 
Many States have focused increased funds to expand the public's travel 
choices, but others have not. Congress should demand more 
accountability for how funds are spent.
    Throwing more money into road building and streamlining project 
reviews to curtail consideration of environmental factors in 
transportation decisions won't solve congestion. But better 
accountability, planning, consideration of alternatives, and support 
for new smart incentive strategies can help local and State agencies, 
business, and citizens cut their way through our traffic mess and boost 
transportation equity. Congress has a key role in helping State and 
local governments and their private partners make this transformation 
from trying to build our way out of congestion and into the new 
information era, where we manage congestion and expand choices and 
smart incentives.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                        TRANSIT: A LIFELINE FOR

                           AMERICA'S CITIZENS

                              ----------                              


                        WEDNESDAY, JULY 17, 2002

                               U.S. Senate,
  Committee on Banking, Housing, and Urban Affairs,
                Subcommittee on Housing and Transportation,
                                                    Washington, DC.

    The Subcommittee met at 2:50 p.m. in room SD-538 of the 
Dirksen Senate Office Building, Senator Jack Reed (Chairman of 
the Subcommittee) presiding.

             OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order, and welcome 
you all this afternoon.
    There is a vote in progress at this moment. Senator Allard 
is at the vote. He will return promptly. Also, I know that 
Senator Shelby wants to be here personally to introduce Ms. 
Tehranchi, and when he arrives, he will do that.
    Let me give my opening statement and then as my colleagues 
arrive, I will ask them to speak and then we will introduce the 
first panel and begin our testimony.
    Welcome to our panels. Today, we will examine the 
importance of our Nation's transit investment for the disabled, 
senior citizens, and hard working low-income Americans.
    Over the past few months, our Subcommittee has heard from 
the Department of Transportation, the Federal Transit 
Administration, transit operators, business people, elected 
officials, and environmentalists, all of whom have given us 
their recommendations for the reauthorization of TEA-21.
    This afternoon, we will hear from the people who actually 
use transit. Indeed, for our first panel of witnesses, transit 
is a lifeline to the outside world and employment. Without 
transit, these Americans would be far less able to join us and 
share their compelling stories of overcoming obstacles.
    Our second panel will provide us with recommendations to 
ensure that seniors, the disabled, and lower-income Americans 
can continue to depend upon public transportation for mobility 
and freedom. We know that a person without a car or someone who 
cannot drive faces very real mobility challenges in our 
country.
    For example, there are 25 million transit-dependent people 
with disabilities and 30 percent of disabled Americans have a 
problem with inadequate transportation, compared to 10 percent 
of those without disabilities.
    In addition, we know that today, 14 percent of those over 
65 use transit, but as America's elderly population grows and 
more of us can no longer drive, the demand for fixed-route and 
paratransit service is sure to increase proportionately.
    Finally, families with incomes under $15,000 make up 61 
percent of transit riders in our Nation's rural communities--
not our cities, but our rural communities.
    Addressing these needs is an important part of our effort 
to reauthorize TEA-21, and I look forward to hearing from 
today's witnesses. With their help, we can produce a 
reauthorization bill that responds to the needs of all of our 
Nation's transit riders.
    Now let me recognize Senator Allard for his opening 
statement.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman.
    I apologize for being just a little late. We had a vote 
going.
    I want to thank you for holding this hearing. As we 
continue in the TEA-21 authorization process, it is important 
for us to take a look at specific programs and hear from those 
who the programs serve. Today, we are looking at the Elderly 
and Persons with Disabilities Program and the Job Access and 
Reverse Commute Program. Both of these programs serve a 
population of transit-dependent riders. I am very interested to 
hear how we can improve these programs for this population in 
the reauthorization of TEA-21.
    Larry Worth is the Executive Director of the Northeast 
Colorado Association of Local Governments, or NECALG, talked to 
this Subcommittee in April about paratransit services, and his 
testimony highlighted the importance of services for the 
elderly, disabled, and impoverished in the large, rural area 
NECALG covers. It is often in the isolated, rural areas of this 
country that this is the largest population served by transit 
services.
    Larry talked about the importance of continued funding for 
the Job Access Program for those individuals living in rural 
areas who have no other way to get to work but through transit. 
He emphasized the positive impact TEA-21 has had on rural 
northeastern Colorado, with the increased transit and bus and 
bus-related capital allowing them to purchase more vehicles to 
serve those with great need, whether that be an elderly 
individual needing a ride to a doctor's appointment or a 
disabled individual who has no other means of transportation.
    I welcome the opportunity today to hear the perspective of 
other individuals who utilize transit services throughout this 
country, especially those who are transit-dependent, and 
hopefully, we can hear from some with firsthand experience 
about what we can do to improve their services.
    I thank the Chairman, again, for holding this hearing and I 
look forward to hearing from the witnesses.
    I apologize again because I have another committee going on 
and I will have to split early. But I want to thank everybody 
for coming forward and testifying. I know it is not easy. It is 
not easy getting here. It is not easy to find the place of the 
hearing. And it costs a little bit and sometimes it means you 
have to be away from your jobs and your businesses and what 
not.
    I appreciate the sacrifice you are making to testify here.
    Thank you.
    Senator Reed. Thank you very much, Senator Allard.
    Now, I would like to recognize Senator Shelby for his 
opening statement. He would like to introduce our first 
witness.

             STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Chairman, it is really a pleasure for me to come here 
to the Subcommittee this afternoon and introduce Ms. Jessie 
Tehranchi of Birmingham, Alabama, seated right here on our 
left.
    I have worked with her on a number of issues. She has been 
an advocate for the disabled population of the city of 
Birmingham, my State of Alabama, and in fact, the whole Nation.
    She recently represented my State of Alabama at the 
National Patient Advocate Foundation Congress, and represented 
us well. She has been very active in the effort to restore one 
of Birmingham's most treasured symbols, the Vulcan statue, and 
to make sure its facilities include, Mr. Chairman, 
accessibility for all of Alabama's citizens, and their guests.
    Ms. Tehranchi has been a dedicated advocate on behalf of 
efforts to address mobility needs for persons with 
disabilities. It is such a great pleasure for me to introduce 
her here. I have worked with her. I know her. She does good 
things and I know she has trouble getting around, but she never 
lets that stop her, Mr. Chairman, whether it is raining, 
whether it is hot, like it is today, or it is snowing. She is 
going to be there.
    I have to go to another committee, but I am going to stay 
around a few minutes.
    Thank you.
    Senator Reed. Thank you very much, Senator Shelby.
    Before I call on Ms. Tehranchi, let me also introduce our 
other panelists. Joining Ms. Tehranchi at the witness table is 
Ms. Gloria McKenzie of Albany, New York. She is a success story 
in the value of transit and the Job Access and Reverse Commute 
Program. And she is here to join us to describe her transition 
from a JARC client to someone who is today employed as a Trip 
Planner for the Capital District Transportation Authority.
    Welcome, Ms. McKenzie, thank you.
    Ms. Faye Thompson, who joins us from Kenova, West Virginia, 
where she has found that the Wayne County X-Press is essential 
to getting her to and from medical appointments and maintaining 
her independence.
    Welcome again, Ms. Thompson.
    I will just remind the witnesses, your formal statements 
will be made a part of the record. If you would like to 
summarize, that would be appreciated. Five minutes will be 
allotted.
    I have had the pleasure also of meeting Ms. Tehranchi. In 
fact, she told me that in Birmingham, Senator Shelby, your 
nickname is Vulcan, and the statue was dedicated to you.
    [Laughter.]
    Senator Shelby. I'll tell you what. I wish it were. But we 
appreciate the Senate and the House joining me in our efforts 
to help restore that and make it accessible to everyone. We 
received some Federal money, thanks to a lot of help here. But 
most of the money was private money, local money. Vulcan is 
very important to us down there. I am glad to be part of it.
    Senator Reed. Thank you, Senator.
    Ms. Tehranchi.

                 STATEMENT OF JESSIE TEHRANCHI

                      BIRMINGHAM, ALABAMA

    Ms. Tehranchi. I want to thank both of you for that 
beautiful introduction, and I feel very privileged to be doing 
what I am doing today. As all of you know, I am from 
Birmingham, Alabama. I am glad to be here representing the 
Transportation Equity Network, which is a national coalition of 
grassroots organizations concerned with transit.
    Fifteen years ago, I was diagnosed with multiple sclerosis. 
It has been really a challenge.
    I became aware of the importance of a quality public 
transportation, however, in 1995, when the Birmingham bus 
service just automatically shut down. What happened there were 
the people on kidney dialysis could not get to the doctors for 
kidney dialysis treatment. People who used the bus to get to 
work could not get to work, and other things that people use 
bus service for.
    Greater Birmingham Ministries and the Alabama Kidney 
Foundation called this rally. They said, rain or shine, we are 
going to meet and we are going to protest this. We will 
actually just have a rally about it. It was an outcry from the 
public. They could not believe that this was happening in 
Birmingham.
    They did have the rally. It turned out there was five 
inches of rain that day, but 80 people showed up for the rally. 
Several people in wheelchairs like me were there. At that time, 
I was still driving. But not long after that, because of the 
disability of multiple sclerosis, I quit driving.
    That is why I am here today. I am basically here to tell 
you that I know this issue. This is a serious issue. It is an 
issue to me. I never thought I would be here. It is an issue to 
too many people and it is something your group must address and 
help us with.
    I use CLASTRAN, which is a paratransit service that serves 
the communities around Birmingham. Although this service is 
much needed and much used, I have been stood up by this service 
a few times. And that is because the drivers, the dispatchers, 
all those people work very hard, but sometimes it happens, and 
a lot of it has to do with a lack of funding. This is something 
that we hope that you people will help us with and provide it 
for everybody else in the country.
    I am a member of several organizations in Birmingham. One 
is the Government Relations Committee of the Alabama Chapter of 
the Multiple Sclerosis Society, which Senator Shelby mentioned. 
I am on the Alabama Disability Action Coalition. We were the 
ones who were responsible for Vulcan being accessible, by the 
way. I am also Transportation Chair for the League of Women 
Voters of Greater Birmingham; and I am an active volunteer in 
Alabama Arise, a coalition working on the issues of low-income 
people, and I serve on the statewide task force for disability 
transportation issues. These organizations understand that 
transportation is a definite necessity.
    In Alabama, there are 900,000 transportation disadvantaged; 
and the population in Alabama is only 4 million.
    People must have transportation to stay integrated into 
society: To work, to shop, for recreation, for medical 
services, to vote, to function independently. Accessible 
transportation allows people with disabilities free movement in 
society.
    As this Committee prepares for the reauthorization of TEA-
21, I urge you to remember the importance of ensuring that 
transit users have a voice in the issues that affect transit 
service. Transit users must be voting members of the 
Metropolitan Planning Organizations, the Department of 
Transportation, and the other transit agencies.
    Congress must also pay attention to the metropolitan and 
statewide planning process, and the metropolitan certification 
process. TEA-21 reauthorization is an important opportunity to 
ensure transit user involvement, to clarify the importance of 
civil rights and environmental justice, and to more fully 
address the needs of transit dependent people.
    Thank you for letting me come today.
    Senator Reed. Thank you, Ms. Tehranchi, for your statement. 
We appreciate it very much.
    Before I call on Ms. McKenzie, we have been joined by 
Senator Akaka. Senator, do you have an opening statement or 
comment that you would like to make now?

               COMMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Mr. Chairman, yes, I have a statement. Would 
you please include it in the record?
    Senator Reed. Without objection. Thank you, Senator.
    Ms. McKenzie, please.

                  STATEMENT OF GLORIA McKENZIE

                        ALBANY, NEW YORK

    Ms. McKenzie. Good afternoon. My name is Gloria McKenzie 
and I am a Trip Planner for the Capital District Transportation 
Authority in Albany, New York. I want to thank the 
distinguished Members of this Committee for affording me this 
opportunity to share with you my thoughts about the 
reauthorization of the Transportation Equity Act for the 21st 
Century.
    As a single mother with two children, living in public 
housing, and on public assistance, I was referred to an 
employment and training program with the goal being that I 
secure full-time employment in order to support my family and 
myself. In order to achieve this goal, the local Department of 
Social Services provided me with subsidized public 
transportation in the form of a bus pass, which allowed me to 
have access to a training program. Upon securing employment, my 
bus pass was maintained allowing me to get to and from work on 
a daily basis. I can assure you that without this ongoing 
support of my public transportation needs, it would have been 
difficult for me to continue doing the work necessary to secure 
employment and to take care of my family needs.
    Today, I come before you in my capacity as a trip planner, 
and along with the coordinator and my two fellow trip planners; 
we manage the public transportation trip needs of individuals 
in a four county area that makes up the Capital District's Job 
Access and Reverse Commute Program. My job is to work with any 
and all individuals, but specifically with TANF and low-income 
individuals to help them manage their public transportation 
mobility needs, which primarily consist of access to employment 
centers, child care facilities, and education and training 
centers.
    CDTA's JARC Program consists of expanded shuttle service to 
major areas of employment, a safety net brokerage, trip 
planners to address the mobility needs of customers, and a 
coordinator who works with employers, local government 
officials, and the community addressing the mobility needs of 
the community at large.
    Matching funds from Community Solutions for Transportation 
dollars providing for service extensions on existing routes and 
a Pass Program allowing individuals access to the entire 
service delivery system. Our program has been embraced by the 
community, and CDTA is perceived as an involved and concerned 
partner in resolving the transportation needs of citizens and 
has received an award from the American Public Transportation 
Association as one of the top ten welfare-to-work 
transportation programs in this country.
    I would like to provide you with three examples of 
individuals whose lives have been impacted by our JARC Program.
    A DSS caseworker referred a single mother with two children 
who had taken a job in a health care facility and was facing 
the daunting task of trying to get one child to school, get the 
second child to a day care center, and then get herself to work 
by 8 a.m. We were able to use regular bus service to get both 
the older child to school, and the younger child to the day 
care center. However, by the time the day care center opened, 
the mother did not have enough time to then use fixed-route bus 
service to get to work on time. I was then able to refer the 
mother to the safety net program, which provided taxi service 
to get her to work. Her trip at the end of her work day, while 
a long one, could be negotiated with the regular bus service.
    A Department of Labor employment counselor, operating out 
of the ``One-Stop'' employment center, referred a young 
gentleman, who took a job at a local Wal-Mart, which required 
that he take three buses to get to work. I met with this 
gentleman and his employment counselor and we mapped out the 
routes and times of the trips he would need to take in order to 
get to work.
    The Center for the Disabled called upon me to work with one 
of their disabled clients who had taken a job in a health care 
facility. Along with a counselor from the Center, we rode the 
bus with this individual to and from work for a 5 day period, 
insuring that the client understood how to use the bus, to ask 
the driver for assistance, and to generally make her 
comfortable with using public transportation, a skill she 
needed to master to maintain a level of self-sufficiency.
    CDTA's JARC Program currently provides 2,060 trips per 
month on its fixed-route service for individuals using the 
TANF-funded bus passes and provides service to another 200 
individuals by way of the Demand Response service, that is, 
passengers calling ahead for service. In the areas where we 
have Expanded Shuttle Service hours, there are over 160 
employers providing approximately 30,000 jobs with over 9,000 
entry-level jobs, which TANF and low-income persons pursue.
    In conclusion, I would just like to say that there are many 
individual stories I could have shared with you, if time had 
permitted, that would demonstrate the vital role that JARC-
funded programs and services have in assisting individuals in 
securing and maintaining employment, and ultimately supporting 
the overall well-being of families.
    Thank you for giving me this opportunity to share my 
thoughts with you.
    I would like to submit for the record additional testimony 
from the Center for Community Changes.
    Thank you.
    Senator Reed. Without objection, it will be added to the 
record.
    Thank you very much, Ms. McKenzie, for your statement.
    Ms. Thompson, welcome.

                   STATEMENT OF FAYE THOMPSON

                     KENOVA, WEST VIRGINIA

    Ms. Thompson. Mr. Chairman and Committee Members, it is 
really an honor for me to be here with you today and to get to 
talk about something that is very dear to me. First, let me 
tell you a little bit about myself. My late husband and I 
raised three sons, and believe me, that was an experience in 
itself.
    [Laughter.]
    My husband worked for the Norfolk & Western Railway. When 
our children enrolled in school, I decided to go back to school 
myself because I wanted to be an elementary teacher. I taught 
school in a one-room schoolhouse in rural Appalachia in West 
Virginia. And that is quite an experience, too.
    I saw the many challenges of the rural Appalachian people 
while I was teaching, so I changed careers and became a Social 
Worker for the Department of Health and Human Resources. This 
was also in rural West Virginia.
    Throughout my career, I have worked with low-income 
families and one of the biggest challenges that we have ever 
faced is lack of transportation. Every survey that they have 
sent out, that has been the number one thing on it. At that 
time there was no public transportation in Wayne County. 
Throughout my 22 years as a social worker, there was always the 
need for individuals to access services. Services were out 
there, but they had to get to them.
    Throughout my life I have been a very independent person, 
as you can tell. I have raised three children and had not one, 
but two, careers. I have always had the privilege of having my 
own car. You know, we get used to it. We take it for granted. 
We walk in and get our car keys and walk out the door and go 
where we want to.
    Even though I have always recognized the need for rural 
transportation, I never thought that it would be something that 
I would use. After my husband passed away, I lived alone in our 
home for a while, and then downsized to an apartment because 
our house was too big. I was still at that time able to go to 
my homemaker meetings, my church services, do volunteer work, 
and different things like meet my friends for lunch and go for 
social activities. But then, my physician told me that I was 
going to have to have both knees replaced. Well, this was quite 
a shock. He told me that I would have to have physical therapy 
after I left the hospital three times a week for several weeks.
    My two older sons lived out of State. The youngest one had 
a family and worked during the day, so it wasn't possible for 
him to take me. That is when it dawned on me that I was one of 
those people that needed transportation. I wasn't independent 
any more.
    I was able to obtain the medical services that I needed and 
the transportation to therapy by public transportation, which I 
had never needed before.
    Being a member of the Wayne County Community Services 
Organization Board of Directors, I can sit here in front of you 
today and let you know how important public transportation is 
to the people. How it enables them to access needed service.
    Wayne X-Press Public Transit System in Wayne, West 
Virginia, provides transportation services to people for 
medical appointments, to jobs, to job interviews, to job 
training, to social activities, to senior citizen centers, and 
for the Adult Day treatment program, which is very important, 
for parental education classes, and general education training.
    So, I am here today to ask you, distinguished ladies and 
gentlemen, to continue funding for the public transit systems 
because it is the lifeline of the public. I want to invite all 
of you to Wayne County, West Virginia, to, as we say, ``hop 
aboard'' the Wayne County X-Press.
    Thank you very much.
    Senator Reed. Thank you very much, Ms. Thompson.
    I thank you all for your excellent testimony. Let me ask a 
question or two and then see if Senator Akaka has questions.
    You have all made a compelling case for the essential need 
of mass transit for disabled citizens and senior citizens and 
also for low-income Americans who are going into the work 
force.
    The availability of transit is one issue, but also, people 
knowing that it is available is a second issue. So if you all 
could comment on that. Do you think there are a lot of people 
in Birmingham that are disabled or seniors, who are not aware 
of the services or cannot access the services?
    Ms. Tehranchi. Well, there has been some advertising about 
our services, the CLASTRAN service. There are two separate 
paratransit services in the metro area of Birmingham. One is 
VIP and that is the Birmingham Jefferson County Transit 
Authority. That is their service. CLASTRAN is pretty much a 
rural county, Shelby County, the county next to Jefferson 
County that Birmingham is in--there is some advertising, not a 
lot. Word of mouth. People know about it. But the problem is 
there are a lot of people who want to use it, but cannot get it 
because it is just overcrowded.
    Like, for instance, I have to make an appointment about a 
week ahead, sometimes even more, to get a service to go on just 
one short trip. There is not enough of it for them to really do 
a mass advertising campaign.
    Senator Reed. Thank you.
    Ms. McKenzie, you have a very unique position because you 
have used it to educate yourself--mass transit I am talking 
about--and now you are helping others. Do you see a lot of 
people out there that need the service or that want the 
service, but there is limited resources?
    Ms. McKenzie. I do. From the service that I do, with 
helping the population in general, every day, there are people 
using this transportation every opportunity that they can get, 
to go to work, to get their children to day care so they can 
get to work, to seek employment, whatever the case may be. I 
get calls from them all the time.
    Senator Reed. I will follow up by asking, are some people 
frustrated in finding employment or day care, not because it 
doesn't exist, but because they physically cannot get there and 
you see those people and they are just stuck?
    Ms. McKenzie. Yes. There are times I have had clients that 
are really frustrated, not because, like you said, because of 
day care issues. It is because they do not have the 
transportation to get to where they have to go. Or they have to 
leave home maybe 2 hours ahead of time just to be to their 
appointment because the connections aren't there, or maybe 
because they just do not have the means to get there. That is a 
problem. That is an issue right there by itself.
    Senator Reed. One other issue that I have encountered is 
that frequently we encourage parents to be more involved in the 
education of their children. But if you do not have your own 
car and you work some place else and you have to get back to 
pick up your child, have an interview with the teacher, and the 
mass transit system doesn't work well, you are in a bind.
    Ms. McKenzie. Yes, you are.
    Senator Reed. You cannot do what you want to do, which is 
help your child, and then I think you are afraid your child 
will suffer.
    Ms. McKenzie. Yes.
    Senator Reed. Yet, you have to choose between a job and 
being part of that. Does that happen often?
    Ms. McKenzie. I have seen that, but not too much--in the 
beginning I did. It has kind of leveled out a little bit. I 
still run into cases with that now. We still have some.
    Senator Reed. Well, again, thank you very much.
    Ms. McKenzie. Thank you.
    Senator Reed. Not only for your testimony, but everyone, 
for your example, too.
    Ms. McKenzie. Thank you.
    Senator Reed. Ms. Thompson, you make the point, which some 
people I think see mass transit as an urban problem, getting 
from Queens to Brooklyn, and back and forth. But Wayne County 
in West Virginia, the number one problem is transit and the 
people getting around.
    Ms. Thompson. Right. I found this out more, I guess, after 
I started to work as a social worker, because we had so many 
clients that I think would have loved to have worked, but they 
had no way to get there. At that time, we had no public 
transportation. The buses do not run out in the sticks, like 
Mill Creek and other places like that.
    We also use ours for dialysis patients. That is another 
very important thing. We have some people who have to go two to 
three times a week. Just like I had to go for my therapy. I 
probably wouldn't be walking as well today if I had not had 
that. That rehab is rough, but you have to go through it.
    Senator Reed. Thank you very much. And thank you again for 
your testimony.
    Senator Akaka, do you have any questions?
    Senator Akaka. Yes. Thank you very much, Mr. Chairman.
    I want to welcome this panel to the Committee. I find that 
your remarks of using these services can help us improve it.
    Ms. Tehranchi, you have been using the public 
transportation and paratransit services in Birmingham, Alabama, 
and have been trying to, with the efforts of others, increase 
public access to public transportation. What changes have you 
seen, even 10 years back, for people with disabilities in these 
transit services?
    Ms. Tehranchi. If Senator Shelby was still here, we would 
enjoy talking about this because of what is going on in the 
Birmingham area that is relevant to me and anybody else who 
happens to be in a wheelchair. The fact that our buses that we 
received in the past 2 or 3 years are accessible. That means 
that I can get on a bus with a scooter and get around. That is 
in Birmingham's metro area. That is where the buses are served. 
But there is this increased use of the service. We have ended 
up getting new people in charge of the paratransit services and 
they are very dedicated to getting service to as many people as 
possible.
    I would say that is a very good thing that has happened in 
the past 3 or 4 years.
    Senator Akaka. Ms. McKenzie, I also want to commend you for 
where you are now, and the help you have been giving as a trip 
planner for people that need assistance.
    Ms. McKenzie. Yes, thank you.
    Senator Akaka. What changes could you recommend to improve 
the Job Access and Reverse Commute Program?
    Ms. McKenzie. That is kind of hard. I guess just to keep 
adding services in the areas where people would be able to get 
access to them, so that they can get around to seek employment, 
for day care, for whatever reasons they might need to be out 
there.
    Senator Akaka. Thank you.
    Ms. Thompson, we are glad to have you here, and hearing you 
say that you have moved from being a teacher to what you are 
now, and that you ride the X-Press to get to and from medical 
appointments. What steps do you think the Federal Government 
should take to encourage more people to utilize transit 
services?
    Ms. Thompson. I do not think we need to encourage them so 
much. We need to get more money in there to expand the routes. 
We need money for upkeep, capital improvements, and additional 
training for the bus drivers.
    We do quite a bit of advertisement and I just think we need 
more money to get those things in place.
    Senator Akaka. We need resources.
    Ms. Thompson. Yes, new resources. That is right.
    Senator Akaka. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Akaka.
    Again, let me thank you all for your compelling testimony 
and for your firsthand experiences. It will be crucial in our 
deliberations as we go forward to reauthorize the TEA-21 Act.
    Thank you so much.
    Now, I will call the second panel forward. Thank you very 
much.
    [Pause.]
    Let me welcome the second panel and also recognize Senator 
Sarbanes, the Chairman of the Committee, who has joined us. I 
will introduce Ms. DeSalles and Mr. Imparato. And then Senator 
Sarbanes, your opening comments and your introduction of 
Secretary Porcari.
    Senator Sarbanes. Good.
    Senator Reed. We are joined today by Ms. Lavada E. 
DeSalles. Ms. DeSalles is a Member of the AARP Board of 
Directors and has a history of involvement in issues affecting 
seniors. She retired in 1994 after 32 years with the State of 
California's Employment Services Agency. She is here to testify 
about the AARP's recent report: Understanding Senior 
Transportation.
    We are also joined by Mr. Andy Imparato, who is the 
President and CEO of the American Association of People with 
Disabilities, an organization dedicated to economic and 
political empowerment for over 56 million Americans with 
disabilities. He has held a number of senior governmental 
positions, including serving as the General Counsel of the 
National Council on Disability, an independent Federal entity.
    Thank you, Mr. Imparato, for being here.
    Chairman Sarbanes.

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Thank you very much, Chairman Reed. I 
want to thank you for calling this hearing as we anticipate 
consideration of the Federal transit program in preparation for 
reauthorizing TEA-21, the Transportation Equity Act for the 
21st Century, which will be one of the main items of business 
before this Committee next year. We are trying to anticipate 
that and get started early in building a hearing record and 
also getting the benefit of the counsel and advice of people 
all across the country.
    I also want to thank the witnesses who are here. Some have 
traveled quite a distance and we appreciate that. We think this 
discussion is vitally important as we seek to address the 
future of transportation in this country. This issue, our 
investment in transit, and what it means to those who cannot or 
choose not to drive, is a very important question.
    Basic mobility is part of what makes Americans a free 
people. For many of us, our mobility options are quite varied--
ride the train to work, take the bus to the mall, drive the car 
to the doctor. But for others, driving is not an option. And 
for many of our fellow citizens, the only answer is public 
transportation.
    By 2020, not all that far away, there will be 6\1/2\ 
million Americans over the age of 85. That is a 62 percent 
increase from just a couple of years ago. Many will be, 
obviously, nondrivers. There are more than 50 million people in 
the country with some type of disability, many of whom cannot 
drive a car. Many millions more have household incomes too low 
to allow them to purchase and maintain a vehicle.
    Actually, we had testimony not too long ago before this 
Committee that the annual cost of owning and operating a car 
was estimated to be over $7,000 a year.
    I do not think most Americans appreciate the costs that are 
connected with an automobile, I think essentially because they 
do not figure the capital costs into it.
    Providing these Americans, and young people as well, who 
are not yet at the age of driving, access to public 
transportation is an investment with very significant benefits. 
Obviously, this is what we are trying to address.
    Mr. Chairman, I appreciate the opportunity to introduce 
Senator--Secretary. I did not mean to demote you.
    [Laughter.]
    Secretary Porcari, I do want to say that Mr. Imparato is 
also a distinguished Marylander and we are pleased that he is 
here today as well.
    John Porcari, the Secretary of the Maryland Department of 
Transportation, has done just an outstanding job. Our 
Department of Transportation is the largest State agency. It 
has almost 10,000 employees. It has an annual capital and 
operating budget of approximately $2.5 billion.
    Maryland has a consolidated transportation fund. We fund 
all of the transportation activities out of a consolidated 
fund. Managing the agency and Maryland's intermodal 
transportation system is a very big job. We are talking about 
thousands of miles of highways and transit routes, a major 
international airport, BWI, actually the fastest-growing in the 
country, and one of the largest seaports on the East Coast.
    So it is a real challenge and Secretary Porcari has 
excelled at it.
    We have made substantial advances under his leadership in 
improving transportation facilities and services. He has paid 
special attention to managing our State's congestion problem 
and improving mobility. And the Department has made very 
effective use of the Job Access and Reverse Commute Program and 
has arguably the best such program in the country.
    We certainly have the biggest map in the country.
    [Laughter.]
    Senator Reed. It is bigger than Rhode Island.
    Senator Sarbanes. Yes.
    [Laughter.]
    We very much welcome him coming today and contributing to 
the work of the Committee.
    I am going to have to apologize to our witnesses because I 
am not going to be able to stay. I will certainly read and 
study all of the testimony, but as it works around here, there 
is always conflicting engagements. I am involved in another 
project of some size and dimension and I will get on to paying 
attention to it. But I did want to come thank you for this 
terrific job with, not only this hearing, but also the whole 
series that you have been doing, and to thank our witnesses. 
And particularly to underscore that we have worked very closely 
with Secretary Porcari. He is a very able and committed public 
servant and I am glad he is here today. We are going to have 
the benefit of his thinking on some of these important issues.
    Senator Reed. Thank you, Mr. Chairman, very much.
    Senator Carper has joined us. Senator, do you have an 
opening statement?

             STATEMENT OF SENATOR THOMAS R. CARPER

    Senator Carper. I do. To our neighbor from Maryland, 
welcome. To the representative from AARP, welcome as well.
    Before I became a Senator, I had the privilege of being 
Governor and lead Governor on welfare reform within the 
National Governors Association, lead Democratic Governor at 
least. We focused a whole lot on things we need to do to help 
people move from dependency to independence, from welfare-to-
work.
    Among things that people need, they need a job. They need 
help with child care. They need help with health care. They 
need a way to get to their job. And if you did not have a job, 
if you did not have the health care, if you did not have help 
on child care, and if you did not have a way to get to your job 
and back home, we found that it was very difficult to help 
people make that transition and to do it on a more permanent 
basis.
    For that reason alone, today's hearing is important. And as 
we approach the next step in reauthorization of our major 
transportation funding program, it is critical.
    I would also add to that that today in America, 75 percent 
of our people live within 50 miles of one of our coasts. Think 
about that--75 percent of Americans live within 50 miles of one 
of our coasts, which says to me and maybe to you that we are a 
lot more congested than we used to be. One only has to try to 
drive, as I did the other day, through your State and mine to 
get to BWI to pick up our son coming back from Boy Scout camp, 
just how congested I-95 can be.
    Half of the oil that we will use in America today to drive 
our cars, trucks, and vans, really, to propel our country, 
comes from overseas from places where a lot of people do not 
like us and do not wish us well.
    And on a day as warm as today, I am reminded of the threat 
that global warming poses to our way of life and to all of us.
    I joke with people about Delaware. Delaware has some 
wonderful coastal resorts, as does Maryland, as does Rhode 
Island.
    Senator Reed. Indeed.
    Senator Carper. A lot of people spend part of their summers 
at Fenwick Island, Bethany Beach, Dewey Beach, Rehoboth, and 
Lewes. I joke with people--if we do not do something about 
global warming, by the end of the century, people won't be 
buying beach front property at any of those places. They will 
be buying it at Dover or at Wilmington.
    And to the extent that we can find ways to encourage people 
to use transit, we are going to be putting less CO<INF>2</INF> 
into the air and will be doing a good thing for our 
environment.
    For all those reasons, this is important. I look forward to 
your testimony. Thank you very much for joining us.
    Senator Reed. Thank you very much, Senator.
    Ms. DeSalles, thank you.

                STATEMENT OF LAVADA E. DeSALLES

                MEMBER, BOARD OF DIRECTORS, AARP

    Ms. DeSalles. Mr. Chairman, Members of the Subcommittee, 
thank you for the introduction.
    Again, my name is Lavada DeSalles and I serve on the AARP 
Board of Directors.
    We appreciate very much this opportunity to present our 
views regarding transit programs for older Americans. The need 
for transit services among older persons will become 
particularly strong in the years ahead with the aging of the 
Baby Boom generation. Tomorrow's seniors will have become 
accustomed to a high level of mobility and will expect that 
level of mobility to continue into their later years.
    From our research, we know that mobility is a critical 
element of overall life satisfaction and is strongly linked to 
feelings of independence. Indeed, the impact of the lack of 
mobility can be devastating. At a recent AARP focus group, one 
of the participants said him and his wife's world have been 
reduced to one square mile since he had stopped driving.
    Currently, the use of public transportation by older 
persons is limited. However, an AARP survey found that 14 
percent of nondrivers 75 years of age and older say that public 
transportation is their primary mode, and nearly 20 percent say 
they use public transportation on a monthly basis. This tells 
us that public transportation services can play an important 
role in enhancing mobility for these nondrivers.
    AARP's Understanding Senior Transportation Survey also 
found several problems that made the respondents less likely to 
use public transportation. These included concerns about crime, 
unavailable destinations, and the trip length of time.
    TEA-21 has provided a stable and dependable funding stream 
for transit programs. AARP believes significant additional 
investment in transit is needed in order to reach those older 
persons now and in the future for whom transit is unavailable 
or inadequate to meet their transportation needs.
    AARP supports greater funding for the Sections 5310 elderly 
and disabled and the 5311 rural programs. Funding for Section 
5310 in particular is woefully inadequate.
    Many local human services programs provide transportation 
for their clients who would otherwise be unable to get 
services. As a result, a multiplicity of transportation 
operations has emerged, many of them perform similar services 
in the same communities.
    Studies by AARP and others have found that coordination 
efforts could provide many benefits, including lower trip 
costs, extended hours of service, and a greater choice of 
destinations. An excellent example may be found in the 
Chairman's home State of Rhode 
Island. The paratransit system there is called The RIde and is 
coordinated Statewide and nationally recognized.
    Another area in need of increased funding is ADA 
paratransit. AARP is concerned that some systems may use the 
eligibility screening process to limit use of ADA services. We 
believe there should be greater consistency in determining 
eligibility, as well as more attention given to standards of 
service, quality of service, and customer service.
    Finally, we recognize that many of the changes required to 
meet the mobility challenges of older persons now and in the 
future will occur at the local level. Metropolitan planning 
organizations must become more aware of the transportation 
needs of their elderly residents and integrate approaches to 
meeting these needs into their planning processes.
    In sum, AARP believes that transportation choices are 
essential in maintaining older persons' independence and 
quality of life. TEA-21 offers a solid foundation on which to 
build greater mobility for all Americans.
    I thank you for this opportunity to testify before you 
today and I welcome any questions that you might have.
    Senator Reed. Thank you for your excellent testimony.
    Let me recognize, Mr. Imparato.

                STATEMENT OF ANDREW J. IMPARATO

             PRESIDENT AND CHIEF EXECUTIVE OFFICER

                 AMERICAN ASSOCIATION OF PEOPLE

                       WITH DISABILITIES

    Mr. Imparato. Thank you, Chairman Reed, Senator Carper, and 
Senator Akaka for being here.
    I think it is particularly appropriate that we are doing 
this hearing a week before the anniversary of the Americans 
with Disabilities Act. This year, the anniversary is 
particularly significant for us in the disability community 
because a few weeks ago, we lost our Martin Luther King--Justin 
Dart. We are going to be doing a memorial service on July 26, 
the anniversary, in honor of Justin.
    Regarding Justin, one of the last times I heard him speak 
was at a transportation event that Secretary Mineta hosted. He 
was very eloquent about the importance of mass transit for 
people with disabilities in particular.
    I think that you have heard from a number of the witnesses 
and I am really glad that you had Jessie Tehranchi as a 
witness. I know Jessie. She is a member of AAPD and a very 
vocal member of AAPD. I am glad to have the opportunity to 
testify with her.
    I really have three points I want to emphasize. You have my 
written statement. The points are, and they are not rocket 
science, but I think they are important.
    The first point is that mass transit is really critical for 
people with disabilities and we are a major stakeholder for 
many mass transit systems, whether we live in an urban area or 
a rural area.
    The second point is that when you increase Federal dollars 
for mass transit in general, it benefits people with 
disabilities disproportionately because we do 
disproportionately rely on mass transit.
    The third point is that if we are going to increase the 
Federal investment in mass transit, which AAPD strongly 
supports, let's take this opportunity to make transit operators 
take the civil rights requirements of the Americans with 
Disabilities Act more seriously, and more consistently ensure 
that accessibility is part of the modernization of our mass 
transit systems.
    On the issue of why people with disabilities care about 
mass transit, two good examples are in the audience today.
    I have with me Kim Borowicz, who is an intern working at 
AAPD, and she is the President of the Disabled Students Union 
at Michigan State University. She is a woman with a visual 
disability who uses mass transit and cannot drive.
    We also have in the audience Liz Savage, who is a brilliant 
civil rights lawyer who currently works at the Arc of the 
United States. She was the person in charge of enforcement of 
the ADA for the Justice Department under the Civil Rights 
Division in the Clinton Administration. She also has a visual 
disability and depends on mass transit to get to work.
    Both Kim and Liz have a lot to contribute. I am confident 
that when Kim graduates from Michigan State, she will have an 
important job, hopefully working for AAPD. We wouldn't have the 
ADA if it wasn't for Liz Savage. Mass transit gets them to 
work. So that is one critical piece.
    We talk about the fact that 70 percent of people with 
significant disabilities are not working. Part of the reason 
for that is many of them are isolated. Many of them cannot get 
to the fixed-route system from where they live, and that is an 
issue of curb cuts. It is an issue of pedestrian access. And 
many of them do not have a fixed-route system that is 
accessible, even if they could get to it.
    So, clearly, if we want the vision of the ADA, equal 
opportunity, equal employment opportunity in particular, and 
full participation, we need to invest more in mass transit.
    You all know what is going on in State budgets right now. 
If the Federal Government does not step up to the plate and 
help the States invest in mass transit, they are going to have 
a hard time doing it on their own.
    Just specifically, a couple of the statistics in my written 
testimony that I wanted to highlight.
    The National Organization on Disability did a survey, 
finding that 30 percent of people with disabilities identified 
that they had problems with inadequate transportation in their 
local communities, as compared with 10 percent of the general 
public.
    And the National Center for Health Statistics did a survey 
that found that 5.5 million people reported that they never 
drive because of an impairment or health problem. So, we are 
talking about a large population.
    In the context of the TEA-21 reauthorization, we strongly 
encourage you to look at stronger enforcement of the ADA. And 
we think one way to accomplish that is to empower the Secretary 
of Transportation to have more authority to coordinate and make 
sure that there is consistency across all of the modes that are 
charged with enforcing the ADA within the Department of 
Transportation.
    We strongly agree with the AARP's recommendation that you 
increase funding for Section 5310 that provides funding for 
transportation for people with disabilities and for seniors. 
And we think it is important that you disseminate more 
information about what people's rights are to people who are 
protected by the ADA and more information to transit providers 
so they know what their obligations are.
    Thank you very much.
    Senator Reed. Thank you very much for your very succinct 
and very thoughtful testimony.
    Secretary Porcari, please.

                  STATEMENT OF JOHN D. PORCARI

                 SECRETARY, MARYLAND DEPARTMENT

                       OF TRANSPORTATION

    Secretary Porcari. Thank you. Good afternoon.
    For the record, I am Maryland's Transportation Secretary 
John Porcari. I am honored to be here today to talk about the 
needs of our transit-dependent citizens and, in particular, 
Maryland's experience with our Job Access and Reverse Commute 
Program.
    First and foremost, I want to recognize the leadership of 
this Subcommittee, in particular, Chairman Reed, for the energy 
and enthusiasm that you are bringing to this topic and to 
reauthorization in general. We very much appreciate that.
    We have to remember that these programs provide assistance 
to people who are engaged in a struggle to survive. I would 
like to offer some perspectives from our own experience here in 
Maryland administering a job access program.
    But first, if I may, let me get to the bottom line.
    This program has been a success in Maryland and given what 
we have seen it do in practice, it should be reauthorized. In 
fact, we believe the national funding level should be 
increased, perhaps from the fiscal year 2003 level of $150 
million per year nationally up to about $175 million.
    Second, the process used to appropriate the funds should 
remain unchanged. It works well. If, however, any consideration 
is given to distributing the funds on a formula basis rather 
than a discretionary basis, we urge that you take into 
consideration urban unemployment and poverty levels because 
statewide averages are certainly very deceiving in this area.
    In Maryland, we are ranked as a wealthy State overall, but 
8.5 percent of our residents still live in poverty. The problem 
is most severe in our most urban and rural jurisdictions--
Baltimore City and Somerset County, for example. The service 
sector jobs that offer real hope for poor people in these areas 
are often located in the suburbs, where transit services are 
few and far between.
    So the solution for us has been innovative and flexible 
transportation services, the kind of services funded through 
the Job Access Program. The most successful projects are those 
that combine program funds with other Federal transit funds. We 
believe this focus on coordination with social service needs is 
one of the hallmarks of our program.
    Since the inception of our Maryland program, 45 different 
services throughout Maryland have received funding under this 
program. As you see on the map, and in your handouts, the 
program has literally reached every corner of our State with 
programs in both the rural and urban areas and suburban areas 
as well.
    To date, through fiscal year 2002, Maryland has received 
$12.5 million in program funds. A positive feature of this 
Maryland program is that funding from other Federal programs 
can be used for the 50 percent match. For example, the 
Temporary Assistance for Needy Families, or TANF, can be used 
as the 50 percent match. And this helps increase coordination 
between our transportation and our human services agencies 
throughout the State.
    One specific example is the Career Caravan, which connects 
Baltimore City residents with suburban Howard County. The 
Career Caravan is a great partnership. It is organized by the 
Empowerment Zone in southwest Baltimore, which has the mission 
of identifying ready-to-work people. The Empowerment Zone can 
combine transportation to work funded by this program with 
skills, training, child care, drug treatment, and a host of 
other wrap-around services that together meet the needs of the 
clients.
    With these program funds, the transit providers have helped 
thousands of welfare recipients get to new jobs and to 
transition toward independence.
    Since our program began in 1999, more than 1.3 million 
passenger trips have been provided through Job Access-funded 
services in Maryland. But the program cannot simply be judged 
on the numbers.
    The bottom line is that this program is changing people's 
lives. Thanks to this program, Linda Carter of Baltimore City, 
who was having trouble finding work, now uses the Career 
Caravan that I just mentioned, their transportation service to 
get to her job at a retail establishment in Columbia, Maryland. 
This service made her job possible because it was the only way 
that she could get to work for the early morning hours that 
that particular job required.
    Another great success story comes from the Work Force 
Transportation Referral Center. This Center is a unique 
collaborative 
effort between Sojourner Douglas College, Baltimore City's 
Housing Authority, the Baltimore County Department of Social 
Services, and our Maryland Department of Transportation, 
Maryland Transit Administration.
    Thanks to this group, Madeline Brooks was able to get a job 
in Towson, even though it required getting transportation 
during irregular hours. This service that was provided under 
this program allowed her to get transportation from her home in 
Pikesville all the way to Towson.
    She got her first job in March of 2001. Since then, Ms. 
Brooks has been able to save enough money to buy her own car 
and in June, she bought a home and left Section 8 housing. Job 
Access has helped Madeline Brooks become an independent person 
without any additional county, State, or Federal assistance. 
This is what the program is all about, changing lives.
    The challenge to all of us now is to maintain and build 
upon the existing services funded through this program. The 
bottom line is transportation connects people to opportunities. 
That is why the Job Access and Reverse Commute Program is so 
important to us.
    Thank you.
    Senator Reed. Thank you very much, Mr. Secretary, again for 
your excellent testimony. We appreciate all your comments.
    Let me begin the questioning by picking up an issue that 
was raised by Ms. DeSalles. The perception of the elderly that 
there is crime on transit and that dissuades them from using 
transit.
    One, is it a perceptual problem, or is it a real problem? 
And second, if it is a real problem, is that a manifestation of 
systems that just do not have the resources to provide the 
types of systems and protections and everything else that we 
need?
    Ms. DeSalles. There, of course, is the reality of crime, 
which would require large amounts of money to provide 
protection. But we have found that among seniors, it is more of 
a problem of perception of crime. And so they isolate 
themselves in their homes to prevent what they sense might 
happen.
    There are some relatively inexpensive ways in which to ease 
those fears and that is, making certain that our transportation 
systems involve stops that are in well-lighted areas, where 
there are people around, things that give you a sense a comfort 
as you wait.
    Senator Reed. Well, thank you. This whole issue, the points 
you raised and some of the other points, and together with our 
other hearings, suggest to me that we have made some real 
progress over the last several years in mass transit, in terms 
of ridership growing, in terms of those old perceptions of 
never get on mass transit because you would run into a criminal 
element or problems.
    My fear is we will lose those unless we keep investing at a 
significant level. Of course, Andy, you have pointed out how, 
if we are going to go forward with reauthorization, we have to 
keep our commitment to ADA that is curb cuts and that is buses 
like in Birmingham that will be fully accessible to handicapped 
individuals.
    All of this suggests, to me at least, and I must say that I 
am not the most objective on this point, is that this is not 
just a question of maintaining what we have. It is actually 
putting some additional resources in to keep the system moving, 
to attract the riders. And without the riders, no system will 
be able to operate without huge subsidies.
    So, you might comment, Andy, and then Mr. Secretary, and 
Ms. DeSalles.
    Mr. Imparato. Yes, I could not agree more. I should point 
out on a personal level, I live in Baltimore. I take the MARC 
train every day to Union Station and then I take the Metro to 
Farragut North. It is crystal clear to me that Maryland has 
figured out mass transit. The MARC train is a modern train. It 
is a comfortable ride. It is a very pleasant way to commute.
    The District of Columbia has not figured it out. The Metro 
is 
incredibly crowded and gets more crowded every day. If you need 
elevators in the DC Metro, a lot of times you are out of luck. 
And I am sure you have read in The Washington Post about some 
of the problems.
    You are right. Some localities need more help than others, 
and I would say that DC and the DC Metro area is an area that 
needs a lot of help.
    I am involved in the Olympic bid here in part because I am 
hoping that with the new resources that will come in, if we get 
the Olympics, we can really modernize the transit operations 
around DC because it is desperately needed.
    Senator Reed. Thank you.
    Go right ahead, Ms. DeSalles.
    Ms. DeSalles. We can also work to make more destinations 
available. There are many people that do not use the 
transportation because of the limits of that. Certainly for 
employment and for medical appointments, it is very necessary. 
It is also necessary to enhance the social life of older 
people, getting to where you need to go.
    Senator Reed. Thank you very much.
    Mr. Secretary, your comments. You have particular expertise 
in all of these issues.
    Secretary Porcari. You have made some very important 
points, Mr. Chairman. I think perhaps the most important one is 
that you simply cannot stop the level of investment in transit 
and expect transit ridership to continue to go up.
    The MARC service, for example, that Mr. Imparato had 
mentioned is very, very capital intensive, and we have made a 
long-term commitment to upgrade the rolling stock, to make the 
improvements that are necessary.
    What we have found is that if you provide safe, clean, 
affordable and convenient service for transit, people will use 
it. I believe also the reality is that, in many States, 
Maryland in particular, given the growth in population over the 
next 20 years and the growth in congestion, no matter what we 
do with all of the transportation modes, that transit has to be 
an integral part of the solution.
    Senator Reed. Thank you, Mr. Secretary.
    I have additional questions, but Senator Akaka, please.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Ms. DeSalles, in your statement, you mentioned that, 
currently, the use of public transportation by older persons is 
limited. And in Honolulu, Hawaii, we have a successful program 
which seniors are provided with a 2 year pass for $25. The pass 
provides unlimited bus travel throughout the island of Oahu. 
This bus circles the island. What other incentives are being 
used across the country to encourage seniors to utilize public 
transit? And what could be done to encourage seniors to utilize 
public transit?
    Ms. DeSalles. Well, I have been fortunate enough to take a 
trip around the island for $1 on that system that you are 
referring to, and it is wonderful. It might have been a little 
easier in Oahu to develop that because it is self-contained.
    What is causing a lot of problems is in our rural areas 
where transportation is very, very limited. An example--I live 
in Sacramento, California, and we have mass transit there. But 
a few miles away, in the foothills, it is virtually impossible 
for seniors to get any place easily and cheaply by bus.
    We need additional funding for the services that can go 
door to door. We need to certainly continue services for the 
disabled. But we need services for that segment of our 
population, people in their late 70's, early 80's, that do not 
drive any longer. We need to provide more money for services to 
enable them to participate.
    Transportation systems must have riders in order to 
generate income. So it is kind of like a chicken and egg 
situation. You have to have the service before you can get the 
riders. Then I think the riders will utilize it.
    Senator Akaka. You are correct. Ridership is very important 
to whatever the transit system is.
    Ms. DeSalles. Absolutely.
    Senator Akaka. So the other part of my question was, is 
there a way of increasing senior participation in transit?
    Ms. DeSalles. Other than what I mentioned about the reduced 
fares and the availability. I think that public education 
helps. Many seniors may be aware of services available in their 
area. But in areas where they are unaware, then we need to 
publicize those services.
    Senator Akaka. I should tell you then that I should have 
been educated in Hawaii because I am entitled to use the 
transit system with a senior card. But I have not.
    [Laughter.]
    Ms. DeSalles. Because you did not know about it or you just 
haven't?
    Senator Akaka. Well, I really did not know about it.
    Ms. DeSalles. Okay.
    Senator Akaka. I thought I had to pay my way but because of 
this hearing, I learned about it.
    [Laughter.]
    Mr. Imparato, you mentioned in your statement that, 
according to a population-based survey, 30 percent of disabled 
Americans have a problem with inadequate transportation. What 
would you recommend to provide greater transit opportunities 
for people with disabilities and reduce the number of people 
whose transit needs are currently not met?
    Mr. Imparato. Thank you for your question, Senator Akaka.
    I think one of the basic principles of disability policy is 
that when you do something new, do it right and build in access 
and make it state of the art. And I think one of the most 
tangible impacts the ADA has had is on buses because it has a 
very simple rule --if you are going to buy a new bus, the bus 
has to be accessible.
    I think one of the challenges for us is to take this great 
equipment that is coming down the pike and train staff so that 
they know all of the access features and how to use them.
    We have had problems in some cases with drivers not wanting 
to call out stops for blind and visually impaired and other 
riders who need the stops to be called out. And we have had 
problems with some drivers not wanting to let service animals 
get on a bus in some jurisdictions.
    That is a training issue.
    I believe one of the challenges as we move into the next 10 
years, post-ADA, is to take this great equipment and make sure 
that everybody is trained in how to use it and do some of the 
outreach like you were talking about with seniors, so that 
riders with disabilities know that these features are there.
    I took a bus recently in Baltimore and I was very 
impressed. They called out all the stops electronically and it 
had them going across an LED screen, so if you were deaf, you 
could still see what stop you were coming to. It helped me 
because I had never taken this route. And I knew exactly where 
I was at every point. I think for seniors, that is helpful, 
too. If the stops are being called out, they may not be able to 
see the street, but maybe they can hear or see the screen 
telling them where they are.
    Senator Akaka. I am glad you mentioned training because in 
Hawaii drivers were commended for the courtesy shown to riders.
    I mention that because we hear from riders when drivers are 
not courteous. Then they do not want to ride. But there are 
also those drivers, as you point out, who stop mid-way to let 
people off or to get them on. By doing that, people tend to use 
the buses or the transit more.
    I think that what you mentioned about training is so 
important to increasing traffic.
    Mr. Secretary, what have you learned during the 
implementation of the Job Access and Reverse Commute Program 
that you would want to share with other transit administrators 
attempting to provide services for Reverse Commuters?
    I ask that, too, because I have been trying to read the 
chart that is behind you.
    Secretary Porcari. Senator, first and foremost, there is no 
cookie cutter solution. I think the most important lesson is 
that you need to tailor the approach to the particular area.
    That chart is a little bit busy. The reason it is is that 
there are a variety of approaches. These are local transit 
systems in Maryland, working through our Maryland Transit 
Administration. And we are, in essence, bundling those grants 
and having a statewide program. So in a rural area, it may be 
vanpooling service. It may be extending the hours of a small 
local transit system to meet the particular needs of employees. 
It may be adding routes in other jurisdictions. It is a 
combination or a hybrid in many.
    What we have found to be the most important lesson is that 
if it is truly going to work for Job Access and Reverse 
Commute, it has to start at the local level. You have to truly 
listen. And you have to tailor it to what those particular 
needs are.
    Senator Akaka. Maryland is such a diverse State. I commend 
you for trying to tailor the transit system to the needs in 
your local communities.
    Thank you, Mr. Chairman, and thank you to the witnesses.
    Senator Reed. Thank you, Senator Akaka.
    Let me follow up with a couple of additional questions. I 
think, Mr. Secretary, you had a comment with respect to 
increasing senior usage when Senator Akaka addressed his 
question to the panel. If you might.
    Secretary Porcari. Yes, Mr. Chairman. One additional 
suggestion that has been very successful for us is Neighborhood 
Shuttle Service, where, in addition to mainline bus service or 
light rail or heavy rail, we have begun implementing, and 
again, it has been very successful, to have neighborhood 
shuttles, which are smaller, low floor buses that are going 
through residential areas. They are connecting with the 
shopping centers, and they are connecting with the light rail 
station. They are providing very customer-friendly and very 
unobtrusive transit service that may be particularly appealing 
to our seniors because it will be coming right through your 
neighborhood.
    Senator Reed. Thank you.
    One of the issues that comes up invariably is the fact that 
any time you have a scarce resource, you have to allocate it. 
You do it several ways, and one way is the eligibility rules. I 
know in ADA, in terms of paratransit, there are certain 
eligibility rules. If you could comment, Mr. Imparato, Mr. 
Secretary, and Ms. DeSalles, about the status from your 
perspective of the ADA eligibility rules for paratransit or for 
some of these innovative services that are not traditional 
buses and trains.
    Mr. Imparato. Well, I think the whole paratransit issue is 
an issue on which there is some tension in the disability 
community because, on the one hand, those of us who focus on 
national policy, we are trying to make the fixed-route systems 
as accessible as possible and now we are trying to focus on 
training issues and path of travel issues between the house or 
the apartment and the system, so that people do not have to 
rely on paratransit. And one of the reasons we are doing that 
is exactly what Jessie Tehranchi talked about.
    Think about it. For you as a Senator, if you had to give a 
week's notice before you could get transportation to where you 
wanted to go. Your schedule changes on an hourly basis. It 
would be very hard for you to get everywhere you need to go if 
you had to give a week's notice. So given the level of funding 
for paratransit, it is not going to meet the needs.
    On the other hand, it is very popular for a lot of people 
with disabilities, in part because they do not have curb cuts, 
they do not have a way to get to the fixed-route system.
    So there is that tension.
    I think that we would like to see more investment in the 
fixed-route system and getting people to the fixed-route 
system. But we would also like to see paratransit operators get 
enough funding to meet the demand, which continues to be more 
than what they are able to provide.
    Senator Reed. Mr. Secretary, your perspective?
    Secretary Porcari. Mr. Chairman, I think nationwide, 
virtually every large jurisdiction that is providing 
paratransit systems has some similar experiences in that the 
demand is far outstripping our financial ability to provide it.
    I do not think any of us are satisfied, frankly, with the 
service we are providing for the disabled community. There are 
service improvements that we need to make and there are some 
specific elements with paratransit service. For example, the 
so-called Lifeline Services, kidney dialysis patients, for 
example, where it is clearly a matter of medical emergency to 
provide that service on a regular basis. And many of the 
systems have, in essence, set up a service within a service to 
accommodate that.
    Some of the strategies that have helped a little bit are 
making fixed service free for eligible paratransit users for 
those that can either occasionally or consistently use that 
service. But especially given the changing demographics in 
America, as the population ages, we are clearly going to have 
to provide better paratransit service in the future. It is one 
of our most pressing service delivery issues on a day-to-day 
basis.
    Senator Reed. Thank you, Mr. Secretary.
    Ms. DeSalles, you mentioned in your testimony, and a final 
question I have for all the panelists, what is your advice on 
coordination because that seems to be an issue in all of your 
testimony, how to better coordinate services. Any thoughts you 
or AARP have we would appreciate.
    Ms. DeSalles. Well, there is an excellent example in 
Arizona, the Maricopa Transportation Planning Group. We 
certainly believe that older persons, as was testified to 
earlier, should participate on those planning boards to 
represent the needs. It is a truism that coordination brings in 
lower cost and advanced services.
    We need to impress upon, at the local level, that 
consideration be given to including the transportation needs of 
people in all of the planning processes.
    Senator Reed. Thank you.
    Mr. Imparato.
    Mr. Imparato. Yes. I think, as with many issues, 
coordination is most important on the ground, if you will. What 
is going on in Providence is more important than what happens 
in Washington. But the Federal agencies can make it easier for 
people at the local level to pool their resources and to create 
efficiencies.
    I think an example is, during welfare-to-work, there was an 
effort to coordinate resources from the Department of Labor, 
from the Department of Transportation, and from the Department 
of Health and Human Services to do whatever it would take to 
get people from where they were to where they needed to be, 
both for purposes of child care and for purposes of employment.
    That same kind of coordination is going to be needed if we 
are going to do something about the 70 percent of people with 
significant disabilities who are not working, many of whom want 
to work.
    We need to look at what is the role of health and human 
services and all the entities that it funds? What is the role 
of labor and all the entities that it funds? What is the role 
of transportation? How do we make them work together? And then 
there are education elements to it and recreation elements to 
it. But clearly, the coordination is a buzzword. It is an 
important concept.
    I guess what I am finding is it is not happening as much at 
the local level as it needs to. And whether it is happening in 
Washington or not, we need to make sure it happens locally.
    Senator Reed. Thank you.
    Mr. Secretary.
    Secretary Porcari. Mr. Chairman, it is an excellent 
question.
    I think one of the greatest aspects of this Job Access and 
Reverse Commute Program is that it not only permits, but also 
in many ways encourages the kind of coordination at the State 
and local level, at the State level with our State Department 
of Human Resources where the transportation services under this 
program are a means to an end. They are connecting people with 
opportunities. They are bringing people to jobs.
    At the local level, it works that way as well where it just 
is a tool in the toolkit, if you will, on welfare-to-work 
initiatives, on connecting people with opportunities in 
general.
    The flexibility inherent within this program has been a 
real asset in using it with TANF and other services to connect 
people.
    Senator Reed. Well, thank you very much.
    I also want to thank my colleagues who joined me, 
particularly Senator Akaka, and thank both panels for excellent 
testimony. Their experiences and millions of others that they 
symbolize are improved by the very existence of transit 
service. So the seniors, disabled Americans, and working 
Americans who need to get to their workplace and get their 
children to day care and to school can. And it is the 
responsibility of our Subcommittee to keep their experiences in 
mind as we work on the reauthorization of TEA-21 because their 
needs go to the heart of our Nation's promise of opportunity, 
freedom, and independence in your personal life.
    I would note that the record will remain open for 5 days 
for Members to submit statements and also for questions that 
will be presented to the panelists for the record.
    If there are no further comments, and I do not think there 
are, I will thank everyone and adjourn the hearing.
    Secretary Porcari. Thank you, Mr. Chairman.
    Mr. Imparato. Thank you.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]
    [Prepared statements, response to written questions, and 
additional material supplied for the record follow:]
             PREPARED STATEMENT OF SENATOR DANIEL K. AKAKA
    Thank you, Mr. Chairman. The Federal Government has a significant 
role in the effectiveness of transit which provides essential access to 
education, employment, medical care, and other activities of daily 
life. In fiscal year 2002, Federal funding to local transit agencies 
totaled $6.7 billion. Communities must have effective transit systems. 
Many individuals depend on public transit for their mobility.
    The Elderly and Persons with Disabilities Formula Program makes 
grants to States for distribution to nonprofit agencies to meet the 
tailored needs of the elderly and individuals with disabilities. This 
Federal program is particularly important in Hawaii. Hawaii has a large 
and growing elderly population. Between 1990 and 2000, Hawaii's 
population of residents over the age of 65 grew by 29 percent. This was 
the fifth fastest rate of growth in that age demographic in the 
country. Hawaii received $421,383 for the Elderly and Persons with 
Disabilities Formula Program in fiscal year 2002.
    Today, we will further examine ways in which we can improve and 
expand services for the disabled, elderly, and low-income families in 
the reauthorization of TEA-21. This discussion is extremely significant 
for Hawaii as we evaluate ways to provide better transportation 
services for those with special needs. I thank the witnesses for 
appearing today and I look forward to their testimony.
                               ----------

              PREPARED STATEMENT OF SENATOR JON S. CORZINE

    Thank you, Mr. Chairman, for holding this latest hearing on 
reauthorization of the Transportation Equity Act for the 21st Century--
TEA-21, and I would like to join you in welcoming our witnesses.
    Mr. Chairman, as the Banking Committee continues its work on the 
reauthorization of TEA-21, I appreciate the opportunity to discuss how 
TEA-21 can do a better job in meeting the needs of those who depend on 
public transportation for their basic mobility. First and foremost 
among these needs is the need to ensure that we secure funding for the 
programs that focus the most on the transit-dependent: The Elderly and 
Persons with Disabilities Formula Program and the Job Access and 
Reverse Commute Program. These programs have been beneficial throughout 
the country and especially in my own State of New Jersey.
    For fiscal year 2002, New Jersey received $2.47 million in funding 
under the Elderly and Persons with Disabilities Program. This money 
helped senior citizens throughout the State in getting to doctors' 
appointments, run shopping errands, and visiting friends. Basically, it 
left them with the ability to remain as independent as possible.
    For fiscal year 2002, I was proud to work with my colleague, 
Senator Torricelli, to make sure that New Jersey received $3 million 
for its share of the Job Access and Reverse Commute Program. This 
helped connect welfare recipients with work, as well as provide access 
to suburban employees who must reverse commute from the city to suburb 
to find work.
    Mr. Chairman, I look forward to working with you to develop 
legislation that continues to provide funding for these and other 
important programs. Thank you for holding this hearing and I look 
forward to hearing from our witnesses.
                               ----------
                 PREPARED STATEMENT OF JESSIE TEHRANCHI
                          Birmingham, Alabama

                             July 17, 2002

    Mr. Chairman, my name is Jessie Tehranchi and I live in Birmingham, 
Alabama. I am glad to be here representing the Transportation Equity 
Network, a national coalition of grassroots organizations concerned 
with transit.
    Fifteen years ago, I was diagnosed with multiple sclerosis. The 
challenge of multiple sclerosis has taught me a lot.
    I became aware of the importance of a quality public transportation 
system in 1995, when the bus system in Birmingham suddenly closed. This 
was an alarming time for people who used transit to get to jobs and 
other services. People on kidney dialysis could not get to clinics! 
Because of the outcry of the community, Greater Birmingham Ministries 
and the Alabama Kidney Foundation organized a rally in downtown 
Birmingham. Even with the storm warnings predicted, the rally was still 
planned. Eighty people showed up--many of them in wheelchairs--in five 
inches of rain. On that day the Citizens for Transit Coalition was 
organized.
    My eyes were opened from that experience; and since then my 
multiple sclerosis condition has progressed, and I no longer drive.
    I use CLASTRAN, the paratransit service that serves the communities 
around Birmingham. Although this service is much needed and much used, 
I have been stood up by this service more than once in the past years. 
CLASTRAN--the drivers, dispatchers, and administration--tries very 
hard, but these gaps in service illustrate why greater investment in 
transit and paratransit are necessary.
    I am a volunteer member of a number of organizations. This 
includes: The Government Relations Committee of the Alabama Chapter of 
the National Multiple Sclerosis Society and a member of the Alabama 
Disability Action Coalition. I am the Transportation Chair of the 
League of Women Voters of Greater Birmingham. I am an active volunteer 
in Alabama Arise, a coalition working on issues that affect low-income 
persons, and I serve on the statewide task force for disability 
transportation issues.
    These organizations understand that transportation IS A NECESSITY.
    In Alabama, there are more than 900,000 transit disadvantaged 
persons. The State of Alabama has a population of some 4 million.
    People must have transportation to stay integrated into society: To 
work, to shop, for recreation, for medical services, to vote, to 
function independently.
    Accessible transportation allows people with disabilities free 
movement in society.
    As this Committee prepares for the reauthorization of TEA-21, I 
urge you to remember the importance of ensuring that transit users have 
a voice in the issues that affect transit service.
    Transit users must be VOTING members of the Metropolitan Planning 
Organizations, Departments of Transportation, and transit agencies.
    Congress should also pay close attention to the metropolitan and 
statewide planning process, and the metropolitan certification process. 
TEA-21 reauthorization is an opportunity to ensure transit user 
involvement, to clarify the importance of civil rights and 
environmental justice, and to more fully address the needs of transit 
dependent people.
    Thank you very much for this opportunity to offer to you my 
thoughts for better transportation access to all our citizens.

                               ----------
                  PREPARED STATEMENT OF FAYE THOMPSON
                         Kenova, West Virginia

                             July 17, 2002
    Mr. Chairman and Committee Members, it is an honor to be with you 
here today to talk about something that is dear to my heart. First of 
all, let me tell you something about myself. My late husband and I 
raised three sons, and that was an experience in itself. After my 
children started school, my husband who was employed by the Norfolk and 
Western Railroad went to work and I started back to school to become an 
elementary school teacher in a one room schoolhouse in rural 
Appalachia, West Virginia.
    I saw the many challenges of the rural Appalachian people, so I 
changed careers and became a Social Worker for the Department of Health 
and Human Resources in rural West Virginia. Throughout my career, I 
worked with low-income families and one of the biggest obstacles of 
obtaining services was the lack of transportation. At that time there 
was no public transportation in Wayne County. During the 22 years of my 
career there was always a need for individuals to access services. 
Throughout my life, I have been a very independent person as you can 
see, raising a family, starting not just one career but two in my life, 
and having the privilege of having my own transportation. Most of us 
take for granted picking up our car keys, going out of the house, and 
going anywhere we want to go.
    Even though I have always recognized the need for rural 
transportation, I never thought that it would be something that I would 
need. After my husband passed away, I lived alone in my home. I then 
downsized to an apartment. I was still able to go to my homemaker 
meetings, church activities, Board Member meetings, volunteer work, and 
continued to meet my friends for lunch and social activities. My 
physician informed me that I was going to have to have both of my knees 
replaced. He stated that after my surgery and rehabilitation that I 
would need to go to physical therapy three times a week for several 
weeks. My two eldest sons both live out of State and my youngest son 
works full-time, therefore, they were unable to take me to my therapy 
sessions. I then realized that I was one of the people who needed 
transportation. I was no longer independent and this was quite a shock 
to me. Thanks to public transportation I was able to obtain the medical 
services that I needed.
    Being a member of Wayne County Community Service Organization, Inc. 
Board of Directors, I can sit here today in front of you and let you 
know how important the Public Transit System is to the people. How it 
enables them to access needed services. Wayne X-Press Public Transit 
System in Wayne, West Virginia, provides transportation services to 
people for medical appointments, to jobs, job interviews, job training, 
social activities, senior citizen centers, Adult Day treatment 
programs, general education training, parenting classes, etc. I am here 
today to ask you distinguished ladies and gentlemen to continue funding 
for Public Transit Systems. Why, because it is the lifeline for the 
public. I invite all of you to Wayne County, West Virginia, to ``hop 
aboard'' the Wayne X-Press.

                               ----------
                PREPARED STATEMENT OF LAVADA E. DeSALLES
                    Member, Board of Directors, AARP

                             July 17, 2002

    Good afternoon, Chairman Reed, Ranking Member Allard, and the other 
distinguished Members of the Subcommittee on Housing and 
Transportation. My name is Lavada DeSalles. I serve as a Member of the 
AARP Board of Directors. I appreciate this opportunity to present our 
views regarding transit programs for older Americans-- offered in 
support of the Subcommittee's development of legislation to reauthorize 
the Transportation Equity Act for the 21st Century, TEA-21.

Demographic Shift
    In the course of this series of hearings, the Subcommittee has 
heard testimony regarding older persons' growing need for transit 
services. This need will become particularly strong in the years ahead. 
The United States is an aging Nation. By 2030, nearly every fifth 
person in the United States will be age 65 and older. In the next two 
decades, the fastest growing age segment will be persons over the age 
of 85. This age segment is projected to reach approximately 6.5 million 
by the year 2020, compared with 4 million in 1998. Tomorrow's seniors 
will have been accustomed to a high level of mobility and will expect 
that level of mobility to continue into their later years.

Quality of Life
    Basic transportation is a given for most of us, and like the 
utilities that we take for granted, we do not take notice until a power 
shortage, water or gas shutoff upsets our expectation. Many older 
adults, however, know too well that without a transportation connection 
many community services and social activities are simply nonexistent 
for them. From our research, we know that mobility is a critical 
element of overall life satisfaction and is strongly linked to feelings 
of independence. The corollary lack of satisfaction in the absence of 
mobility is illustrated by a comment from an AARP focus group 
participant living in the suburbs. The participant related his 
experience that his and his wife's ``world had been reduced to one 
square mile'' since he had stopped driving.

Aging in Place
    Transportation is a crucial component of the infrastructure of a 
livable community for older Americans who are aging in place. According 
to the 2000 Census, only 
4.2 percent of persons 65 and older moved during the previous year, 
compared to 
16.6 percent of younger persons. When elderly persons do move, they 
tend to move 
within the same county. This phenomenon of aging in place is occurring 
to a large degree in the suburbs. In the year 2000, 56 percent of 
elderly persons lived in suburban areas, 23 percent in rural areas, and 
21 percent in central cities. This geographic distribution has 
consequences for the modes of travel available to individuals. Public 
transit is limited in suburban and rural areas. As a result, residents 
must rely heavily on the private automobile.

Use of Public Transportation
    As people age, they make fewer trips in their community. Over half 
of those age 75 and above take fewer than five trips out of their homes 
per week, compared to one-third of those ages 50 to 74 who take fewer 
than five trips out their homes per week, according to AARP's 
``Understanding Senior Transportation Survey (2002).'' This reduction 
in travel is related in large part to driving cessation.
    Currently, use of public transportation by older persons is 
limited. According to the Bureau of Transportation Statistics (Omnibus 
Survey, May 2002), 11 percent of all persons age 65 and older, drivers 
and nondrivers alike, reported using public transportation the previous 
month. However, among nondrivers 75 years of age and older, 14 percent 
identify public transportation as their primary mode, and nearly 20 
percent say that they use public transportation on a monthly basis, 
according to the Understanding Senior Transportation Survey. This 
suggests that public transportation services can play a very important 
role in enhancing mobility for these nondrivers.
    The AARP's Understanding Senior Transportation Survey also reported 
several problems respondents identified that made them less likely to 
use public transportation. These include concerns about crime, 
unavailable destinations, and trip length of time.

Interaction of Health and Community Mobility
    Not surprisingly, the Understanding Senior Transportation Report 
found that driving is the usual mode of transportation for adults age 
50 and older, although the percentage of those who are licensed and who 
drive regularly declines slowly up to age 85, after which there is a 
substantial reduction in driving. Driving, as well as use of other 
modes of transportation, is greatly affected by an individual's health 
and functioning. Indeed, the same report showed that health and 
functional status, not chronological age, is the strongest predictor of 
transportation mobility. While over 90 percent of healthy persons age 
75 and older drive, fewer than two-thirds of those in poor health still 
drive.
    Further, individuals age 85 and older with excellent health and 
functional status are more mobile than their younger counterparts with 
poor health and functional status. The wide variation of health and 
functioning among the elderly suggests the need for a family of 
transportation services to meet diverse needs.

TEA-21 Transit Investments
    TEA-21 has provided a stable, dependable funding stream for transit 
programs. With the increase in transit investments under TEA-21, 
transit ridership has seen strong growth. AARP believes significant 
additional investment in transit is needed to reach those older persons 
now and in the future for whom transit is unavailable or inadequate to 
meet their transportation needs.

Need for Greater Transit Coordination
    Older persons may be served by several transportation programs. 
While some use regular fixed-route service in urbanized areas, others 
rely on the nonurbanized, 
elderly and disabled, and complementary ADA paratransit services. Human 
services transportation programs have developed to serve the needs of 
clients who, for the most part, were otherwise unable to access 
services. Over the years, this has resulted in a multiplicity of 
transportation operations performing similar services independently in 
the same communities. Studies by AARP and others have found that 
coordination efforts can provide many benefits, including lower trip 
costs, extended hours of service, and a greater choice of destinations. 
An excellent example may be found in the Chairman's home State of Rhode 
Island, where the paratransit system, ``the RIde,'' is coordinated 
statewide and is nationally recognized.

Greater Funding for Formula Grant Programs
    AARP supports greater funding for the Sections 5310 elderly and 
disabled and 5311 nonurbanized formula programs, in particular. The 
Section 5310 program provides capital assistance for specialized 
transportation for the elderly and persons with disabilities. While 
Section 5310 could benefit from greater coordination with other human 
services and public transit services, nevertheless the program serves 
needs that would not be met otherwise. Funding for Section 5310, 
however, is woefully inadequate for a national program. The need is 
great as well for increased funding for the Section 5311 nonurbanized 
program, which provides operating and capital assistance to transit 
providers in rural areas. Nearly one-third of trips provided by Section 
5311 transit operators are made by elderly persons. Many of these 
individuals are disabled as well. Still, fully 41 percent of persons 
age 60 and above live in rural areas that do not have transit services. 
Many of these trips provide vital linkages to medical care, as 
outpatient care takes a more prominent role in health care delivery.

Greater Resources Needed for ADA Paratransit
    Another area in need of increased funding is ADA paratransit. More 
than half of those who qualify for ADA transportation are age 65 or 
older. AARP is concerned by reports that some systems may use the 
eligibility screening process to reduce demand for ADA service. While 
AARP believes that it is quite appropriate for persons who can use 
fixed-route buses to do so, it is unfair to make eligibility too 
strict, denying eligibility to persons needing services, as a strategy 
to reduce costs. The concern with growing ADA paratransit demand has 
also contributed to widely varying eligibility standards in transit 
systems across the country. We believe there should be greater 
consistency in determining eligibility, as well as more attention to 
standards of service. Progress could be made toward achieving each of 
these objectives through enhanced subsidies to public transportation 
providers. Subsidies should be targeted to assisting providers to meet 
the real needs of their customers with disabilities, irrespective of 
age.

Engaging the Planning Process to Meet the Transportation
Needs of Older Persons
    Finally, we recognize that many of the changes required to meet the 
mobility challenges of older persons now and in the future will have to 
occur at the local level. A few metropolitan planning organizations 
(MPO's), such as the Maricopa Association of Governments in Arizona, 
have met this challenge head on by developing a comprehensive plan on 
aging and mobility. Maricopa is an exception, however. MPO's across the 
country must become more aware of the transportation needs of their 
elderly residents, and integrate approaches to meeting these needs into 
their planning processes. One viable approach some communities have 
taken is to encourage land uses, such as mixed-use developments, that 
bring together housing for the elderly, retail, health, transportation, 
and social services facilities. The reauthorization of TEA-21 presents 
an opportunity to consider the value of formally incorporating a 
targeted assessment of senior transportation concerns into the planning 
process. Another way to increase attention to senior transportation 
needs would be to ensure that older persons are represented on MPO's.
    In sum, AARP believes that transportation choices are essential in 
maintaining older persons' independence and quality of life. The 
transportation needs of older Americans are great and growing, and will 
require multiple solutions at all levels of government going forward. 
TEA-21 offers a solid foundation on which to build greater mobility for 
all older Americans. Thank you for this opportunity to testify before 
you today. For the committee's review, I have attached summaries of the 
AARP research reports mentioned in my testimony. I welcome any 
questions you may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                PREPARED STATEMENT OF ANDREW J. IMPARATO

                 President and Chief Executive Officer
            American Association of People with Disabilities

                             July 17, 2002

    Chairmen Sarbanes and Reed, Ranking Members Allard and Santorum, 
and distinguished Members of the Committee, my name is Andrew J. 
Imparato and I am the President and CEO of the American Association of 
People with Disabilities (AAPD), based here in Washington, DC. Thank 
you for giving me the opportunity to testify today about the importance 
of mass transit for the more than 56 million Americans with 
disabilities in the United States and their family members and friends. 
AAPD is a national membership organization promoting political and 
economic empowerment for children and adults with disabilities in the 
United States. With more than 30,000 members around the country, AAPD 
is the largest national cross-disability membership organization in the 
United States.
    Before joining AAPD as its first full-time President and CEO in 
November of 1999, I served as General Counsel and Director of Policy 
for the National Council on Disability (NCD), a small Federal agency 
charged with advising the President and Congress on public policy 
issues affecting people with disabilities. While at NCD, I oversaw the 
production of many reports from the Council addressing transportation 
access issues for disabled Americans. Before joining NCD, I worked as 
an attorney with the U.S. Equal Employment Opportunity Commission, the 
U.S. Senate Subcommittee on Disability Policy, and the Disability Law 
Center in Boston, Massachusetts. On a more personal note, I am a person 
with a psychiatric disability (bipolar disorder) and I have used mass 
transit for all of my professional career, first using the ``T'' in 
Boston and then using the Metro Subway system and the MARC commuter 
rail for the last 9 years.
    When AAPD surveyed its membership last December, the members 
identified transportation, housing, health care, and long-term care as 
their top four priority issues for public policy advocacy. Without 
accessible, affordable transportation, it is difficult if not 
impossible for disabled Americans to have equal access to housing, 
health care, or long-term care. Similarly, meaningful access to 
transportation is critical for Americans with disabilities to 
participate fully in basic activities such as education, employment, 
worship, job training, recreation, and other features of community life 
that most people take for granted.
    According to a population-based survey conducted in 2000 by the 
Harris Poll and funded by the National Organization on Disability, 
approximately 30 percent of 
disabled Americans have a problem with inadequate transportation, 
compared to approximately 10 percent of the general population. 
Moreover, according to a 1994-1995 survey by the National Center for 
Health Statistics, almost 5.5 million Americans report that they never 
drive because of an ``impairment or health problem.''
    Viewed collectively, these statistics paint a picture that disabled 
Americans are a key stakeholder for mass transit providers around the 
country. Accessible, affordable mass transit is a necessary 
prerequisite for any community that seeks to live up to the letter and 
spirit of the Americans with Disabilities Act (ADA). For America to 
achieve the goals of the ADA--equality of opportunity, full 
participation, economic self-sufficiency, and independent living--
America must expand its investment in accessible, affordable mass 
transit. Although the disability community has seen significant 
progress in the accessibility of mass transit systems in the almost 12 
years since the enactment of ADA, we remain concerned about 
inconsistent compliance with the ADA's requirements. Moreover, mass 
transit often falls victim to the budget axe, thanks in part to 
America's love affair with the automobile and our collective inability 
to prioritize mass transit as the preferred means for transporting our 
public. This causes those who rely on mass transit to be forced to use 
a taxicab for many destinations, an option that is often neither 
accessible nor affordable.
    Over the last several months, Easter Seals Project ACTION has 
convened two meetings of leaders from the disability and transit 
communities to develop joint recommendations and action plans for 
increasing availability of accessible, affordable transportation. The 
recommendations that were developed represent the broad goals of the 
participants and efforts underway to work together to achieve these 
goals. Many of the recommendations can and should be addressed in the 
reauthorization of the Transportation Equity Act for the 21st Century 
(TEA-21) and the other 
legislative vehicles. The primary recommendations developed during 
these national meetings are:

<bullet> Enhance partnerships between transportation providers, 
    advocates, and disability/human service providers.

<bullet> Coordinate information related to the ADA regulations, Federal 
    rulings, and procurement.

<bullet> Integrate accessible transportation into all aspects of 
    transit operations.

<bullet> Enhance education and training for the transportation 
    providers and the disability community.

<bullet> Improve the coordination of transportation services and 
    funding across Federal 
    agencies, possibly through an Executive Order requiring all Federal 
    agencies that support transportation to coordinate their programs 
    and funding to maximize 
    accessibility and affordability.

<bullet> Ensure that Federally-funded programs that promote employment 
    opportunities for people with disabilities place a high priority on 
    identifying accessible, affordable transportation that can enable 
    individuals to pursue their career goals.

<bullet> Ensure that accessible, affordable transportation receives the 
    priority funding that it deserves in carrying out the President's 
    New Freedom Initiative for People with Disabilities and 
    implementing the Supreme Court's Olmstead decision requiring access 
    to home and community-based supports for people who seek to leave 
    institutions.

    The participants in the national meetings placed a significant 
emphasis on the need for coordination of services, information, and 
training. The goal of the reauthorization of TEA-21 should be that 
accessibility is built into all aspects of transit operations and that 
existing services are better coordinated to meet the needs of people 
with disabilities.
    In addition to the specific priorities that emerged from the 
summit, I want to take this opportunity to emphasize the importance of 
strong enforcement of the access requirements of the ADA in the context 
of mass transit. In 2000, the National Council on Disability issued a 
report called Promises to Keep: A Decade of Federal Enforcement of the 
Americans with Disabilities Act. In this report, NCD documented 
significant problems with lack of consistency in enforcement both 
within and across Federal agencies. In the executive summary, NCD 
commented:

          The Department of Transportation is one of the clearest 
        examples of inconsistent intra-agency enforcement activity. Six 
        quasi-independent modes with DOT are responsible for enforcing 
        the many transportation provisions of ADA. Each mode is 
        different, sometimes strikingly so, in the interpretation of 
        ADA requirements, the approach to complaint investigation, and 
        the priority placed on public education. Some modes habitually 
        gave the covered entities broad discretion in meeting ADA's 
        accessibility requirements and timetables, while others 
        communicated a clear expectation of timely compliance. While 
        some modes were proactive in disseminating public information 
        with specific information to consumers about their rights, 
        others provided only the most general information on grounds 
        that it was not within their purview to provide more specific 
        information about rights under the law. This kind of 
        inconsistency greatly undercut DOT's overall effectiveness in 
        establishing an expectation of compliance with ADA's 
        nondiscrimination mandate among all the covered entities within 
        its purview.

    NCD's findings were echoed in the recent national meetings convened 
by Project ACTION and in AAPD's experience as a disability membership 
organization. Among the specific issues requiring attention is the 
ongoing need to increase the accessibility of fixed-route service. 
Advocates noted that ADA compliance had focused largely on accessible 
vehicles, and customer service has been neglected. For instance, the 
failure (sometimes refusal) of drivers to call stops limits access for 
blind and visually impaired riders; and the ongoing refusal to allow 
service animals to board buses denies access to people with a wide 
range of disabilities who use service animals. People also raised 
problems with broken lifts, resulting in no access for a user with a 
mobility impairment who requires a functional lift to board. Some 
chronic problems are being addressed by automated announcements and low 
floor buses, on which all passengers board by ramp. In the context of 
the metro system here in DC, The Washington Post has documented 
recently the chronic problem of elevators going out of operation and 
significantly increasing the travel time of people who rely on 
elevators to take the metro.
    Advocates have also raised concerns about the broader access of 
communities, 
noting the need to work with local governments to ensure that 
inaccessible sidewalks and lack of curb cuts do not limit access to 
fixed-route transit. When the path of travel from a person's house or 
apartment to the fixed-route system is not accessible, many riders are 
forced to take paratransit, which is more costly and less 
efficient.
    Although NCD's report and the national meetings resulted in a 
number of specific recommendations for improving enforcement of the 
transportation requirements in ADA, I am concerned that we must also 
remain vigilant that we not move backward with regard to accessibility. 
Some would seek to use changes in the political environment to revisit 
the access requirements in ADA either in statute or through 
administrative interpretation. To avoid administrative erosion and to 
enhance enforcement, I strongly recommend that the Office of the 
Secretary of Transportation assert leadership in developing and 
implementing a strong and consistent expectation of demonstrated 
compliance with the ADA's access requirements among all of DOT's 
grantees. It is critical that the ADA be viewed as a national civil 
rights law requiring strong, consistent, and fair enforcement not 
simply a technical regulation to be administered like a grant 
requirement within the discretion of a particular mode.
    Perhaps just as important as the increased role of the Office of 
the Secretary, I strongly recommend that the Department of 
Transportation receive significant new funding to carry out an ongoing 
program of trainings in multiple locations and multiple languages for 
end-line consumers, advocates, and transit providers so that they know 
ADA's requirements and what to do when a violation occurs.
    Thank you again for providing me this opportunity to testify. I 
welcome the opportunity to answer any questions that you may have.

                               ----------

                 PREPARED STATEMENT OF JOHN D. PORCARI
            Secretary, Maryland Department of Transportation

                             July 17, 2002

Jobs Access in Maryland

    The successful transition of people with low incomes from welfare-
to-work is top priority for the State of Maryland. Recognizing that 
these individuals face many challenges when attempting to access 
employment opportunities, including a lack of personal transportation, 
gaps in current public transit, nonstandard work hours, and new job 
locations far from their homes, Maryland has been aggressive in seeking 
Federal assistance through the Job Access and Reverse Commute (JARC) 
Program. The result is a program that allows local transportation 
providers to implement new bus routes, extend the hours of existing 
services, and initiate specialized transportation services that meet 
many of these needs and link workers with job opportunities. Maryland 
has thus far benefited from use of $12.5 million in Job Access and 
Reverse Commute funds. Reauthorization of the JARC Program at or above 
the fiscal year 2003 level is vital to ensure Maryland can continue 
these efforts.
    Through its welfare reform efforts since 1996 Maryland has seen 
large reductions in the numbers of individuals receiving public 
assistance. Through concerted efforts by State welfare administrators, 
with support from other State, regional, and local efforts including 
those of public transit providers, many Marylanders who had been 
reliant on welfare have successfully transitioned off public funding. 
Maryland's Family Investment Administration reports the number of State 
welfare recipients has decreased from a total of 227,887 in January 
1995, to 67,725 recipients as of January 2002.
    However, continued progress has been more difficult, as shown by a 
recent increase in the total number of recipients with 68,263 
recipients in the State's welfare program in March 2002. This increase 
suggests that recent economic trends, with slowing economic growth, may 
be impacting continued efforts to reduce the numbers of Maryland 
residents reliant on welfare. While the State of Maryland has made 
significant progress in helping welfare recipients find employment 
since welfare reform began in 1996, 8.5 percent of Maryland residents 
remain living in poverty.
    The State's highest poverty rates are in urban Baltimore City and 
rural Somerset County. In addition, service sector industries with 
entry-level positions and with irregular hours, often located in 
suburban areas not served with traditional transit services, are among 
the industries showing the State's most rapid expansion. These factors 
highlight the need for innovative and flexible transportation services, 
such as those funded through the JARC Program, to meet local community 
needs.
    The State's JARC Program is administered by the Maryland Transit 
Administration (MTA), an agency of the Maryland Department of 
Transportation. The MTA also administers other Federal and State 
transit funding programs to the rural and small urban area 
transportation providers that operate across the State, allowing JARC 
funding to be viewed in context with all available resources and 
allowing for coordinated services and maximum benefits. While the JARC 
Program is open to all eligible applicants, we have found the most 
successful projects are those combined with services funded through 
other Federal transit sources such as the Section 5307 and Section 5311 
programs.
    Projects funded through Maryland's JARC Program are evaluated for 
consistency with the State's Job Access and Reverse Commute 
Transportation Plan and coordination with local human service agencies 
and existing transportation providers. We believe this focus on 
coordination is one of the hallmarks of our program. All JARC funding 
is granted to local or regional service providers, and since the 
inception of the program 45 different services have received funding. 
As depicted in the attached map,* the program has reached every corner 
of the State, with projects in both rural and the urban areas.
---------------------------------------------------------------------------
    *Held in Committee files.
---------------------------------------------------------------------------
    Both the funding and the coordination aspects of the JARC Program 
have been instrumental to the State's efforts to increase and improve 
transit services in Maryland, and attain Governor Parris N. 
Glendening's goal of doubling transit ridership by 2020. We look 
forward to continuing to use the JARC Program to expand mobility 
options, particularly for those reliant on transportation alternatives.

Job Access Program Spurs Coordination at State and Local Levels

    A positive feature of the JARC Program that has benefited Maryland 
is that funding from other Federal programs may be used for the 
required 50 percent match. Specifically, Temporary Assistance for Needy 
Families, or TANF, funds can used for this match and help increase 
collaboration between transportation and human service agencies. We 
believe reauthorization of the JARC Program should maintain, and 
possibly further formalize, this key coordination tool.
    In Maryland, this aspect of the program has greatly assisted with 
coordination 
efforts. MTA works closely with the Maryland Department of Human 
Resources (DHR) on the JARC Program. DHR administers the State's TANF 
funds, and has provided nearly $6 million in matching funding both 
directly from the State level and through local departments of Social 
Services through the first 3 years of the program.
    The partnership between the MTA and DHR built upon one that existed 
before the JARC Program and that resulted from another Federal 
initiative. Both agencies are represented on the Maryland Coordinating 
Committee for Human Services Transportation. This Committee was an 
outcome of a November 1995 meeting convened by the Federal Transit 
Administration and the U.S. Department of Health and Human Services. 
The Maryland Coordinating Committee began as an ad hoc committee, and 
was formalized through an Executive Order by Governor Glendening in 
October 1997.
    In addition to social service agencies, workforce development 
organizations are actively involved in the JARC Program. The result is 
increased coordination at the State level, improved collaboration among 
local transit providers and human service agencies and a more 
coordinated effort to connect people with jobs.

Legislation Formalizes Maryland's Job Access Program

    Even though Maryland is hopeful the JARC Program will be 
reauthorized at the Federal level, the State took a proactive stance to 
assure the program's sustainability. The MTA introduced a bill during 
the 2001 Maryland General Assembly 
session to establish a Job Access Program within the Maryland 
Department of Transportation budget. This legislation was modeled after 
a similar State program that funds general-purpose transportation 
services for the elderly and persons with disabilities. The Job Access 
bill passed, and was signed by Governor Glendening in April 2001.
    This legislation outlined the application procedures and the local 
matching fund requirements, beginning with the State's fiscal year 2003 
program. While the legislation does not mandate a specific annual 
allotment for the program, it affirms the State's commitment to 
employment-oriented transportation. Maryland, though, anticipates the 
Federal program will be reauthorized so these funds can continue to 
help support the State's efforts to connect low-income workers with 
employment 
opportunities.

Services Funded Through JARC Program

    Several JARC services target the need to connect urban residents 
with the increasing number of jobs in the suburbs:

<bullet> The ``Career Caravan'' connects Baltimore City residents with 
    employment sites in suburban Howard County.

<bullet> New bus service provides transportation to the Arundel Mills 
    Mall, a shopping and entertainment complex that opened in November 
    2000, as the largest in Maryland. Over 3,000 jobs were created with 
    the mall opening, and with an additional 3,000 expected over the 
    next 5 years as the peripheral mall area is fully developed.

<bullet> A new bus route serves the BWI Airport and Columbia areas, 
    providing access to numerous employment centers.

<bullet> Reverse commute bus service connects Baltimore City and 
    Baltimore County job seekers with companies in Harford County 
    desperately in search of workers.

    Several Job Access projects target the need to provide transit 
services to new employment centers previously without transit service, 
or provide later service to meet the needs of second and third shift 
workers. For example:

<bullet> Bus service in Annapolis was extended to five major employment 
    centers outside Annapolis previously without bus service. Fifteen 
    new bus stops were added along this extension, providing access to 
    approximately 220 employers and over 6,500 job opportunities.

<bullet> In Charles County, expanded service hours on each of the 
    system's five primary routes connects low-income residents to over 
    250 employers with evening and late night job opportunities. In 
    addition, the expanded service provides additional access to the 
    local Department of Social Services where customers can obtain job 
    training and attend computer and parenting classes.

<bullet> Montgomery County extended the hours of eight bus routes to 
    serve the first and last Metrorail trains. These extended service 
    hours mean greater access for many low-income people to second and 
    third shift employment opportunities.

<bullet> In Prince George's County, hours were extended on a Metrobus 
    bus route that serves the Hillcrest Heights, Marlow Heights, Temple 
    Hills, and District Heights areas. This extension provides later 
    bus service in highly populated low-income residential areas of the 
    County for individuals seeking employment, and also helps meet the 
    needs of later work shifts.

<bullet> In addition, Prince George's County implemented the ``Job 
    Transportation Service'' (JTS), a coordination effort with United 
    Parcel Service to transport TANF 
    recipients to jobs at their site.

    Some jurisdictions have implemented specialized services to meet 
their local needs, particularly in more rural areas. For example, 
Washington County, through a partnership between the public transit 
service and the local Department of Social Services implemented a new 
employment transportation program to connect low- 
income workers to employment sites.
    The Job Access Program has spurred regional efforts to help people 
connect with job opportunities. On Maryland's Lower Eastern Shore, 
projects funded through the Job Access Program have begun to address 
transportation gaps in this region, and have provided the foundation 
for a coordinated regional approach to the transportation issues facing 
the area.

JARC Program Impact

    The role of Maryland's welfare-to-work transportation services, 
developed in regions throughout the State with support from JARC grant 
funds, must be highlighted in the State's efforts to reform welfare. 
From reverse commute services in the Baltimore area, later hour feeder 
bus service to and from rail stations in the Maryland suburbs of 
Washington, DC, additional demand response service to employment sites 
and to commuter bus stops in the Western Maryland area, and new 
regional routes serving multiple jurisdictions in the Chesapeake Bay 
region, public and nonprofit transit providers have assisted thousands 
of welfare recipients and other lower-income residents access new jobs 
and job-related activities and transition toward independence and self-
support. In all, over 1.3 million passenger trips have been provided 
through JARC-funded services.
    But the JARC Program cannot be judged simply on numbers. As a 
result of the program, greater coordination now exists between transit 
providers and human service agencies--both at the local and State 
levels. New and stronger partnerships are working together to bridge 
the transportation gap for many low-income individuals. And most 
important, former welfare recipients are now self-sufficient. The 
following account epitomizes the positive aspects of the JARC Program.
    One JARC-funded project supports efforts to better coordinate 
existing services and provides low-income individuals greater access to 
jobs and employment-related locations. Sojourner-Douglass College, in 
partnership with the Housing Authority of Baltimore City (HABC), 
Baltimore County Department of Social Services (DSS), and the MTA, 
implemented the Workforce Transportation Referral Center, or WTRC, at 
the College. The WTRC provides information on existing public 
transportation services to employment sites and day care facilities, 
and will coordinate demand- 
response services when transportation needs are not served by public 
transit. HABC and both Baltimore City and Baltimore County DSS have 
provided significant matching funds for this project.
    Baltimore County DSS is extremely pleased with this service, and 
the support it provides in removing transportation barriers, accessing 
jobs, and enhancing labor markets to families working toward self-
sufficiency and independence. One success story has been Ms. Madeline 
Brooks who began using the WTRC services in March 2001, and was able to 
obtain transportation to her place of employment which required 
irregular work hours. Ms. Brooks was then able to purchase a car, and 
in June 2002, bought a home and left the Section 8 Housing Program. She 
is now 
totally self-sufficient, free from any county, State, or Federal 
assistance.

Challenges and Needs

    The challenge is maintaining and building upon existing services 
funded through the JARC Program. It is critical the JARC Program is 
seen as long-term funding source. Otherwise, important transit services 
tailored to low-income workers will vanish, as will their means to 
greater employment options and self-sufficiency.
    As mentioned above, much of the matching funding for JARC is 
through the TANF Program, a completely separate Federal funding 
program. To ensure the coordination emphasized by the JARC Program, it 
is important these two sources are always viewed together.
    It would be more effective if JARC funds could be applied for along 
with other Federal transit funding, and reporting guidelines consistent 
with these programs. This would allow even better integration with 
other transit services, and allow JARC-funded projects to be more 
easily reviewed in context with services funded through other programs. 
While we believe a formula method for dispersing JARC funds would make 
this process more efficient, this could greatly reduce the amount of 
funds our State is receiving and seriously jeopardize continuation of 
existing services. If a decision is made to formulize the JARC Program, 
we hope that FTA will take into account past funding levels.
    And despite considerable progress, however, there remain over 
68,000 welfare recipients in the State, and, according to the State's 
welfare office, approximately 15,500 of these are adults that could 
potentially transition to work activities. While some of these 
Marylanders remaining on welfare may be the more difficult cases due to 
length of time on welfare, limited education, or other factors, with 
the necessary support services in place, including transportation, 
Maryland is committed to assisting its remaining welfare recipients 
transition toward gainful employment and to assisting those with 
minimum wage positions work toward higher wages and more stable 
employment. These specific transportation needs still remain:

<bullet> Additional transit services to connect urban areas to jobs in 
    outlying or suburban locations.

<bullet> Additional transit services that cross county boundaries to 
    allow transit riders to access jobs in another county or State.

<bullet> Many transit services, particularly in smaller communities and 
    rural counties, do not operate late enough in the evenings or on 
    weekends when entry level jobs tend to be available.

<bullet> Some rural parts of the State have no public transit services 
    that are suitable for work trips because they are designed to serve 
    senior nutrition sites or other social service functions.

Recommendations Regarding Continuation of the Program

    With the approach of the reauthorization of the Nation's highway 
and transit 
programs, we offer the following recommendations concerning the Job 
Access and Reverse Commute Program:

          1. The program should be reauthorized.

          2. The national funding level should be increased, perhaps 
        from its proposed fiscal year 2003 level ($150 million) to at 
        least $175 million per year (a 16 percent increase).

          3. The process used for award of funds should remain 
        unchanged. If there is consideration given to distributing the 
        funds based on a formula rather than on a discretionary basis, 
        it would be critical that any formula take into consideration 
        urban unemployment and poverty levels, variations between these 
        levels and outlying suburban employment levels, and relative 
        trends.

    In conclusion, while we have focused today on how the Job Access 
and Reverse Commute Program has benefited Maryland specifically, we 
know from our conversations and correspondence with other States and 
regions that we are not the only ones who face this transportation 
challenge, and have used the program successfully to address it. In a 
Nation devoted to automobiles, we must challenge ourselves to remember 
the plight of those without them, and act to assure that transportation 
does not become one of the impediments to successful integration into 
our economy and great society.
    Thank you for the opportunity to share these thoughts with you 
today.
 RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES FROM LAVADA 
                          E. DeSALLES

Q.1. What do you think should be the number one priority for 
reauthorization of TEA-21?

A.1. AARP sees the number one priority for reauthorization as 
increased transit funding, particularly funding that can be 
used for both capital and operating expenses for accessible and 
human services transportation. The older population is 
projected to increase significantly in the years ahead, yet 
transit services are limited in the suburban and rural areas 
where most of these individuals live. Transit provides vital 
connections to community and to social activities for people 
who cannot or choose not to drive, particularly for the fastest 
growing age segment, those age 75 and over. Greater funding is 
needed both to improve existing service with greater choice of 
destination and more hours of operation, as well as to 
create services in underserved areas. Additional resources are 
also needed to support better paratransit services required 
under 
the ADA.
    An example is the Section 5310 program, which provides 
capital assistance for specialized transportation for the 
elderly and persons with disabilities. Funding for the Section 
5310 program is not keeping pace with new requests for support 
from local human services agencies, nor is funding sufficient 
to expand existing services with new vehicle purchases to any 
significant degree. Some States report that requests for 
funding exceed available funds by 40 percent and more. This 
funding constraint has meant that the vast majority of dollars 
is directed to replacing older vehicles, rather than allowing 
agencies to improve existing, or create new, services.

Q.2. What do you see as the most important element of TEA-21 to 
preserve in the next bill?

A.2. Guaranteed funding was a major accomplishment of TEA-21. A 
stable funding stream helps State and local government plan and 
budget for their formula program matches. This predictable 
funding stream also increases the ability of transit planners 
to take a more rational, longer-term perspective. Such a 
perspective is exactly what is needed in charting the course 
for meeting the transportation challenges of the aging baby 
boom generation.

Q.3. What do you think is the most important change to TEA-21 
that should be made in the next bill?

A.3. TEA-21 affords an opportunity to address the need for 
improved paratransit service for persons with disabilities who 
cannot use fixed-route transportation. We are concerned that 
some transit agencies have raised eligibility standards for 
these services in order to hold down costs. The number of older 
persons with functional disabilities in the future will far 
exceed current numbers. For many of these individuals, 
paratransit will be a lifeline, providing access to such 
essentials as groceries, meals programs, medicines, and doctor 
appointments.
    Paratransit services for persons with disabilities can be 
improved by establishing greater consistency in eligibility 
standards and by increasing attention to standards of service. 
Increased support to transit agencies will be required to 
accomplish these goals.

Q.4. Do you believe the guaranteed funding stream has benefited 
transit, and would you support its continuance?

A.4. Yes, we believe the guaranteed funding stream has 
benefited transit, and we support its continuance. See above.

 RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES FROM ANDREW 
                          J. IMPARATO

Q.1. What do you see as the number one priority for 
reauthorization of TEA-21? What do you see as the most 
important element of TEA-21 to preserve in the next bill? What 
do you believe is the most important change to TEA-21 that 
should be made in the 
next bill?

A.1. I would say that the number one priority for 
reauthorization of TEA-21 is making sure that the 
transportation sections of President Bush's New Freedom 
Initiative for people with disabilities are included and funded 
without taking money from existing programs. As President Bush 
has noted, inadequate transportation inhibits employment for 
all people, but is an even greater barrier to people with 
disabilities. New Freedom Initiative policies seek to test new 
transportation ideas and develop partnerships to increase 
access to alternate means of transportation, such as vans with 
specialty lifts, modified automobiles, and ride-share programs 
for those who cannot get to buses or other forms of mass 
transit.
    Direct infusion of funding into transportation programs 
will benefit local economies. Cambridge Systematics, Inc., 
reports in ``Public Transportation and the Nation's Economy'' 
that businesses and local communities have benefited from 
transit operations spending, with a $32 million increase in 
business sales and an additional 570 jobs for each $10 million 
in public transportation investments.

<bullet> The President requested but did not receive $45 
    million in the fiscal year 2002 budget for the Department 
    of Transportation pilot transportation programs.

<bullet> The President requested but did not receive $100 
    million in the fiscal year 2002 budget for the Department 
    of Transportation for a matching grant program for 
    community-based transportation alternatives.

<bullet> The President has sought authorization to establish 
    the Department of Transportation's New Freedom Initiative 
    Program and requests $145 million in fiscal year 2003 for a 
    competitive grants program to provide additional 
    transportation services for job access and a pilot program 
    to demonstrate innovative solutions for transportation 
    problems still faced by persons with disabilities.

<bullet> The President's fiscal year 2003 budget expands the 
    funding for the Job Access and Reverse Commute Program to 
    the full authorization level of $150 million, an increase 
    of $50 million since the President took office. This 
    program includes job-related transportation services for 
    people with disabilities.

    As we increase Federal funding to provide enhanced access 
for travelers with disabilities, it is critical that we work at 
the same time to enhance knowledge of and compliance with the 
civil rights requirements of ADA and other Federal, State, and 
local disability rights laws that affect transportation 
providers. Travelers with disabilities and the organizations 
that serve them desperately need training and user-friendly 
``know your rights'' materials in multiple languages and 
multiple formats. At the same time, covered entities would 
benefit from user-friendly training for front line staff and 
supervisors.
    With regard to what is the most important element of TEA-21 
to preserve in the next bill, I would suggest that the Congress 
should make it a priority to maintain the commitment to the 
principle of parity between transit and other modes. This means 
making sure that the amount of Federal funding for transit 
should be as close to 30 percent of the funds in TEA-21 as 
possible (thought the ratio of transit to highway funding has 
gotten worse in the last couple of years, the ratio was close 
to 30 percent just after TEA-21 was passed). Also, at this 
point the Administration looks like they will seek to change 
the local match requirement for new transit rail programs to 50 
percent (it is currently 20 percent). If this occurs, it will 
make it much more difficult to get new rail projects started 
and bias new construction toward highways which will have an 
easier match requirement in the bill. Accordingly, I would 
strongly encourage you to maintain the 20 percent local match 
requirement for new transit rail programs and not allow that 
figure to be increased.

Q.2. Many in the transit industry credit TEA-21's funding 
guarantees with reinvigorating the transit program in America. 
The guarantees have given transit planners a measure of 
certainty that the Federal Government will stand by the 
promises made in TEA-21. Do you believe the guaranteed funding 
stream has benefited transit, and would you support its 
continuance?

A.2. Yes, I believe the guaranteed funding stream has benefited 
transit, and has benefited travelers with disabilities more 
specifically. Yes, I would support its continuance, but again I 
remain hopeful that some of the new funding could be allocated 
explicitly for outreach, technical assistance, and enforcement 
activities related to compliance with the requirements of the 
Americans with Disabilities Act and other civil rights laws.
    Thank you for your follow up questions, and thanks again 
for the opportunity to testify on this important topic.
            ADDITIONAL COMMENTS SUBMITTED BY GLORIA McKENZIE
                 RECOMMENDATIONS FOR THE JOB ACCESS AND
               REVERSE COMMUTE COMPETITIVE GRANT PROGRAM
              PREPARED BY THE CENTER FOR COMMUNITY CHANGE
                             July 17, 2002
    The Transportation Equity Network (TEN) is a national coalition, 
convened by the Center for Community Change, of grassroots 
organizations across the country working to advance the equity in 
local, regional, and national transportation policy and planning 
practices. TEN members are committed to ensuring that community voices 
continue to be heard in the implementation of the Job Access and 
Reverse Commute Program and as the law is discussed in Congress.
Background
    In 1996, Congress enacted the Personal Responsibility and Work 
Opportunity Reconciliation Act, also known as the Welfare Reform Act, 
which abolished the Aid to Families with Dependent Children (AFDC) 
Program and replaced it with the Temporary Assistance for Needy 
Families (TANF) block grant program. This new law created a system of 
time-limited benefits and work requirements. For millions of families, 
the urgency of finding work or allowable work activities in the face of 
an approaching deadline brought to light the many institutional and 
emotional challenges that unemployed people confront. Transportation is 
one of these challenges.
    Even prior to welfare reform, organizations of low-income people 
and some local governments already understood that the transportation 
barriers faced by the low-income people were preventing them from 
finding and keeping jobs in the low-wage labor market.

<bullet> Transportation can be a major expense for working families on 
    fixed budgets, whether they rely on personal vehicles or public 
    transportation.

<bullet> Many low-income families are unable to afford to purchase or 
    maintain a vehicle, and public transportation systems often do not 
    connect workers to employment through existing routes.

<bullet> According to the American Public Transportation Association, 
    about 40 percent of these people are low-income. Yet, an estimated 
    38 million low-income people, 
    according to Census figures, are considered transportation 
    disadvantaged--and 
    likely to rely on others for their mobility.

<bullet> Modeling the outdated hub-and-spoke pattern, most urban public 
    transportation systems are designed to connect suburban commuters 
    to downtown jobs, but they do not connect central city residents to 
    areas of job growth in the suburbs. Government studies have 
    estimated that in some metropolitan areas up to two-thirds of job 
    growth has taken place in suburban communities. As a result, 
    central city residents, who are often low-income minorities, have 
    been isolated from economic opportunities.

<bullet> In rural areas, access to jobs is complicated by the fact that 
    only 60 percent of rural communities have public transportation 
    services. Of these communities, 25 percent have only infrequent 
    service; service, under these conditions, cannot reliably serve 
    daily access to jobs needs. In these unserved and underserved 
    areas, many low-income families have no other option but to rely on 
    their own vehicles if they have one, which all too often let them 
    down.

<bullet> Both rural and urban low-wage employees find it difficult to 
    find transportation to work for second- and third-shift jobs, which 
    are more prevalent in the low-wage workforce, since community 
    transportation services frequently do not operate during these 
    late-night and early-morning hours.

<bullet> Working parents with children face the additional challenge of 
    relying on public transportation to make multiple trips--to 
    childcare, school or training, shopping and work. In some cases, 
    this ``trip-linking'' has meant adding hours to the morning 
    commutes of low-wage working families, and increasing the 
    likelihood that they may be late to work and vulnerable to losing 
    their jobs or being penalized by their welfare caseworkers.

<bullet> Where community transportation services are available, working 
    parents are often unaware of them. The challenge, in these cases, 
    is to raise awareness about these services and how to access them.

    In the wake of welfare reform, community groups began organizing to 
ensure access to public transportation. In 1998, a national coalition 
of progressive local and national organizations, including the 
Transportation Equity Network, formed a broader Access Coalition to 
advocate for a new Federal grant program that would support local 
transportation initiatives to connect low-income families to job 
opportunities. When Congress enacted the Transportation Equity Act for 
the 21st Century (TEA-21)--a $217 billion transportation bill--it 
included up to $750 million over 5 years for the Job Access and Reverse 
Commute (Job Access) Competitive Grant Program.
    The Job Access and Reverse Commute Program was intended to provide 
grants to communities on a competitive basis to provide transportation 
services to low- 
income families that otherwise have a difficult time getting to jobs 
and related services. The Job Access Program authorizes two kinds of 
grants: Job Access projects aimed at developing new transportation 
services for low-income workers and /or filling in gaps in existing 
services, and Reverse Commute projects aimed to provide transportation 
to suburban jobs from urban, rural, and other suburban locations. These 
programs recognize that two-thirds of all new jobs are in the suburbs 
while three-fourths of low-income workers and individuals moving from 
welfare-to-work live in inner cities and rural areas.
    Job Access grants fund projects that transport welfare recipients, 
disabled residents, and other low-income individuals in urban, 
suburban, or rural areas to and from jobs, job-training programs, and 
education activities related to their employment. This program has been 
critical in addressing the gaps in existing transportation systems and 
easing the efforts of low-income families as they try to get to the 
jobs and services they need to move from welfare-to-work.
Best Practices
    The JARC Program helps to highlight the need for collaboration 
among various transportation stakeholders--human service agencies, 
transit agencies, departments of transportation, local governments, and 
affected constituencies. When considering these applications, the 
Federal Transit Administration (FTA) places special emphasis on 
consultation with the community to be served, including welfare 
recipients and low-income individuals, individuals with disabilities, 
migrant workers, Native Americans, and community-based, faith-based, 
and other organizations addressing the needs of such individuals. 
Grants are awarded based on the coordinated human services /
transportation planning process and the extent that all stakeholders 
were consulted in the process and the Area-Wide Job Access and Reverse 
Commute Transportation Plan. They are also awarded based on how 
effectively the Area-Wide Plan identifies the gaps, offers pragmatic 
solutions, and meets the needs of low- 
income workers trying to access jobs.
    Community-based organizations play a critical role in connecting 
transportation providers to the community to be served and ensuring 
that the needs of the community are met. Take for example, the lesson 
learned in Jacksonville, Florida:

          In 1998, the Interchurch Coalition for Action, Reconciliation 
        and Empowerment (ICARE) in Jacksonville, Florida, began a 
        listening process with their 35 member churches to determine 
        what were the most pressing issues affecting their 
        congregations. After extensive meetings with their 
        constituents, the overwhelming response was transportation and 
        the lack of access to jobs in the Jacksonville area. As a 
        result, ICARE formed a committee to conduct research on the 
        various alternatives and solutions available, and which were 
        successful in similar communities.
          After conducting the research, ICARE then initiated 
        discussions with members of Jacksonville's local metropolitan 
        planning organization, the local transportation authority, and 
        the local workforce investment board about various alternatives 
        in getting low-income workers to available jobs. On February 
        11, 1999, ICARE hosted a public meeting of roughly 700 
        community members at which they publicly asked representatives 
        from the Jacksonville Transit Authority (JTA) and the MPO to 
        work with ICARE to address their communities' transportation 
        needs. After ICARE convinced them that increasing ridership on 
        public transportation was a joint priority, the transit 
        authority and the transportation planning organization agreed.
          The ICARE committee met about nine times in the coming months 
        to 
        discuss the findings of their research. They then outlined the 
        four recommendations:

          1. A timely and convenient bus service from the north side of 
        the city, where many need jobs, to the south side, where there 
        is substantial job growth. At that time, there was limited 
        service on the north side. Passengers had to make several 
        connections, which lengthened their commutes to 2 hours each 
        way. ICARE called for more direct service connecting the two 
        sides of the city.

          2. Create a major north-side transportation hub to serve as a 
        center for buses. This would more efficiently connect people to 
        where they need to go.

          3. Develop more extensive marketing to increase community 
        knowledge of existing transportation resources available and to 
        increase ridership.

          4. Research other areas in the Jacksonville area that would 
        benefit from expanded transportation services and from 
        increased access to employment opportunities.

          By January 2000, the JTA created a direct bus line from the 
        north to the south of the city and cut the commute time for 
        riders on this route in half. Ridership along the new route 
        increased by 300 additional people. The transit authority and 
        the MPO were convinced that their partnership with ICARE had 
        been fruitful. Naturally then, when the opportunity arose to 
        apply for a Federal Job Access block grant, ICARE coordinated 
        the application process for a grant with WorkSource (the local 
        workforce investment board), the MPO, Goodwill Industries, 
        Inc., the local housing authority, and other groups interested 
        in access to jobs. Matching funds were secured from WorkSource 
        and the MPO, while the remaining groups provided technical 
        input. Their successful bid resulted in an award of $1 million 
        for the Jacksonville area.
          Learning from the extensive research that resulted in the new 
        north-south bus route, the Job Access grant was used to reroute 
        other bus lines to maximize ridership and access to jobs. 
        ChoiceRide, a vanpool shuttle service, was also created through 
        the Job Access grant. ICARE conducted outreach among employers 
        to get them involved in getting employees to work through 
        subsidies for the ChoiceRide program.
          Job Access funds were also used to contract with van 
        companies to offer shuttle services to and from the airport, 
        about 25 miles from the city. As a large area employer, 
        transportation to and from the airport is critical in meeting 
        employees' needs, but buses servicing the airport were coming 
        back empty due to low ridership. The van shuttle service now 
        provides transportation on a cost-effective scale. The JTA is 
        also looking at other lines with low ridership and rerouting 
        them to connect people where they are to where they are going.
          Likewise, the success of the partnerships created through the 
        JARC Program has allowed the JTA to build longer-term alliances 
        among the local university and local businesses that are unable 
        or do not want to provide parking lot spaces. Increased transit 
        would ease congested parking and traffic while promoting local 
        businesses and services.
          Finally, at ICARE's suggestion, the JTA is now doing a 
        corridor study to put together a master regional plan for 
        transportation. ICARE has met twice with JTA to provide input 
        into that study, and has also conducted outreach to other 
        groups that may provide valuable input. Possible transportation 
        alternatives for the region include a light rail system.
          Community members were able to successfully identify and 
        address community needs in a more concrete way than local 
        agencies had in the past. Grassroots involvement also served to 
        educate the broader community about existing transportation 
        routes and what services were needed to 
        address gaps. The JARC collaboration process is essential in 
        providing comprehensive solutions to low-income families' 
        barriers to employment.
Problems with Implementation
Earmarking
    Since the inception of the program, despite protests from the 
Federal Transit Administration and community organizations involved in 
the creation of the program, Members of Congress have chosen to earmark 
significant chunks of the funds available for the Job Access Program. 
In fiscal year 2001, Congress earmarked roughly 85 percent of the total 
funds appropriated for the program.
    This process results in even less money available for the 
competitive grant program, and, therefore, encourages less innovation. 
But of particular concern to the Transportation Equity Network, 
however, is that earmarking results in less public involvement in the 
planning process. Groups with political clout are guaranteed funding 
without having submitted JARC applications that require extensive 
community collaboration, and often receive JARC funding without a 
demonstrated need for these funds.
Local Match
    Federal JARC grants require a 50-50 match. While various sources of 
Federal funds can be used as a match, this match is difficult to raise 
locally, especially for already strapped public transportation systems 
and social services agencies. The match requirement actually prevents 
many needy applicants from applying, despite pressing local needs. 
Securing the local match is a hindrance to sustaining projects over 
time:

<bullet> Transit agencies often fail to have the resources to take over 
    JARC projects 
    despite the demonstrated value of projects.

<bullet> Effective JARC strategies consistently have to struggle on an 
    annual basis to 
    secure resources for the match.

    And because the JARC grants are 1 year grants, securing and 
sustaining local matches for worthy projects that receive matching 
Federal funds for only 1 year 
discourage local investment in JARC projects.
Suggestions for JARC Reauthorization
<bullet> Significantly increase funding for the Federal Job Access and 
    Reverse Commute Program to at least $300 million a year. Available 
    JARC funds have been fully obligated every year since its 
    enactment, and due to a combination of factors, many worthy 
    projects have remained unfunded. Such an increase would be an 
    important investment in addressing the needs of welfare recipients 
    and other low-income families by providing local jurisdictions with 
    adequate flexible resources to address gaps in public 
    transportation service.

<bullet> Eliminate earmarking in the Job Access Program to strengthen 
    the role of community organizations and human service providers in 
    the planning and development of proposals. One method to limit 
    earmarks would be to apply processes to the JARC Program, similar 
    to those used in the New Starts Program where FTA is required to 
    rate projects based on clear criteria and submit recommendations on 
    funding to Congress prior to appropriations decisions.

<bullet> Simplify regulatory barriers that make it difficult for the 
    TANF block grant to be used as a match for the JARC Program--such 
    barriers include but are not limited to varying accounting rules 
    and eligibility requirements. Congress may consider using the 
    Department of Housing and Urban Development's income eligibility 
    guidelines in lieu of the 150 percent of Federal poverty level 
    standard to account for discrepancies between the urban and rural 
    costs of living and transit issues facing both.

<bullet> Increase resources for the Federal Transit Administration to 
    provide technical 
    assistance to nontraditional transportation providers as they apply 
    and implement JARC Programs. While encouraged in the JARC 
    guidelines, nontraditional transportation providers, including 
    faith-based and community organizations, found Federal regulatory 
    hurdles often insurmountable. FTA has a responsibility to shepherd 
    these groups through the implementation process, and resources 
    should be allocated accordingly. Congress should also explore ways 
    in which some DOT and DOL regulations can be eased so that smaller 
    nonprofit organizations, tribal organizations, and other entities 
    unaccustomed to running the transit-related programs may more 
    easily do so.

<bullet> Allow TEA-21 flexible funds to be used to cover the costs of 
    physical capital improvements at transit centers that would be 
    targeted to the needs of low-income families--workforce development 
    centers, childcare centers and related programs. Resources for such 
    purposes have been difficult for local communities to obtain 
    without an infusion of outside funding, but where transit centers 
    have been designed with such uses in mind, the results have been 
    very successful. Examples include: Columbus, OH; Washington, DC; 
    and San Jose, CA. Allow TEA-21 
    flexible funds to be used as a match for the Job Access and Reverse 
    Commute Program.

<bullet> In the broader reauthorization bill, require coordination 
    among transportation 
    departments, transit agencies, MPO's, welfare agencies, workforce 
    investment boards, and other entities with a stake in employment 
    transportation. Such interaction will allow for better planning for 
    the development of new services and the improved coordination of 
    existing services.


                    TRANSIT SECURITY: ONE YEAR LATER

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2002

                               U.S. Senate,
  Committee on Banking, Housing, and Urban Affairs,
                Subcommittee on Housing and Transportation,
                                                    Washington, DC.

    The Subcommittee met at 2:35 p.m. in room SD-538 of the 
Dirksen Senate Office Building, Senator Jack Reed (Chairman of 
the Subcommittee) presiding.

             OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order.
    Almost 1 year ago, this Subcommittee held a hearing on our 
Nation's transit security systems in the wake of the tragic 
events of September 11. At that time, we learned about the 
important role that transit played in evacuating the World 
Trade Center and the Pentagon. We also realized that those same 
subways and buses are a potential target for terrorists.
    Today, we will hear from Federal Transit Administrator 
Jenna Dorn and then the General Accounting Office's Peter 
Guerrero. Chairman Sarbanes and I requested that the GAO 
conduct an investigation into the transit security challenges 
facing the thousands of FTA grant recipients, both big and 
small. At present, the GAO is about midway through this 
project.
    As Administrator Dorn and Mr. Guerrero will point out, our 
Nation's buses and subways are like all other public places and 
services--they are a potential target for those who threaten 
the mobility that has made our society a beacon of freedom and 
opportunity. We will also hear that the FTA and our transit 
systems have been aware of these threats for some time and have 
taken steps to counter them. Indeed, from the installation of 
high-tech chem/bio detectors to new communications equipment to 
simple locks that bar access to subway tunnels, America's 
transit operators and their employees are working very hard to 
make their 
riders safer.
    In many cases, the FTA has inspired these steps, and I say 
inspired because while the FTA has made great efforts in 
transit 
security, it has done so with an extremely limited budget. And 
many systems are making difficult choices between security and 
vital investments to maintain the growth of transit service. In 
addition, the creation of the Transportation Security 
Administration and the likely creation of a Department of 
Homeland Security could greatly alter the FTA's role in transit 
security with unknown consequences.
    Indeed, the GAO points out that these relationships are 
evolving, but it is clear that there is a need for more 
assistance, information, and funding when it comes to transit 
security.
    These two issues, resources and responsibility, are at the 
heart of today's hearing and hold great import for this 
Subcommittee's work on the reauthorization of TEA-21.
    When Senator Allard arrives, I will obviously ask him to 
make his statement. We are delighted today to have as our first 
witness, Jenna Dorn, who is, as I have said, the Federal 
Transit Administrator. She has done a remarkable job. Welcome 
back Jenna.
    Ms. Dorn.

                 STATEMENT OF JENNIFER L. DORN

         ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION

    Ms. Dorn. Thank you very much, Mr. Chairman, for those kind 
comments.
    I appreciate the opportunity and I would request that in 
addition to our full statement, FTA be allowed to provide a 
compendium of the activities and the outcomes and products of 
the FTA effort over the last year to provide a more full 
accounting of the activities and allow the Subcommittee to 
assess in its leisure the kinds of things that have been 
happening in the industry.
    Senator Reed. Without objection.
    Ms. Dorn. Thank you very much.
    As you mentioned, Mr. Chairman, FTA has been quite 
aggressive in assessing and assisting transit agencies across 
the country in an effort to deal with transit security and 
terrorist threats. And the most important part of that effort 
is that we have done so with the full support and cooperation 
of the industry. I think that is notable. It is exceptional. 
And we are privileged to work with them in a very positive and 
collaborative fashion.
    As a result of that collective approach, and the heightened 
concern and awareness of the industry, I believe that America's 
transit systems are safer, better prepared, and more security-
conscious than ever.
    Now, are the Nation's transit systems now terrorist-proof ? 
Absolutely not, and of course not. The very nature of transit 
systems--open, accessible systems, to allow the freest movement 
of the greatest number of people in a confined environment--
produces, of course, inherent vulnerabilities.
    Saying that, however, FTA and transit agencies have done 
much and we have learned more.
    First of all, I think it is important to set the framework 
about how FTA approached this. With such a complex problem as 
protecting against terrorist environment, we have to take a 
similarly complex approach. But it is a practical approach, as 
well. It is a holistic systems approach, because the system is 
only as strong as its weakest link.
    Therefore, we have had five components in the FTA process.
    First, to evaluate the current situation through in-depth 
assessments of the security readiness at our one hundred top 
transit 
agencies.
    Second, to develop a plan to address these deficiencies as 
they were identified.
    Third, to test the plan in realistic situations.
    Fourth, to train employees to understand and implement the 
plan.
    Fifth, to undertake research to enhance human capabilities.
    The threat and vulnerability assessments we have conducted, 
I believe, have been the most important investment we have made 
in security. I have mentioned that we have completed 36 transit 
agency security assessments, which represents 90 percent of the 
transit ridership across America.
    We have utilized expert teams in security, counter-
terrorism, and transit operations.
    What we found from the assessments validated our approach. 
First, that a risk-based approach is absolutely fundamental. It 
is vital that transit agencies assess the high-consequence/
high-threat areas and facilities and prioritize them.
    That is a very different way to look at security than has 
been traditionally done by transit agencies, where the previous 
focus was on crime control.
    So the value added to that security assessment has been 
bringing those teams out, helping to define and to prioritize 
the risks, and 
setting a process by which you can dynamically continue to do 
the 
scenario-based assessments to determine where you should put 
your resources.
    The second piece that is a fundamentally important learning 
from the security assessments is that, given the openness of 
the system, we must focus on planning, employee training, and 
practicing. And, sometimes, that is under-estimated.
    There is always this kind of aura about new, fancy 
technology--that it can be a panacea. But, indeed, there is no 
technology bullet to ensure that travelers and public 
transportation systems are ultimately protected or that we can 
ultimately prevent any terrorist activity.
    We certainly can make some significant inroads, and the key 
to doing that is employee training. That is still transit's 
primary antiterrorism tool.
    Not only are the employees the eyes and ears of the system, 
but they also are our first line of defense and response.
    And I am pleased to say that in a collaborative effort with 
the unions and with the transit agencies, we have turned 
training into high gear--a number of new courses, a number of 
new delivery mechanisms. We are really turning up the juice in 
the effort on training that will give a great deal of bang for 
the buck for any investment from any sector.
    The second learning that is important to note as a result 
of these emergency security assessments is emergency response. 
And as a result of what we learned in the assessments, we are 
sending out 60 technical assistance teams. We have had the 
assistance of the FBI to help us prioritize where we need to go 
first, and we will help improve the plans and reduce the 
vulnerabilities that we have noted. We will help customize 
training needs assessments for particular transit agencies. We 
want to fill the gaps that have been identified.
    In addition, I think that we underestimated the importance 
of strengthening the relationship of transit with first 
responders--emergency responders, police and fire.
    As a result, we have already completed 8 of 17 security 
forums throughout the country, where we emphasize the role that 
transit can play through scenario exercises, et cetera, so that 
we are sure that our emergency response plans are not only good 
for the city, but also are good for the suburbs as they relate 
to the city, as well.
    Another important lesson we learned is practice, practice, 
practice is imperative. As a result, we have now distributed 83 
grants to transit agencies across the country so that they can 
conduct full-scale, community-wide drills. Not modest 
practices, but full-scale, community-wide drills.
    I am proud to say that we had minimum requirements. A 
letter needed to be sent about how these were going to be 
conducted and that an evaluation would be provided, and then 
the money was out the door. So, already, a number of these are 
planned for the next couple of months.
    With respect to technology, again, I would emphasize the 
key we found, that investments need to be focused on enhancing 
human capabilities. As I mentioned, there is not a silver 
bullet, but technology can help reduce the demand on our 
employees and help us be better equipped.
    We also need to leverage the research that is being 
conducted across Government, whether it be DOE or DoD, which we 
have done, as you mentioned, in the Project PROTECT Program, 
Mr. Chairman.
    I cannot underestimate the importance of information-
sharing among and between transit agencies and the provision of 
technical assistance. We have done a whole host of things with 
the industry in regard to that, from developing secure websites 
for exchange of best practices amongst agencies, to the 
distribution of chem/biological guidelines so that subway 
operators will know what to do if that happens.
    Finally, intelligence dissemination. There certainly has 
been much improvement in that arena nationally and locally. We 
have a significant way to go in that regard.
    At the Department of Transportation, we have refined and 
dramatically improved our ability to communicate real-time with 
the transit agencies. We are setting up a secure website with 
the FBI that local transit managers can hook into to understand 
better the trends and what is happening. And we are working 
with industry to develop a trend analysis capability with 
respect to terrorist threats.
    It brings to mind the point of wisdom with respect to the 
President's proposal and Congress' consideration of the 
Department of Homeland Security.
    We absolutely need to maximize our intelligence-sharing 
capability across sectors and across the industry, and I know 
that the proposal Congress is considering will help do that. It 
will also perform the fundamentally important role of 
prioritizing our resources.
    A solid foundation has been created for that by the 
establishment through Congress of the Transportation Security 
Administration, the TSA, where overall responsibility for 
transportation security has been placed in a single entity.
    You mentioned the issues surrounding that, Mr. Chairman, 
and obviously, it is something that we are paying very close 
attention to. We recognize and support the fact that TSA will 
set the priorities, the strategies, and the budgets--with the 
assistance, the advice, the counsel, and the continued 
involvement of FTA.
    I am proud to say that TSA and FTA have already begun to 
develop a very strong relationship. We are in synch on almost 
all the issues that we are dealing with. Already, TSA has been 
a real asset to FTA because of its intermodal approach. It 
allows us to take the holistic approach that we think is 
important.
    It is important also to recognize, as TSA recognizes, that 
they cannot achieve the desired level of security in isolation. 
Security, like safety, must be an integral part of the Federal 
transit programs that FTA administers and we need to work 
together. They understand that and believe me, it is a daily 
matter, rather than a weekly or monthly matter, when we work 
together.
    Then the really tough part comes, and I think this comes 
for all industries, all modes, all aspects of American life. 
And that is, balancing the interests of security against other 
interests of mobility and the economic viability of the 
Nation's transit systems.
    There comes a point, and I am confident that we will not 
reach this point, but, obviously, in the theoretical point, 
there comes a time when security enhancements can undermine 
and/or destroy the viability of public transportation systems.
    As our experience showed on September 11, robust public 
transportation systems are essential to national security. 
Buses and trains were key in evacuating New York and 
Washington, and cities across the country. They were used to 
transport emergency workers and supplies, establish emergency 
triage centers, and create temporary shelters for victims.
    On a final note, FTA is really unique in one particular 
respect. We are not a regulatory agency. Yes, we have used the 
power of the purse to ensure that Federal funds are spent 
appropriately and effectively. But we have not had to rely on 
regulations to persuade the industry to do the right thing.
    Just as we have worked with the transit community 
successfully in safety without regulation, we are doing so, I 
believe, in security. And as Admiral Loy has said to me on a 
number of occasions, building consensus and buy-in with the 
industry is far more successful than mandates.
    And with that, Mr. Chairman, I would be pleased to answer 
any questions.
    Senator Reed. Thank you very much, Madam Administrator, for 
your testimony and for your service. We appreciate you being 
here.
    Let me recognize first Chairman Sarbanes, for any comments 
that he might have, and then Senator Carper.

              COMMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Mr. Chairman, I will defer until you do 
your questioning and then I will take my regular round.
    Senator Reed. Senator Carper, do you have any comments?

              COMMENTS OF SENATOR THOMAS R. CARPER

    Senator Carper. Just briefly. Ms. Dorn, thank you very much 
for joining us today.
    The homeland security legislation, creating a Department of 
Homeland Security, is before the Senate as we speak and it has 
attached to it an amendment that was adopted that would 
authorize some $1.2 billion to enhance rail security.
    We have, as you know, tunnels that run under the city, that 
run under Baltimore into New York. There are several tunnels 
where hundreds of thousands of people travel every day. They 
are old, some almost as old as the Civil War, some that date 
back to the last century. They are poorly lit, poorly 
ventilated. There is little in the way of escape routes.
    We provided significant authorization for funding to try to 
upgrade those systems. They are used by Amtrak, but 
particularly the tunnels going into New York City are used far 
more by commuters than by Amtrak.
    I am supposed to go preside at 3:00 p.m., so I am not going 
to be here to ask questions of you. But it would be interesting 
to know your take on that legislation, which is part of the 
homeland security bill. If you could maybe provide some 
comments for the record, I would appreciate it.
    Ms. Dorn. Absolutely. Thank you, Senator. Will do.
    Senator Carper. Thank you, and thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Carper.
    Madam Administrator, let me first ask, does the FTA know 
how much transit agencies are spending on safety and security 
improvements. Are you monitoring their expenditures in a 
general way?
    Ms. Dorn. Not in a definitive way. Certainly in a way that 
would be evidenced through our security assessments. They are 
free to show us, and do, often, what they are spending on 
different things. But I wouldn't say in a systematic way, other 
than the requirement that FTA imposes on all transit agencies 
larger than 200,000 population where a 1 percent security 
expenditure is required, unless there is a waiver granted.
    And I would just note on that, in the past months, we 
believe it is appropriate to no longer grant the waiver. What 
we need to do is to establish that that 1 percent is spent and 
we would like to know how it is spent.
    The only condition under which we would grant a waiver is 
if the transit agency could demonstrate that they have spent 
that portion through non-Federal funds and could establish 
that.
    Senator Reed. Does transit security need its own dedicated 
source of funding, in your view? This relates to Senator 
Carper's question, which is, we are authorizing funding for 
inter-city rail. With all these different funds sources, does 
transit need a separate funding, restricted funding?
    Ms. Dorn. At some point, that may be the decision of the 
now Office of Homeland Security, or TSA.
    At this point, I think the most fundamental need is that 
there be a place where the prioritization of resources across 
the modes of transportation and across industries can be made.
    Certainly, I will be a strong advocate, based on the 
evidence that we have collected, about where any funds that 
would be available should be spent and in what priority order.
    But I cannot pretend to speak for larger issues or for 
prioritizing the resources, and that is why I think it is a 
tremendous advantage to have TSA already in operation with 
regard to prioritizing the expenditures across the modes of 
transportation and, if and when the Department of Homeland 
Security comes into play, then that will give even a broader 
assessment.
    So, I think it is premature to say that piece, and I would 
not be in a position to assess risks beyond the transit risks 
that we see.
    Senator Reed. Thank you.
    Let me move then to a more specific question, which would 
be, if you had additional resources, where would you deploy 
these resources? What is the highest priority that you are not 
reaching now with your limited resources? Is it assessment 
teams going out to look at more transit systems? What is it?
    Ms. Dorn. If, in the wisdom of the Executive and 
Legislative Branches there were additional funds to be had, I 
think FTA is in a very good position after doing these risk 
assessments to know where we could get the most bang for the 
buck. And clearly, some of the things that we have found really 
emphasize training, because training--whether it is front-line 
employees or supervisors--is an absolutely imperative part in 
an open and accessible system. So, I would say that that is 
fundamental.
    Certainly there are some other vulnerabilities that have 
been identified generically, things like more effective 
emergency response plans and access control issues.
    Each of those is being worked on carefully. But I think we 
would have a clear idea, if more money was to be allocated, how 
it could be most effectively used.
    Senator Reed. Again, you are only assessing a fraction of 
the transit systems. Is there a plan that you have to, as we go 
forward, to go out and make more assessments on smaller 
systems?
    Ms. Dorn. We certainly wouldn't be closed to that. I would 
emphasize, though, that we are affecting through our 
assessments 90 percent of transit ridership and at least that 
much of the critical infrastructure. However, we also think 
that many lessons learned can be passed on--and we are already 
doing so--to the smaller transit agencies and the bus-only 
agencies.
    We have a very significant portfolio of both best practices 
and training programs that we are getting out with the 
collaboration of the unions and others, to make sure that the 
bus systems and the smaller systems around the country can 
benefit. So, I would be pleased to provide that more 
extensively for the record.
    Senator Reed. Thank you, Ms. Dorn. I have one or two other 
questions, but my time has expired. Let me recognize the 
Chairman for his statement and questions.
    Chairman Sarbanes.
    Senator Sarbanes. Well, thank you very much, Chairman Reed.
    First of all, I want to thank you for convening this 
hearing. Actually, I think this is the fifth hearing on transit 
that the Subcommittee has held this year in preparation for the 
reauthorization of TEA-21, and I want to thank you for the very 
fine work that has been done on that issue.
    The events of September 11, 2001, were a daunting national 
tragedy. But even in the immediate aftermath of the attack, 
Americans showed great resolve in moving forward with the 
business of the country. We have made significant progress on 
many issues since that day, even as we continue to remember and 
mourn those who were tragically lost.
    Of course, one of the issues that received heightened 
attention is security, and this Subcommittee actually held a 
hearing shortly after last September 11, just weeks after the 
attack, to assess the security of our Nation's public transit 
systems.
    I appreciate the Subcommittee's efforts in this regard.
    We saw the potential of public transportation to serve our 
needs under those stressful circumstances. On that morning, 
transit agencies across the country ran extra trains and buses 
in order to move people out of the cities, playing a 
particularly vital role in the evacuation of New York and 
Washington.
    But it is very clear public transportation faces unique 
challenges in the safety and security area. By its very nature, 
public transit has to be easily accessible. It runs on 
identified routes at published times. It needs an extensive 
network of road and rail, spanning a wide geographic area.
    So it has to be open and accessible for its use. But, of 
course, that intensifies some of the security problems. And of 
course, we have had a huge jump in transit ridership. It is 
growing faster than any other mode of transportation.
    I know that self-examination is going on. We very much 
appreciate your testimony as we look ahead.
    I have just a couple of questions that I want to ask.
    First of all, I want to move off the particular subject 
matter, to ask the Administrator, where are you on preparing 
the reauthorization request, which is an issue that we will 
have to address in the next Congress?
    Ms. Dorn. We have had extensive efforts over the months to 
put together a proposal, which we are now finalizing within the 
Department. And we would expect that, after other consultations 
with the Secretary, that we would move that forward to the 
Office of Management and Budget, in time for consideration 
simultaneously with the 2004 budget, Mr. Chairman.
    Senator Sarbanes. When would you expect putting it out for 
public examination and when would you expect actually sending 
it 
to the Congress, or letting the Congress have it so that we can 
ex-
amine it?
    Ms. Dorn. The plan is that simultaneously or very near the 
time that the President puts forward his 2004 budget in the 
February timeframe would be when the reauthorization proposal 
would also be sent to Congress.
    Senator Sarbanes. We were able in the last reauthorization 
to significantly increase the commitment to transportation 
across all modes that were encompassed within the TEA-21 
legislation, which, of course, was not just transit, but 
encompassed highways as well. That was in response to the 
obvious growing demand. The demand has continued to grow, and 
we have a lot of pressures to respond to it, reflected in part, 
I think, by the number of new start requests that the 
Department has been receiving. Does your planning take that 
into account? What time period will you use for the 
reauthorization? Over what period of time?
    Ms. Dorn. A 6-year authorization is intended at this point.
    Senator Sarbanes. Six years. Well, that is a long stretch 
of time. Do you expect that we are going to see a 
responsiveness to the pressing need?
    Ms. Dorn. Yes, I do. Whether or how much of an increase 
that would be is really premature for me to comment. But you 
can count on all of us at the Department of Transportation to 
be advocates for our Nation's infrastructure.
    Senator Sarbanes. I think that is extremely important. Once 
you lock it in in the Administration, it becomes difficult to 
significantly change the dimensions.
    So, I think if there is going to be a significant increase 
in the dimensions, which I feel keenly is very much needed, you 
all will have to be in there fighting for it tooth and nail, I 
would say. And I see you nodding your head. That doesn't show 
up on the record.
    Ms. Dorn. Yes, sir.
    [Laughter.]
    Senator Sarbanes. I take it that is a yes.
    Ms. Dorn. Yes, sir.
    Senator Sarbanes. All right.
    Mr. Chairman, if I could ask a couple of other questions?
    Senator Reed. Absolutely, Mr. Chairman, go right ahead.
    Senator Sarbanes. We sometimes think in this country that, 
we figure out how to do things and we do not have any lessons 
to learn from others. Other transit systems in other countries 
have been challenged with important security problems in the 
past. We are now confronting this issue in a very direct way. 
But the British have had to face this problem. They had a 
significant terrorist issue. The Japanese had a major incident 
that occurred in their subway system.
    So other large cities have confronted the issue of 
terrorist attacks. How much sharing of information, strategies, 
technology, and best practices, are we doing with these other 
countries?
    To what extent have we reached out to see what they are 
doing, perhaps brought them here or gone there, in order to see 
what ideas we can gather in order to address our own situation?
    Ms. Dorn. Very important question, Mr. Chairman. And from 
day one, we have sought and received the active cooperation and 
participation in a number of important events and activities 
from the international community. We recognize that the 
international perspective and unfortunate experience is really 
key to having lessons learned for us as well.
    International individuals who have had experience in Paris 
and London and Japan and other countries have played an active 
role in roundtables that we have convened for top transit 
officials across the country. We have solicited expertise from 
the Israeli government to evaluate and to revise our training 
programs.
    We continue to promote their active information-sharing 
with us, and us with them, frankly. And yesterday and today, 
there is an international summit sponsored by the FTA and APTA, 
in which more of this information is being shared. We have had 
several visits by transit officials to Japan, particularly, and 
I think we are taking advantage of their unfortunate experience 
and the lessons learned in as significant a way as possible.
    Senator Sarbanes. Well, I am encouraged to hear that. I 
think we may learn some very valuable lessons.
    Ms. Dorn. Yes, absolutely.
    Senator Sarbanes. Let me ask you this, if I may.
    Senator Reed. Go right ahead, Mr. Chairman.
    Senator Sarbanes. I appreciate your statement that: ``I am 
certain that the Committee understands the need to avoid a 
public discussion of our specific findings about particular 
transit sys-
tems . . .'' I accept that. But let me ask a hypothetical 
question. I want to get some definition for all of this. Let's 
assume there is some hypothetical transit system out there. You 
are working with transit systems all around the country. You 
come in in order to be of assistance to them and so forth and 
so on.
    What is the agenda you have done to help my hypothetical 
transit system, just picking things that have actually occurred 
in fact that have enabled you to significantly enhance the 
security situation for this hypothetical transit system?
    And the more specific you can get in outlining what it is 
that has been done, how this has resulted in boosting or 
improving the security situation, the better.
    Ms. Dorn. Okay. The security assessments which we have done 
have both specific transit agency applicability and generic 
value-added. So depending on the nature of your own transit 
system, there would be unique recommendations depending on 
whether it was an old system, a new system, a subway, a light 
rail. So that is the advantage of sending in teams. We did not 
do cookie-cutter. We went in to each of the 36 transit systems. 
So there are a unique set of issues that would relate to a 
particular transit system.
    However, there are also generic issues which we examine 
throughout. Number one, this whole threat and vulnerability 
assessment--determining what particular risks a transit agency 
has and what are the high-risk assets and the critical assets--
that is a systematic approach that most transit agencies have 
not used in the past.
    So that intellectual approach to figuring out where your 
specific vulnerabilities are, what the scenarios are, and what 
counter-measures you can take, it is a process, and a learning 
process that we have worked with transit agencies on. Some are 
more sophisticated about it than others. Others, they only 
concentrated on crime control. The very aspect of evaluating 
the risk was a key change.
    Then, understanding the role of emergency response planning 
and how to develop a good emergency response plan for their 
particular transit agency has been very important.
    The technical assistance teams that we are sending to 60 
transit agencies as a follow-on to that assessment will very 
specifically hone in. How can you get a better emergency 
response plan? What kind of training do you have now for your 
employees? How can you improve it? How can we make sure that 
you have a dynamic process for threat assessment? So that still 
is very much catered to an individual transit agency.
    We also generically understood that training has not been 
emphasized, for either front-line employees or supervisors. We 
have developed a whole host of new training courses and new 
ways of delivering those training courses. We are working 
closely and carefully with the unions and with management to 
ensure that it is a priority.
    I believe that transit agencies would say that those first 
three efforts I described have been a value-added. In addition 
to that, we have worked very closely with the industry to 
determine what kind of research needs are there, what would 
help you most.
    We identified $2 million so that we could, with industry, 
determine what are the 10 or 12 or 14 most important research 
projects that would be a real asset.
    With regard to emergency response planning capability, the 
transit agencies do not always have a seat at the table in 
emergency response, which is so ironic. Even in some larger 
cities, the transit agencies simply served as the 
transportation vehicle for people who were doing the drills. 
They did not understand the critical role that you outlined, 
Mr. Chairman, of transit in the event of a terrorist attack or 
an emergency.
    So, we have held security forums in 17 cities across the 
country, with mayors, emergency responders, fire, police, and 
transit officials, all sitting around tables to enhance their 
emergency response planning capability and do scenario-based 
exercises.
    That is a really important component because one of the 
things we found in the security assessments is that you may 
have a large city that has a very good and robust emergency 
plan, but the surrounding areas may not be hooked into that 
plan. And if I work in the inner city and need to get to the 
suburb, I do not care about what the jurisdictional boundaries 
are. Those are just some of the activities.
    We have also made sure that our transit people locally are 
tied into the FBI. The intelligence-sharing and information 
piece has been a real bugaboo for all. We know that has to be 
improved and, fortunately, the FBI, at a national level and at 
most local levels, has been very willing to include transit in 
what they call the Joint Task Force on Terrorism. And that 
piece is very important.
    We also have developed secure websites for our transit 
colleagues, so that they can add a law enforcement level. They 
can understand better what is happening out there, and they can 
share information among and between transit agencies.
    We are trying to determine whether or not an industry-based 
information-sharing system similar to what the American 
Association of Railroads has done would be worthwhile. That 
would be a modal effort focused on information about transit 
threats, so that you can share New York with Washington with 
Florida, what has been happening, that there can be trend 
analyses, et cetera.
    So, I think we have a fairly rich compendium of things 
that, we believe, are not just activities. They are value-
added, and if they are not, we take them off the books.
    We do not have a lot of money. I am convinced that we are 
spending the money we have, which is adequate, in the best way 
at this point in time.
    Senator Sarbanes. Well, it is interesting. The latter 
examples you gave, I understand them because they were pretty 
specific.
    In other words, transit now sits at the table with all of 
the actors of the emergency response teams, which is something 
at least most of them were not doing before, as I understand 
it. They are now tied in in terms of communication with the FBI 
in order to exchange information and so forth.
    I did not quite get down into the level of specificity I 
would have liked in the earlier examples you gave. What are 
some of the changes that you have helped to institute in the 
way transit systems work that address the security problem? 
Just very specific things.
    Ms. Dorn. I do not want to get too deep in this, although I 
would be very happy to have a private briefing with you.
    But let me just say that I think that with TSA's 
cooperation and with FTA, we have been able to think and work 
outside the transit box. And by that I mean, if you have a 
significant intermodal transit center, what we have found is 
that very often, because every-
one had been in the past concerned about liability issues and 
``I 
will take care of my stuff,'' people have not been thinking 
about 
whether it is a commuter rail owned by a local transit agency 
or it is the local taxicab or the vendor or the Amtrak train 
that comes into the station.
    Everybody's been concerned about their own thing.
    So to be able to collaboratively work on the risks and 
vulner-
abilities and develop particular counter-measures for 
particular places, is something on which, with the cooperation 
of the industry and all the agencies and vendors at the table, 
I think we have been able to make some improvements. However, 
we have not reached the millennium in that regard. It is a new 
way of thinking and it requires a new discipline and a new 
culture to work outside of whatever your specific operational 
responsibilities are.
    Now, we could go through transit agency by transit agency 
and specifically list for you in a closed session the 
particular vulner-
abilities we found. What we have found is that transit agencies 
have been very responsive in terms of trying to fill those 
gaps. And certainly there are gaps that they probably do not 
choose to fill or cannot at this point fill. But they have to 
make the trade-offs in terms of risks and other investments 
that need to be made.
    Senator Sarbanes. Can I ask one final question?
    Senator Reed. Certainly, Mr. Chairman.
    Senator Sarbanes. The tragedy in New York, as I indicated 
at the outset, still is very much in our minds and memory, but 
we do now have a chance on the World Trade site to do major 
things with respect to transit.
    I know that the New York people have some very ambitious 
plans in that regard. How much are you involved in that and how 
supportive are you being from the Federal level so that out of 
this tragedy, we can really put in place something that is 
significantly better than what was there before?
    Ms. Dorn. FTA views this as a very important 
responsibility. As the President has indicated, we need to do 
everything we can in the Federal Government to help bring New 
York back.
    On the one hand, we recognize that transportation has 
always been, and should continue to be, a community-based plan. 
So, we are working very closely with the local decisionmakers 
about how and where they want to spend that money, particularly 
at the site.
    However, we are very, very concerned that our role be to 
expedite in whatever way we can the process so that there are 
no unnecessary delays. We are eager to move these processes and 
to move the projects, more importantly, forward as aggressively 
as possible. And we have worked cooperatively with FEMA in 
terms of determining how we can channel that money directly so 
that the funds can be spent for the projects. It has been a 
cooperative effort all around with the governors, the mayors, 
the head of FEMA, the head of the Department of Transportation. 
I feel very confident about the New York recovery office that 
we have established specifically for these projects. We do not 
want anything to be delayed or get lost in other priority 
projects. This is a very important priority of the FTA and we 
do not plan on failing.
    Senator Sarbanes. Good. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed. I want to particularly associate myself with 
the comments about the reauthorization and the need for the 
Administration to develop a robust plan to continue the 
progress that we have made over the last several years.
    Senator Sarbanes. We wait with hopeful expectation, Madam 
Administrator.
    Ms. Dorn. Thank you, I think.
    [Laughter.]
    Senator Reed. Let me ask a final series of questions.
    I understand that you are working to develop a memorandum 
of understanding between FTA and the new Transportation 
Security Administration. That is correct, I believe.
    Ms. Dorn. We are exploring a number of formal mechanisms by 
which we could make it very clear who does what. We already 
have had many very fruitful discussions and this happens across 
Government all the time in terms of sorting out a complex set 
of situations. I am confident that we will work toward a 
solution where transit will be well served.
    Senator Reed. Well, let me suggest a series, and this is 
certainly not an exhaustive list, of categories. You might just 
acknowledge that you are specifically working on those or 
comment specifically.
    First, obviously, defining the clear roles between the TSA 
and the FTA with regard to both transit security and transit 
safety.
    I think those are issues that are not identical, and they 
raise issues that I think are not well defined between you and 
the Transportation Security Administration.
    I would hope also that you would endeavor to identify a 
single point of contact for Federal funding for local transit 
agencies. I cannot think of anything more frustrating than to 
have transit agencies running between you and the Transit 
Safety Administration.
    Identifying--and you alluded to this in your testimony--how 
threat information will be shared between transit agencies, the 
FTA and the TSA.
    And you have again identified this as one of the key 
issues. How do you move information around in a timely fashion? 
Funding priorities, who will set those? How will they be set?
    Also, in light of our debate on the floor today, what will 
be the impact of moving TSA to the Department of Homeland 
Security in terms of formal relationships between you and TSA?
    You have already done such commendable work. I would hope 
that your work would not be lost and there would be some way 
that you would guarantee that it would be taken on by the new 
Transportation Security Administration.
    These are some of the items that I think hopefully you 
would address. I will leave it up to the executive to determine 
whether it has to be memorialized in an MOU or it is something 
that is a policy or routine. But, obviously, I think, and I 
think you recognize also, this is something that should be done 
in the near-term.
    Ms. Dorn. Excellent. Just a couple of comments, Mr. 
Chairman. Something that has not been brought up until you just 
did. And that is the intimate relationship of security and 
safety, and the intimate relationships of both to the day-to-
day operations of transit systems.
    TSA recognizes, FTA recognizes, and certainly the industry 
recognizes that you cannot carve out security and have this 
artificial ``you do this'' and ``we will do the other.''
    It will not work and that is not the way we are going. I am 
very pleased to recognize that this takes a very careful and 
common sense approach. And Admiral Loy has been superb about 
both of those aspects.
    I certainly recognize that the single point of contact is 
imperative. The President and the Administration recognize that 
in the recovery efforts and the use of money for the New York 
issue. They did not want FEMA to have part of the money and FTA 
to have part of the money, and then have the local people try 
to figure out who does what. So, we worked that out very well 
and I know that we can do the same here.
    Also, TSA has been very supportive of our risk-based 
approach. They know. They have been briefed extensively on what 
we have done and in fact we have phoned home fairly regularly 
because we wanted to make sure that we are on the same page. I 
have every reason to believe that we are on the same page, and 
that Admiral Loy's leadership will ensure that we can work 
effectively together. But you raise some very important issues 
and all of them are on our list as well.
    Senator Reed. Thank you very much. Unless Senator Sarbanes 
has other questions, thank you very much, Madam Administrator.
    Ms. Dorn. Thank you, Mr. Chairman.
    Senator Reed. Let me ask Mr. Guerrero to come forward to 
start the second panel.
    [Pause.]
    Our second witness this afternoon is Peter Guerrero, 
Director, Physical Infrastructure Issues for the General 
Accounting Office. Joining him are Ms. Nikki Clowers and Ms. 
Susan Fleming, who are intimately involved in the GAO's review 
of transit security.
    Thank you, Mr. Guerrero. Please go ahead.

                  STATEMENT OF PETER GUERRERO

            DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES

                        ACCOMPANIED BY:

               NIKKI CLOWERS, SENIOR ANALYST AND

               SUSAN FLEMING, ASSISTANT DIRECTOR

                 PHYSICAL INFRASTRUCTURE ISSUES

                 U.S. GENERAL ACCOUNTING OFFICE

    Mr. Guerrero. Thank you, Mr. Chairman. I want to thank you 
for asking us to do this work and to testify today on this 
issue that is of vital importance to Americans.
    Over a year has passed since the terrorist attacks of 
September 11, and while most early attention, as you know, 
focused on airport security, emphasis on the other modes of 
transportation, including transit security, has since grown. 
Events around the world and new intelligence information 
unfortunately indicate that the threat to mass transit is real.
    Today, I will discuss challenges in securing mass transit 
systems, steps that agencies have taken to enhance the safety 
and security of their operations, and the Federal role in this 
area.
    My comments are based on preliminary work that the GAO has 
conducted involving site visits to 10 transit agencies across 
the country, a survey of 200 transit agencies, and countless 
interviews with DOT officials and industry experts. Transit 
agencies face significant challenges in making their systems 
secure. These challenges can be grouped into three categories.
    First, as we heard today, certain characteristics make 
transit systems both vulnerable and difficult to secure. By 
their nature, they are open. They have high ridership, fixed 
infrastructure, and usually large investments in 
infrastructure. Also, they are often 
located in areas that are target-rich for terrorists. In short, 
they are attractive. But their openness makes it impractical to 
use certain security measures that have been used in aviation, 
such as metal detectors. Further complicating transit security 
is the need for transit agencies to balance security concerns 
with accessibility, convenience, and affordability.
    Because transit riders can choose other means of 
transportation in many cases, such as personal automobiles, 
transit agencies must compete for riders. To remain 
competitive, they must offer convenient quality service at low 
cost. Therefore, security measures that limit accessibility, 
cause delays, increase fares, or create other inconveniences 
could push people away from transit and back into their cars.
    Second, funding identified security enhancements is a 
challenge for many transit agencies. Although some security 
improvements such as removing trashcans from station platforms 
and increasing the alertness of transit system employees have 
little or no cost, most improvements require substantial 
funding.
    For example, some of the commonly identified security needs 
of the agencies we visited are upgraded communications systems, 
additional fencing and surveillance equipment, and redundant 
control centers. The total estimated cost of just eight 
agencies we visited was over $700 million. We estimate that the 
total costs of security improvements for all transit agencies 
could be in the billions.
    Funding these security improvements is problematic for a 
number of reasons. Recently, with the sluggish economy, the 
transit agencies we visited are experiencing declining revenues 
due to decreased ridership. They depend also very often on 
local and State sales tax revenue. These revenues are also 
down.
    In the best of times, these systems have competing 
priorities, and security and safety is one of a number of 
priorities they must fund.
    And finally, there are often strings attached to Federal 
assistance that limit flexibility, such as the prohibition for 
large systems using Federal funds for operating expenses.
    Third, coordination among transit stakeholders can also 
prove to be challenging. A number of stakeholders must be 
involved in transit security decisionmaking, including all 
levels of Government and the private sector. Coordination among 
stakeholders is integral to enhancing transit security, and a 
lack of coordination can create problems such as duplication of 
effort.
    Our discussions with transit agency and local government 
officials and our preliminary survey results indicate that 
coordination on emergency planning is generally taking place 
between transit agencies and local levels of government despite 
some challenges, but appears to be minimal between transit 
agencies and governments at the regional, State and Federal 
levels.
    Despite these formidable challenges in securing transit 
systems, transit agencies have taken a number of steps to 
improve the security of their systems.
    The agencies we visited were implementing strategies to 
improve both safety and security prior to September 11, and the 
events of September 11 have elevated the importance of 
security-related activities as well. As a result, these 
agencies have implemented new initiatives or have increased the 
frequency of existing activities since last September.
    For example, many have assessed their vulnerabilities, 
provided additional employee training on how to handle 
emergencies, revised emergency plans, conducted multiple 
emergency drills, and intensified the security presence in 
their systems.
    I would now like to turn to the Federal Government's role 
in transit security.
    We found that this role is evolving. For example, though, 
FTA, as you heard today, has limited regulatory and oversight 
authority, it has undertaken various initiatives and has 
increased funding for transit security since last September.
    In addition, the Aviation Transportation Security Act 
created TSA and gave it responsibility for transit security. 
However, TSA has yet to assume full responsibility for the 
security of any transportation mode other than aviation.
    Much needs to be worked out here and TSA and FTA are de-
veloping a memorandum of understanding that will define each 
agency's roles and responsibilities for transit security.
    Although most of the transit agencies we visited said FTA 
security initiatives have been useful, they would like the 
Federal Government to provide more assistance to support 
transit security.
    Specifically, agencies we visited mentioned the need for 
the Federal Government to provide help with security 
clearances, supply increased funding for security improvements, 
and invest more in security-related research and development.
    In addition, the transit agencies would like the Federal 
Government to provide additional information on a number of 
issues, including the availability of Federal grants, best 
practices, real-time threat information, and information on 
available security-related technologies.
    In considering the Federal Government's role in funding 
transit safety and security initiatives, several issues need to 
be addressed, including developing Federal funding criteria and 
performance goals and measures that can be used to assess our 
progress in this important area.
    While the total cost of all needed transit security 
improvements throughout the country is unknown, given the size 
of the Nation's transit systems, these costs could be, as I 
said earlier, in the billions of dollars. Because requests for 
Federal dollars for transit security can be expected to exceed 
available resources, criteria for distributing Federal funds 
will be needed.
    Transit agencies we met with identified a number of 
possible Federal funding criteria that could be used to 
distribute the Federal funds, including ridership levels, 
populations of cities the transit agency serves, identified 
vulnerabilities of the agency, and the number and type of 
unique assets of the agency.
    In general, the transit agency officials we spoke to 
believe funding criteria should direct Federal dollars to 
agencies that are most at risk and/or most vulnerable to a 
terrorist attack.
    In conclusion, Mr. Chairman, securing the Nation's transit 
system is not a short-term or easy task. Many challenges must 
be overcome. FTA and transit agencies we visited have made a 
good start in enhancing the security, but more work is needed. 
Transit agencies' calls for increased funding join the list for 
competing claims for Federal dollars and difficult trade-offs 
will have to be 
made to ensure that finite resources are directed to the areas 
of highest priority.
    Next year's reauthorization of TEA-21 provides an 
opportunity to examine the Federal Government's role in funding 
transit security improvements. Because requests for Federal 
assurance will probably exceed available resources, criteria 
will be needed for determining which transit security 
improvements merit Federal support. In addition, the Federal 
Government could take steps and actions to assist agencies as 
they press forward with their security improvements, such as 
providing additional information on security matters and 
removing the prohibition on using urbanized area formula funds 
for operating expenses.
    We will continue to monitor these issues for the 
Subcommittee. We expect to issue a final report before the end 
of this year.
    This concludes my summary statement. Our full statement is 
of course submitted for the record. I would be pleased to 
answer any questions.
    Senator Reed. Thank you very much, Mr. Guerrero.
    You have identified one major issue among the several you 
have talked about. That is the criteria for distributing 
Federal funds. That is multifaceted.
    First, criteria among competing transit systems, and then, 
at a different level, criteria among different modes of 
transportation--aviation, surface rail, highways, et cetera. Do 
you have any views, based on your analysis, about what might be 
a good criteria among those you mentioned?
    Mr. Guerrero. I think that one way to think about the needs 
of transit systems is all systems, regardless of size or type 
of service provided, whether they are rail only, rail and bus, 
bus only, whatever, have a certain baseline of needs. They need 
assistance to do planning, to develop emergency preparedness 
plans. They need assistance to train staff. They need 
assistance for drills and exercises to make sure that their 
plans are working, and then to identify problems with those 
plans so that they can improve on them and so forth.
    Those are needs that are shared by all systems. And it 
would seem reasonable that Federal support be provided to 
assist all agencies in helping them with that baseline of 
required needs.
    In addition, certain agencies do face unique challenges 
because of the size, scope, density, nature of their 
operations, unique features and so forth.
    Once individual agencies conduct a risk assessment and 
identify their unique vulnerabilities, it seems reasonable that 
assessments serve as a second line level of criteria for 
determining which agencies to target additional funds.
    And certainly the things that we have heard for that 
consideration is population density, unique assets, unique 
vulnerabilities of particular assets--bridges, tunnels, and so 
forth--that are critical and that are extremely vital to the 
continued success of that system. There is a second line set of 
criteria, and we will be spelling that out further in our final 
report to you.
    Senator Reed. Good.
    At the Federal level, as we apportion funds between 
highway, transit, ports, et cetera, with respect to security, I 
think we all anticipate that there will be questions about 
where the money goes, what is the most important use. Do you 
have any views on that?
    Mr. Guerrero. In listening to experts over the last year, I 
would say that, almost without exception, what I have heard is 
that aviation is clearly the one that comes to mind because 
that was what happened on September 11. And we have put a lot 
of resources into that. There is a very ambitious schedule and 
timeframe for addressing security in that area. In addition to 
aviation, the other two that seem to rise to the top are ports 
and transit.
    Senator Reed. Thank you.
    Based on your work, are you finding differences in 
preparedness based on the size of the transit system? Can we 
assume that the big properties are serious and the small ones 
are strapped for cash? What inferences can we draw?
    Ms. Clowers.
    Ms. Clowers. What we found in our site visits is that all 
agencies are acting aggressively to improve safety and 
security. While safety and security were a priority prior to 
September 11, after September 11, security issues were 
elevated.
    All of the transit agencies we visited are doing such 
things as increasing emergency drilling, conducting 
vulnerability assessments, and tightening access. So based on 
the site visits that we have done, I do not think that we can 
say that the big agencies are doing more than smaller agencies.
    Senator Reed. Thank you.
    Is there any difference in terms of modes of transit policy 
challenges or funding challenges--surface buses, subway 
systems, light rail? Is there anything we can glean from 
looking at the different modes of transportation and transit?
    Mr. Guerrero. Yes. The kinds of things that you would do, 
for example, for a system that is primarily a bus system is you 
would want to secure, for example, the maintenance and storage 
facilities. You might want to ensure that there are adequate 
locks on ignitions and that there is adequate security around 
those areas.
    That looks different from securing a subway system where 
you have tunnels. You may have bridges associated with subway 
systems. You may have the intermodal centers like a Penn 
Station in New York that we talked about earlier in this 
hearing. These assets present a unique set of challenges.
    So there are different kinds of things that you would do 
with different systems and there are different price tags 
associated with those. And key to all of this is ensuring that 
systems, whether they are large, small or medium, and wherever 
they are located, that they have done essentially a 
vulnerability and risk assessment and have determined where 
their vulnerabilities are and have a plan or strategy for 
addressing them.
    I actually, want to commend, the FTA for having I think 
initially focused on security assessments. I think that is the 
place to start, and that is the vehicle for identifying 
specifically what will need to be done for different systems 
and across different modes.
    Senator Reed. Administrator Dorn made the point that the 
biggest bang for the buck seems to come from training. Is that 
your impression after your initial review of the area?
    Ms. Fleming. I would say that, in our view, in talking to 
the experts in the field, that is the case. In the site visits, 
we found that everybody was doing some level of training prior 
to September 11 and they certainly have increased it since last 
September. More people within the agencies are being trained. 
They are being trained more frequently, more drills, more 
employee awareness. It is something that the studies have shown 
is a tremendous bang for the buck.
    Mr. Guerrero. Training, Mr. Chairman, clearly is among the 
top three. When we asked in our survey of transit agencies for 
what do they need additional resources for, training was one of 
the top three. The other was surveillance and surveillance is 
both the hardware and an operations issue. It can be both 
cameras and the cop on the beat.
    And then the third area that they identified was enhanced 
communications. There is some unique aspects of certain systems 
in identifying needs to have redundancies in terms of control, 
operations, and equipment.
    Senator Reed. Thank you.
    You mentioned that the systems you reviewed had about $700 
million in required spending that is not yet available, and 
that, overall, all the systems, you thought would cost about a 
billion. Do you have a more precise figure for the overall cost 
to bring standards up to adequate measures?
    Mr. Guerrero. Unfortunately, we cannot generalize. The best 
we can do is tell you what we learned from each of those 
systems. And while I cannot generalize from that and say, well, 
there are 6,000 systems across the country, and if eight of 
them are telling us that they need $700 million, then you can 
do the multiplication. It is not quite that simple. And so, we 
will look more closely and see if we can pin that number down a 
little bit better in terms of the aggregate.
    Senator Reed. Yes, go ahead.
    Ms. Clowers. I would just add that, in our survey, we 
surveyed 200 transit agencies and we asked them about their 
funding needs. And hopefully, we will be able to put a cost 
estimate on their identified needs.
    Mr. Guerrero. We did design that survey so that we could 
have some representative kinds of things to say.
    Senator Reed. I think one of the points you made in your 
testimony, Mr. Guerrero, deserves repeating. And that is, these 
are nonavoidable costs in many cases if we are serious about 
security.
    They are occurring at the worst fiscal time in most cities 
and municipalities, as their tax rolls shrink, as the economy 
declines, as ridership might decline.
    And without Federal assistance, these needs could all go 
unmet, and we would regret it in the future when an incident 
that might have been mitigated or prevented occurs.
    Mr. Guerrero. That is correct. We have also seen some hard 
trade-offs being made to date, where capital improvements and 
capital expenses have been deferred, to address the very 
important issue of security. And that can be done in the short 
term. But the long-term consequences for mass transit are to 
make it less appealing, less viable as an alternative, and so 
forth.
    Senator Reed. It is a vicious circle. As the ridership 
declines, the incentive to provide more resources for security 
and safety declines also. So your insights in the report will 
be very useful in trying to support appropriate levels of 
funding.
    Let me ask a final question. In your review, have you found 
some innovative practices, techniques that bear publication, 
without being too specific? Is there anything out there that 
you find innovative, which we should encourage systems to 
emulate throughout the country?
    Ms. Clowers. We did find some unique practices among the 10 
transit agencies that we visited.
    For example, one agency has trained a number of their city 
police officers to drive their buses. They have been licensed 
to drive the buses and they receive frequent driver training. 
That way, in an emergency, the police officers can drive the 
buses in to evacuate people and won't put the operators in 
harm's way.
    Another unique practice was an agency after September 11 
adopted an employee suggestion program, because the employees 
are out there on the street every day and can see potential 
vulnerabilities or ways to improve security, if they submit a 
security improvement that is implemented, they receive a day 
off.
    Another agency not only uses outside experts to conduct 
vulnerability assessments, but they also use their internal 
people, 
maybe specialized in certain areas like electricians, to help 
conduct 
vulnerability assessments. Again, these employees know the most 

about the systems and probably any potential vulnerabilities of 

the system.
    Senator Reed. Great. Thank you.
    Let me thank you for your excellent testimony and your 
work, both what you have accomplished already and what you will 
do in the next several months.
    I want to thank you, Mr. Guerrero, and your colleagues for 
your testimony, and Ms. Dorn, too. There will be a period of 
time in which we will reserve the right to ask questions for 
the record and we would ask that you respond promptly to those 
questions.
    The testimony this afternoon has given us a greater 
understanding of the steps that have already been taken to 
improve security. I believe that the FTA and the industry have 
taken some impressive steps, but we have a long way to go 
before we feel more secure about our transit systems in the 
United States.
    The challenges are significant and we view those challenges 
not only in terms of today's hearing, but also in terms of next 
year's reauthorization.
    You have pointed out, based on your study of eight or so 
systems, $700 million of unmet needs for security. The bottom-
line pricetag is probably in the billions nationwide. Yet, 
today, FTA has received only about $30.8 million. So there is a 
resource issue here. We 
have to meet our security needs, and I do not think we can ask 
the 
transit authorities throughout the country to do more with 
less. 
Clearly, we are asking them to do more in terms of security.
    In the coming weeks and months, I hope and expect that we 
will work with FTA, the Nation's transit systems, unions, and 
others, with the advice and help of the GAO, to get the best 
security we can for the transit public. They demand that, they 
require that. It is an essential component of our Nation, our 
economy, and we have to ensure that transit is available, and 
we will do that.
    Thank you for joining us, and at this point, I would 
adjourn the hearing.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]
    [Prepared statements, response to written questions, and 
additional material supplied for the record follow:]
              PREPARED STATEMENT OF SENATOR JON S. CORZINE
    Chairman Reed, thank you for calling this second hearing of the 
Subcommittee on Housing and Transportation to discuss the important 
issue of the safety of our transit systems. As we move forward in 
fortifying our Nation in the aftermath of September 11, I look forward 
to hearing from Federal Transit Administrator Dorn and the General 
Accounting Office about the progress we have made in securing our 
Nation's mass transit system and what remains to be done.
    Mr. Chairman, since our Nation was viciously attacked on September 
11, we have taken a long look at how to make our modes of 
transportation safe and secure. Most of our attention has focused on 
aviation. But now we must consider the security needs of our mass 
transit system as well.
    One of the many lessons we learned from this tragedy in my home 
State is how much of a strain a terrorist attack can put on a mass 
transit network. I am proud to say that the State agencies that 
coordinate transit between New York and New Jersey--New Jersey Transit 
and the Port Authority of New York and New Jersey--met the challenge of 
helping to evacuate thousands from lower Manhattan. We need to make 
sure that all transit agencies are able to assist in the event of any 
disaster--natural or otherwise.
    We need to do all that we can to ensure that our bus, trains, and 
ferries are as secure as they possibly can be. I will look hard at the 
question of how additional funds may be set aside for safety under the 
reauthorization of TEA-21. I will also work hard to obtain additional 
money for New Jersey under the appropriations process. I was proud that 
along with Senator Torricelli, I was able to obtain $100 million to the 
Federal Transit Administration for Transit Improvements, including 
improvements to the damaged PATH tunnel to the World Trade Center. 
Senator Torricelli and I were also able to obtain $100 million for 
repairs to the aged Amtrak-owned tunnels that go to New York City under 
the Hudson and East Rivers. These funds will enable the metropolitan 
New York region, including northern New Jersey, to better respond in 
the event of an emergency, whether natural or man-made.
    Mr. Chairman, we also to ensure that there are enough mass transit 
options to support our cities both during normal times, as well as in 
times that are not normal. We saw the crush of people that were forced 
to leave both New York and Washington on foot on September 11. In order 
for mass transit to be truly a safe and secure option, it must also be 
an option that is readily available. That is why I am supporting major 
rail projects for the New York metropolitan area such as building a 
rail tunnel under the Hudson River from New York into New Jersey. Only 
by increasing the availability of mass transit, as well as increasing 
the safety levels on buses, trains, and ferries, can we say that we 
have a safe and secure transit system.
    Thank you, again, Mr. Chairman. I look forward to hearing from our 
witnesses.
                               ----------
                 PREPARED STATEMENT OF JENNIFER L. DORN
             Administrator, Federal Transit Administration
                           September 18, 2002
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today on behalf of the Federal Transit 
Administration (FTA) concerning the progress of our security initiative 
and our collaborative efforts to keep America's transit passengers safe 
and to protect the vital transportation assets of this Nation.
    In my testimony today, I will address three specific topics that I 
understand are of particular interest to the Subcommittee: (1) FTA's 
activities to improve the security of America's transit systems; (2) 
FTA's statutory authority with regard to transit security matters; and 
(3) the working relationship between FTA and the Transportation 
Security Administration (TSA).
    Before I begin, I want to thank Secretary Mineta for his unfailing 
support and commitment to protecting Americans traveling on every form 
of transportation. While much attention has been given to the 
significant changes underway in the aviation industry, Secretary Mineta 
has lent his considerable influence and intellect to the vigorous 
pursuit of security improvements in surface transportation, as well.
    In addition, we look forward to Congressional approval of the 
President's proposed Department of Homeland Security. The creation of a 
single agency charged with preventing terrorist attacks in the United 
States, reducing America's vulnerability to terrorism, minimizing 
damage and expediting recovery from such attacks is critical. The 
Department of Homeland Security will be in a position to assess threats 
and vulnerabilities across industries and regions, and to undertake the 
comprehensive prioritization of needs and the allocation of resources. 
We are fortunate at the Department of Transportation to have the 
Transportation Security Administration positioned to undertake such 
prioritization with regard to transportation security needs, and we 
look forward to working with the new Department of Homeland Security to 
ensure that transit security issues continue to receive due 
consideration and are addressed appropriately.
    In the year since the tragic events of September 11 changed our 
understanding of the term ``transit safety and security,'' we have made 
it a priority of the Federal Transit Administration to do all that we 
can to help communities become better prepared to respond to emergency 
situations. Shortly after that horrifying day, FTA launched an 
ambitious five-part security initiative. We created the framework of 
that initiative based on a holistic, systems approach to improving 
security in any transit system: (1) evaluate the current situation 
through in-depth security assessments, (2) develop a plan to address 
deficiencies, (3) test the plan in realistic situations, (4) train 
employees to understand and implement the plan, and (5) undertake 
research to enhance our human capabilities. The appropriateness of 
these basic components--assessment, planning, testing, training, and 
research--has been borne out by our security assessment results. I 
would note that this initiative focuses significant attention and 
resources on improving our human capability to respond to security 
threats and incidents. It acknowledges that technology can be helpful, 
but there is no technology that will secure the open environment of our 
Nation's transit systems. FTA's security initiative has been funded 
with $12.1 million of fiscal year 2002 money that has been refocused on 
security and by $18.7 million of emergency supplemental funds, 
providing a total of $30.8 million for this important effort.
    I am pleased to report that, today America's transit systems are 
safer, better prepared, and more security-conscious than ever.
    Secretary Mineta recently noted that public transportation must 
play an important role in achieving the President's three important 
goals of winning the war against terrorism, protecting our homeland, 
and getting the American economy moving again. As our security 
initiative recognized, more can be done and is being done to make 
public transportation as safe and secure as possible. At the same time, 
we must be careful to protect the freedom of movement that we all 
cherish and continue to promote the economic vitality of our 
communities and our Nation. Keeping this three-legged stool of 
security, economic vitality, and personal freedom in balance is a 
challenging responsibility, but one that we are pursuing with passion 
and conviction.
Upgrading Transit Security
    Over the past year, teams of experts in security, antiterrorism, 
and transit have conducted security assessments of 36 public 
transportation systems using a proven threat and vulnerability 
assessment methodology. We focused first on the Nation's high-risk/
high-consequence transit assets. Generally, that meant transit systems 
with tunnels and stations where large numbers of people converge, and 
where an attack would cause the greatest disruption to transportation 
services. All of the transit agencies participated in the assessment 
program voluntarily. The assessments considered the entire 
transportation system and network in each area, not just the physical 
assets of one mode or site. Each assessment identified high-risk/high-
consequence assets, evaluated security gaps, made recommendations to 
reduce security risks to acceptable levels, educated transit agencies 
on threat and vulnerability analysis, and reviewed agencies' emergency 
response plans, particularly their degree of coordination with 
emergency responders throughout the region. Based on the findings of 
these assessments, FTA is deploying emergency response planning and 
technical assistance teams to 60 transit agencies to help them develop 
and update their security response plans, develop agency-specific 
protocols to respond to different Office of Homeland Security threat 
levels, conduct training needs assessments, and develop agency-specific 
security awareness materials for employees and customers. We have 
completed the pilot phase of this project with three transit agencies, 
and plan to send Technical Assistance Teams to at least 30 transit 
agencies by the end of fiscal year 2003. These agencies were identified 
in conjunction with the FBI, which has assisted us in prioritizing and 
targeting our resources based on intelligence information about threats 
and vulnerabilities.
    The security assessments proved to be an effective tool for both 
the FTA and the participating transit agencies. We identified important 
concerns at even the most well prepared agencies, and have recommended 
solutions to manage these risks. At the same time, we are identifying 
best practices for training and response protocols, and are sharing 
these with the industry. The assessments were also critical in our 
efforts to develop appropriate system-wide programs to help the transit 
industry prevent and mitigate the potential effects of a terrorist 
attack.
    I am certain that the Subcommittee understands the need to avoid a 
public discussion of our specific findings about particular transit 
systems, but I would like to provide you with an overview of our key 
findings, as well as an indication of how FTA's security initiative is 
helping to address these issues.
Findings of Assessment
System Design
    First, new systems and those undergoing renovation or modernization 
should use design criteria that support security objectives. Important 
considerations include designing stations for easy detection, so people 
cannot leave objects hidden out of sight; separating public and private 
spaces in facilities, so that access to controls and equipment can be 
restricted; and designing facilities for easy decontamination and 
recovery operations. As a result of this finding, FTA is incorporating 
security design as a component of the New Starts development and 
evaluation process. Grant recipients in urbanized areas are already 
required, as a condition of their funding, to establish comprehensive 
safety and security programs and to demon-
strate their technical capacity to carry out those programs.
Intelligence and Information Sharing
    The second finding was that timely and specific sharing of threat 
information and intelligence is needed at both the national and local 
level. Often, the most pertinent information is available from other 
local officials--especially local police and other law enforcement 
agencies. To establish this information flow, FTA has worked with the 
FBI to create collaborative relationships between transit agencies and 
local FBI officials. Last June, I sent a letter to our largest transit 
agencies, encouraging them to participate in the FBI's Joint Terrorism 
Task Force in their community. The FBI sent similar letters to each 
Task Force, encouraging them to contact the transit agencies in their 
region to invite them to join. Most of the largest transit agencies 
have now established working relationships with the law enforcement and 
intelligence sharing groups, such as the Joint Terrorism Task Force.
    While local intelligence information links are necessary, they are, 
clearly, not sufficient. One of the first actions that the FTA 
undertook after September 11 was to 
establish a communication link with the 100 largest transit agencies, 
whose passengers account for an estimated 90 percent of all transit 
riders in the Nation. We have developed written procedures to guide 
communication flow, ensuring not only that the information is accurate 
and official, but also that it gets to the people who need it in a 
timely manner. Using e-mail, fax and phone, if necessary, we now have 
the capacity to communicate with transit agency officials around-the-
clock. This system has already been used a number of times to 
communicate threat information, as well as specific advice about how to 
proactively respond. For example, when the Office of Homeland Security 
recently raised the threat warning level to ``orange,'' FTA sent out an 
advisory to transit agencies with a list of specific measures that they 
should consider in the context of their own system operations. In 
addition, the FTA Regional Offices have established liaisons to the 
largest transit agencies, creating a 24-hour person-to-person contact 
with these transit agency operations centers. In the event of a 
catastrophic transit incident, the Regional liaison will go to the 
affected operations center to act as an information link between the 
Department of Transportation and the transit agency.
    FTA has also undertaken several steps to provide more and better 
intelligence 
information to transit agency officials. Transit agencies will soon 
receive letters 
inviting them to participate in the FBI's Infraguard program, which 
will provide them with access to a secure website that contains 
security sensitive information, advisories, and best practice 
information developed by FTA. The FBI will manage and control access to 
the site, and will undertake the necessary clearance checks for 
participants. We have been assured that the FBI will handle these 
clearances expeditiously.
    In addition, FTA is continuing to work with the transit industry 
and the intelligence community to establish a means for sharing threat 
and intelligence information concerning transit. Our goal is to create 
a communications network that not only disseminates alerts, but also 
collects information from transit agencies, provides a means to 
identify patterns and trends, and shares that analysis with the 
industry.
Transit Employee Security Training
    The third important finding of our security assessments reinforced 
a lesson learned from our colleagues in New York and Washington: There 
is no substitute for security awareness and emergency preparedness 
training for transit employees. As FTA's security assessments 
underscored, America's transit environments are inherently open and 
accessible, with many high-risk/high-consequence assets. We cannot 
place a metal detector at every bus stop, or a fence and a checkpoint 
at every subway portal. Instead, we must rely on--and cultivate--human 
capabilities to prevent, detect, and respond to security threats.
    The 400,000-plus transit employees throughout America are the 
``eyes and ears'' of our most important security system. Transit 
employees travel the same routes, maintain the same facilities, and see 
the same people every day as they go about their duties. They are in 
the best position to identify unusual packages, suspicious substances, 
and people who are acting suspiciously. But they need to acquire skills 
in what to look for and how to respond, skills that can be acquired 
through rigorous emergency planning, regular emergency testing and 
drills, and extensive training.
    To ensure that such training is available, FTA has partnered with 
the Transportation Safety Institute (TSI) and the National Transit 
Institute (NTI) to expand course offerings on security to a broader 
audience. FTA, in conjunction with NTI, has also launched an aggressive 
nationwide schedule to deliver comprehensive security awareness courses 
targeted to front-line transit employees and supervisors, free of 
charge. Course offerings include security planning, weapons of mass 
destruction, bus and rail hijacking, and crime prevention through 
environment design. Over the past year, 134 transit employees were 
trained to deliver four security training courses to other transit 
employees at their own agencies. In addition, NTI delivered the course 
at 10 locations directly to 522 transit employees, generally at smaller 
transit agencies. This month NTI will also be distributing more than 
3,000 compact discs containing a computerized version of the basic 2-
hour security awareness course for employees, tailored for bus, light 
rail, and heavy rail. Finally, eight updated Transit Safety Institute 
courses, including system security, emergency incident management, bus 
hijacking, and weapons of mass destruction have been delivered to over 
950 transit managers.
    Over the next several months, FTA also plans to launch a new 
program, including training materials, posters, pocket cards, brochures 
and other materials, to teach and remind transit workers about what to 
look for, how to respond to a threat, and whom to notify. We will be 
working with industry stakeholders, including transit unions, to 
develop and deliver these materials.
Emergency Response Capability
    Training is not limited, however, to classrooms. Those who will 
have to respond boldly and expeditiously should an attack occur need 
hands-on practice. Full-scale drills reinforce emergency response 
procedures and help communities work out specific details and back-up 
plans.
    Which leads me to the fifth important finding of our security 
assessments: Emergency response must be transit's primary antiterrorism 
tool. The reality is that we will never be able to guarantee the 
complete safety and security of our transit passengers and employees. 
With 1,500 people per minute entering Penn Station in New York, for 
example, even random searches of every sixth or sixtieth person would 
unduly disrupt daily travel patterns. Being prepared to respond quickly 
and effectively to an event--minimizing loss of life and mitigating 
damage to property--is essential.
    To be ready to respond, transit agencies need written emergency 
response plans that include a unified command structure, and they must 
conduct realistic drills that are specific to their own operations. To 
assist transit agencies in these efforts, FTA has awarded 83 grants to 
fund emergency response drills. One important condition of these grants 
is that the drills must include the participation of local and regional 
police, fire and emergency response agencies. There is no doubt that 
the safety and security of our communities is significantly enhanced 
when public transportation systems are linked to police, fire, medical, 
and other emergency response agencies. Community-wide planning, 
emergency response drills, and unified emergency command centers make 
this critical link effective.
    As you might imagine, these important links have not been 
established in every community. So, in addition to providing grants for 
emergency response drills that include these important community 
responders, the FTA is taking the lead to bring these key players 
together at emergency response planning forums around the 
county. With the eager participation and support of elected officials 
and emergency response organizations, FTA is conducting 17 Emergency 
Preparedness and Security Forums around the country to promote regional 
collaboration and coordination among emergency service responders and 
transit agencies. In the eight 2-day forums held to date, more than 
1,200 transit leaders, law enforcement, fire, and medical emergency 
response personnel have begun or continued the important process of 
building relationships and collaborative plans for emergency response.
Technology Development and Deployment
    Finally, the assessments confirmed that technology can play an 
important, but not an exclusive, role in transit security. There is no 
technological ``quick fix'' for security concerns, nor is there a 
technological proxy for an alert and well-prepared transit workforce. 
Furthermore, the assessments found that many transit systems can make 
better use of the security technology they already have. For example, 
all of the transit agencies that participated in the security 
assessment program had closed circuit television cameras to help deter 
and detect terrorist activity. It was not always used effectively, 
however.
    Overall, FTA believes it can best assist transit agencies in the 
area of technology by continuing its programs to identify and adapt 
security technologies developed by other agencies and industries, such 
as the military, for the transit environment. FTA has been involved 
with security development and deployment for a number of years. Most 
notably, under our security initiative, FTA has accelerated the 
development of Project PROTECT, a chemical detection system for use in 
subways that was prototyped in the Washington, DC Metro system. Testing 
of Project PROTECT is currently being expanded to an older transit 
system in order to evaluate its usefulness in alternative environments. 
FTA has collaborated with many agencies, including the Department of 
Defense, the Department of Energy, and the Transportation Research 
Institute, to identify promising technologies that may be applicable to 
transit systems, and we will continue to do so.
FTA's Statutory Authority
    As you are aware, the FTA is prohibited by law from regulating the 
day-to-day operations of a transit agency. Working within its statutory 
role, FTA is providing technical and financial assistance to transit 
agencies, which have enthusiastically participated in FTA's security 
assessments and initiatives.
    In addition, the FTA utilizes its current statutory authority--the 
``power of the purse''--to ensure that certain safety and security 
requirements are met as a condition of grant receipt. For example, 
recipients of Section 5307 Urban Area formula funds must spend 1 
percent of these funds on safety and security measures, unless they 
certify that such expenditures are unnecessary. FTA enforces this 
requirement through an annual certification process and triennial 
reviews.
    FTA also has statutory authority to undertake a number of other 
safety and security activities, including:

<bullet> The development and delivery of safety and security curricula 
    through the National Transit Institute at Rutgers University (49 
    U.S.C. 5315).
<bullet> Capital grants to transit systems for crime prevention and 
    security (49 U.S.C. 5321).
<bullet> Investigation of whether FTA-funded equipment, facilities, or 
    operations cause a serious hazard and, if so, requiring corrective 
    action (49 U.S.C. 5329).
<bullet> A review of safety and security in the context of oversight 
    program reviews for New Starts and other major capital grants (49 
    U.S.C. 5327(c)(2)).
<bullet> Research, development and demonstration projects in the area 
    of safety and security (49 U.S.C. 5312).
<bullet> The creation of ``joint partnership'' agreements to introduce 
    and deploy safety and security innovations with terms more 
    favorable than may be permitted under FTA contracts, grants, or 
    cooperative agreements (49 U.S.C. 5312(d)).
<bullet> Access to the services of experts and consultants with respect 
    to security matters under contracts awarded by other Federal 
    agencies, such as the Departments of Defense and Energy and FEMA 
    (e.g., the Economy Act, 31 U.S.C. Section 1535).

    The effectives of these statutory tools is evidenced by the 
enviable safety record of the transit industry. Indeed, with regard to 
fatalities, the National Safety Council reports that riding the bus is 
47 times safer than traveling by car, and rail transit passengers are 
23 times safer than automobile travelers. Without regulatory mandates, 
transit agencies, unions, and industry groups have demonstrated a 
remarkable level of cooperation and collaboration to ensure that public 
transportation is the safest mode of travel. They eagerly participate 
in FTA safety training programs, willingly assist in the development 
and distribution of best practices and other guidance, and 
enthusiastically seek and receive technical assistance to improve their 
safety practices. Over the past year, I have witnessed this same 
commitment with respect to security matters.
    In sum, Mr. Chairman, at this time I do not believe that FTA 
requires additional regulatory authority. We have a variety of tools at 
our disposal to assist transit agencies, excellent oversight and 
enforcement mechanisms tied to our formula grant programs, and the 
enthusiastic participation of transit agencies in programs to enhance 
transit security. Furthermore, TSA has statutory authority to develop 
any necessary standards and regulations. I would note, however, as 
Admiral Loy has said on numerous occasions, success depends on the 
support and willful compliance of the industry; we will achieve better 
results without mandates and regulations.
The Role of TSA in Transit Security
    The Aviation and Transportation Security Act recognized the 
importance of security for all modes of transportation and related 
infrastructure. The Act established the Transportation Security 
Administration, consolidating overall responsibility for transportation 
security in a single entity. Under the leadership of Secretary Mineta 
and Admiral Loy, TSA is taking a practical and appropriate approach to 
trans-
portation security, working closely with all of the operating 
administrations to prioritize security needs and resources. Admiral 
Loy, for example, has shown a willingness to recognize that the strong 
relationships forged by FTA with transit stakeholders are an essential 
component of TSA's success. We believe that these efforts will only be 
enhanced and strengthened by the creation of the President's proposed 
Department of Homeland Security, which will have the necessary 
information 
and resources to prioritize the full range of our Nation's security 
investments and 
activities.
    FTA and TSA are working together to delineate carefully the roles 
and responsibilities of our agencies based on existing legal 
authorities and our respective core competencies. We are making very 
good progress. We plan to establish a strong, strategic relationship 
between FTA and TSA. Both agencies recognize that the Federal 
Government cannot achieve the desired level of security if agencies act 
in isolation. A strong partnership between the agencies is required, 
and recognition that, like safety, security must be an integral part of 
Federal transit programs.
    Last March, Secretary Mineta reminded us that, even as we improve 
the security of our Nation's transportation systems, we must ``renew 
our commitment to strengthen America's freedom of movement, and enhance 
the capabilities of our transportation systems to effectively grow 
America's economy.'' Together, over the coming months, FTA and TSA will 
pursue the President's Homeland Security Goals, focusing our efforts 
on: Preventing terrorist attacks through improved intelligence and 
information sharing; reducing the vulnerability of transit systems to 
terrorist attacks; and minimizing potential damage and speeding 
recovery should an attack occur. I am confident that FTA's partnership 
with the TSA will not only enhance transit security, but also, as the 
Secretary called upon us to do, help protect our way of life.
    As our experience on September 11 demonstrated, robust public 
transit systems are essential to our national security. Transit trains 
and buses were key to the swift evacuation of the affected areas; they 
were used to transport emergency workers and supplies to the rescue and 
recovery sites; and they served as emergency triage centers and 
temporary shelters. We cannot, in the name of security improvements, 
compromise the mobility of our Nation or the viability of our public 
transportation systems.
Conclusion
    Mr. Chairman, the Nation's transit operators are to be commended 
for their impressive gains in security. I am particularly pleased that 
these gains have been achieved through exceptional collaboration at all 
levels of Government, and among a variety of stakeholders, including 
private industry, transit unions, elected officials, law enforcement 
agencies, and other emergency responders.
    I also want to thank the Subcommittee for the opportunity to 
provide this important update on transit security. I look forward to 
continuing to work with you to keep Americans safe and moving on public 
transportation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         RESPONSE TO WRITTEN QUESTIONS OF SENATOR REED 
                     FROM JENNIFER L. DORN

Q.1. Does FTA know how much transit agencies are spending on 
safety and security improvements?

A.1. The law requires every Federal transit recipient of 
urbanized formula funds to spend at least 1 percent of its 
funding on security projects, unless the grantee can 
demonstrate to the Secretary's satisfaction that the 
expenditure is unnecessary. FTA reviews and monitors the 
grantee's program to be sure they have met the statutory 
minimum spending but in the past we have not maintained records 
or requested reports on total capital security and spending.
    Mindful of the need to ensure that transit agencies are 
focusing increased attention security, we have determined that 
a grantee will not be able to ``certify out'' of this spending 
requirement, unless it can demonstrate that an equivalent 
amount from other funding sources is being used for security 
projects.
    We are also enhancing our oversight by now requiring 
grantees to identify the specific security projects for which 
the expenditure is made. This will allow the FTA to track 
trends in security expen-
ditures, which will assist us in refining our technical 
assistance 
programs.

Q.2. Does transit security have to have its own dedicated 
source of funding?

A.2. The FTA currently has the flexibility to provide funding 
for security, although transit security expenditure 
determinations are primarily a local issue. FTA's formula 
capital grants are available for transit agencies to use for 
capital security projects, and transit agencies in areas with 
populations less than 200,000 may use these formula funds for 
operating expenses, including security operations.
    In addition, the FTA provides training, technical 
assistance, guidance materials, and research to help transit 
agencies address their security needs. As we work with the 
Transportation Security Administration (TSA), we will continue 
to assess and evaluate transit vulnerabilities, and we will 
make funding recommendations, as appropriate.

Q.3. Does the FTA believe that it or the TSA should distribute 
any current or future dedicated transit security funds?

A.3. FTA's current security programs have provided a strong 
basis for the transit industry to respond to the new security 
challenges after September 11. The creation of TSA and the 
proposals for the Department of Homeland Security will provide 
additional programs and resources to assist the transit 
industry. The FTA and TSA are working cooperatively to 
establish common sense approaches that balance security with 
the realities of an open, and accessible transit system.
    As TSA develops and prioritizes overall transportation 
security issues, the FTA will continue to exercise leadership 
in the area of 
transit safety and security. We plan to establish a strong, 
strategic relationship with TSA. Both agencies recognize that 
the Federal Government cannot achieve the desired level of 
security if agencies act in isolation. Our strong partnership 
recognizes that, like safety, security must be an integral part 
of Federal transit programs.
    I believe that as we continue to work cooperatively to 
synergize our respective security responsibilities, we 
anticipate that FTA is likely to be in the best position to 
administer TSA's grants to transit agencies through our 
established grant procedures. This will ensure that the TSA's 
grant process is as efficient as possible for transit grantees.

Q.4. Should the requirement that transit agencies spend 1 
percent of their urbanized area formula funds on security be 
changed? What is an adequate percentage of urbanized formula 
funds that should be spent on security?

A.4. For many transit systems, FTA's minimum 1 percent 
requirement is adequate. Recognizing that security is largely a 
local issue, our assessments found that many transit systems 
spend beyond the FTA minimum requirement.
    As I indicated previously, the effectiveness of safety and 
security cannot be determined by the amount of money spent; 
however, after September 11 many transit systems have refocused 
their efforts in this area and have made tremendous progress in 
improving their security posture. We will continue to assess 
funding needs and make recommendations, as appropriate.

Q.5. What challenges has the FTA faced in obtaining and 
disseminating intelligence information?

A.5. Our security assessments revealed that timely and specific 
sharing of threat information and intelligence is needed at 
both the national and local level. Often, the most pertinent 
information is available from other local officials, especially 
local police and other law enforcement agencies.
    To establish this information flow, FTA has worked with the 
FBI to create collaborative relationships between transit 
agencies and local FBI officials and other law enforcement 
officials. We will continue to encourage and build upon these 
local relationships.
    In addition, the FTA receives and distributes DOT's threat 
and intelligence information directly to transit agencies 
through the Transportation Security Information Report (TSIR) 
system. The FTA also participates in the Transportation 
Information Operations Center (TIOC), which collects and 
distributes emergency and threat information to all 
transportation modes. Both of these systems have been tested 
and used numerous times over the last year.
    FTA is also working with the American Public Transportation 
Association to include public transit in the Surface 
Transportation Information Sharing and Analysis Center (ST-
ISAC). The ST-ISAC will provide transit specific intelligence 
and analysis to the transit industry, the ST-ISAC will also 
establish communication links with transit agencies to collect 
and share security and intelligence information among transit 
agencies.

Q.6. What is the feasibility of sharing information on new 
technologies with transit agencies and of FTA working with 
other Federal agencies to establish decontamination standards? 
If feasible, when could these efforts begin?

A.6. FTA is already working to share information with other 
Federal agencies on new technologies to enhance transit 
security. We are currently partnering with the Department of 
Energy (DOE) on the PROTECT chemical detection system, as well 
as the development of standard protocols and procedures for 
handling suspicious substances.
    The FTA will continue to work with the DOE and the 
Environmental Protection Agency to apply the technologies, and 
plans to share information on decontamination and detection in 
transit environments in fiscal year 2003.

Q.7. Has FTA experienced any problems with coordination among 
other Federal agencies?

A.7. The FTA has found other Federal agencies very eager to 
help, coordinate, and learn from each other. Within the 
Department of Transportation, a number of interagency groups 
are working to 
address issues that cross modal boundaries, such as 
intelligence 
sharing, credentialing, Intelligent Transportation Systems, and 
research. We are also working with theDOE and the FBI on 
research, communications, and intelligence projects.

       RESPONSE TO WRITTEN QUESTION OF SENATOR SARBANES 
                     FROM JENNIFER L. DORN

Q.1. Administrator Dorn, in your response before the Committee, 
you indicated that annual capital investment needs for rural 
operators over the next 20 years are estimated to be $241 
million to maintain the conditions and performance of those 
systems. What is the estimated cost to improve conditions and 
performance of rural operators? I am also interested in knowing 
how these estimates were generated. Does the Federal Transit 
Administration regularly collect data on rural ridership, 
vehicle conditions, service areas and other relevant measures? 
If not, what is the basis for the estimate of rural needs?

A.1. The capital investment requirements for rural operators 
are estimated to be $782 million in 2000 dollars to Improve 
Conditions and Performance to an average level of ``good.'' FTA 
does not regularly collect data on rural ridership, vehicle 
condition, and other pertinent measures. For this report, FTA 
uses data on rural transit collected through surveys by the 
Community Transportation Association of America (CTAA). The 
most recent survey was in 2000; the previous survey was 
conducted in 1944. These data include the number and age of 
rural transit vehicles, according to vehicle type, such as 
buses classified according to size or vans.
    Investment requirements for rural areas presented in the 
current Conditions and Performance Report were based on the 
data collected by CTAA in 2000. Requirements were determined by 
estimating the number of vehicles that will need to be replaced 
in each year over the 20-year investment period, and 
multiplying the total number of vehicles in each category by an 
estimated average vehicle purchase price. Average purchase 
prices were based on information reported to FTA by transit 
operators for vehicle purchases made between 1998 to 2000.
    The number of rural vehicles that will need to be purchased 
to Maintain or Improve Conditions is calculated by dividing the 
total number of each type of vehicle by its replacement age, 
with different assumptions made about the replacement ages 
required to Maintain or Improve Conditions. The replacement age 
to Maintain Conditions is assumed to be higher than the 
industry recommended replacement age because surveys have 
revealed that transit vehicles are often kept beyond their 
recommended useful life. The Maintain Conditions replacement 
age is calculated by multiplying the industry recommended 
replacement age for each vehicle type by the ratio of the 
average age to the industry recommended age of large buses. The 
replacement age to Improve Conditions is assumed to equal the 
industry-recommended replacement age.
    The Improve Conditions scenario also assumes additional 
vehicle purchases in the first year to eliminate the backlog of 
overage vehicles. The number of vehicles necessary to Improve 
Performance was estimated by increasing fleet size by an 
average annual rate 3.5 percent over the 20-year projection 
period. The 1944 study by CTAA, and more recent studies 
examining rural transit investment requirements in five States, 
identified considerable unmet rural transit needs in areas 
where there is either no transit coverage or substandard 
coverage. The assumed 3.5 percent growth to fulfill these unmet 
rural investment requirements is less than half the 7.8 percent 
average annual increase in the number of rural vehicles in 
active service between 1994 and 2000, but is believed to be 
sufficient since the population of rural areas is declining. 
Between 1990 and 2000, the population in areas with less than 
50,000 inhabitants decreased by 3.4 percent.

       RESPONSE TO WRITTEN QUESTIONS OF SENATOR CORZINE 
                     FROM JENNIFER L. DORN

Q.1. Senator Torricelli and myself were able to obtain $100 
million for life safety upgrades to the 100 year old Amtrak 
tunnels under the Hudson and East Rivers in the New York City 
Region. The Administration had made $77 million of that 
available for reimbursement to Amtrak. Can you tell how much of 
that has been released and when the remaining $23 million will 
be available?

A.1. The entire $77 million is available to Amtrak, although 
only $26 million has been ``released'' (that is, cash provided 
to Amtrak) to date. (The grant provides funds to Amtrak as its 
bills come due). FRA's grant agreement with Amtrak was for $77 
million because this was the amount Amtrak believed it could 
obligate in fiscal year 2002. The agreement will be amended to 
include the remaining $23 million when Amtrak identifies the 
next priorities for funding, and indicates that additional 
funds need to be obligated to keep the program on schedule. FRA 
anticipates that this will occur early in fiscal year 2003.

Q.2. The Administration recently announced $4.55 billion for 
rebuilding the transportation infrastructure in lower Manhattan 
damaged by the September 11 terrorist attacks. It is my 
understanding that this money is comprised of the $1.8 billion 
included for the FTA in the fiscal year 2002 Supplemental 
Appropriations bill, and $2.75 billion from FEMA. It is also my 
understanding that a local working group of the City of New 
York, State of New York, the Metropolitan Transit Authority, 
the Port Authority of New York and New Jersey and the Lower 
Manhattan Development Corporation will be developing a 
consensus on how that money will be spent and reporting to the 
FTA, FEMA, and FHA. I am concerned that, other than the Port 
Authority, no New Jersey entities are part of this group 
developing the consensus-spending plan. I believe that New 
Jersey's input is particularly relevant since, as you well 
know, it will affect so many commuters traveling into downtown 
New York from New Jersey. I understand that New Jersey is 
developing a proposal for ways to ease access into Manhattan, 
which may be eligible for some of this funding.
    Will you work to ensure that New Jersey entities have a 
voice in the process of determining how to spend the $4.55 
bilion? Will you consider proposals from New Jersey entities to 
ease access into Manhattan when determining how to spend the 
$4.55 billion?

A.2. Recognizing that New Jersey commuters were significantly 
affected by the September 11 terrorist attacks, a significant 
portion of the Federal funding for emerging and interim 
transportation projects--over $200 million in projects funded 
by FTA and FEMA--is funding projects physically located in New 
Jersey.
    This funding for emergency and interim transportation 
projects was appropriated under the fiscal year 2002 Department 
of Defense Appropriations Act, Public Law 107-117. Virtually 
all of these funds will greatly benefit New Jersey residents 
commuting to Lower Manhattan, as well as to other destinations 
in Manhattan.
    Most recently, however, the Congress has made available 
$4.55 
billion in FTA and FEMA funding under the 2002 Supplemental 
Appropriations Act for Further Recovery From and Response to 
Terrorist Attacks on the United States, Public Law 107-206, to 
specifically ``replace, rebuild, and enhance the public 
transportation systems serving the Borough of Manhattan'' 
through projects that will ``improve substantially the mobility 
of commuters in Lower Manhattan.''
    New York Governor Pataki has assembled a group of 
decisionmakers including the State of New York, City of New 
York, the Metropolitan Transportation Authority, the Port 
Authority of New York and New Jersey and the Lower Manhattan 
Development Corporation, to select and prioritize the most 
effective transportation projects to be implemented with the 
available funding. The State of New Jersey has a voice in this 
decisionmaking process through the Port Authority of New York 
and New Jersey. It is likely that these projects will be 
located in Lower Manhattan, adjacent to or in proximity to, the 
World Trade Center site. Clearly, however, these projects will 
significantly improve transportation services for the hundreds 
of thousands of New Jersey residents who commute daily to 
Manhattan. FTA and FEMA will continue to work with this group 
of State and local decisionmakers to identify projects to be 
funded from the $4.55 billion.

       RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES 
                      FROM PETER GUERRERO

Q.1. Based on your work, are you finding differences in transit 
agencies' preparedness based on their size?

A.1. During our site visits to 10 transit agencies, we did not 
observe any substantial differences in the emergency 
preparedness of these agencies based on their size. In 
particular, we found all 10 agencies we visited, regardless of 
size, are working hard to enhance safety, security, and 
preparedness. Transit agencies we visited were implementing 
strategies to improve both safety and security prior to 
September 11; however, the events of September 11 elevated the 
importance of security-related activities. As a result, the 
transit agencies we visited implemented new security 
initiatives or increased the frequency of existing activities 
since last September. Examples of security measures implemented 
since September 11 include: conducting security assessments to 
identify vulnerabilities and needed improvements; implementing 
quick, inexpensive security improvements (e.g., removing 
trashcans); increasing emergency drills; and increasing 
security presence (e.g., additional personnel and requiring 
personnel to wear bright vests).
    Additionally, preliminary survey results indicate that 
large and small transit agencies identified similar funding 
priorities for improving preparedness. For example, large and 
small agencies identified enhanced communication systems, 
surveillance equipment, and additional training as top 
priorities. However, while the needs of large and small transit 
agencies are consistent, it is important to note that costs 
associated with implementing these improvements will vary by 
ridership, the size of the service area, and the extent of 
existing infrastructure.
    We will further explore the differences between large and 
small transit agencies in our analysis of our survey data.

Q.2. When will the information clearinghouse for transit 
agencies be completed and what type of information will be 
shared? What is the timeline for starting the Information 
Sharing Analysis Center (ISAC), which will provide intelligence 
information to transit agencies, and what is the timeline for 
expanding ISAC beyond the top 20 agencies?

A.2. According to FTA officials, FTA's information 
clearinghouse or Infragard, will post industry best practices 
and allow for the exchange of information relevant to 
infrastructure protection, education, and outreach in a secure 
environment. Also according to FTA officials, the top 100 
transit agencies can apply to use the Infragard system.
    According to FTA officials, FTA will first make ISAC 
available to the top 50 transit agencies but may include 
additional agencies in the future. However, FTA officials could 
not provide a timetable for the launch or expansion of the 
ISAC. According to FTA officials, the American Public 
Transportation Association is taking the lead on the ISAC 
project and as such, is responsible for establishing the 
timeframes.

Q.3. Should the transit agencies in areas with populations over 
200,000 be allowed to use urbanized area formula funds on 
security operation costs?

A.3. Congress may want to consider removing this prohibition 
for security operating expenses for several reasons. During our 
site visits, several agencies commented that the prohibition 
presents a funding challenge. The agencies noted that a good 
portion of their safety and security needs are considered 
operating expenses (e.g., security personnel and training). 
Because of this prohibition, agencies cannot use their 
urbanized area formula funds to pay for these expenses. 
Although eliminating the restriction dies not increase funding 
for the agencies, it does give them greater flexibility in 
using their Federal dollars for safety and security measures. 
This additional flexibility may be beneficial for transit 
agencies as they try to pay for needed security improvements, 
especially given the tight budget environments of many transit 
agencies. Moreover, removing this restriction is a cost neutral 
action--that is, it would not require additional Federal 
dollars.

Q.4. In your work, have you heard concerns from transit 
agencies about not being able to use urbanized area formula 
funds for operating expenses?

A.4. Yes. During our site visits, several agencies commented 
that the prohibition presents a funding challenge. The agencies 
noted that a good portion of their safety and security needs 
are considered operating expenses (that is, security personnel 
and training). Because of this prohibition, agencies cannot use 
their urbanized formula funds to pay for these expenses. 
Although eliminating the restriction does not increase funding 
for the agencies, it does give them greater flexibility in 
using their Federal dollars for safety and security measures.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
